List of Appendices
1. Appendix A

Pages App. 3 to 5

2. Appendix B

Pages App. 6 to 11

3. Appendix C

Pages App. 12 to 14

4. Appendix D

Pages App. 15 to 19

5. Appendix E

Pages App. 20 to 24

6. Appendix F

Pages App. 25 to 30

7. Appendix G

Pages App. 31 to 58

8. Appendix H

Pages App. 59 to 63

9. Appendix I

Pages App. 64 to 92

10. Appendix J

Pages App. 93 to 97

11. Appendix K

Pages App. 98 to 137

12. Appendix L

Pages App. 138 to 157

13. Appendix M

Pages App. 158 to 292

14. Appendix N

Pages App. 293 to 297

App. 1

15. Appendix 0

Pages App. 298 to 537

16. Appendix P

Pages App. 538 to 564

17. Appendix Q

Pages App. 565 to 576

18. Appendix R

Pages App. 577 to 582

19. Appendix S

Pages App

582 to 589

20. Appendix T

Pages App

590 to 623

21. Facts/Discussion

Pages App

624 to 652

22. Conclusion

Pages

653

23. List of Recipient/Dismissal Pages

App. 2

656 to 681

APPENDIX A

Appendix A: Mandated Summary Order with denial of
Petitions of Appeal, Rehearing, Certiorari and
Supplemental Brief by the honorable Supreme Court
of the United States of America dated April 9, 2015.
Pages for Appendix A are from App. 3 to App. 5

App. 3

Supreme Court of the United States
No. 14-830
Title:

Atul C. Shah, Petitioner
v.
Motors Liquidation Company GUC Trust

Docketed:

January 14, 2015

Lower Ct:

United States Court of Appeals for the Second
Circuit

Case Nos.:

(13-2647-bk)

Decision Date:

May 19, 2014

Rehearing Denied:

July 11, 2014

Oct 7, 2014 Petition for a writ of certiorari filed. (Response
due February 13, 2015)
Jan 22, 2015 Waiver of right of respondent Motors
Liquidation Company GUC Trust to respond filed.
Feb 4, 2015 DISTRIBUTED for Conference of Feb 20, 2015.
Feb 16, 2015 Supplemental brief of petitioner Atul C. Shah
filed. (Distributed)
Feb 23, 2015 Petition for Writ of Certiorari
App. 4

DENIED.

Mar 5, 2015 Petition for Rehearing filed.
Mar 18, 2015 DISTRIBUTED for Conference of
April 3, 2015.
April 6, 2015 Rehearing DENIED.
Attorneys for Petitioner:
Atul C. Shah

2884 Manorwood Drive
Troy, MI 48085-1145

(248) 879-0795) atul99krishna@vahoo.com
Party name: Atul C. Shah
Attorneys for Respondent:
Dickstein Shapiro, LLP

Jeffrey Rhodes

(202) 420-3150
Counsel of Record

1825 Eye Street, N.W.
Washington, DC 20006-5403

Party name: Motors Liquidation Company GUC Trust
April 09, 2015 | Version 2014.1
Supreme Court of the United States

App. 5

APPENDIX B

Appendix B: Letter with the Mandated Summary Order
with denial of Rehearing En Banc by the United
States Court of Appeals for Second Circuit, New York
dated July 21, 2014.
Pages for Appendix B are from App. 6 to App. 11

App. 6

MANDATE
13-2647-bk
Shah v. Motors Liquidation Company GUC Trust

UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT

SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1,2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL
APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION “SUMMARY ORDER”). A
PARTY CITING A SUMMARY ORDER MUST
App. 7

SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square, in
the City of New York on the 19th day of May 2, 2014.
Present:

JOHN M. WALKER, JR.,
ROSEMARY S. POOLER,
RICHARD C. WESLEY,
Circuit Judges

App. 8

In the Matter of:
MOTORS LIQUIDATION COMPANY,
Debtor.

ATUL C. SHAH,
Appellant,
13-2647-bk

-v-

MOTORS LIQUIDATION COMPANY GUC TRUST,
Appellee.

ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED
that the judgment and order of said District Court be and
it hereby is AFFIRMED.
Appellant Atul Shah, proceeding pro se, appeals
from a judgment of the United States District Court for
the Southern District of New York (Oetken, J.) affirming
the judgment of a bankruptcy court disallowing his proof
App. 9

of claim. Shah had asserted claims for violations of his
First Amendment rights; discrimination on the basis of
race, national origin, religion, and age under Title VII of
the Civil Rights Act of 1964, the Michigan Elliot Larsen
Civil Rights Act,

and the Age Discrimination in

Employment Act of 1967; as well as unlawful retaliation
in violation of Title VII. We assume the parties’
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
We conduct a plenary review of a decision of a
district court functioning as an intermediate appellate
court in a bankruptcy case, review de novo the
bankruptcy court’s legal conclusions, and accept the
bankruptcy court’s factual findings unless clearly
erroneous. See In re Fairfield Sentry Ltd., 714 F.3d
127,132 (2d Cir. 2013).
Here, an independent review of the record and
relevant case law reveals that the bankruptcy court
properly disallowed Shah’s proof of claim. We affirm
App. 10

substantially for the reasons stated by the bankruptcy
court in its thorough and well-reasoned order. As Shah
did not raise any substantive arguments with respect to
his First Amendment claim, he has therefore abandoned
this claim on appeal. See LoSacco v. City of Middletown,
71 F.3d 88,92-93 (2d Cir. 1995).
We have considered all of Shah’s remaining
arguments and find them to be without merit.
Accordingly, the judgment of the district court is
hereby AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk

MANDATE ISSSUED ON 07/21/2014

App. 11

APPENDIX C

Appendix C: Letter with the Summary Order with denial
of Rehearing En Banc by the United States Court of
Appeals for Second Circuit, New York dated July 11,
2014.
Pages for Appendix C are from App. 12 to App. 14

App. 12

UNITED STATES COURT OF APPEAL
FOR THE SECOND CIRCUIT

At a stated term of the United States Court of Appeal for
the Second Circuit, held at the Thurgood Marshall
United States Courthouse, 40 Foley Square, in the
City of New York, on the 11th day of July, two
thousand fourteen.

In Matter of: Motors Liquidation Company,
Debtor.
ORDER
Docket No: 13:2647

Atul C. Shah
Appellant
V.

Motors Liquidation Company GUC Trust
Appellee

App. 13

Appellant Atul C. Shah filed a petition for panel
rehearing, or, in the alternative, for rehearing en
banc. The panel that determined the appeal has
considered the request for panel rehearing, and the
active members of the Court have considered the
request for the rehearing en banc.
IT IS HEREBY ORDERED that the petition is
denied.

FOR THE COURT:
Catherine O’Hagan Wolfe, Clerk

App. 14

APPENDIX D

Appendix D: Request of Letter for Rehearing En Banc to
Chief Judge Robert A. Katzmann at the United
States Court of Appeals for Second Circuit, New York
by Atul C. Shah, MD as the Pro Se Appellant dated
July 10, 2014.
Pages for Appendix D are from App. 15 to App. 19

App. 15

United States Court of Appeals
For the Second Circuit
July 10, 2014

In the Matter of:
MOTORS LIQUIDATION COMPANY,
Debtor.

ATUL C. SHAH,
Appellant,
13-2647-bk

-v-

MOTORS LIQUIDATION COMPANY GUC TRUST,
Appellee.

Re-Hearing en banc by the 13 Honorable Judges with
a Humble Request to Chief Judge Robert A.
Katzmann
App. 16

As an introduction, my name is Atul C. Shah, MD. I
am pursuing a historic and unprecedented Civil Case
against General Motors Corporation or Motors Liquidation
Company since December 2008.
The above-mentioned Civil Case has been docketed
with the United States Court of Appeals for the Second
Circuit under Your Jurisprudence. Also, I have already
submitted all my Legal Briefs in timely fashion per the
court orders.
Recently on May 29, 2014,1 have filed a Petition
for the Re-hearing En Banc with this Honorable Court. I
have had a nice discussion with Pro Se Office Clerks and
they mentioned that 13 Honorable Judges will be assigned
to my Civil Case for the Re-hearing En banc. The 13
Honorable Judges of this court will be rendering their
Conclusion or verdict within the Undetermined Time
Frame for my civil case.
Now, I have a simple and humble request to Your
Honor as the Chief Judge of this Honorable Court.
App. 17

I humbly but strongly believe that the Honorable
Courts are the sacred place for Revealing the Truth
rather than the Suppression of Truth. This is the
pristine Duty and sacred Function of the Law System in
USA, India and any country of this small globe.
The political, national, cultural, financial,
educational and religious considerations are playing crucial
roles in the Revealing or Suppressing Truth that
certainly affecting the Judgments and Verdicts by the
Honorable Judges at the Federal and Supreme Courts.
However, I may humbly request Your Honor that the
Truth should be revealed as it is for the fair Judgment in
the spirit of Impartiality and Neutrality.
I was not able to contact this Honorable Court past
several weeks secondary to my personal health issue. I
have had the Open-Heart Surgery with Six Bypasses at St
Joseph Mercy Oakland in Bloomfield Hills at Michigan on
June 24, 2014.1 am recovering well now from this health
issue.
App. 18

It is my humble prayer that Panel of 13 Honorable
Judges from the United States Court of Appeals for the
Second Circuit in New York, New York will render fair.
equal and pristine Judgment for this Historic and
Unprecedented Civil Case. I am enclosing Exhibit-A
Petition for Re-hearing en banc & Exhibit-B Summary
Order with this petition and Request Letter for a quick
review.
This is my humble and simple prayer.
July 4, 2014 was a great Independence Day for all of us.

Respectfully Submitted,

Atul C. Shah, MD
Pro Se Appellant
2884 Manorwood Drive
Troy, Michigan
July 10, 2014

App. 19

APPENDIX E

Appendix E: Petition for Rehearing En Banc to the United
States Court of Appeals for Second Circuit, New York
by Atul C. Shah, MD dated May 29, 2014
Pages for Appendix E are from App. 20 to App. 24

App. 20

United States Court of Appeals
For the Second Circuit

May 29, 2014

In the Matter of:
MOTORS LIQUIDATION COMPANY,
Debtor.

ATUL C. SHAH,
Appellant,
-v-

13-2647-bk

MOTORS LIQUIDATION COMPANY GUC TRUST,
Appellee.

App. 21

APPELLANT. ATUL C. SHAH’S PETITION
FOR RE-HEARING EN BLANC
Atul C. Shah Appellant, hereby Petitions this
Honorable Court to conduct a Re-hearing of the above
captioned case. The Summary Order is attached as an
Exhibit. Atul C. Shah submits this Petition pursuant to
FRAP 35. This is an Exceptional Importance because
the Honorable Judges of the United States Court of Appeals
for the Second Circuit in the Summary Order stated that
they affirmed substantially the thorough and well-written
Opinion of the Bankruptcy Court.

The Opinion of

Bankruptcy Court was unauthorized per any court rule and
that was given only after I decided to appeal to the Hon
Judge Gerber’s delayed decision.

The opinion of the

Bankruptcy Court consisted of 22 pages with 98 citations.
The opinion issued by Hon Judge Gerber was delayed and
was not entered until three months after the hearing on
May 15. 2012. This delayed opinion with misperceptions
by the Hon Judge Gerber with multiple citations was
App. 22

responsible for difficulty in filing my appeal as the Pro Se
Litigant.
Also, I would like to draw your kind attention for
another

Exceptional

Topic

and

Exceptional

Importance worthy of your scrutiny. Three Honorable
Federal Courts Completely Overlooked. Misconstrued and
Ignored

the

Exceptional

Topic

of

the

Higher

Dimensions with the Modern Law System, Modern
Science and Modern Internet & Computer Science
per the Vedic Wisdom!!! I humbly consider that the
Higher Dimension Topics with the Modern Law System,
Modern Science and Modern Internet & Computer Science
are the National and International significance for the
betterment of the Modern Mankind in USA, India and all
other countries of this small planet.

App. 23

APPENDIX F

Appendix F: Summary Order from the Panel of three
Judges of the United States Court of Appeals for
Second Circuit, New York dated May 19, 2014
Pages for Appendix F are from App. 25 to App. 30

App. 25

13-2647-bk
Shah v. Motors Liquidation Company GUC Trust

UNITED STATES COURT OF APPEALS FOR THE
SECOND CIRCUIT
SUMMARY ORDER
RULINGS BY SUMMARY ORDER DO NOT HAVE
PRECEDENTIAL EFFECT. CITATION TO A
SUMMARY ORDER FILED ON OR AFTER
JANUARY 1,2007, IS PERMITTED AND IS
GOVERNED BY FEDERAL RULE OF APPELLATE
PROCEDURE 32.1 AND THIS COURT’S LOCAL
RULE 32.1.1. WHEN CITING A SUMMARY ORDER
IN A DOCUMENT FILED WITH THIS COURT, A
PARTY MUST CITE EITHER THE FEDERAL
APPENDIX OR AN ELECTRONIC DATABASE
(WITH THE NOTATION “SUMMARY ORDER”). A
PARTY CITING A SUMMARY ORDER MUST
SERVE A COPY OF IT ON ANY PARTY NOT
REPRESENTED BY COUNSEL.
App. 26

At a stated Term of the United States Court of
Appeals for the Second Circuit, held at the Thurgood
Marshall United States Courthouse, 40 Foley Square, in
the City of New York on the 19th day of May, two
thousand fourteen.
Present:

JOHN M. WALKER, JR.,
ROSEMARY S. POOLER,
RICHARD C. WESLEY,
Circuit Judges

App. 27

In the Matter of:
MOTORS LIQUIDATION COMPANY,
Debtor.

ATUL C. SHAH,
Appellant,
-v-

13-2647-bk

MOTORS LIQUIDATION COMPANY GUC TRUST,
Appellee.

ON CONSIDERATION WHEREOF, IT IS
HEREBY ORDERED, ADJUDGED, AND DECREED
that the judgment and order of said District Court be and
it hereby is AFFIRMED.
Appellant Atul Shah, proceeding pro se, appeals
from a judgment of the United States District Court for
the Southern District of New York (Oetken, J.) affirming
the judgment of a bankruptcy court disallowing his proof
App. 28

of claim. Shah had asserted claims for violations of his
First Amendment rights; discrimination on the basis of
race, national origin, religion, and age under Title VII of
the Civil Rights Act of 1964, the Michigan Elliot Larsen
Civil Rights Act, and the Age Discrimination in
Employment Act of 1967; as well as unlawful retaliation
in violation of Title VII. We assume the parties’
familiarity with the underlying facts, the procedural
history of the case, and the issues on appeal.
We conduct a plenary review of a decision of a
district court functioning as an intermediate appellate
court in a bankruptcy case, review de novo the
bankruptcy court’s legal conclusions, and accept the
bankruptcy court’s factual findings unless clearly
erroneous. See In re Fairfield Sentry Ltd., 714 F.3d
127,132 (2d Cir. 2013).
Here, an independent review of the record and
relevant case law reveals that the bankruptcy court
properly disallowed Shah’s proof of claim. We affirm
App. 29

substantially for the reasons stated by the bankruptcy
court in its thorough and well-reasoned order. As Shah
did not raise any substantive arguments with respect to
his First Amendment claim, he has therefore abandoned
this claim on appeal. See LoSacco v. City of Middletown,
71 F.3d 88,92-93 (2d Cir. 1995).
We have considered all of Shah’s remaining
arguments and find them to be without merit.
Accordingly, the judgment of the district court is
hereby AFFIRMED.
FOR THE COURT:
Catherine O’Hagan Wolfe,
Clerk

App. 30

APPENDIX G

Appendix G: Judgment of Honorable Judge J. Paul
Oetken from the United States District Court dated
June 3, 2013 and Transmission to Docket Assistant
Clerk dated June 10, 2013.
Pages for Appendix G are from App. 31 to App. 58

App. 31

UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF NEW YORK

USDC SDNY
DOCUMENT
ELECTRONICALLY FILED
DOC#
DATE FILED JUNE 3, 2013
COPIES MAIL PRO SE PARTY ON JUNE 03 2013

Atul C. Shah,

Appellant,

12 Civ. 8783 (JPO)
ORDER

-againstMotors Liquidation Company
GUC Trust,
Appellee

J. PAUL OETKEN, District Judge:
Pro se Plaintiff Atul C. Shah (“Plaintiff*) brings this
appeal, under 28 U.S.C. § 158(a), from the judgment of the
App. 32

Honorable Robert E. Gerber, United States Bankruptcy
Judge, disallowing and expunging Plaintiffs proof of claim
against Motors Liquidation Company GUC Trust, formerly
known as General Motors (“GM”). Plaintiff asserts claims
for violations of his First Amendment rights; for
discrimination on the basis of race, national origin, religion,
and age under Title VII of the Civil Rights Act of 1964
(“Title VH”), the Michigan Elliot Larson Civil Rights Act
(“the ELCRA”), and the Age Discrimination in Employment
Act of 1967 (“the ADEA”); and for retaliation for engaging
in activity protected by Tide VII. For the reasons that
follow, the judgment of the Bankruptcy Court is
AFFIRMED.
1. Factual and Procedural Background
A. Plaintiffs Employment at GM

The factual background set forth herein is taken from
Plaintiffs submissions to Bankruptcy Court and to this
Court.
App. 33

Plaintiff has practiced medicine for approximately
30 years as a general practitioner and psychiatrist. He
worked as a part-time contract physician at GM from
September 1997 to June 11, 2008. Plaintiff is a
naturalized U.S. citizen of Indian ancestry, is Hindu, and
was 59 years old when his contract was terminated.
Plaintiff alleges that he was one of four contract
physicians working for GM. During the relevant period,
his employment was governed by an at-will contract
dated November 4, 2004 (“the Contract”). On June 11,
2008, Dr. Stanley Miller, the Senior Group Medical
Director, and Dr. Anthony Burton, the Medical Director
at GM’s Willow Run Power-train Plant, informed
Plaintiff that his contract would be terminated. Plaintiff
alleges that he was told in a meeting that his
termination was the result of “problems with
documentation and ‘other reasons.” In July 2008, GM
mistakenly sent Plaintiff a letter informing him of a

App. 34

renewal of the Contract. Plaintiff was then informed that
the letter was sent because of a clerical error.
B. GM’s Bankruptcy
On June 1, 2009, GM commenced bankruptcy
proceedings under Chapter 11 of the Bankruptcy Code.
Section 6.2 of Article VI of the Debtors’ Joint chapter 11
Plan provides for the creation of the Motors Liquidation
Company GUC Trust to administer certain
responsibilities, including resolving outstanding
disputed unsecured claims for the benefit of GM.1
C. Plaintiffs Action
On December 4, 2008, Plaintiff filed a charge with
the Equal Employment Opportunity Commission (“the
EEOC”) alleging that he was terminated by GM as a
result of discrimination on the basis of color, religion,
national original, and age (“the Charge”). In the Charge,
Plaintiff alleged:
On June 11, 2008,1 was removed from my
position as Contract Physician. No
App. 35

explanation was given to me with regards to
my removal. I had not had any prior
disciplinary action filed against me and I
was the only one removed at this time. In
July 2008, 1 received documentation that my
contract had been extended until December
31, 2009. When I called with regards to this
document, I was told it was clerical error.
I can only conclude that I have been
discriminated against by being removed from
my position due to my color, age, religion and
national origin in violation of Title VII of the
Civil Rights Act of 1964, as amended, and
the Age Discrimination in Employment Act
of 1967, as amended.
(Notice of Objection, Ex. D (“Charge”).) On July 7, 2009,
the EEOC dismissed the Charge. On September 16,
2009, the Michigan Civil Rights Department (“MCRD”)
dismissed the Charge under the ELCRA. On October 13,
App. 36

2009, Plaintiff filed suit against GM and Bashen
Corporation in the United States District Court for the
Eastern District of Michigan. (Notice of Objection,
Ex. A (“MI Compl.”) Plaintiff voluntarily dismissed his
action against GM, apparently because of the automatic
stay under Section 362 of the Bankruptcy Code. In
November 17, 2009, Plaintiff filed a proof of claim
against GM in its bankruptcy proceedings, seeking in
excess of $ 10 million. (Notice of Objection, Ex. H (“Proof
of Claim”).)2
On April 12, 2012, Defendant filed its objection to
Plaintiffs proof of claim. (Notice of Objection.) On May
10, 2012, Plaintiff responded to GM’s objection. (“PI.
Resp.”) Oral argument was held before United States
Bankruptcy Judge Robert E. Gerber on May 15, 2012.
At that hearing, Judge Gerber sustained GM’s objections
and disallowed the claims without an evidentiary hearing.
On August 6, 2012, Judge Gerber issued a written decision

App. 37

memorializing and amplifying his reasoning for dismissing
Plaintiffs claim. (“Gerber Op.”)
On October 5, 2012, Plaintiff filed a notice of appeal with
respect to that order. The notice of appeal was docketed on
December 4, 2012. Plaintiff filed a brief in support of his
appeal on February 11, 2013.3 GM filed a responsive brief
on March 3, 2013.
II.

Discussion
A. Legal Standard
Pursuant to 28 U.S.C. § 158(a), district courts

have jurisdiction to review appeals from bankruptcy
courts. “On an appeal the district court... may affirm,
modify, or reverse a bankruptcy judge’s judgment, order,
or decree or remand with instructions for further
proceedings.” Fed. R. Bankr. P. 8013. Courts review
bankruptcy courts’ legal conclusions de novo, while
factual findings are upheld unless clearly erroneous. Id;
see also In re Hyman, 502 F.3d61, 65 (2d Cir. 2007).

App. 38

A proof of claim is “deemed allowed, unless a party
in interest... objects.” 11 U.S.C. § 502(a). “A valid pre­
petition claim requires two elements. First, the claimant
must possess a right to payment. Second, that right must
have arisen prior to the filing of the bankruptcy petition.”
In re Manville Forest Prods, Corp., 209 F.3d 125,128 (2d
Cir. 2000) (citation omitted). A right to payment is simply
an “enforceable obligation.” Cohen v. de la Cruz 523 U.S.
213, 218 (1998) (citation omitted).
“A proof of claim that complies with the filing and
documentary requirements of Federal Rule of
Bankruptcy Procedure 3001 and Official Form 10 ‘shall
constitute prima facie evidence of the validity and
amount of the claim.’” In re King, 2010 WL 4290527, at
*2 (Bkrtcy. N.D.N.Y. Oct. 20, 2010 (citing Fed. R. Bank.
P. 3001(f))). A proof of claim “receive[s] the benefit of the
claim’s prima facie validity’ if it “‘set[s] forth the facts
necessary to support the claim.’” In re Marino, 90 B.R.
25,28 (Bkrtcy. D. Conn. 1988) (quoting 8 L. King, Collier
App. 39

on BankruptcyA 3001.05 (15th ed. 1988)). “These
requirements for legal sufficiency are consistent with
the idea that ‘the proof of claim itself is to be scrutinized
with an eye to credibility,’” In re Circle J Dairy, Inc., 112
B.R. 297,300 (W.D. Ark. 1989) (citation omitted). If the
claim is prima facie valid, the objecting party bears the
burden of putting forth sufficient evidence to rebut the
claim. Primavera Familienstiftung v. Askin, 130 F.
Supp. 2d 450,540 (S.D.N. Y. 2001) (citation omitted).
A claim in bankruptcy court is evaluated based
upon the underlying substantive law. See Raleigh v.
Illinois Dept, of Revenue, 530 U.S. 15, 20-21 (2000).
Thus, “[i]n instances where either the prima facie
presumption is unavailable or is adequately rebutted,
the burden of proof is governed by the substantive law
that creates the creditor’s entitlement to the claim.” In
re Wren Alexander Investments, LLC, No, 08 Civ. 52914
(RBK), 2011 WL 748131, at *3 (Bkrtc y. W.D. Tex. Feb.
23, 2011) (citing Raleigh, 530 U.S. at 20-22).
App. 40

“In determining whether a party has met their
burden in connection with a proof of claim, bankruptcy
courts have looked to the pleading requirements set
forth in the Federal Rules of Civil Procedure.” In re DJK
Residential LLC, 416 B.R. 100,106 (Bkrtcy. S.D.N.Y.
2009) (collecting cases); see also In re Alper Holdings
USA, Inc., 398 B.R. 736,748 (S.D.N.Y. 2008)
(“[Dismissing a proof of claim pursuant to 11 U.S.C. §
502(c) is equivalent to dismissing a claim under Fed. R.
Civ. P. 12(b) (6).”); In re Nortel Networks, Inc., 469 B.R.
478, 497 (Bkrtcy. D. Del. 2012) (“treating] the Amended
Claims as a Complaint” and “applying] the pleading
standards under F.R. Civ. P. 12(b)(6) which requires
‘sufficient factual material, accepted as true, to state a
claim to relief that is plausible on its face.’” (quoting
Ashcroft v. Iqbal, 556 U.S 662, 678 (2009); Bell Atlantic
Corp. v. Twombly, 550 U.S. 544,570 (2005)).
B. Plaintiffs First Amendment Claims
Plaintiff first alleges that GM violated his First
App. 41

Amendment rights of freedom of and free exercise of
religion. However, GM is a private entity and thus not
amenable to suit for alleged First Amendment violations.
“[T]he constitutional guarantee of free speech is
guarantee only against abridgment by government,
federal or state.” Hudgens v. NLRB, 424 U.S. 507, 513
(1976). Where a private party’s actions are challenged,
“state action may be found [only] if... there is such a
close nexus between the State and the challenged action
that seemingly private behavior may be fairly treated
as that of the State itself.” Brentwood Acad v. Tenn.
Secondary Sch. Athletic Ass'n, 531 U.S. 288, 295 (2001)
(internal quotation marks omitted). GM is a private
entity, which—at the time in question, in any eventhad no nexus with the state. Thus, Plaintiffs First
Amendment claims must be dismissed.
C. The Retaliation and Race Discrimination
Claims
“As a precondition to filing a Title VII claim in federal
App. 42

court, a plaintiff must first pursue available administrative
remedies and file a timely complaint with the EEOC.”
Deravin v. Kerik 335 F.3d 195, 200 (2d Cir. 2003). “This
exhaustion requirement is an essential element of VII’s
statutory scheme.” Butts v. City of New York Dep’t of Hous.
Pres. & Dev., 990 F 2d 1397, 1401 (2d Cir. 1993). Thus, “a
plaintiff typically may raise ... only those claims that either
were included in or are reasonably related to the
allegations contained in her EEOC charge. “Holtz v.
Rockefeller & Co., Inc., 258 F.3d 62, 83 (2d Cir. 2001)
(quotation marks and citation omitted). “Where the facts in
the original EEOC complaint are not sufficient to apprise
the EEOC that another type of discrimination claim lurks
behind the scene, courts have held that the later claim is
wholly different and not reasonably related to the initial
one.” Chevalier v. Presbyterian Hosp. No. 95 Civ. 2976 (RO),
1995 WL 758593, at *1 (S.D.N.Y. Dec. 26, 1995). In his
EEOC complaint, Plaintiff asserted no claims for race or
discrimination or retaliation. Nor were the claims asserted
App. 43

sufficiently related to racial discrimination and retaliation
to excuse Plaintiffs failure to raise them. Accord Costello v.
New York State Nurses Ass’n 783 F. Supp. 2d 656, 677
(S.D.N.Y. 2011) (dismissing claim of pre-EEOC retaliation
where the plaintiff failed to allege the claim in her EEOC
charge); Woodcock v. Montefiore Med. Ctr., 48 F. Supp. 2d
231,234 (E.D.N.Y. 1999) (a claim for discrimination based
on national original is wholly different from a claim for race
discrimination). Thus, Plaintiffs claims for retaliation and
race must fail.
D. Failure to Plausibly Allege
Discrimination
Title VII prohibits discrimination on the basis of
an “individual’s race, color, religion, sex, or national
origin.” 42 U.S.C.A. § 2000e-2. The ADEA prohibits
employers from discriminating in hiring, discharge, or
the setting of “compensation, terms, conditions, or
privileges of employment” based on the age of an
employee, 29 U.S.C. § 623(a) (1). The ADEA covers the
App. 44

class of individuals who are over the age of 40. § 631(a).
The ELCRA prohibits discrimination on the basis of
“religion, race, color, national origin, age, sex, height,
weight, or marital status.” Mich. Comp. Laws Ann. §
37.2202.
To establish a prima facie case of discrimination
under these statutes, a plaintiff must prove that “(1) she
was within the protected class; (2) she was qualified for the
position; (3) she was subject to an adverse employment
action;

and

(4)

the

adverse

action

occurred

under

circumstances giving rise to an inference of discrimination.”
Leibowitz v. Cornell Univ., 584 F. 3d 487, 498 (2d Cir.
2009) (describing Title VII and the ADEA); Marin v. Bloom
Roofing Sys., Inc., 795 F. Supp. 2d 634, 639 (E.D. Mich.
2011) “Claims under the ELCRA involve the same analysis
as Title VII claims.” (citation omitted); accord Sommersett
v. City of New York, No. 09 Civ. 5916 (LTS) (KNF),' 2011
WL 2565301, at *5 (S.D.N.Y. June 28,2011) (explaining
that “the elements [of a discrimination claim] provide an
App. 45

outline of what is necessary to render her claims for relief
plausible”).4
Plaintiff has failed to “set forth factual circumstances
from which discriminatory motivation for [his termination]
can be inferred.” Mabry v. Neighborhood Defender Serv.,
769 F. Supp. 2d 381, 392 (S.D.N.Y. 2011); see also Patane v.
Clark, 508 F.3d 106, 112 (2d Cir. 2007) (affirming the
district court’s dismissal of plaintiffs gender discrimination
claim for failure to plead any specific gender-based adverse
employment action). Instead, Plaintiffs submissions simply
allege in a conclusory fashion that he was discriminated
against because of his age, race, national origin, and
religion. (See, e.g., Charge (“I can only conclude that I have
been discriminated against.... ”). Similarly, Plaintiff
purports to allege a disparate treatment claim (see MI.
Compl. At 37 (“The discrimination against DR. SHAH was
also the result of disparate treatment. He was treated
differently than similarly situated white, American,
Christian or Muslim Contract Physicians at GENERAL
App. 46

MOTORS”), but he identifies no facts supporting his legal
conclusions. Plaintiffs submissions also rely extensively on
Plaintiffs subjective belief that GM’s reasons for
terminating his contract were pretextual. Plaintiffs beliefs
as to GM’s motivation, however, do not constitute evidence
of discrimination. Accord Bickerstaff v. Vassar Coll, 196
F.3d 435,456 (2d Cir. 1999) ("Bickerstaff s ‘[feelings and
perception) of being discriminated against [are] not
evidence’ of discrimination.” (citation omitted); Chang v.
City of New York Dept, for the Aging, No. 11 Civ.
7062(PAC)(JLC), 2012 WL 2156800, at *3 (S.D.N.Y. June
14, 2012) (allegation that plaintiff “believe[s] [he] was
forced to resign because [he is] Asian, and 67 years old and
opposed discrimination” was “conclusory, inadequate, and
unable to survive a motion to dismiss”).5
Nor do any of the purported fact-based allegations
made by Plaintiff sufficiently “nudge 0 [his] claims across
the line from conceivable to plausible.” Twombly, 550
U.S. at 570. For example, Plaintiff alleges that Dr.
App. 47

Burton “started intentionally finding faults with [his]
documentation” and “tried to prove [he was] a bad doctor
through an engineered, pretextual and concealed plan,”
but cites no specific examples to support these
allegations, nor any facts suggesting Dr. Burton’s actions
were taken because Plaintiff was a member of a
protected group. Similarly, Plaintiff alleges that he was
the only physician terminated in June 2008. However,
the mere fact that an employee is terminated does not
raise an inference of discrimination, even where that
employee is unfairly singled out or fired for no reason at
all. See Williams v Time Warner, Inc., No. 09 Civ. 2962
(RJS), 2010 WL 846970, at *4 n.4 (S.D.N.Y. Mar. 3,
2(110), aff’d 440 F. Appx 7 (2d Cir. 2011).
In short, the Court agrees with Judge Gerber that
Plaintiffs submissions, while ‘replete with legal
conclusions, perceptions, and/or unwarranted deductions
of fact,” fail to provide fact based allegations rendering
his claim plausible. (Gerber Op. at 12-17.) Accord
App. 48

Maisonet v. Metro. Hosp. & Health Hosp. Corp., 640 F.
Supp. 2d 345, 348-49 (S.D.N.Y. 2009) (“A complaint
consisting only of assertions and setting forth no specific
facts upon which a court could find a plausible violation
of Title VII must be dismissed for failure to state a
claim.”).
E. Failure to Allege Discrimination Based
on Religion
Additionally, Plaintiff has failed to allege that he
was discriminated against on the basis of his religion.
“To make out a prima facie case of religious
discrimination, plaintiffs must prove that ‘ (1) they held
a bona fide religious belief conflicting with an
employment requirement; (2) they informed their
employers of this belief; and (3) they were disciplined for
failure to comply with the conflicting employment
requirement.’” Chukwueze v. NYCERS, 891 F. Supp. 2d
443, 453 (S.D.N.Y. 2012) (quoting Baker v. The Home
Depot, 445 F.3d 541, 546 (2d Cir. 2006)). “The third
App. 49

prong require [s] some adverse employment action—
typically, discipline, demotion, transfer or termination—
for refusing to comply with the conflicting employment
requirement.” Id. (internal quotation marks and citation
omitted) (alteration in origin). It is “an unlawful
employment practice... for an employer not to make
reasonable accommodations, short of undue hardship, for
the religious practices of his employees and prospective
employee.” Trans World Airlines. Inc. v. Hardison, 432
U.S. 63, 74 (1977).
Plaintiff alleges that GM executed a plain “to be
rid of me and my religious beliefs which they felt
threatened their medical practice and the practice of
medicine in general,” and that the “superiority of Vedic
Literature over Modem Bio-Medical Science topic was
discussed by me during several General Motors
Conferences and that was one of the major reasons for
my termination.” Plaintiff also asserts that he was not
invited to attend some conferences that others were
App. 50

invited to attend, due to his “belief [that] Eastern
Philosophical Concepts” are “Super-scientific and [more]
accurate than the conventional Modern Science...” As
Judge Gerber noted in his opinion, these allegations fail
to state a claim for religious discrimination:
Significantly, none of these allegations, nor any
others in Dr. Shah’s Response or Claim, include any
contention by Dr. Shah that (i) his religion required
him to practice medicine in a manner that conflicted
with the requirements of his contract; (ii) he sought
permission to practice medicine according to any
tenet of faith; or (iii) he was disciplined for refusing
to engage in a medical practice that conflicted with
his faith. . . . Simply put, according to Dr. Shah’s own
contentions, the “views” at issue were with respect to
improving the practice of medicine—not Dr. Shah’s
“religious beliefs” or any need for an accommodation
to enable him to practice his beliefs in the
workplace.6
App. 51

(Bankruptcy Opinion at 18-19.) In essence, Plaintiff claims
that he and the other physicians at GM had different views
on medical philosophy, but this is insufficient to state a
claim or religious discrimination. Neither this, nor any of
Plaintiff s other allegations, suggest that GM discriminated
against him on the basis of his religious beliefs or denied
Plaintiff a reasonable accommodation in which to practice
those beliefs. Accordingly, Plaintiff has failed to state a
claim for religious discrimination.
F. Failure to Comply with Rule 8010
As GM notes, Plaintiff has also failed to comply
with Bankruptcy Rule 8010. For example, he has failed
to provide an adequate table of contents; an adequate
statement of the case; the applicable standard of
appellate review; and the basis of appellate jurisdiction.
See Fed. R. Bankr. P. 8010 (1). This, in and of itself, is a
sufficient basis to dismiss Plaintiffs appeal, particularly
given this Court’s leniency with Plaintiff concerning Rule
8009. See supra; accord Gazes v. Stephenson (In re
App. 52

Stephenson), Nos. 96 Civ. B. 557, 96 Civ. 558(DC), 1996
WL 403087, at *1 (S.D.N.Y. July 18, 1996) (“Appellant
has utterly failed to comply with Bankruptcy Rule 8010
... Such a failure is grounds for dismissing a bankruptcy
appeal.”); In re Gulph Woods Corp., 189 B.R. 320,323
(E.D. Pa. 1995) (“Pleadings filed pro se are construed
and this court would not ordinarily be inclined to dismiss
Mr. Trinsey’s appeal on what would appear to be the
technical ground that it fails to conform to the rules for
presenting brief on appeal. However, Bankruptcy Rule
8010 is not only a technical or aesthetic provision, but
also has a substantive function—that of providing the
other parties and the court with some indication of which
flaws in the appealed order or decision motivate the
appeal.”).
III.

Conclusion

For the foregoing reasons, the judgment of the
Bankruptcy Court dismissing Plaintiffs claims is
AFFIRMED.
App. 53

SO, ORDERED.

Dated: New York, New York
June 3, 2013
J. PAUL OETKEN
United States District Court

Footnote # 1 on Page App. 31
1 For simplicity’s sake, this Court refers to the reorganized debtor
Motors Liquidation Company as “GM” throughout this Order.

Footnote # 2 on Page App. 33
2 The Claim incorporated the Charge and the Complaint by
reference.

Footnote # 3 on Page App. 34
3 Bankruptcy Rule 8009 (a) (1) provides that “[t]he
appellant shall serve and file a brief within 14 days after
entry of the appeal on the docket pursuant to Rule 8007.”
Here, Plaintiff failed to file his brief within the fourteen-day
period. It is within the discretion of a district court to
dismiss a bankruptcy appeal for failure to comply with Rule
8009. Because Plaintiff is pro se, on January

App. 54

24, 2013, the Court allowed Plaintiff to file his appeal by February 15,
2013. (Dkt. No. 5).

Footnote # 4 on Page 42
4 Moreover, to be afforded the protection of these statutes, a
plaintiff must be an employee; independent contractors may not
seek relief under any of these statutes. See Salomon v Our Lady of
Victory Hosp., 514 F.3d 217,226 (2d Cir. 2008) (“Once a plaintiff is
found to be an independent contractor and not an employee... the
Title VII claim must fail.”); Robinson v. Overseas Military Sales
Corp., 21 F.3d 502, 509 (2d Cir. 1994) (“The ADEA does not rover
independent contractors.”); Kamalnath v. Mercy Mem'IHosp.
Corp., 194 Mich. App. M3, 553 (1992) (“[PJlaintiffs employment
discrimination claim fails because plaintiff... was an independent
contractor, not an employee.”).
Plaintiff does not allege that he was an employee at the time
that his contract was terminated. Rather, he admits, both in his brief to
this Court as well as in his submissions to the Bankruptcy court, that
he was a “contract physician.” Indeed, his contract provides that “you
will function as an independent contract, [and] you will not have the
status of an employee of GM.” Because Plaintiff does not sufficiently
allege that he was an employee rather than an independent contractor,
he likely cannot state a claim under Title VII, the ADEA, or the
ELCRA. In any event, even assuming that Plaintiff was an employee,
App. 55

he has, for the reasons set forth herein, failed to state a claim upon
which relief can be granted.

Footnote # 5 on Page App. 43
5 Plaintiff alleges that he is an “expert in understanding and revealing
‘Expressed Intensions and Concealed Intensions’ of people ...” (Pl.’s
Resp. at 8), and that such intentions are behind GM’s decision to
terminate Plaintiffs employment. As Judge Gerber rightly noted,
Plaintiff assertion that he has the ability to perceive discrimination
does not suffice to state a claim.

Footnote # 6 on Page App. 47
6 Plaintiff faults Judge Gerber for “never investigating] 0 the
Superiority of Vedic Literature in Sanskrit language of India
over the Conventional Modem Science including Bio-medical
Science, Psychiatry and Psychology This is an example of
neglect of the court procedures” (Dkt. No. 8 (“Pl/s Mem.”) at 10.)
Plaintiffs contention is misguided], as the validity or
persuasiveness of Vedic literature is, for the reasons set forth in
Judge Gerber’s opinion, simply not relevant to this claim.
Nonetheless, at Plaintiffs urging, this Court has reviewed the
article on Vedic literature, co-written by Plaintiff, attached to
Plaintiffs brief. {Id., Ex. 4.) The article, while interesting, does
not change the analysis of Plaintiffs claims.

App. 56

Case l:12-cv-08783-JPO Document 18 Filed 06/10/13
USDC SDNY
DOCUMENT
ELECTRONICALLY FILED
DOC#
DATE FILED

6/10/13

UNITED STATES DISTRICT COURT SOUTHERN
DISTRICT OF NEW YORK

ATUL C. SHAH,
Appellant,
-Against-

12 CIVIL 8783 (JPO)

MOTORS LIQUIDATION COMPANY GUC TRUST,
Appellee

Pro Se Plaintiff Atul C. Shah (“Plaintiff) having appealed
from a judgment of the United States Bankruptcy Court for
the Southern District of New York (Gerber, B.J.), and the
matter having come before the Honorable J. Paul Oetken,
United States District Judge, and the Court, on June 3,
2013, having rendered its Order affirming the judgment of
App. 57

the Bankruptcy Court dismissing Plaintiffs claims, it is,

ORDERED, ADJUDGED AND DECREED: That for
the reasons stated in the Court's Order dated June 3, 2013,
the judgment of the Bankruptcy Court dismissing Plaintiffs
claims is affirmed.
Dated: New York, New York June 10, 2013
RUBY J. KRAJICK

THIS DOCUMENT WAS
DOCKET ON ______

ENTERED

App. 58

ON

THRU

APPENDIX H

Appendix H: Four Month Delayed Judgment of the
Honorable Judge Robert E. Gerber at the United
States Bankruptcy Court, New York dated
September 27, 2012.
Pages for Appendix H are from App. 59 to App. 63

App. 59

UNITED STATES BANKRUPTCY COURT SOUTHERN
DISTRICT OF NEW YORK

In re
MOTORS LIQUIDATION COMPANY, et al,
f/k/a General Motors Corp., et al:
Debters,
Chapter 11 Case No.

09-50026 (REG)
(Jointly Administered)

ORDER GRANTING SUSTSINING OBJECTION TO
PROOF OF CLAIM NO. 28820 FILED BY ATUL SHAH

Upon the Objection to Proof of Claim Number 28820
(the “Claim”) dated April 12, 2012 (the “Objection”) (ECF.
No. 11590), of the Motors Liquidation Company GUC Trust
(the “GUC Trust”), formed by the above-captioned debtors
(collectively, the “Debtors”) in connection with the Debtors’
Second Amended Joint Chapter 11 Plan, dated March
18,2011 (as may be amended, supplemented, or modified
from time to time, the “Plan”), pursuant to section 502(b) of
App. 60

title 11, United States Code (the “Bankruptcy Code”),
seeking entry of an order disallowing and expunging the
Claim on the basis that such claim fails to set forth facts
necessary to establish any legal or factual basis for the
alleged claim, a? more fully described in the Objection
(ECF No. 11590); and due and proper notice of the
Objection having been provided, and it appearing that no
other or further notice need be provided; and the Court
having considered the response to the Objection filed by Dr.
Shah (ECF No. 11696), the reply to the response to the
Objection filed by the GUC Trust (ECF No. 11694), and the
letter filed by Dr. Shah (ECF Nos. 11923 and 12002); and
the Court at the hearing on the Objection on May 15th,
2012 (the “Hearing”) having found and determined that the
relief sought in the Objection is in the best interests of the

Debtors, their legal and factual bases set forth in the
Objection establish just cause for the relief granted herein;
and upon the record, including findings of fact and
conclusions of law set forth by this Court at the Hearing
App. 61

and in the Decision On Objection to Claim of Dr. Atul C.
Shah' dated August 6, 2012 (ECF No. 12001); and after due
deliberation and sufficient cause appearing therefore, it is

ORDERED that the relief requested in the
Objection is granted; and it is further ORDERED that,
pursuant to section 502(b) of the Bankruptcy Code, the
Claim is disallowed and expunged; and it is further
ORDERED that the time to appeal runs fromthe date this order is entered; and it is further
ORDERED that this Court shall retain
jurisdiction to hear and determine all matters arising from
or related to this Order.
Dated: New York, New York September 27, 2012

App. 62

s/ Robert E. Gerber

United States Bankruptcy Judge

09-50026-reg Doc 12107 Filed 09/27/12 Entered 09/27/12 14:15:46
Main Document Pg 1 of 2
09-50026-reg Doc 12107 Filed 09/27/12 Entered 09/27/12 14:15:46
Main Document Pg 2 of 2

App. 63

APPENDIX I

Appendix I: Dismissal of case without Prejudice order by
the Administrative Law Judge Peter L. Plummer
dated March 24, 2017.1 requested for the Dismissal
of my case with Prejudice to the Administrative Law
Judge Peter L. Plummer and the Assistant Attorney
General Andrew J. Hudson on April 4, 2017 with no
response. This is an example of Abuse of the Fifth
Constitutional Amendment - Right to stay Silent by
the honorable Law Practitioners.
Pages for Appendix I are from App. 64 to App. 92

App. 64

State of Michigan
Department of Attorney General
Bill Schuette
Attorney General
Lansing, Michigan 48909

Prehearing Conference with the Honorable Administrative
Law Judge
Peter L. Plummer and the Honorable AAG Andrew J.
Hudson

Following are the contents of the Prehearing TeleConference with the Honorable Administrative Law Judge
Peter L. Plummer and the Honorable Assistant Attorney
General Andrew J. Hudson on March 14, 2017 at telephone
number 517-335-0002 during 9.00 AM to 10.00 AM:

App. 65

A. Purpose of the Prehearing teleconference:
•

I emailed my response with respectful disagreement
to the Consent Order and Stipulation to AAG
Andrew J. Hudson and 15 distinguished recipients
on 3/10/2017 at 1.32 PM.

•

I received an email from Christine Zinn, Legal
Secretary of AAG Andrew J. Hudson on same day
3/10/2017 at 4.35 PM. This email was for the
Prehearing Conference to remove the confusion for
March 28, 2017 Administrative Hearing.

•

We discussed for one hour in a friendly and cordial
atmosphere. Hope that this one hour conversation
may be recorded for the court record per the court
procedure. I am documenting the content of our
discussion per best of my memory and
understanding.

App. 66

B. Introductory Greeting:
•

The Honorable Judge Peter L. Plummer chaired this
teleconference with introduction of AAG Andrew J.
Hudson and me (Atul C. Shah, MD).

•

The Honorable Judge Peter L. Plummer asked me to
spell my full name and it was spelled as Atul C.
Shah.

•

Our conversation started with my request for the
Change of date for March 28, 2017 Administrative
Hearing and reason for the change. I mentioned that
I have already booked free flights through the Delta
Perk mileage to visit my family at San Jose in
California on 3/2/2017. It was my impression that I
may not have to attend the administrative Hearing
on March 28, 2017.

•

The Honorable Judge Peter J. Plummer checked with
AAG Andrew J. Hudson about this issue to confirm
my statement that I was not avoiding or running
away from the Hearing date on March 28, 2017.
App. 67

AAG Andrew J. Hudson said that it is true and I
have no undue intention to avoid the Administrative
Hearing on March 28, 2017.
• The Honorable Judge Plummer gracefully agreed to
change the hearing date to April 2017 despite his
heavy and busy schedules.
• During our friendly conversation, I mentioned that I
am sixty-seven years old and working as physician
for 35 plus years. I am planning to work few more
years. The Honorable Judge Plummer asked my
birth date and I mentioned as 2/9/1950.
• I am happy to say that the Honorable Judge
Plummer is 4 to 5 months older than me and he is
planning to work as the law practitioner. He has
been working as a reputable law practitioner for
many decades.
• I mentioned that I am a practicing physician and a
psychiatrist for 35 plus years.

App. 68

C. Subpoena. Motions. Expert Witness and Stipulation:
•

The Honorable Judge Plummer asked Legal
Counselor for the Petitioner AAG Andrew Hudson
and me the Respondent (Atul C. Shah, MD) for need
of Subpoenas, Expert Witnesses, Motions and
Stipulations during the Administrative Hearing.

• We both, Honorable Andrew Hudson and me (Atul C.
Shah, MD), responded that we may not need
Subpoenas, Expert Witnesses, Motions and
Stipulation.
D. Discussion of the Administrative Complaint dated
September 2, 2016 with the 15 factual allegations:
• The Honorable Judge Plummer with the spirit of a
mentor meticulously explained all 15 factual
allegations during this conference. It was a great
experience for me.
•

First of all, the Honorable Judge Plummer asked
AAG Andrew Hudson that my responses to the Board
App. 69

of Pharmacy were forwarded in timely fashion and I
did not miss any deadline for the submission. I am
happy to say that AAG Andrew Hudson agreed that
all my responses were submitted in timely fashion to
the Board of Pharmacy.
• I am presenting the repetition of my 15 answers to
the questions from the Honorable Judge Plummer
that were written in my response dated October 24,
2016 as follow:
Administrative Complaint# 1: Public Health
Code — MCL 333.1101 et seq pursuant
to 7311(1) (b), (f). This is the general
information.
Factual Allegation # 2: Answer — Agree
Factual Allegation # 3: Answer — Agree with
further clarification
Factual Allegation # 4: Answer — Agree
Factual Allegation # 5: Answer — Agree
App. 70

Factual Allegation # 6: Answer — Agree
Factual Allegation # 7: Answer — Agree
Factual Allegation # 8: Answer - Agree
Factual Allegation # 9: Answer — Agree
Factual Allegation #10: Answer — Disagree
with further explanation
Factual Allegation #11: Answer — Agree with
further explanation
Factual Allegation # 12: Answer - Disputable
with further explanation
Factual Allegation #13: Answer - Disputable
with further explanation
•

COUNT I and COUNT II:
Factual Allegation # 14 or COUNT I: Answer —
Agree but Disputable with further
explanation for the COUNT I.

App. 71

Factual Allegation # 15 or COUNT II: Answer
- Disagree and Disputable with further
explanation for the COUNT II.
The Honorable Judge Plummer further explained to
me legal meaning of the COUNT I and COUNT II in
the layman’s terminology in presence of AAG
Andrew Hudson.

The Honorable Judge Plummer cited the example of
Bank Robbery that is equal to the COUNT I
allegation. The robbing the bank is as good as the
COUNT I per the legal terminology or legal stand
point.
Also, the Honorable Judge Plummer cited the
example of Pointing a Gun that is equal to the
COUNT II allegation per the legal stand point.
So, admission of the COUNT I and COUNT II
together or one of them, just like the flip of a coin.
App. 72

that may lead to the CRIMINAL INVESTIGATION
for anyone including me. This explanation was the
scariest time for me during our friendly discussion.
I believe that the Administrative Complaint is just a
complaint within jurisdiction of the civil case that
may lead to revocation of license and other remedies.
I believe that the Administrative Complaint is not
the criminal case or investigation.
I agreed for the COUNT I allegation of surrendering
my DEA License per the recommendation of two
DEA Investigators on 8/18/2015 to avoid the
Administrative Hearing. Just I trusted the
recommendation of two DEA investigators.
However, I sincerely thank the Honorable Judge
Plummer for the gracious explanation of the 15
factual allegations including the COUNT I and
COUNT II terminology of this complaint.

App. 73

E. Awareness of forwarding mv Administrative Complaint,
Responses to AMA, MSMS. WCMS. Law
Practitioners, Caro Center and other recipients on
March 10, 2017:
•

The Honorable Judge Plummer said that forwarding
my email to medical organizations, practicing
lawyers and other distinguished recipients that may
trigger a turmoil or “Legal Brawl” amongst the law
practitioners.

•

Honorable Judge Plummer did mention that
Assistant Attorney General Andrew Hudson may
lose his job helping me to resolve this case. He
mentioned the specific legal terminology known as
“Ex Parte” during our discussion for the possible
legal battle or legal brawl amongst the law
practitioners in Michigan.

•

The Honorable Judge Plummer said that attorneys
Ronald Chapman II or Robert Iwrey may file some

App. 74

legal action that may result in a Legal battle or Legal
turmoil.
•

I humbly mentioned that I am not interested in this
kind of scenario. Also, I did mention that I am
representing myself without the help from the
lawyers now.

•

I did mention that I am pursuing my Civil Case
against General Motors Corporation at the US
Supreme Court and three federal courts since 2008 to
present. I am forwarding my articles and briefs to
many scholars and law practitioners for their review
with no any problems since 2008 to present.

F. Request for the Settlement of the Case during the
Prehearing Teleconference:
•

Finally, I humbly requested for the swift settlement
of my case in amicable fashion to the Honorable
Judge Plummer and Honorable Andrew Hudson.

•

I mentioned that I am practicing in the field of
medicine as primary care physician for the 35 plus
App. 75

years and as psychiatrist for 25 plus years in the
Metro-Detroit area. I am planning to work as
physician few more years after the conclusion of this
case soon.
• Also, I mentioned that I have had a major Six Bypass
Open-heart surgery about 2-1/2 years ago on June
24, 2014 and doing well physically and mentally.
•

The Honorable Judge Plummer friendly reminded
again that I should consider the disputable
allegations and COUNT I & COUNT II discussed
during this Prehearing Teleconference carefully.

•

The Honorable Judge Plummer directed Assistant
Attorney General Andrew Hudson to send another
letter to me for the settlement of this case within the
time frames allowed per the court procedures. Just I
want to practice medicine for few more years.

•

I profusely thank the Honorable Judge Plummer and
Honorable Andrew Hudson for the helping hand and

App. 76

opportunity for settling this case in amicable and
friendly way.
•

This is the summary of one-hour Prehearing
Teleconference on March 14, 2017 per my best of
understanding and memory written on March 17,
2017.

•

Concluding and baseline Request: I requested at the
end of our discussion that I am planning for the
settlement of this case and I want to work few more
years as physician.

Post-Prehearing Telephone Conversation with the
Honorable Andrew J. Hudson on March 15. 2017 for 15
minutes at 1.36 PM
Following is the content of my 15 minutes telephone
conversation with the Honorable Andrew Hudson on
3/15/2017 at 1.36 PM per my best of memory:

App. 77

•

I received the revised Consent Order dated 3/15/2017
at 11.21 AM from the Honorable Andrew Hudson.
This revised consent order was significant for the
REMOVAL OF COUNT II that we discussed during
Prehearing teleconference. The deadline to respond
to this revised consent order was two days only that
was 3/17/2017.

•

I thanked him for dismissing the COUNT II for the
settlement. I requested that two-day deadline is too
short for anyone to respond.

•

I humbly suggested to the Honorable Andrew
Hudson to dismiss the COUNT I with explanation
that I surrendered my DEA license on 8/18/2015 per
the recommendations of two DEA investigators.

•

Honorable Andrew Hudson mentioned that he is not
able to remove or dismiss the COUNT 1.1 did not ask
the reason for his desire to not to dismiss the
COUNT I.

App. 78

•

Also, I requested to read my response dated
10/24/2016 for the allegation number 14 on the
COUNT I indicating that I surrendered my DEA
license per the recommendation or suggestion of the
two DEA investigators (Jacqueline Honoway and
James Lashbrook).

• J also requested to read the item # 20 from the DEA
investigation letter dated 8/19/2015 suggesting that
my surrendering of DEA license was to help me to
avoid further Administrative Hearing and criminal
investigation to revoke my license.
•

However, the Honorable Andrew Hudson did
mention that he will add my request in paragraph B
to page 4 of the consent order.

•

I received the Re-revised consent order with
stipulation on same day 3/15/2017 at 4.27 PM with
extended deadline of March 24, 2017. Nine-day
extension for my response was another gracious act
by the Honorable Andrew Hudson.
App. 79

•

I discussed that permanent surrendering of
controlled substance licenses will be considered as
the Restricted License. I will not be able to practice
medicine because all prospective employers will not
give me an opportunity to work with the restricted
license.

•

I simply mentioned that the Honorable Andrew
Hudson may give me in writing for presenting to the
prospective employers that may help me to get a job
as physician. He responded that he is unable to
honor this request as hiring recommendation is not
his job.

•

Finally, I sincerely thanked him for dismissing the
COUNT II and giving me the freedom to accept or
decline the re-revised consent order from him. This
consent order was the third consent order in one
week from 3/7/2017 to 3/15/2017.

•

Hope that our telephone conversation may be
recorded for the authenticity and clarity.
App. 80

Thank you very much.
Signed - Atul C. Shah, MD
Atul C. Shah, MD
Troy, Michigan
Date: March 17, 2017

App. 81

STATE OF MICHIGAN
MICHIGAN ADMINISTRATIVE HEARING SYSTEM

IN THE MATTER OF:

Docket No.: 17-002766

Bureau of Professional Licensing Case No.: 53-16-140855
Petitioner
Agency: Bureau of
Professional Licensing
v.
Atul C. Shah, MD
Respondent

Case Type: Complaint
Filing Type:
Administrative Complaint

App. 82

Issued and entered
This 24th day of March, 2017
By: Peter L. Plummer
Administrative Law Judge

ORDER DISMISSING CASE
AND ACKNOWLEDGING SETTLEMENT

On March 24, 2017, Assistant Attorney General Andrew
Hudson, on behalf of Petitioner, requested that the hearing
in above-captioned matter be dismissed pursuant to
settlement. A copy of the partie’s Stipulation
Acknowledging Settlement is attached and made a part of
this Order.

App. 83

NOW, THEREFORE IT IS ORDERED, that the hearing in
the above-captioned matter is dismissed without prejudice.
Accordingly, we have removed this case from our formal
hearing docket, cancelled the hearing schedule for
Wednesday, April 19, 2017 at 9.00 am, and are closing our
file in this matter.

Peter L. Plummer
Administrative Law Judge

App. 84

Copy of Letter for the dismissal of Case with
Prejudice dated April 4, 2017
Atul C. Shah, MD
2884 Manorwood Drive
Troy, Michigan 48085
Home Tel: 248-879-0795
Cell Tel: 248-835-5025

April 4, 2017
Honorable Peter L. Plummer
Administrative Law Judge
Department of Licensing and Regulatory Affairs
Michigan Administrative Hearing System
611 West Ottawa Avenue
Ottawa Building, 2nd Floor
Lansing, MI 48933
App. 85

Ref: Permanent dismissal of Case No. 53-16-140855; Docket
No. 17-002766.
Honorable Judge Peter L. Plummer:
Profusely and from the bottom of my heart thank you and
your staffs for the amicable resolution of this case and
many cases.
I am humbly requesting your honor for the Permanent
Dismissal of my case. In the stipulation section, I have
willingly waived the rights requiring the Departments to
prove the charges set forth in this complaint.
In reciprocation, I am requesting your honor and the
honorable Andrew J. Hudson for the permanent dismissal
of my case preventing any further action by any entity
dismissing the case with prejudice or other legal
terminology.

App. 86

I am forwarding the check of $ 500.00 (Five hundred) as
recommended that will help to expedite the permanent
dismissal of mv case with prejudice or other legal
terminology.

Again, thank you very much for the kind consideration.

Respectfully submitted,

Atul C. Shah, MD
Troy, Michigan

Copy of email from AAG Andrew Hudson
Atul C. Shah, MD <atul99krishna@yahoo.com>
To: AAG Andrew J. Hudson, Atul C. Shah MD
Thu, May 17, 2018 at 8:25 AM
App. 87

Atul C. Shah, MD
2884 Manorwood Drive
Troy, Michigan 48085
Cell Tel: 248-835-5025

May 17, 2018

Andrew J. Hudson
Assistant Attorney General
Licensing & Regulation Division
P.O. Box 30670
Lansing, MI 48909
Ref: Employment as Physician.
Honorable Andrew J. Hudson:

App. 88

I am writing this letter with a request for working as a
Physician.
I agreed for the permanently surrendering my DEA License
on 6/14/2017.
However, I am experiencing a great difficulty finding the
job as Physician in Michigan and other locations after
surrendering my DEA License. I may need the DEA
number to practice medicine.
I am working as Psychiatrist at New Center Community
Mental Health Services located in Detroit, Michigan from
April 2017 to present. However, this clinic is closing on
5/14/2018. Now, I am applying as physician and
psychiatrist with several medical facilities in the MetroDetroit area and other locations.
The prospective employers are politely declining for the job
opportunity as I have no DEA License or DEA number. I
have active Medical License to practice medicine. I am
enclosing copy of my medical license.
App. 89

I may request your Honor for helping to resolve this issue
so I continue to work as a physician. I have had a nice
discussion with the Honorable Judge Peter L. Plummer and
with you during and after the Prehearing Conference on
March 14, 2017 about my desire to working as physician. I
am happy to say that your honor and the Honorable Judge
Peter L. Plummer both agreed that I can practice medicine
as a physician.
I humbly believe that the Office of Attorney General has
jurisdiction and sacred duty to help the residents of
Michigan including me for the employment to earn the
livelihood.
Letter from the Office of Attorney General amplifying this
truth that Dr. Atul C. Shah, MD has a license to practice
medicine that will be helpful for earning my livelihood.
Again, thank you very much for the kind consideration.

Respectfully submitted,
App. 90

E-Signature - Atul C. Shah, MD
Atul C. Shah, MD
Troy, Michigan

Attachments:
1. Copy of Medical License
Medical License Renewal - January 2021.pdf

Hudson, Andrew (LARA) <hudsona3@michigan.gov>
To: Atul C. Shah, MD
Mon, May 21, 2018 at 3:00 PM
Hello, Dr. Shah:

App. 91

I recall your case, but I cannot supply the letter you
requested. I do not work for the Department of Attorney
General any longer, as I now work directly for the Bureau
of Professional Licensing. Further, it would not be
appropriate for me to comment on your employability as I
do not represent you.

Have a good day,

Andrew

App. 92

APPENDIX J

Appendix J: This Appendix J is the Official Opinion of
EEOC presented to the Supreme Court of the United
States Case # 14-830. This Letter of Determination
by EEOC that did not dismissed my case and did not
found my case with “No Merit” dated July 7, 2009.
EEOC closed my case for unable to conclude the case
due to lack of the information.
Pages for Appendix J are from App. 93 to App. 97

App. 93

U.S. Equal Employment Opportunity Commission
Dismissal and Notice of Rights
EEOC Charge No.
EEOC Representative
471-2009-00726

Spyridon E. Mellos, Investigator

THE EEOC IS CLOSING ITS FILE ON THIS CHARGE
FOR THE FOLLOWING REASON:

[ ]

The facts alleged in the charge fail to state a claim
under any of the statutes enforced by the EEOC.

[ ]

Your allegations did not involve a disability as
defined by the Americans With Disabilities Act.

[ ]

The Respondent employs less than the required
number of employees or is not otherwise covered by
the statutes.

[ ]

Your charge was not timely filed with EEOC; in
other words, you waited too long after the date(s)
of the alleged discrimination to file your charge.

[X]

The EEOC issues the following determination:
Based upon its investigation, the EEOC is unable
to conclude that the information obtained
App. 94

establishes violations of the statutes. This does not
certify that the respondent is in compliance with
the statutes. No finding is made as to any other
issues that might be construed as having been
raised by this charge.
[ ]

The EEOC has adopted the findings of the state or
local fair employment practices agency that
investigated this charge.

[]

Other (briefly state)

NOTICE OF SUIT RIGHTS
(See the additional information attached to this
form)
Title VII, the Americans with Disabilities Act,
and/or the Age Discrimination in Employment Act:
This will be the only notice of dismissal and of your right
to sue that we will send you. You may file a lawsuit
against the respondent(s) under federal law based on this
charge in federal or state court. Your lawsuit must be
filed WITHIN 90 DAYS of your receipt of this
App. 95

notice; or your right to sue based on this charge will be
lost. (The time limit for filing suit based on a claim under
state law may be different.)
Equal Pay Act (EPA): EPA suits must be filed in
federal or state court within 2 years (3 years for willful
violations) of the alleged EPA underpayment. This
means that backpay due for any violations that
occurred more than 2 years (3 years)
before you file suit may not be collectible.
On behalf of the Commission
Date: 7-7-09
Danny G. Harter, Director

App. 96

CC: David Johnston
Bashen Corporation
1616 S. Voss, Suite 300
Houston, Texas 77057

App. 97

APPENDIX K

Appendix K: This Appendix K is the Official Opinion of
Atul C. Shah, MD documented in the Supreme Court
of the United States Case # 14-830. This 11 Page
Complaint Letter with Description of Discrimination
based upon my Religion, Nationality, Color and Age
submitted to Detroit EEOC dated December 4, 2008.
Pages for Appendix K are from App. 98 to App. 137

App. 98

Injustice. Discrimination and Abuse of Power
Detroit District EEOC Office
Patrick V. McNamara Building
477 Michigan Avenue
Room 865
Detroit, MI 48226

Dear Director:

As a short introduction, my name is Atul C. Shah,
MD. I am practicing medicine past thirty years as General
Practitioner and Psychiatrist. I graduated in 1974 from
Medical College and practice medicine for six years in
India. I immigrated to U.S.A. in 1982 and I am practicing
medicine about twenty years in U.S.A. In this letter, I want
to file a complaint with you about discrimination and
injustice I faced recently in Michigan.
I worked as Contract Physician with General Motors
Inc for eleven years since September 1997 to June 11, 2008
App. 99

with unfair dismissal. I worked as Physician with
Professional dignity and diligently through out my eleven
years without problems. Most of my patients, medical staffs
and co-workers were happy with my professional
knowledge and attitudes.
I am licensed Physician practicing medicine past
thirty years in United States and India. I have evaluated
more than one hundred twenty thousand medical patients
(120,000) including twelve thousand (12,000) psychiatric
patients in U.S.A. These are the excellent and versatile
experiences and medical knowledge I have in my career as
practicing Physician. My experiences and medical
knowledge include diagnosis, treatment and management
of patients in Family Practice, Occupational Medicine and
Psychiatric Medicine in Metro-Detroit in U.S.A. and in
India.
On June 11, 2008,1 was removed unfairly from
General Motors Willow Run Power-train Plant by Dr.
Stanley Miller, D.O. Senior Group Director and Dr.
App. 100

Anthony Burton, MD Plant Medical Director. I strongly
believe that my removal by Dr. Stanley Miller and Dr.
Anthony Burton from GM Plant as Contract Physician was
primarily based upon my religion, nationality, color, race
and age. Also, my removal as physician by Dr. Miller was
unfairly supported by General Motors Health Services
Administrative staffs, Willow Run Power-train Plant
manager and Director of Human Resources.
On June 11, 2008 at 2.00 pm I had an unexpected
meeting with Dr. Stanley Miller, D.O. Senior Group
Medical Director and Dr. Anthony Burton, MD Plant
Medical Director or my immediate Boss at Willow Run
Plant Medical for about forty minutes. I am providing the
detail of our discussion as follow in this letter indicating the
injustice, discrimination and abuse of the power by Dr.
Stanley Miller and Dr. Anthony Burton for my removal as
Contract Physician from the General Motors recently.
I am practicing Physician and Psychiatrist past
thirty years and I am expert in understanding and
App. 101

revealing the “Expressed Intentions” and “Concealed
Intentions” of the persons or patients. In this letter I will
reveal and explain the “Expressed and Concealed
intentions” of Dr. Stanley Miller and Dr. Anthony Burton to
remove or kicked me out as Contract Physician from the
General Motors on June 11, 2008 after my affiliation with
General Motors past eleven years.
A. Meeting with Dr. Stanley Miller. D.O. and Dr.
Anthony Burton on June 11, 2008:
Dr. Burton informed me on June 10, 2008 that Dr.
Miller is specially coming to see me tomorrow on June 11,
2008. Dr. Burton did not mention the purpose of special
meeting with me by Dr. Miller. Prior to this meeting, I was
very sick for two months and I was hospitalized twice in
April & May of 2008.1 was on Medical Leave from April 17,
2008 until May 23, 2008 due to my unexpected medical
sickness. I continue to keep informed of my sickness to Dr.
Burton and Dr. Miller. Our meeting lasted for about forty
minutes and I am describing the content of the surprised
App. 102

meeting with Dr. Miller and Dr. Burton on June 11, 2008 in
Medical Department at Willow Run Plant of General
Motors. I worked with great care and professionally past
eleven years as Contract Physician with GM. I am
presenting the content of our meeting as follow.
Surprised Meeting and Discussion with Dr. Miller on
June 11. 2008 as follow:
Dr. Miller started saying that I am happy to see you
and good thing that you are (Dr. Atul C. Shah) doing well
with your health and sickness now. Dr. Miller immediately
said that I have bad news for you (Dr. Atul C. Shah) that
you will be removed from General Motors today as Contract
Physician (June 11, 2008). I politely asked the reason to
remove me after eleven years of working professionally
with General Motors. Dr. Miller mentioned that he is
informed by people from Willow Run Medical department
(by Dr. Anthony Burton, Dr Mark Singer, MD and Plant
Manager Mr. Wooten) about “Problem with Documentation”
with me and “Other Reasons”. He did not elaborate the
App. 103

“Other Reasons” during this meeting. I told Dr. Miller and
Dr. Burton that I have evaluated and seen more than one
hundred twenty thousand patients in my career as
Physician and documented their Medical History and
Progress Note all my life. Also, I told them that there may
be some human errors such as spellings and typographical
errors in Medical recording by any one including them (Dr.
Miller & Dr. Burton). Also, I mentioned to Dr. Miller and
Dr. Burton that I can find hundreds of Problems and faults
with their documentation if I want to find problems with
Dr. Miller’s and Dr. Burton’s documentations in any cases.
Of course, Dr. Miller and Dr. Burton were surprised to hear
this statement. I told them that I can find hundreds of
faults with Dr Miller’s and Dr. Burton’s documentation
because that the Modern Medical Science including
Occupational Medicine is Superficial, disorganized and
primitive in nature. Any one can find several faults and
problems with any one’s documentation and Medical
Records of any patients.
App. 104

After our meeting immediately, I discussed the
“Problem with my Documentation” with Nursing
Supervisor Emerson Cameron, RN at Willow Run Medical
Department. He was utterly surprised to hear this phony
allegation by Dr. Miller and Dr. Burton. He says this is not
right and my documentation of patients is excellent. Also,
He mentioned that he did not notice any Problem with my
documentation within last six or seven years working with
me. Emerson Cameron, RN is well experienced Registered
Nurse working with GM as Nursing Director past more
than thirty-five years and he has more experience in
Medical Record Practice than Dr. Miller and Dr. Burton
who are working with GM and practicing Medicine past
fifteen or seventeen years only.
During this meeting, I requested Dr. Miller and Dr. Burton
to transfer me to different Division or different GM plant
and help me to remedy the Problem with my
Documentation if any or they do not like me. However, they
did not listen to my request and simply insisted that you
App. 105

are removed today immediately without considering the
remedial measurements. They say here is an empty box for
you to pack up my belongings and return the Identity
Badge, keys and other GM documents to Dr. Burton
immediately before I leave this plant at 5.00 pm. I told
them that my contract is good until end of this year 2008
but did not pay any attention to it.
B. Head Hunting bv Big Corporation like GM:
I told Dr. Miller and Dr. Burton about “Head
Hunting” technique applied by Big Corporation such as GM
Personnel with the strong back up support by their
attorney staffs. In this Head-Hunting Technique, persons
like Dr. Miller and Dr. Burton can abuse the administrative
power to kick out or remove the person whom they do not
like and are able to discriminate their victims based upon
their different religion, race, color, nationality and age. Dr.
Miller and Dr. Burton listened about this Head-Hunting
Method but did not responded or answer this question.

App. 106

Also, I discussed with Dr. Miller and Dr. Burton about
the following topics on June 11, 2008 meeting at Willow
Run Medical department.
•

Phony Allegations: My removal from GM Health
Services by Dr. Miller was primarily unfair with
phony allegation such as Problem with
Documentation etc. Also, I requested Dr. Miller and
Dr. Burton to give me in writing about the reasons to
remove me as Contract Physician. He declined to
give me the reasons in writing for my removal as
Contract Physician. He just said that he will not give
any thing in writing for my removal. I requested that
the Human Resource Director should give me in
writing the reason(s) for my removal but Dr. Miller
and Dr. Burton never paid any attention to this
request during this meeting.

•

Phony Documentation allegation: After my
meeting with Dr. Miller and Dr. Burton, I
immediately talked and discussed with Nursing
App. 107

Director Mr. Emerson Cameron at Willow Run
Medical Plant. He is working with GM Health
Services past more than 35 years and he is well
aware of the Medical Documentation of different
Physicians. Mr. Emerson Cameron was surprised to
hear that my documentation is not good as accused
by Dr. Miller and Dr. Burton during this meeting on
June 11, 2008. Also, Mr. Cameron, RN & Nursing
Director mentioned that Dr. Shah’s Medical
Documentation and Case records are very good and
accurate in nature. Mr. Cameron have reviewed and
supervised my documentation past six or seven years
with Willow Run Medical Plant.
• Denial of Promotion as Plant Medical Director
with GM Health Services several times: I was
deliberately denied the post of Plant Medical
Director twice within last two years from 2006 to
2008. For an example -1 was denied the post of Plant
Medical Director at Toledo GM Plant and another
App. 108

physician - a white man - was given that post in
spring of 2007 by Dr. Miller. Also, I was not even
invited to apply for the position of Plant Medical
Director with Willow Run GM Power train Plant
where I was working past six years. This Plant
Physician position was awarded to Dr. Anthony
Burton, MD by Dr. Miller who is Dr. Miller’s friend
and immediate past president of Michigan
Occupational Medicine. Dr. Miller is President of
Michigan Occupational Medicine right now and both
are white man with similar cultural and religious
background. Another example- Donna Smith, MD, an
African-American who just joined with GM was
selected as Plant Physician at Grand Blanc GM
Plant in Genesis County, Michigan in 2006. I had a
nice discussion with Dr. Donna Smith and Dr. Donna
Smith was surprised that I was not selected for this
post. She knew that I was senior for many years than
her working with GM. These are the examples of the
App. 109

discrimination based upon the religion, nationality,
race and color.
•

Denial of opportunity to attend GM
Conferences: GM Health Services invite all doctors
such as Full Time and Contract Physicians for all
GM Conferences every year. I was invited to many
GM Conferences in past ten years. Recently in June
2008, there was GM Conference scheduled at
Cincinnati, Ohio. GM Health Services invited all
Contract and Full time Physicians except me! I
believe that this action of not inviting me for June
2008 Conference was based upon my belief of
Eastern Philosophical Concepts which I strongly
consider as the super-scientific and accurate than the
conventional Modern Science including Bio-medical
Science including Occupational Medicine. I attended
many GM conferences earlier and I asked several
scientific questions to the Key Speakers and
Presenters. I politely mentioned to them that
App. 110

Eastern Philosophical concepts are Super-scientific
than the current conventional concepts of Modern
Science including Bio-medical Science. I humbly but
strongly believe that Dr. Miller and Dr. Burton did
not like my view about the superior concepts of the
Eastern Philosophy than current Modern Science
including Bio-medical Science. They were unable to
tolerate this difference of opinion in our democratic
country.
•

Discrimination based upon Religion: Dr. Miller,
Dr. Burton and other GM Health Service Personnel
did not like my views and comment about the
Superiority of the Eastern Philosophical Concepts
during several GM Conferences as mentioned earlier.
During conferences Meeting and discussion, I told
that Eastern Philosophical concepts are Superscientific and superior to the Concepts of the Modern
Science including Bio-medical Science. Some how
they did not like these comments and they retaliated
App. ill

by kicking me out from General Motors as Contract
physician on June 11, 2008. For an example: at
earlier GM Conference in 2006 I mentioned to a
learned Cardiologist Dr. Peter Vaitkevicius, MD
about the Soul is the original Pace-maker and SinoAtrial Node in heart is the secondary Pace-maker in
our heart and body. Even this Cardiologist did not
like this simple inquiry in a conference which
supposed to be an open forum to discuss any new
idea and concept. Conferences are not only for
drinking coffee, eating Donuts, Bagels and sleeping.
There are many similar examples and I will be happy
to produce evidences for your review and
consideration.
•

Dr. Miller’s Long standing and Concealed plan
to remove me as Contract Physician from GM:
During our meeting on June 11, 2008, Dr. Miller
mentioned that he was planning to remove me from
GM past few years and I strongly believe the reason
App. 112

primarily was based upon my religion, nationality,
race, color and age. Surprisingly, during our meeting
on June 11, 2008 he did confessed that he was
planning to remove me as physician from GM for a
long time. He did not remove me or he was unable to
remove me as physician in past few years due to
several reasons which I am going to describe in this
letter in following paragraphs. I am describing the
factual dialogue occurred during our meeting on
June 11, 2008 and this information is not fictitious or
imaginary in nature.
•

Ganging the Detroit Style; Dr. Steve Miller,
Group Medical Director, Dr. Anthony Burton, Plant
Medical Director, Pete Felton, Human Resource
Director and Kingsley Wooten, Plant Manager
removed me as Contract Physician under the vicious
direction of Dr. Miller with phony allegations such as
“Problem with Documentations” etc. They were not
able to remove me as Contract Physician in past two
App. 113

or three years (2005 to 2007) as Dr. Oteyza was
resisting the pressure from Dr. Miller past few years
and I was lucky to survive within last few years. Dr.
Oteyza, Plant Medical Director at Willow Run Plant
told me several times during our formal talk about
Dr. Miller’s plan and his desire to remove me as
Contract Physician in past few years. Also, Dr.
Oteyza had similar harassment from Dr. Miller and
his associates and Dr. Oteyza prematurely quit or
resigned as Willow Run Plant Medical Director after
twenty-two years of great service. Dr. Oteyza highly
recommended my selection as next Willow Run Plant
Medical Director after his resignation. Dr. Miller just
ignored completely Dr. Oteyza’s recommendation and
even he did not consider me for interview for this
post.
•

Trap to remove me by Dr. Anthony Burton.
Willow Run Plant Medical Director: I was sick
for two months from April 17, 2008 to May 23, 2008
App. 114

with two hospitalizations in April and May of 2008
for one week each time. I asked Dr. Burton whether I
need Primary Care Physician’s certification prior to
returning to work on May 23, 2008. Dr. Burton
cunningly mentioned on telephone that I should
return to work immediately and I do not need to
bring a “letter from my family physician” upon
returning to Willow Run Plant. Initially, I was really
surprised that I do not need any “Return to Work”
letter from my attending physician. I thought that
Dr. Burton is very generous and nice person.
However, and unfortunately, this was a great plan
and vicious TRAP for me to return to work
immediately so Dr. Burton and Dr. Miller can
remove me as the Contract Physician for ever. No
wonder that this TRAP did worked very well. I
returned to work on May 23, 2008. Dr. Burton
informed me on June 10, 2008 that Dr. Miller is
coming specially to see me on June 11, 2008 in after
App. 115

noon. This trap by Dr. Burton and Dr. Miller did
work well and I was mercilessly removed after my
recent unexpected sickness and eleven years of my
service with GM.
• Denial of an opportunity to rectify or improve
Problem with Documentation: I requested to
transfer me to another plant if Dr. Miller does not
like me or help me to improve with medical
documentation. He simply refused to give me any
opportunity saying that you are “Removed as
Contract Physician today”.
• Denial to be interview as Full Time Plant
Physician with GM: In June 6, 2008,1 applied as
Full time Plant Physician at Grand Rapids GM Plant
when I returned to work in May 23, 2008 after my
long illness. Also, I did talk with Dr. Jimmy
Brandon, MD Grand Rapid GM Plant Medical
Director for interview for the post of Grand Rapids
Plant Medical Director two weeks prior to my unfair
App. 116

removal. I requested Dr. Miler to give me a chance
for an interview at Grand Rapids GM plant as full
time Plant Medical Director. Dr. Miller declined for
this interview at Grand Rapids GM Plant. He
arrogantly mentioned that you are just removed
today and you are not eligible to apply for another
post with GM.
•

Abuse of Power and injustice by Dr. Miller and
Dr. Burton: At the end of our meeting, Dr. Miller
viciously mentioned that Dr. Shah will not be Re­
hired with GM, Dr. Shah will not be transferred to
different Plant with GM, and Dr. Shah cannot apply
for Full Time Position with GM. This statement was
strongly supported by Dr. Anthony Burton who
joined GM Health Services just six months ago. I was
really surprised about this statement of Dr. Miller
and Dr. Burton. I am wondering who gave them
power to prevent me to re-hire with GM, not to apply
as Full Time Physician or not to be transfer to
App. 117

another GM location. He mentioned that this is
Permanent Removal from GM and my relation with
GM is permanently sealed now. This shows the
vicious and well-planned concealed intention as well
as the blatant abuse of administrative power to
remove me from the GM as Physician by Dr. Miller
and supported by Dr. Burton and others
administrative people at GM.
•

Contract Extension, Contract Expiration and
Employment Termination: Every employment
have Contract Extension, Expiration and
Termination clauses and guidelines. My contract was
renewed and extended every year or every one
and half years regularly past eleven years by
General Motors Purchasing Department. However, I
was told by Dr. Miller that “I am Removed from GM
on June 11, 2008” although my contract was good
until 12-31-2008 or eight more months.

App. 118

•

Discrimination base upon Religion, nationality
and Color etc: My removal as Contract Physician
by Dr. Miller was essentially and primarily based
upon my religious belief, color, nationality and racial
background as described earlier in this letter. The
reasons such as Problem with Documentation, Bad
economy, Employer to Terminate for Convenience etc
are really the tip of iceberg and phony in nature.
There are four Contract physicians including myself
with GM for past eleven years working together and
we know each other well. The other three Contract
physician Dr. Hasan Rehman, MD a Muslim
Physician from India, Dr. Orr, MD, a Black Christian
Physician from U.S.A. and Dr. Soboloski, MD a
White Physician with Christian background were
“Not Removed” from General Motors because of their
racial, national, religious and color.

•

Further evidence of Discrimination and Insult:
I received a letter dated July 15, 2008 from GM
App. 119

Global purchasing Department stating that my
Contract have been extended until 12-31-2009. For a
reminder that I was removed from GM on June 11.
2008. However, I was very happy that my contract
has been extended for another one and half years as
Contract physician. However, this action was
another example of insult and discrimination by the
GM Administration for no reason. I contacted Dr.
Joel Bender, MD Corporate Medical Director by
email and thanking him for the extension for one and
half years as contract physician with GM. Few days
later, Dr. Miller told me on telephone that this letter
of extension was a “Clerical Error” and he does not
want to extend the contract. This is another example
of cold-blooded discrimination and insult based upon
my color, race, religion and nationality.
•

Selection of Dr. Anthony Burton as Plant
Medical Director at Willow Run Power-train in
Ypsilanti. Michigan is the Best Example of the
App. 120

Discrimination based upon Race. Religion.
Nationality and Color: Dr. Renato Oteyza, MD the
immediate past Plant Medical Director past twenty
two years strongly recommended my name for the
next Plant Medical Director as I was working at this
GM Plant past seven or eight years with almost
thirty years of experiences in Occupational Medicine,
Family Practice Medicine and Psychiatric Medicine
in U.S.A and India. Most of people in Willow Run
Plant were also thinking that I will be selected as
next Plant Medical Director at this GM Plant.
However, Dr. Stanley Miller did not pay any
attention to the recommendation of Dr. Oteyza and
he had different plan and strategy to help his friend
and immediate past President of Michigan
Occupational Medicine Dr. Anthony Burton. Dr.
Miller is current President of Michigan Occupational
Medicine right now. Dr. Miller and Dr. Burton is
both white American with Jewish background and
App. 121

graduated from the so-called prestigious universities
from Michigan. Dr. Miller told me that I will not be
even invited for the interview for this plant medical
position. He invited another two candidates with Dr.
Burton as a fake show of selection process in fall of
2007.1 humbly mentioned to them during my
unfortunate meeting on June 11, 2008 that
graduating from prestigious university, having
Board Certification and being a President of
Michigan Occupation Medicine or any other
organization are definitely a great honor and
qualifications for any one. However, if our
Fundamental Principles, the quality of the
conventional knowledge in Bio-medical Science and
Modern Science is poor, disorganized and superficial
in nature, then, the qualification and honor received
from prestigious university and presidential position
etc are useless and without any value. Dr. Miller and

App. 122

Dr. Burton were certainly surprised hearing my
statement and they did not respond any way.
Above mentioned description are the evidences of the
Injustice, Discrimination and Abuse of the Administrative
Power by Dr. Miller and Dr. Burton which were based upon
my religion, race, color, nationality and age background
and carefully executed by Dr. Miller and Dr. Burton and
other personnel as mentioned earlier at GM Health
Services, Willow Run Power train Plant in Michigan on
June 11, 2008.
I will be very happy to submit above-mentioned
evidences and many other examples of the well-planned
execution to remove me unfairly as the Contract Physician
at General Motors in Detroit by Dr. Miller and his friends
where I worked for eleven years.
Dear Director and Executive member of EEOC, this
article is very interesting and factual case for your
information and action. I have had a similar bitter
experience as a Resident Physician in Psychiatric
App. 123

Residency Training Program in Wayne State University at
Detroit, Michigan during early 1990’s. I did file a complaint
with EEOC during early 1009’s. Also, I actively
participated with American Medical Association and
Michigan State Medical Society to increase the awareness
about the “Resident Physician Abuse” by the Supervisors,
Program Director and Chairman of the respective
Residency Training programs in Michigan and U.S.A.
Resident Physicians and especially the foreign medical
graduates or International Medical Graduates who are
treated as Dirt. Resident Physicians are practically
defenseless people and they are at the mercy of their
supervisors, program directors and chairman in their
training programs.
I did not pursue the discrimination as perceived as a
Resident Physician during early 1990s with EEOC as I was
helpless and totally unprepared as Resident Physician. I
was thinking that dismissal as Resident Physician was my
“Bad Karma” or “Bad Dream” rather than well plan and
App. 124

well executed discrimination by group of people at
Residency Training Program at Wayne State University in
Detroit, Michigan.
I may humbly suggest the following proposal or humble
request to EEOC as the resolution for the justice and
fairness.
1. First of all, I want to assure the EEOC executive member
that filing this complaint is not intended for getting
instantly rich from General Motors Inc who is in great
financial trouble right now. I am really thankful to General
Motors for providing me and my family the Bread & Butter
on our table for eleven years.
2. The primary purpose to file this complaint is justice,
fairness and in the spirit of the democracy. In the
democracy, people are allowed to express their opinion and
views without subject to punishment covertly or overtly by
the people in power and at administrative position.
3. In this article, I have already mentioned that the
Eastern Philosophical Concepts or Eternal and blissful
App. 125

Vedic Literature of India in Sanskrit language are Super
Scientific and the concepts of Modern Science including Bio­
medical Science concepts are Poor, Superficial,
Disorganized and at the Observational level only.
4. If Dr. Miller, Dr. Burton and other colleagues at General
Motors do not like my idea or understanding in our
democratic country and they abuse their position and
administrative power to dismiss or kicked out their
subordinate people especially with different cultural,
religious, color and racial background is unfair and
undemocratic in nature.
5. If the people like Dr. Miller, Dr. Burton and colleagues at
General Motors or any organizations who are unaware of or
do not believe in the Super Scientific Concepts of the
Eastern Philosophy or the Eternal and Blissful Vedic
Literature in Sanskrit language of India, then, they should
inquire about this wealth of knowledge from the right
sources without suppressing and destroying the people like
me who are willing to share the supreme knowledge with
App. 126

the fellow human beings for the betterment of mankind
irrespective of his or her religious, cultural, racial and
national affiliation.
6. Recently, in summer of 2008,1 wrote a letter and humbly
mentioned to President of American Medical Association
Dr. Ronald M. Davis, MD from Michigan about how the
eternal and blissful Vedic Literature in Sanskrit language
of India with authoritative English translation by Western
and Eastern Scholars will certainly help to provide higher
dimensions and will help the Modern Science including Bio­
medical Science in understanding of the fundamental
principles of the Spiritual and Material Science right now.
Also, I emailed this letter to Dr. Miller, Dr. Burton, and Dr.
Joel Bender, who is the Corporate Medical Director of
General Motors in summer of 2008.1 have to mention that,
unfortunately, they did not like this understanding and
kicked me out as Contract Physician with unfair allegations
as described earlier in this letter.

App. 127

7.1 will be happy to provide a copy of letter I wrote to Dr.
Ronald M. Davis, MD who was immediate past President of
AMA in summer of 2008.1 had a nice discussion with Dr.
Ronald M. Davis, MD in October 2008 about the integration
of Spiritual Science and Modern Science for the betterment
of the mankind. Unfortunately, I have to mentioned that
Dr. Ronald M. Davis have been passed away from us in
November of 2008 due to Pancreatic Cancer ailment. This
information is publicly known to every one.
8. Members of EEOC are well aware that to discriminate
and to dismiss some one based upon his or her belief or
understanding is unfair, unjustifiable and undemocratic in
nature in U.S.A., India and any part of this small globe.
9.1 would like to reiterate that the purpose of this article or
letter is constructive in nature and not intended for any
other purposes. I know very well that EEOC is not directly
responsible for the improvement of the poor and
disorganized quality of the Modern Science including Bio­
medical Science. However, EEOC is responsible for
App.128

exposing the people like Dr. Miller and Dr. Burton suffering
from the Pseudo Superiority Complex such as “White is
Right and “West is Best” mentality which is crumbling like
the House of Cards crumbles upon the small breeze of a
wind right now as well as abuse of power, injustice and
discrimination of the subordinate people.
10.1 am planning to share this letter with current
Presidents of American Medical Association, Michigan
State Medical Society and possibly to Senator Carl Levin
for their information and review as well their constructive
comments and actions.
I greatly admire the American Spirit: the relentless
pursuit to realize the truth - the Absolute Truth. Let us
continue to revitalize this great spirit for the betterment of
the people in general and for the entire world. I am a
naturalized citizen of America and I have strong faith and
admiration for the democratic process of this great country.
Thank you very much for your time. I hope to hearing from
you soon.
App. 129

Sincerely and fraternally yours,

Atul C. Shah, MD
Troy, Michigan

Enclosures:
1. Letter to Ronald M. Davis, Late Immediate Past
President of American Medical Association Titled as
“Together we are Stronger: Integration of the
Spiritual Science and Modern Science”
2. Letter to Apparao Mukkamala, MD, Immediate Past
President of Michigan State Medical Society titled as
“Doctor, Share Your Vision of the Marvelous Machine"
3. Two Letters written to Joel Bender, MD, PhD, Corporate
Medical Director at General Motors Health Services,
Detroit, MI titled as “Feed Back for GMHS Leadership
Conference at Dallas, Texas - December 2007” & “The

App. 130

Understanding of the Supreme Court Judge about
Symptomatology at Molecular level”
4. Curriculum Vitae of Atul C. Shah, MD

Name. Address and Contact Numbers:
1. Stanley H. Miller, D.O Group Medical Director - GM
Powertrain.
Work Phone # 248-857-2577, GM Pager 800-430-1446.
Prime Accused and current President of Michigan
Occupational Medicine who removed me as Contract
Physician at GM Willow Run Plant at Ypsilanti, Michigan
where I worked for almost eight years.
2. Anthony Burton, MD Plant Medical Director, Plant
Medical Director at GM Powertrain at Ypsilanti, Michigan.
Work Phone # 734-481-5244.
He just joined on November 2007. He is immediate past
President of Michigan Occupational Medicine and good
friend of Dr. Miller. He was selected as Plant Medical
Director bypassing me being white and with Jewish
App. 131

background. Dr. Miller and Dr. Burton did not like my
views that Eastern Philosophy or the Vedic Literature in
Sanskrit language with authoritative English translation
by the Eastern and Western Scholars is super-scientific and
accurate than the conventional concepts of Modern Science
including Bio-medical Science. They ignored my views
completely without paying any attention to my views and
kicked me out unfairly on June 11, 2008.1 sincerely request
investigators at EEOC to pay special attention about this
very important aspect. Also, I mentioned several times to
my colleagues during our GM Conferences that quality of
Modern Science including Bio-medical Science is
disorganized, poor and superficial as well as at
observational level only. Simply Dr. Miller and Dr. Burton
unable to tolerate my views as they are suffering from the
Pseudo Superiority Complex as described earlier.
3. Joel R. Bender, MD, PhD, Corporate Medical Director
GM Health Services. Work Telephone # 313-665-1652. He is
my good friend and sympathetic to my views about Vedic
App. 132

Literature are super-scientific and can provide higher
dimension to the conventional Modern Science including
Bio-medical Science. However, he opted to support Dr.
Miller and Dr. Burton. I believe this was due to being white
American with cultural, national, color and racial
similarity.
4. Renato Oteyza, MD. He is retired Plant Medical Director
at GMPT Willow Run, Ypsilanti, Michigan where he
worked for twenty-two years. I work with him as Contract
Physician for about eight years. He mentioned several
times to me that Dr. Miller wanted and tried to kick me out
as Contract Physician within last three or fours years. Dr.
Oteyza resisted bravely Dr. Miller’s recommendations or
suggestions to replace or remove at Willow Run Plant. He
graciously gave me his home # 248-990-9080 and Cell #
248-349-8515.
5. Kingsley Wooten, Plant Manager at GMPT Willow Run,
Ypsilanti, Michigan. I met him several times and provided
my Curriculum vitae to him. Initially, he was favorable for
App. 133

my selection as Plant Medical Director but later he changed
his mind probably per pressure and request by Dr. Miller.
6. Pete Felton, Director of Human Resources at GMPT
Willow Run Plant for many years. Also, I gave him my
curriculum vitae for his review and he appeared to be
favorable for my selection but he changed his mind with
Mr. Wooten.
7. David B. Siegel, MD, Assistant Director, Health Services
Operation and Programs. Work phone # 248-320-8517. He
is a good friend and good person. He did like my views
about the Superiority of the blissful and eternal Vedic
Literature. However, he preferred to remain neutral in this
situation.
8. Mark G. Singer, MD, Senior Medical Director, Power
train. Work Phone # 248-857-0599. He works with and
under Dr. Miller. Probably, he reported to Dr. Miller that I
have documentation problems. Dr. Oteyza and I work
under him.

App. 134

9. Emerson Cameron, RN, Nursing Director at GMPT
Willow Run Medical for thirty-five years. He was observing
and checking my documentation of all my patients past
eight years. He mentioned several times that my
documentation of patients is accurate and professional. He
responded with surprise the allegation by Dr. Miller and
Dr. Burton that “this is not right” in front of Dennis
Craszanski, X-Ray Technician and friend who works at
Willow Run Medical for years.
10. Chuck Rue, Linda Jenkins and Geraldine Brooks are
Registered Nurse working at Willow Run Medical for more
than thirty-five years and they witness my work for about
eight years. They are good friend and coworker. They were
in praise of my professionalism and my work experiences.
Work phone # for these nursing personnel is 734-481-5244.
All these nursing personnel and many of other coworkers
was surprised hearing my removal by Dr. Stanley Miller,
D.O. on June 11, 2008 including many of my medical
colleagues.
App. 135

11. Jennifer Abrams, Assistant Vice President, Field
Services Manager. Work phone # 248-223-6611. She invited
all GM physicians for Disability Conference to discuss
about disability topic with GM Attorneys during summer of
2007. As a feedback, I responded to Jennifer Abrams with a
letter titled as “The Understanding of the Supreme Court
Judge about Symptomatology at Molecular level” per
request of GM Attorney. However, I never received any
response from her or GM Attorney about this feedback.
12. Jay G. Manor, Senior Buyer-GSS at Global Purchasing
Health Care Initiatives. Work phone # 313-665-1793. He
was renewing contract of all four Contract physician every
year. I received a letter of renewal from him on July 15,
2008 mentioning that my contract has been extended up to
12-31-2009.1 was removed as Contract Physician on June
11, 2008.1 was very happy to receive this Contract
Extension from GM and immediately I thanked Dr. Joel
Bender, MD Corporate Medical Director for the extension
(copy of letter attached). Few days later, I received a phone
App. 136

call from Dr. Miller and email from Jay Manor saying that
this letter of extension was a “Clerical Error”!! I sincerely
consider these kinds of behaviors by Dr, Miller and other
GM personnel as expressed and concealed injustice,
discrimination and abuse of power.

Thank you very much for your valuable time and
consideration.

Atul C. Shah, MD
June 2008

App. 137

APPENDIX L

Appendix L: This Appendix L is the Official Opinion of
Atul C. Shah, MD documented in the Supreme Court
of the United States Case # 14-830. This article by
Dr. Atul C. Shah, MD titled as “Together we are
Stronger: Integration of Modern Science and
Spiritual Science” that was addressed to Late
American Medical Association President Ronald. M.
Davis, MD dated January 2008 as the Exhibit.
Pages for Appendix L are App. 138 to App. 157

App. 138

Together we are Stronger: the Integration of
Spiritual Science and Modern Science

January 30, 2008

Ronald M. Davis, MD
President
American Medical Association
515 N. State Street
Chicago, IL 60610

Dear Dr. Davis:
As an introduction, my name is Atul C. Shah, MD. I
am General Practitioner and Psychiatrist practicing at
Metro Detroit area in Michigan past twenty years.
Originally, I am from India and I practiced as General
Practitioner in India for eight years after my medical
graduation in 1974.1 have evaluated 12,000 (Twelve
thousand) psychiatric patients and total 112,500 medical
App. 139

patients (Fifteen patients per day x 250 days per year x 30
years) during my thirty years of career as physician and
psychiatrist in both countries. I have a great privilege to be
the citizen of the two greatest democratic countries of this
small globe - India and U.S.A. Presently, I am working with
General Motors Corporation as Contract physician past
eleven years and solo practitioner at Metro Detroit in
Michigan.
The inaugural speech by you as the President of
AMA on June 26, 2007 was simply wonderful. As the
Spiritualist and Psychiatrist, I am glad to mention that you
certainly believe in Re-incarnation as you connect your self
with the founder of AMA and 16th President Dr. Nathan
Davis one and half century ago. However, I have to mention
that you were reluctant to use word "Re-incarnation" in
your speech primarily due to political, cultural and
religious reasons.
Another reason for not mentioning "Re-incarnation"
in your inaugural speech was the lack of knowledge and
App. 140

poor understanding of Re-incarnation concept within our
Modern Bio-medical Science. However, I greatly appreciate
your boldness to acknowledge this wonderful topic with our
medical specialties as 162nd President of AMA. I will be
very happy to support this revelation and let me be the first
person to recognize that Dr. Ronald M. Davis and founder
of AMA Dr. Nathan Davis are the same person or Soul
transmigrating into two different bodies. This phenomenon
will be a great stimulant to understand and propagate the
"Spiritual Science" at present moment and in the future in
U.S.A. and all over the world.
The primary purpose to write this letter to you is to
support the wonderful Motto of American Medical
Association "Together we are stronger" and to help the
Mission of AMA "To promote the art and science of
medicine and the betterment of public health". These are
the wonderful Motto and Mission of the AMA past one and
half centuries for the American public and the people all
over the world.
App. 141

I am a proud member of AMA past seventeen years
from Michigan. I actively participated with AMA activities
during my Psychiatric Residency Training at Wayne State
University, Detroit, Michigan in early 1990'. Also, I am a
member with Michigan State Medical Society, Wayne
County Medical Society past seventeen years as well with
American Psychiatric Association and Michigan Psychiatric
Society for ten years in Michigan. This information is just
for a short introduction.
Also, another interesting purpose to write this letter
to you is the great need of integration of Spiritual Science
and Modern Science at present moment. The motto of AMA
- "Together we are Stronger" - is precisely pointing that our
human body is a sophisticated machine made up of the
three natural divisions as follow:
1. Gross Anatomical Body,
2. Subtle or Astral Body and
3. Spiritual Body or Spirit Soul

App. 142

The integration and accurate understanding of
above-mentioned three aspect of our human existence is
very essential. In other words, artificial separation of these
three aspects of Living Entity will be detrimental and this
vital information must be re-introduced to the educational
system from Elementary school to University level. The
artificial separation of Gross Anatomical Body, Subtle or
Astral Body and Spiritual Body of the living entity have
created great chaos in mind of the modern mankind
resulting into disorganized and poor quality of knowledge
in Modern Science including the Bio-medical Science.
The summary description of the Living Entity such
as Human being can be categorized in three levels:
L Description of the Gross Anatomical Body
2. Description of the Subtle or Astral Body
3. Description of the Spiritual Body
I am happy to mention that the blissful and eternal
Vedic Literature of India super-scientifically describe the
fundamental principles of the above-mentioned three
App. 143

divisions of the human and sub-human body. The accurate
understanding of three aspects or divisions of the human
body is extremely essential for revealing the purpose of the
human existence and human nature. The super-scientific
concepts of the blissful Vedic Literature certainly will help
Modern Science including Bio-medical Science to achieve
the higher dimensions with our conventional knowledge at
the present moment and in the future.
Furthermore, we have to take a serious note that the
fundamental principles of the Basic Sciences such as
Physics, Chemistry, Biology and Social Science are less
accurate, disorganized and semi-scientific in nature. For an
example - The Periodic Chart with description of 106 or 108
Atoms is not able to describe how the atoms were formed
and where the atoms were originated. Physicists are not
able to reveal whether the atoms were created in
chronological sequence or in non-chronological order as
described in the periodic chart. Physicists are unable to
answer scientifically about these relevant inquiries.
App. 144

Also, Biological Science fails miserably in description
of the chronological evolution of the various species such as
sub-human to human species. Social Science fails to
describe the natural "Occupational and Social Divisions" of
the human beings. Psychologists and Psychiatrists have
been undoubtedly and miserably failed in the description of
the Mental Apparatus, the Mental Activities and the
classification of the natural emotions and relationships of
the human beings.
The missing links and deficient nature of our Modern
Science becomes apparent when we scientifically analyze
the fundamental principles and concepts of the Basic
Sciences at Atomic, Molecular, Cellular and Organ levels.
In Medicine we have fifty plus specialties based upon the
structural information at Atomic, Molecular, Cellular and
Organ levels. The atoms, molecules, cells and organs with
their distinct structures are described in the basic sciences
of the Modern Science are less accurate and defective in
nature.
App. 145

The simple reasons for the deficient nature of modern
science can be summarized as follow.
The structural classification or Anatomical
Classification is based upon the structural information
obtained by the natural senses and extended senses or
modern instruments or innovations. Unfortunately, our
Natural Senses and Extended Senses or Modern
Instruments are defective and they are misguiding all of us
about the ultimate purpose of the human body & senses,
subtle body or mental apparatus and mental activities. In
other words, our Natural Senses and Extended Senses or
Modern Instruments have limited capability and they
themselves are defective in nature. The modern
instruments are not able to reveal the truths about human
body, mind and the spirit soul.
The primary purpose to mention the abovementioned deficiencies of the Modern Science including Bio­
medical Science is to elaborate that our fundamental
principles and concepts of Basic Science are disorganized,
App. 146

semi-scientific and deficient in nature at present moment.
In this scenario, it will be very difficult to make any
progress to understand the ultimate structural and
functional classification of the human body, human mind
and spirit soul.
We are very fortunate that the blissful and eternal
Vedic Literature in Sanskrit language of India with
authoritative English transliteration is available. The Vedic
Literature will certainly help to rectify these cardinal
deficiencies of the modern science right now. Together we
are stronger, healthy and happy as well peaceful and
prosperous.
The Spiritual Science and Material Science or
Modern Science are complimentary to each other and the
integration of Spiritual and Material sciences is the
greatest need at present moment in our educational system
in U.S.A, India and all other countries of this small globe.
I am trying my best to share this great body of
knowledge with colleagues past twenty-five years in U.S.A.
App. 147

and in India as physician, colleague and inquisitive human
being in very humble way. I am an ardent reader of the
eternal and blissful Vedic Literature in Sanskrit language
with authoritative English translation by Vedic Scholars
from the Eastern and Western hemispheres past twentyfive years. I humbly believe that the blissful and eternal
Vedic Literature can and will solve the deficient and
disorganized nature of Modern Science including Bio­
medical Science right now.
I have experienced many bitter and sweet
experiences in trying to share the super-scientific and
impeccable concepts of the blissful and eternal Vedic
Literature in U.S.A. and in India. I have experienced
personal ridicules, apathy and lack of interest by
Supervisors, Program Directors and Chairman as Resident
Physician in my residency training program, as Physician
working with several companies and at CME conferences
with colleagues and co-workers in work places. However,
most of the colleagues and co-workers are sympathetic and
App. 148

inquisitive to the questions of Spiritual Science. The
Spiritual Science definitely able to resolve the queries such
as Soul as the original pace maker in heart and body; S.A.
Node is the secondary pace maker in heart; transmigration
of Soul; description and classification of emotions;
description of mental apparatus & mental activities and
fundamental principles of cellular metabolism and other
interesting but poorly understood topics within the modern
science.
I may humbly request to you and our colleagues at
AMA to discuss above-mentioned authoritative and superscientific topics of the Spiritual Science freely in democratic
spirit for the improvement of modern science and
betterment of the mankind of this small globe.
Dear Dr Davis, I have a spectacular proposal for you,
for Dr. Plested William G. Ill, MD, Immediate Past
President and Dr. Nancy Nielsen H., MD President-Elect of
AMA and our colleagues as follow:

App. 149

1. Recognition of Spiritual Science as Specialty just like
Psychiatry and Psychology specialty including Spiritual
Science Residency Training Program.
2. Integration of Spiritual Science and Modern
Science/Material Science at graduate, post -graduate and
PhD levels with educational system.
3. Acceptance of defective nature of Modern Science
including psychiatry and psychology. Spiritual Science can
provide higher dimensions in the Modern Science including
psychiatry, psychology, social science and other basic
sciences.
4. Encouragement and active participation of physicians,
scientists and physicists for the understanding of the
Spiritual Science at undergraduate, graduate and post­
graduate levels in Schools, Universities, Clinics and
Hospitals.
5. Encouragement to discuss the Spiritual Science with
dignity, love and respect by Physicians, Co-religionists and

App. 150

Scientists of the various disciplines and faiths in U.S.A.,
India and all over the world.
6. Formation of the "Spiritual Science Committee" at AMA,
National and International levels to implement the
integration of Spiritual Science and Modern Science or
Material Science. I will be happy to be member with this
committee.
7. Removal of the artificial separation of the Science and
Religion without any political, religious and financial
consideration and manipulation. Politicians, Co-religionists
and Financial institutes should support "The Synthesis of
Science and Religion" honestly and whole-hearted without
any reservation and obligation.
8. The blissful and eternal Vedic Literature in Sanskrit
language is just like an endless and unfathomable ocean.
The eternal Vedic Literature is the original source and the
fountain-head of the Spiritual Science and Material Science
including Modern Science since the beginning of this planet
Earth and Universe.
App. 151

9. Acknowledgment of the Vedic Literature: the Supreme
Science in Sanskrit language with authoritative English
transliteration as the World Heritage of the mankind.
10. The eternal and blissful Vedic Literature in Sanskrit
language with authoritative English transliteration by the
Vedic Scholars from Eastern and Western hemispheres will
help to understand the Spiritual Science and Material
Science or Modern Science accurately and superscientifically for the betterment of the mankind at present
and in the future.
11. Establishment, endorsement and grant support of the
Spiritual Research Institutes to promote, preserve and
propagate the spiritual Science and Spiritual topics all over
the world.
12. The eternal and blissful Vedic Literature and Modern
Science are created by the Almighty One for the entire
mankind irrespective of his or her religious, national,
cultural, linguistic, racial, caste or creed affiliation in this
small globe.
App. 152

The eternal and blissful Vedic Literature will provide
higher dimensions with the Modern Science in the following
essential fundamental understandings and topics. These
topics are just the glimpses of the impeccable concepts and
wisdom of the Vedic Literature in Sanskrit language - the
ultimate body of knowledge for the entire mankind.
A. Universal Health Form: Easy Guide for Health
Professionals and Workers. We are looking for the
'Universal Health Form' which can be use by Physicians,
Nurse Practitioners, Insurance Carriers for easy to
understand and easy to communicate the patient
information at Clinics, Hospitals and offices.
B. Fundamental Principles of the Spiritual Science and
Material Science.
C. Fundamental Principles of Transmigration of Soul or Re­
incarnation Concept.
D. Fundamental Principles and Realistic Concept of Mind
and Mental Activities.

App. 153

E. Classification of Emotions, Inter-personal Relationships
and Science of Rasa.
F. Super-scientific Description of the Structural and
Functional Classification of Human Body and Human
Senses.
G. Occupational and Spiritual Division and Classification of
the Human Society based upon the Characteristic and
Actions of the Individual Person.
H. Super-scientific Definition of Time and Actions of Time
Factor.
L Super-scientific explanation of Creation of the Universe
and Universal Management.
Dear Dr. Davis and fellow colleagues at AMA: this is
very simple and humble proposal for the betterment of the
mankind from a simple, ordinary and humble person like
me. The ordinary persons performing the extra-ordinary
actions are very common in America and in this world. This
wonderful phenomenon - "Ordinary persons performing

App. 154

extra-ordinary action" - is well known to the people of
America past five centuries.
I greatly admire the American Spirit - the relentless
pursuit to realize the truth: the Absolute Truth. I believe
that this is the real secret of success for America past five
centuries. Let us continue to re-vitalize this Great Spirit for
the betterment of the entire mankind now and forever with
unity in diversity, with love and respect for every spirit
soul. However, it is a fact that the Absolute Truth is not
American, Indian, African and Chinese or Japanese in
nature.
Birth, Death, Old age and Disease are the four
formidable and inevitable events for every Living Entity Human, Sub-human or Super-human beings in this mortal
world. We all at AMA can perform better job by
transforming these four formidable and inevitable events of
Birth, Death, Old age and Disease processes into
pleasurable events in service of the Almighty Creator

App. 155

rather than the source of miseries and sufferings. I am sure
we all can do better job together with unity in diversity.
We greatly appreciate your able leadership as
President of AMA and Preventive Medicine Specialist
helping and taking care of many needy persons in U.S.A.
Your genuine relationship with late Dr. Nathan Davis and
your fascination with “Davis lineage and terminology” bring
all of us into the amazing arena of Re-incarnation Concept.
The eternal and blissful Vedic Literature has complete and
super-scientific explanation to unravel this frontier of the
Spiritual Science for every one of this small planet. Let us
pray that we all take advantage of this foremost and
ultimate body of knowledge without any reservation and
with open mind and heart.
I hope to hearing from you soon. I may humbly
request you to forward this letter to all Board of Trustees at
AMA and other research organizations per your discretion.
Dr. Joel Bender, PhD, MD, the Corporate Medical Director
and my colleagues at General Motors Corporation are very
App. 156

supportive of the Spiritual Science. I am happy to let you
know that we are discussing some of the above-mentioned
Spiritual topics past few years at personal level at General
Motors conferences.
The purpose of this correspondence is very simple:
Together we are Stronger.

Sincerely and fraternally yours,

Atul C. Shah, MD
Troy, Michigan, U.S.A.

My web site address:
VedicLiteraturetheSupremeScience@yahoogroups.com
My personal Email address: atul99krishna@vahoo.com
This article was emailed on January 30, 2008

App. 157

APPENDIX M

Appendix M: This Appendix M titled as “Higher
Dimension” article is the Official Opinion recorded in
the Supreme Court of the United States Case No. 14830. My article titled as Higher Dimension
Article was submitted as the Exhibit for the review
by the Honorable Judges J. Paul Oetken at the
United States District Court and Panel of Judges
John M. Walker, Rosemary S. Pooler and Richard C.
Wesley at the United States Court of Appeals for
Second Circuit. Also, this article was emailed to
hundreds of Modern Intellectuals and Vedic Scholars
in India, USA and many countries during Nov 4,
2012. This Higher Dimension article is containing
list of several recent articles.
Pages for Appendix M are App. 158 to App. 292

App. 158

Higher Dimensions with Modern Science including
Bio-medical Science. Psychiatry and Psychology
Higher Dimensions with Modern Man-made
Constitutional Laws
&

Higher Dimensions with Internet and Computer
Science Mystery
With Help of
Transcendental and Infinite Edged
Sword and Laser Pen
Of
Vedic Wisdom

Dr. Atul C. Shah. MD
Troy. Michigan. USA

App. 159

A. Introduction:
The eternal and blissful Vedic Literature: the
Supreme Science is the original and unfathomable body of
knowledge for understanding of the Spiritual Science and
Material Science for the entire mankind since time
immemorial in this planet and Universe. The Vedic
Literature: the Supreme Science is searched, researched
and re-researched by the Sages, Rishis, Vaishnava
Acharyas and Transcendentalists of the various branches of
the Eternal, Blissful and magnificent Vedic Culture since
the time immemorial of this planet Bharat-varsha and
Material Universe.
Higher Dimensions and transformation of the
Modern Educational System and Modern Man-made
Constitutional Laws according to the impeccable and
Super-scientific Concepts and fundamental Principles of
the blissful Vedic Literature is extremely essential and this
transformation is going on at gross and subtle level all over

App. 160

the world by the Vedic Scholars and modern intellectuals in
the Eastern and Western Hemisphere right now.
The concepts of the Vedic Literature in Sanskrit
language with authoritative English translation by the
Vedic Scholars are Super-scientific, blissful and eternal as
well time-tested, universal and infallible in nature for
benefit and enlightenment of the entire mankind.
There is no need to re-search again what already
have been researched by the greatest thinkers and
stalwarts of Vedic Literature: the Supreme Science for the
entire mankind now, in the past and in the future. Modern
Science including Bio-medical Science, Psychiatry and
Psychology as well as the Internet and Computer Science is
nothing but a small tributary of Material Science as
described in the unfathomable ocean of Vedic Literature.
Presently, the modern men from the Western and
Middle-eastern countries are terribly suffering from the
Pseudo-superiority Complex past few centuries. The
Western Scholars from Europe and America foolishly and
App. 161

stubbornly believe that their Educational. Religious and
Cultural Systems as well as the Modern Man-made
Constitutional Laws are the best and nothing but the best
in this small globe.
However, the notion to foolishly believe that “I am
the Greatest” without any substantial proofs or evidences
is nothing but the Phantasmagorias and useless and
wasteful Propaganda with help of Television, Radio, News
Papers, Internet and Computer Technological Gadgets that
are extremely common tools right now all over this small
globe.
This article superbly describes in nutshell the need
of the Higher Dimensions with the Fundamental
Principles of disorganized, superficial and fallible Modern
Science including Bio-medical Science, Psychiatry and
Psychology with sublime help from the Vedic Wisdom right
now.

App. 162

This article superbly describes in nutshell the urgent
need for the Higher Dimensions with the most merciless,
most ruthless and cruelest Judiciary System and Modern
Man-made Constitutional and Applicable Law System
created by the modern men from America and Europe past
few centuries with the superb guideline from the Vedic
Wisdom.
Finally, this article authoritatively and superbly
narrates the “Description and Glimpses of the
Fundamental Principles of the Internet and Computer
Science Mystery” per the Vedic Wisdom of blissful Vedic
Literature: the Supreme Science of Sanatana Dharma from
India. The Higher Dimensions with marvelous and
fabulous Internet and Computer Science Technology is
extremely essential and vital for the survival and
enlightenment of the seven billion of modern mankind in
the Western and Eastern Hemisphere right now in our
small Planet Bharat-varsha.

App. 163

Srimad Bhagavata Gita and Srimad Bhagavatam are
the ripened fruits and the Law Books for the mankind since
time immemorial in our Planet Bharat-varsha. The
fundamental principles of Modern Science including Bio­
medical Science, Psychiatry and Psychology are fallible,
disorganized and at the superficial level. The fundamental
principles of the Modern Man-made Constitutional Laws of
Judiciary System are defective and limited. Also, the
fundamental principles of Internet and Computer Science
are highly disorganized and poorly understood by the
Modern Innovators past less than one century.
I sincerely believe that any humble and sincere
Krishna Conscious Devotees, Transcendentalists and Truth
Seekers can explain and describe the fundamental
principles of Modern Science including Bio-medical Science,
Psychiatry and Psychology; Modern Constitutional Laws
and Modern Internet and Computer Science with help of
the Vedic Wisdom anytime in this small globe. No need to
be the Nobel Laureates Scientists, Physicists or Physician
App. 164

from the prestigious University. The Supreme Lord Sri
Krishna is merciful to anyone and everyone.
This article describes variety of Human Interactions,
Material and Spiritual Relationships; Social and
Occupational Divisions of Mankind; Neutrality and
Inactions or Apathy by the President and Prime Minister of
India; by Presidents of Medical Organizations such as
American Medical Association (AMA) & American
Psychiatric Association (APA); by the Chairmen, CEOs and
modern Innovators of the wealthy and influential Internet
and Informational Technology Companies such as
Microsoft, Apple, Intel, Yahoo, Google and other companies
in USA, Europe, India and all over this small globe. Also,
Neutrality and Inactions by the Federal and Supreme
Court Judges in USA and India are described in this
article.
I am enclosing my personal and real correspondences
with President and Prime Minister of India; four Presidents
of American Medical Association, three Presidents of
App. 165

American Psychiatric Association; Director of Disability
Determination Services and finally, my correspondences
with the Federal Court Judge at New York in USA with
this email for your pleasure and information in the mood of
Krishna Consciousness. All articles are written within last
less than ten years per my humble capacity.
I sincerely mention that my articles and
correspondences are primarily intended for the Global
Peace, Global Prosperity and Global Enlightenment
without any slightest blaspheme to anyone in this small
globe. Also, I have no intention for becoming the Center of
Attraction or for the Self-Aggrandizements or becoming
Rich and Famous.
I would like to humbly mention that I am the sole
responsible for contents of this article and other articles
written by myself within less than one decade. I will be
happy to accept any reward or rebuke for writing the
articles that are primarily intended for the straight forward
purpose of Global Peace, Global Prosperity and Global
App. 166

Enlightenments and as the mercy of the Supreme Lord Sri
Krishna.
Please read and enjoy this long article with A to Z
Sections and other six articles posted as the Attachment at
your leisure time with tranquil and open mind in company
of your friends and relatives at home, office or any
locations. Please spare about five hours of your valuable
time for reading these articles.
We hope that the moderators and technical staffs of
giant and influential Internet companies will transmit our
emails smoothly to the recipients in this small globe.
B. The Description of Human Interactions:
Our human interactions are optional or mandatory,
incessant and inter-dependent at Singular, Dual and Plural
levels. The examples of “Mandatory Interactions” are
strictly abiding and following the rules and regulations of
Educational, Cultural, Religious, Judicial and Political or
Social organizations at Family, Community, State and

App. 167

National or International levels by members and
participants of this small globe.
The examples of Optional Interactions are
responding or not responding the emails by recipients;
deleting, trashing or blocking the emails by moderators or
remain totally Neutral or Inactive to web site
correspondence with help of Internet and Computer
Technology at Singular, Dual or Plural levels in this small
globe right now. Above-mentioned are the nice examples of
“Optional or Mandatory Interactions” well experienced by
everyone during our Modern Era of Enlightenment.
C. Four Categories of Societal Interactions bv
Mankind:
Above-mentioned examples of Optional or Mandatory
human interactions are Societal Interactions at
Intellectual, Administrative, Entrepreneur and General
Labor classifications of the Natural Divisions of the Vedic
Culture: an Ideal Culture for the mankind. In the Sanskrit

App. 168

terminology, the four divisions of Societal Interactions
for Mankind are designated as follow:
1. Brahminical (Intellectual! Interactions
2. Ksatriva (Administrative) Interactions
3. Vaisva (Business) Interactions
4. Sudra (General Labor) interactions
The Gross Anatomical Body and Subtle Body of every
Living Entity such as Human, Sub-human and Super­
human Beings are strictly following and abiding by the
“Natural Laws” established by the Creative Agency of the
Supreme Lord Sri Krishna in our small Planet and
Material Universe since time immemorial. There are no
exceptions for strictly abiding the Natural Laws by the 8.4
Million Species of Living Entities born in our small planet
and Material Universe as beautifully described in the
Srimad Bhagavata Gita and Srimad Bhagavatam - the
ripened fruits of blissful Vedic Literature: the Supreme
Science. Everyone has to strictly abide by the Natural Laws
in our small planet and Material Universe.
App. 169

D. Everyone has to follow and abide bv the Natural
Laws;
Srimad Bhagavata Gita and Srimad Bhagavatam
explicitly narrate that Breaking the Laws of Nature as
established by the Creative Agency of the Supreme Lord Sri
Krishna are the primary causes of the repeated Birth,
Death. Disease and Old Age for every Living Entity such as
Human, Sub-human and Super-human Beings without fail
in our small planet Bharat-varsha since time immemorial.
Similarly, strictly abiding and following the Natural
Laws that are stringently established by the Creative
Agency of the Supreme Lord Sri Krishna are the greatest
and sublime guidelines or panacea for the Liberation and
Bliss for the 8.4 Million of Living Entities, especially by the
Human Beings at Singular, Dual and Plural levels in our
small planet. This immortal fact has been repetitively
emphasized, described and strictly hammered within all
the Scriptures of every Major Religions and minor faiths of
this small globe. The blissful and eternal Vedic Literature:
App. 170

the Supreme Science is the origin and fountainhead of all
Modern Religions and minor faiths without any hesitation
and reservation in our small planet Bharat-varsha.
E. The Scriptural Laws are for the Humble and
Obedient Human Society in our small Planet:
The breaking of the Natural Laws by mankind can
be easily summarized within four major categories as
follow:
A. No Meat-eating B. No Intoxication
C. No Gambling and D. No Illicit Sex
The above-mentioned four Cardinal Sinful Activities
or breaking the Natural Laws have been explicitly
described within all Major Religions and minor faiths of
this small globe. All other civil or criminal infarctions are
the combinations and direct results of the above-mentioned
four major breaking the Laws of Nature since time
immemorial as nicely mentioned within the Vedic
Literature: the Supreme Science. Anyone who breaks the

App. 171

above-mentioned Scriptural Injunctions is a culprit,
offender and a sinner in a simplest terminology.
Modern Man-Made Constitutional Laws and
Applicable Laws that are practiced during past few
centuries in USA, UK, and India as well as all over this
small globe are deficient and unnatural for the modern
mankind. This defective Judiciary System in America.
Europe and India as well as all over this small globe.
surprisingly and simply, excludes rights of the Sub-human
species within their jurisdiction for their natural and
peaceful co-existence with the Two-Legged Human species.
Also, the fundamental principles of Modern Science
including Bio-medical Science, Psychiatry and Psychology
are highly disorganized, superficial, at observational level
and fallible as well as becoming Obsolete and Useless right
now. Modern Scientists, Physicists and Physicians do not
know exact Fundamental principles of Modern Science
including Bio-medical Science, Psychiatry and Psychology
right now. The best example of the disorganized, superficial
App. 172

and fallible Fundamental Principles of Modern Physical
Science is the “Lack of Description of the Fundamental
Principles of Internet and Computer Science Mystery”
during our modern time.
F. Sharing of the eternal and blissful Vedic Wisdom
with fellow Citizens:
I have tried and I am trying my best to share the
impeccable and super-scientific concepts of the blissful and
eternal Vedic Literature: the Supreme science of Sanatana
Dharma from India to President and Prime Minister of
India; Presidents of American Medical Association (AMA),
American Psychiatric Association (APA); with my medial
colleagues and modern scholars at several medical
organizations, pharmaceutical and research organizations
in USA and India past almost two decades with no response
or meager response from the influential and wealthy
Executive Heads and Presidents.

App. 173

The Presidents and Executive Heads of wealthy and
influential Internet companies such as Microsoft, Apple,
Intel and Google and Yahoo etc are expert in Abuse of the
Optional Interaction just describe earlier in this article.
In other words, CEOs, Chairmen and Executive Heads of
the Internet and Computer Companies are too Neutral,
Callus and simply ignore existence of the brilliant Sun Vedic Wisdom - in USA, India and all over this small globe.
This scenario is just like an Owl considers the brilliant Sun
as a mystery and illusion. However, the brilliant Sun is
never covered or disappears from this universe.
G. The Super-Scientific Classification of Material
Relationships and Spiritual Relationships per Vedic
Wisdom:
As mentioned earlier that our Human Societal Interactions
are Optional or Mandatory, incessant and inter­
dependent at Singular, Dual and Plural levels. These
unlimited and numerous Human Interactions can be
categorized into Three Broad Categories as follow:
App. 174

I. Material Interactions or Relationships
II. Mental Interactions or Relationships
III. Spiritual Interactions or Relationships
L Material Interactions or Relationships:
The interactions generated or put into motion by the
Gross Anatomical Body of mankind at Singular, Dual and
Plural levels are considered as the Material Interactions
or Physical Interactions. These Physical interactions are
the byproducts or End Results of the Three Modes of
Nature - Sattva Guna, Rajo Guna and Tamo Guna as
practiced by Four Divisions of Human Society (Brahmana,
Ksatriya, Vaisya and Sudra Interactions) as nicely
described in the Srimad Bhagavata Gita and Srimad
Bhagavatam. The Intellectual Interactions by Scientists
and Teachers; the Administrative Interactions by
Politicians; Military Commanders and CEOs; the Business
Interactions by an entrepreneurs and business men; and
finally, General Labor Class Interactions by a Janitor,
Manual Laborer and Workers are accurate and nice
App. 175

examples of the Material Interactions exchanged and
performed by the Human Society at Singular, Dual and
Plural levels since time immemorial in our small Planet
Bharata-varsha. This is a nice definition of the Material
Interactions or Relationships between Four Natural
Divisions of Human Society per the Vedic Wisdom.
II. Mental Interactions or Relationships:
The interactions generated or put into motion by the
Subtle Body that is consisting of Mind. Intelligence and
False Ego at Singular, Dual and Plural levels of Human,
Sub-human and Super Human beings are consider as
Mental Interactions or Subtle Interactions. Also, the
Mental Interactions can be called as the Perceptions. Lack
of Perception and Misperception per the Modern Bio­
medical Science including Psychiatry and Psychology. All
Mental Interactions are also the byproduct or End Result of
the Sattva Guna, Rajo Guna and Tamo Guna as
authoritatively described per blissful Vedic Literature: the
Supreme Science. These Mental Interactions or
App. 176

Relationships can be abused or wisely used bv the
Intellectual Class, Administrative Class, Business Class
and General labor Class of Varnasrama Dharma in our
Human Society individually and collectively. This is the
Vedic Wisdom.
III. Spiritual Interactions or Relationships:
The Interactions generated or put into motion by the
Soul Proper located with the Subtle Body in the heart of
any Living Entity such as Human, Sub-human and Super­
human beings are explicit and nice examples of the
Spiritual Interactions per the eternal and blissful Vedic
Wisdom of the Sanatana Dharma. The exchange of Twelve
Rasa and Six Opulence is the primary function of the
Soul Proper in the heart as beautifully described in the
Science of Rasa within Nectar of Devotion, Srimad
Bhagavata Gita and Srimad Bhagavatam. This is the
summary description of the Spiritual Interactions. Please
consult my articles on Science of Rasa for detail forwarded
earlier with several Vedic Web sites
App. 177

IV. Natural Divisions of the Human Society:
The above-mentioned Material and Spiritual Societal
Interactions or Relationships are eternally and blissfully
present in any Human Society in our Planet Bharat-varsha
and our single Material Universe. The Four Material
Interactions or Relationships are exchanged optionally or
Mandatory, incessantly and always Inter-dependent within
Four Divisions of Human Society. In Sanskrit Terminology
this super-scientific and natural divisions of Mankind is
termed or known as Varnasrama Pharma: an Ideal Culture
for the mankind.
V. In nutshell:
Modern science including Sociology, Psychiatry and
Psychology are unable to define scientifically of this blissful
Material and Spiritual Interactions or Relationships of the
Mankind. The primary reasons for their inability to
distinguish this vital information is secondary to the lack of
the Vedic wisdom in the Modern Educational System at
School and University levels in USA, India and all over this
App. 178

small globe. Certainly, the Vedic Wisdom will help modern
intellectual for this vital issue.
The Modern Science including Bio-medical Science,
Psychiatry and Psychology is terribly deficient and highly
disorganized in the Description of the Fundamental
Principles of Gross Anatomical Body, Subtle Body or
Mental Apparatus and Spiritual Science of the Soul, Super
Soul and the Supreme Personality of Godhead. The Nobel
Laureates Scientists, Physicists and Physicians are unable
to describe above-mentioned critical and extremely
essential Subject matter past several centuries primarily at
the prestigious Universities and Educational Systems in
USA, Europe and even in India. The primary reason is the
lack of training according to the impeccable and superscientific concepts of the eternal and blissful Vedic
Literature: the Supreme Science of the Sanatana Dharma
from India.

App. 179

The fundamental principles of Psychiatry and Psychology,
undoubtedly, are the most disorganized, superficial and
craziest in nature known to every Psychiatrist,
Psychologist, Neurologist and almost everyone in this small
globe, unfortunately.
H. Himalaya Mountain is the Longest. Widest and
Tallest Mountain Range: So is Vedic Literature: the
Supreme Science:
The Himalayan Mountain Range is the longest.
widest and tallest in this small globe is the dazzling fact
known to everyone. Similarly, it is the brilliant fact that
Vedic Literature in Sanskrit language from India is the
unfathomable Ocean and fountain-head as well as the
origin of every branch of knowledge such as Modern Science
including Bio-medical Science, Psychiatry and Psychology;
Musical Arts, Mathematics, Natural Laws and Man-made
Laws; Marshall Arts, Military and Space Technology,
Astrology, Mystic Perfections as well as the modern
Internet and Computer Science Mystery. Every branch of
App. 180

knowledge is certainly originating and derived directly or
indirectly from the Vedic Wisdom. This is very simple and
easy to understandable truth, even to a small child.
Vedic Literature: the Supreme Science of Sanatana
Dharma from India will certainly help modern mankind for
the Higher Dimensions with the fundamental principles of
Modern Science, Modern Constitutional Laws and Modern
Internet and Computer Science right now without any
hesitation or reservation. Let all of us take shelter of the
blissful and eternal Vedic Wisdom.
Higher Dimensions is a wonderful topic for the
Transcendental Intellectual Debate for the Global
Peace, Global Prosperity and Global Enlightenment for the
Modern mankind. Higher Dimensions Topic should not be
misinterpreted as Blaspheme. Defamation or Contempt of
Court purpose by anyone. Mount Everest is the tallest and
most magnificent Mountain Peak is the reality and same
truth is applied for the Vedic Literature: the Supreme
Science or the Blissful Vedic Wisdom.
App. 181

I. Higher dimensions with Modern Science including
Bio-medical Science. Psychiatry and Psychology;
I am trying my best with all the humbleness to share
-this impeccable and super-scientific Vedic Wisdom to
Modern Intellectuals, Modern Political and Religious
Leaders as well General Public in USA, India and other
locations past two decades with the help of Internet and
Computer Science Technology - the sparks and opulence of
the Supreme Lord Sri Krishna.
Also, there are brilliant Vedic Scholars from USA
and India as well other places that are mercifully trying to
share the blissful Vedic Wisdom of the Sanatana Dharma
from India in the past, at present and in the future in this
small globe.
I tried and I am trying to share the blissful Vedic
Wisdom to President Smt Pratibha Devisingh Patil and
Prime Minister Shri Manmohan Singh of India; four
Presidents of the American Medical Association (AMA)
such as late Dr. Ronald M. Davis, MD, Dr. Nancy Nielsen,
App. 182

MD, Dr. Peter Carmel, MD and recently, with Dr. Jeremy
Lazarus, MD; three Presidents of American Psychiatric
Association (APA) such as Dr. Michelle Riba, MD, Dr. John
Oldham, MD and Dr. Dilip Jeste, MD as well as with my
medical colleagues at workplaces, Vedic Scholars and
during Medical conferences in USA past two decades.
Higher Dimensions with the Psychiatry and
Psychology is extremely essential right now. For an
example: Psychiatrists and Psychologists are unable to
define scientifically and accurately the Description of
Normal Behaviors and Abnormal Behaviors of the
Mankind as beautifully described in this article base upon
the Science of Twelve Rasa. As result, the malignant effects
of Psychiatry and Psychology are affecting modern
mankind in the USA, India, Europe and every country in
this small globe as documented by many Psychiatrists and
Psychologist.
Dr. Jeremy Lazarus, MD the 167th AMA President
and a Psychiatrist past forty years responded to my
App. 183

correspondence couple of month ago. Also, I have had nice
personal meeting with late Dr. Ronald M. Davis, MD
during fall of 2008 for the discussion of the Higher
Dimensions with Modern Bio-medical Science. I am
forwarding the Response Letter from Dr. Jeremy Lazarus,
MD and late Dr. Ronald M. Davis, MD with this email for
your review.
However, the Higher Dimensions with the
Fundamental Principles of Modern Science including
Psychiatry and Psychology as well as with Modern Man­
made Constitutional Laws and Applicable Laws in USA,
United Kingdom, India and other countries are extremely
essential right now. The eternal and blissful Vedic
literature: the Supreme Science of Sanatana Dharma from
India and the magnificent and Subtle Internet and
Computer Technology from USA are the vital forces and
Tsunamis that certainly can help the modern man for the
Global Peace, Global Prosperity and Global Enlightenments
right now without any doubt and hesitation.
App. 184

J. Modern Man-made Constitutional Laws and
Applicable Laws are Deficient and Limited:
The Section J to Section N of this article describe
that the Modern Man-made Constitutional Laws and
Applicable Laws are deficient and limited in nature
secondary to the lack of Vedic Wisdom. The Blissful Vedic
Literature: the Supreme Science will help in Higher
Dimensions with the Modern Man-made Constitutional
Laws right now as described in this article.
The Modern Man-made Constitutional Laws and
Applicable Laws can be easily Distorted. Misinterpreted.
Manipulated and Stretched in any direction by the
Plaintiff and Defendant attorneys as well as by the Federal
Court and Supreme Court Judges for rendering fair or
unfair judgments to the General Public in USA, UK and
India are real facts and occurrences.
The Modern Man-made Constitutional Laws and
Applicable Laws are able to verify and PROVE or
DISPROVE the Criminal or Civil Infarctions that were
App. 185

performed with the help of Gross Anatomical Body such as
Murders, Rapes, Assaults, Broken Bone or Gross Bodily
Mutations with Criminal Investigations and Discoveries.
However, the Applicable Laws miserably fails in
PROVING or DISPROVING the subtle Criminal and
Civil Infarctions that were performed with the Subtle and
Invisible Body or Mental Apparatus of the aggressors or the
Victims.
Rich. Famous and Influential people such as
Football, Basketball, Cricket and Tennis Players; famous
Politicians and Religious leaders and anyone who is Rich
and Famous person in USA and India as well other
countries can perform criminal activities and remain free of
allegation with help of Law Practitioners. No one is above
the Law is only for the poor and helpless Blacks, Hispanic,
Asians with rarely white people in USA, India and other
places with rare exceptions. This observation is the real
weakness and deficient nature of the Judiciary System in
USA, Europe and India as well all over this small globe.
App. 186

The Federal and Supreme Court Judges are acting as
the Mini-god and mercilessly punishing the innocent
General Public with their “Black Robe and Brown Court
Hammer” in USA, UK, India and other countries in our
small globe right now. The primary culprit for this Global
Distress and Global Holocaust is the deficient and highly
disorganized Judiciary and Law Systems manufactured
by the ungodly and cruel Modern men from USA, United
Kingdom, India and other countries within last few
centuries of this small Planet Bharat-varsha.
Modern Judiciary and Law System are responsible
for the horrible and unprecedented Destruction of Cordial
Relationship with Family members, within Community, at
National and International levels all over his small globe
right now.
Modern Judiciary System as practiced in USA,
United Kingdom, India and other countries is best example
of the most sadistic, dictatorial and un-democratic
Judiciary System in our small planet Bharat-varsha right
App. 187

now. The Federal and Supreme Court Judges are rendering
the faulty and un-fair Judgments to be swallowed and
digest by the helpless General Public. The federal and
Supreme Court Judges are acting as the Ultimate
Aggressors with help of Black Robe and Brown Court
Hammer for the General Public — the Ultimate Victims.
No mercy or Compassion for anyone.
The primary reasons for rendering Faulty and Unfair
Judgments by the Federal and Supreme Court Judges are
lack of proper understanding of the Natural Laws,
Scriptural Laws and the Vedic wisdom of Vedic Literature:
the Supreme Science as described in this article. The Vedic
Wisdom can certainly help to provide Higher Dimensions
with the Modern Judiciary System right now.
It has been said accurately that anyone who has been
involved with the Court System for Civil or Criminal
Litigation is due to his or her Bad Karma. The merciless,
ruthless and cruelest Legal System that has been ever
created by the ungodly modern men in USA, United
App. 188

Kingdom and India are forcibly administering the defective
and unfair Judgments to swallow and digest by the General
Public or Victims. These are the best examples of Bad
Karma for anyone in this small globe right now.
K. Higher Dimensions with Modern Man-made
Constitutional Laws and Applicable Laws:
Srimad Bhagavata Gita and Srimad Bhagavatam are
the eternal Law Books for mankind in our planet Bharatvarsha. Tapas or Austerity, Sauca or Cleanliness,
Daya or Mercy and Satya or Truthfulness (SB 1.17.24)
are Four Pillars of Dharma or Natural Laws for the ancient
or modern mankind in this small planet Bharat-varsha
since the time immemorial. The careful reading of the Vedic
Literature: the Supreme science by a sincere and humble
person can reveal the Fundamental Principles of the
Natural Laws and able to provide higher dimensions with
the Man-made Laws as described in this article.
The Modern Man-made Constitutional Laws and
Applicable Laws that were established by Modern Men
App. 189

from America, United Kingdom, India and other countries
simply discard or do not pay any attention to the
Austerity. External and Internal Cleanliness and Mercy
to the fellow Human beings and the Sub-human beings
within their Jurisdiction and Judiciary Systems past few
centuries.
In absence of the Blissful Vedic Wisdom, there is no
wonder that the Federal and Supreme Court Judges and
Law Practitioners are unable of rendering true and fair
Judgments to the gullible and innocent General Public with
their Black Robes and Brown Court Hammers now, in
the past and in the future in USA, United Kingdom, India
and other countries.
The executive heads such as Presidents and Prime
Ministers of USA, United Kingdom, India and other
countries take oaths to serve country truthfully during
their Oath Ceremony taking their respective Scriptures in
hands such as Bible, Koran, Gita and other sacred books.
However, there is No consideration of practice of Austerity.
App. 190

Cleanliness and Mercy for their citizens or sub-human
beings including themselves.
Three Pillars or three Foundations — Austerity.
Cleanliness and Mercy - are broken and missing within
the Modern Society, Modern Culture and Modern man­
made Constitutional Laws and Applicable Laws System
right now in USA, United Kingdom and India and
practically all over this small globe. However, this last Leg
of Dharma — Truthfulness - is dwindling and becoming
unsteady now a day. These are the missing links and
missing laws as beautifully narrated within the Srimad
Bhagavata Gita and Srimad Bhagavatam — the ripened
fruits of eternal and blissful Vedic Literature: the Supreme
Science.
There are Ten Original Amendments and Sixteen
Additional Amendments with the Modern Man-made
Constitutional Laws and Applicable Laws created in USA
within past two century. USA claims herself as the greatest
Democratic Country with the Freedom of Religion, Freedom
App. 191

of Expression and Freedom of Speech that are the hallmark
of USA for every citizen in this small globe right now.
Let us pray that the Executive Heads, Presidents
and the Supreme Court Judges of USA should pass one
more Amendment right now. This Final Twenty Seventh
Amendment must include Austerity, External and
Internal Cleanliness, Mercy and Truthfulness for the
benefit of the citizens and the Sub-human beings of USA,
United Kingdom, India and other countries of this small
globe right now. The Sub-human beings are also the
citizens of this small globe.
Late Sri Mahesh Yogi and his Transcendental
Meditation Team tried their best to increase awareness of
the defective and disorganized nature of the Modern Man­
made Constitutional Laws of USA during 1970s and 1980s
unsuccessfully. The primary reason for their failure is that
they were unable to approach and explain to the Federal or
Supreme Court Judges in USA the fundamental principles
of Natural Laws of the Vedic Wisdom. Transcendental
App. 192

Meditation Team of Sri Mahesh Yogi was scared to tell the
sublime truth of Vedic Wisdom to the Supreme Court
Judges in USA and India.
In short summary: Modern Man-made
Constitutional Laws and Applicable Laws are highly
defective, limited and unable to render fair Judgments to
General Public in USA, United Kingdom and India as well
all over this small globe past few centuries.
Tapas or Austerity. Sauca or Cleanliness. Dava
or Mercy and Satva or Truthfulness must be the
original Foundation and Four Pillars of Pharma or Natural
Laws for any organization such as Law. Science. Education.
Political and Religious organization etc for the ancient or
modern mankind in this small planet Bharat-varsha since
the time immemorial.
In other words, any Culture, any organizations or
Society that are deficient of the Great Four Pillars
(Austerity, Cleanliness, Mercy and Truthfulness) should be
consider as the most ruthless, most merciless and
App. 193

abominable culture and civilization in our small globe. The
blissful and eternal Vedic Wisdom will certainly provide
Higher Dimensions with the Modern Science, Modern
Judiciary System and Internet and Computer Science right
now.
L: The Supreme Court Judges, Criminal
Investigation. Discovery and Reincarnation:
In this Section, the reasons for the Supreme Court and
Federal Court Judges are rendering faulty and defective
Judgments or Verdicts to the General Public at the Courts
are described.
As mentioned, several times in this article that the
Modern Man-made Constitutional Laws and Applicable
Laws created by modern men from USA, Europe and other
countries past few centuries are deficient and limited as
well as unable to render fair judgments to General Public
past few centuries of this small globe.
However, the Presidents and Political leaders of USA
and Europe are proud to declare that the Modern ManApp. 194

made Constitutional Laws are perfect for their citizens.
This is the best example of the Pseudo-Patriotism and
Pseudo-superiority Complex by the American Presidents
and other Political Leaders of the Western Culture past few
centuries.
The primary reasons for the defective and limited
judgments by the Supreme Court Judges and Law
Practitioners that they are lacking in sound understanding
of the Material Relationships and Spiritual Relationships
or the Science of Twelve Rasa. Law of Karma.
Reincarnation and Exchanges of Six Opulence within the
Human Society, The lack of knowledge of the abovementioned topics or Vedic Wisdom is the primary reason for
the faulty and deficient Judgments rendered by the Judges
at the Judiciary Systems in USA. Europe. India and other
countries.
I may cite few examples of defective and limited nature of
the Judiciary System in this section.

App. 195

The Supreme Court Judges and Law Practitioners
are relying on defective and unreliable Criminal
Investigations and Discoveries for criminal and civil
infarctions performed by the alleged offenders or criminals
during his or her present life. The Judiciary System is
unable to investigate the Criminal and Civil infarctions
performed by the alleged offenders or criminals in their
previous life or previous incarnations. Also, the court
system is unable to conduct investigation or discovery of
Criminal and Civil Infarctions by Alleged Offenders in their
future life or future incarnations. Reincarnation is the
mystery for the Supreme Court Judges.
In Nut shell: The Judges at Court System are able
to verify and investigate the Criminal or Civil Infarctions
performed by the alleged offender in his or her present life
only. The court system unable to verify Criminal and Civil
Infarctions performed in previous life and future life of
alleged offenders. This fact is the nice example of limited

App. 196

and inadequate Judgments and verdicts by the Judges at
the court systems in USA, India and other countries.
I believe that the Supreme Court Judges should
order the Nobel Prize winner Scientists, Physicists and
Psychiatrist or Psychologists to conduct Researches and
create investigational tools that may discover the multiple
Civil or Criminal Infarctions performed by the alleged
offenders within their previous Ten Incarnations and future
Ten Incarnations.
The Supreme Court Judges should not restrict their
investigations and discoveries in present life of the alleged
offenders. The Supreme Court Judges and Law
Practitioners should expand their jurisdiction at least up to
ten previous life or incarnations and ten future
incarnations of every alleged offender or criminals in USA,
Europe, India and other countries. The habitual criminals
and offenders are perpetually committing criminal crimes
again and again in present life that can be traced to his or
her previous ten life or incarnations.
App. 197

The investigations and discoveries of criminal and
civil infarctions performed within the past ten incarnations
will consolidate the fair and clean judgments by the
Supreme Court Judges. The investigations of criminal and
civil infarctions that will be performed in the future
incarnations will help Judges and Law Makers for the
Prevention of the future criminal activities by the
offenders.
The Vedic Wisdom will help the Supreme Court
Judges the past, present and future criminal infarctions of
all offenders for the perfect and fair judgments. The Vedic
Wisdom will help the Supreme Court Judges and Judiciary
Systems in Mystery of Incarnation and other essential
subject matters.
Present moments, in absence of the Higher
Dimensions with the Modern Man-made Constitutional
Laws: the Police Department. Prison System and Modern
Court System are becoming the “Triangle of Terror and
Axis of Evil” for the General Public in USA, Europe and
App. 198

India as well as all over this small globe. Law System is
becoming lucrative business for the Law Practitioners and
the Police Department all over this small globe right now.
Anyone can file a Law Suit to anyone for any real or fake
reasons; anyone can file a petition to anyone with fake or
real reasons and anyone can call 911 or 311 and other
methods anytime keeping Law Practitioners, Police
Department and Prison System busy for the Lucrative
Money-making Business for the fun.
No wonder that the American Public is the
most stressed out, most distressed and most tortured
citizens of this small globe right now.
Also, I may provide few more examples of defective.
ever-changing and limited nature of Modern Man-made
Constitutional Law that is practice in USA past few
centuries. Black people were designated as Slave by the
Modern Man-made Constitutional Laws two century ago in
USA. Black people were freed from Slavery and given
status of the Second-Class citizens and Not the Slaves
App. 199

after Civil War with help of New Amendments in 1880’ in
USA. The Female population and Black Population were
given the right to vote recently in USA with another New
Amendments by White Law Makers. These are best
examples of the ever-changing, deficient and limited nature
of the Modern man-made Constitutional Laws and
Applicable Laws that are practiced in USA, Europe and
other countries.
In other words, the modern man-made constitutional
laws as practice by the Supreme Court Judges and Law
Practitioners are ever changing, defective and limited in
nature created by the modern men with lack of the Vedic
Wisdom.
Srimad Bhagavata Gita and Srimad Bhagavatam are
the beautiful Text Books of Natural Laws and
Constitutional Laws that are described in sublime and
authentic format for benefits of the Modern and Ancient
civilizations in our planet Bharat-varsha.

App. 200

However, the Law of Karma are certainly catching
up with the misguided and misdirected modern civilization
from USA, Europe, India and practically every corner of
this small globe right now. Everyone is accountable for his
or her actions and destiny. The blissful Vedic Wisdom
certainly will help anyone and everyone for this modern
problem with ancient solution.
M. Requesting the Supreme Court Judges for the
Higher Dimensions at the Federal and Supreme
Courts in USA:
I am pursuing a Civil Litigation with General Motors
case to the District Court, Federal Court and finally if
needed, with the Supreme Court in USA past four years
since 2008 for the topic of Higher Dimensions with Modern
Science including Bio-medical Science, Psychiatry and
Psychology.
This civil litigation case also describes that the
Modern Man-made Constitutional Laws and Applicable
Laws are deficient and limited in nature. The Modern ManApp. 201

made Constitutional Laws and Applicable Laws that are
practiced in USA, Europe, India and other countries
certainly need Higher Dimensions per the Vedic Wisdom
for the betterment of the modern mankind as described in
this article.
I am requesting the Federal and Supreme Court
Judges for rendering their opinion or Judgment for the
Higher Dimensions with disorganized and fallible Modern
Science including Bio-medical Science, Psychiatry and
Psychology; Higher Dimensions with limited and deficient
Modern Man-made Constitutional Laws as well as Higher
Dimensions with poorly understood Fundamental
Principles of the Internet and Computer Science with the
sublime help from the Vedic Literature: the Supreme
Science.
The Supreme Court Judges in USA, India and other
countries are empowered by the Modern Government and
their verdicts and judgments are accepted and honored by
everyone. So, we may request the Supreme Court Judges to
App. 202

order the Nobel Laureates Physicists, Scientists, Law
Practitioners and Modern Innovators to submit their thesis
for the Higher Dimensions with Modern Bio-Medical
Science, Modern Man-made Constitutional Laws and
finally, thesis of the Description of the Fundamental
principles of Internet and Computer Science as the open
Debate and Comparative Study.
I am trying my best with my personal litigation case
and requesting the Honorable Judges at Federal and
District courts in USA for this sublime purpose. I am
forwarding my correspondence with the Federal Court
Judge Robert E. Gerber, United States Bankruptcy Court
Judge in New York, USA for your information as an
Attachment with this email.
I must confess that I am a simple person with no
formal training or degree in Law. I have some experience in
the Law matter past four or five years. I am providing my
personal opinion that is based upon the Vedic Wisdom for
the Higher Dimensions with Modern Man-made Laws as
App. 203

described in this article. I am getting help from two
volunteer Lawyers in Michigan at USA past four years.
However, and surprisingly, I write most of the Briefs myself
per the Vedic Wisdom.
Srimad Bhagavata Gita and Srimad Bhagavatam are
the eternal Law Books for mankind in our planet Bharatvarsha. Tapas or Austerity, Sauca or Cleanliness,
Daya or Mercy and Satya or Truthfulness (SB 1.17.24)
are Four Pillars of Dharma or Natural Laws for the ancient
or modern mankind in this small planet Bharat-varsha
since the time immemorial. The careful reading of the Vedic
Literature: the Supreme science by a sincere and humble
person can reveal the Fundamental Principles of the
Natural Laws and able to provide higher dimensions with
the Man-made Laws as described in this article.
N. Transcendental Panacea and Remedy for the
Modern Law System;
What is the Panacea and Remedy for this horrible,
unprecedented and un-godly scenario for the Modern
App. 204

Mankind right now? The answer is simple and straight
forward: Implementation of the authoritative, eternal and
blissful Vedic Wisdom of Vedic Literature: the Supreme
Science of Sanatana Dharma from India by the modern
men and nothing else.
Srimad Bhagavata Gita and Srimad Bhagavatam are
the ripened fruits of the blissful Vedic Literature: the
Supreme Science and the ultimate authoritative LAW
BOOKS for the modern and ancient mankind since the
time immemorial in our small Planet Bharat-varsha.
The Vedic Literature in Sanskrit Language is the
eternal and blissful compilation of body of pure and
timeless knowledge that appears and disappears upon the
sweet will of the Supreme Personality of Godhead Sri
Krishna in our Blue Planet Bharat-varsha and Single
Material Universe. The primary purpose of the Vedic
Literature: the Supreme Science is the Global Peace and
Global Enlightenment of the mankind in mood of the pure

App. 205

Krishna Consciousness for everyone and anyone without
any exceptions.
Srimad Bhagavata Gita and Srimad Bhagavatam
beautifully narrates the Natural Laws, Scriptural Laws
and Spiritual Laws that are for the up-liftment of the
modern and ancient civilizations now, in the past and in
the future in this small globe.
Beautiful Srimad Bhagavatam (SB 1.17. 241
authoritatively describe that Tanas or Austerity. Sauca
or Cleanliness. Dava or Mercy and Satva or
Truthfulness are the original Foundation and Four Pillars
of Pharma or Natural Laws for the ancient or modern
mankind in this small planet Bharat-varsha since the time
immemorial. These four pillars or foundations or Laws are
symbolized as the Four Legs of Bull or Personified Pharma
per the blissful Vedic Wisdom.
Any culture, civilization, country or society that are
devoid of Four Cardinal Principles or Four Pillars of
Pharma such as the Austerity or Tapas; External &
App. 206

Internal Cleanliness or Sauca; Mercy or Daya to the
fellow Human, Sub-human and Super-human beings and
finally, the Truthfulness or Satya at Individual and
Collective levels are breaking the Fundamental Principles
of Laws without any hesitation and reservation.
O. The Description of the Fundamental Principles of
the Internet and Computer Science;
In Section O to Section T of this article. I have
described the Eighty Percent or 80% Fundamental
Principles of the Internet and Computer Science Mystery
per my humble capacity for the purpose of the benefits of
the modern mankind. I will describe remaining Twenty
Percent or 20% fundamental principles of the Internet
and Computer Science Mystery in my upcoming article:
“Vedic Literature: the Supreme Science — the Atheist
Buster” pretty soon.
My Dear Friends and Vedic Scholar: This is the most
fascinating and fun portion of this article.

App. 207

The Modern Innovators of giant and wealthy
Internet and Computer Technology Companies such as
Microsoft, Apple, Intel, Yahoo, Google and other
Information Technology Companies are miserably and
painfully incapable of providing accurate, super-scientific
and real Description of the Fundamental Principles of
Internet and Computer Science right now!!! This is a real
fact and funny scenario in USA, Europe and India and
practically all over this small globe.
Everyone from a High School Student to the
Founders, Chairmen and Chief Executive Officers of
Microsoft, Apple, Intel and “You Name It” Information
Technology Innovators are regularly applying the Modern
Computer and Internet Technology, several Micro and
Macro Gadgets with great enthusiasm and love past less
than one century all over this small planet Bharat-varsha.
However, they do not worry or do not care how this small
and large Technological Gadgets or Technological Cute
Puppies. Cuddly Cubs and giggling Babies are singing,
App. 208

smiling, cooing and flirting automatically and effortlessly in
the hands and Topless Lap of the astonished Modern
Man!!! Please smile softly without giggling.
However, the most astonishing and funny story is
that no one such as Presidents. Chairmen, CEOs and
Executive Heads of wealthy and influential Internet
Companies pay any attention to the Description of the
Fundamental principles of Internet and Computer Science
Mystery right now. Is this not a funny and weird story right
now in USA, Europe and India as well as almost
everywhere in this small globe? This scenario is absolutely
mind-boggling and real story right now.
I strongly believe that Modern Innovators of wealthy
and giant influential Internet and Computer Science
Companies

such as Microsoft, Apple,

Intel,

Hewlett

Packard, Yahoo, Google and other numerous Internet and
Informational Technology Companies are unable to reveal
the Super-scientific and natural Fundamental Principles of
Internet and Computer Science Technology past less than
App. 209

one century in USA, United Kingdom, China, Japan and
even in India as well other countries.
Again, I will try my best to describe the Glimpses of
the fundamental Principles of Internet and Computer
Science Mystery with this article in following Section P,
Section Q, Section R and Section S per my humble capacity.
P. The Creation of Gross Anatomical Body and
Subtle Body of 8.4 Million Species in our small
Planet;
Srimad Bhagavata Gita and Srimad Bhagavatam
authoritative describe that 8.4 Million species of Living
Entities such as Human, Sub-human and the Super-human
beings are created with help of the impeccable and
stringent Natural Laws by the Impersonal Creative Agency
of the Supreme Lord Sri Krishna.
Lord Brahma is the Creator of the 8.4 Million
Species such as the Human, Sub-human and Super-human
species. Also, Lord Brahma creates several Progenitors or
Prajapati, Sages and Rishis who are helping Lord Brahma
App. 210

for creation of varieties of Human, Sub-human and Super­
human beings depending upon the time, place and
circumstances in this small planet and universe.
The Gross Body and Subtle Body of 8.4 Million
species are created from combination of the Material
Energy and Spiritual Energy of the Supreme Lord Sri
Krishna per the impeccable Natural Laws. Lord Brahma
and his creative Assistants are empowered with the highest
standard of the Creative Knowledge and Creative Ability.
However, the Vedic Wisdom says that Lord Brahma and his
Creative Assistants are able to understand up to Seventy
Percentage and not 100 % of the Creative process of the
Gross Body and Subtle Body of the 8.4 Million of species as
described.
The gross anatomical body and subtle body of
human, sub-human and super-human are just like the
marvelous Hardware and Software created with the
Natural Laws by the creative agency of the Supreme Lord.

App. 211

Q. Manufacturing of the “Hardware” or Gross
Structural Body and “Software” or Subtle Body of
Internet and Computer Gadgets:
Modern Innovators of the giant, wealthy and
influential Internet and Computer Science companies are
mortal human beings with the limited capacity to learn and
copy the Gross Anatomical Body and Subtle Body of
Human, Sub-human and Super-human beings created with
help of the impeccable Natural Laws by the Creative
Agency of the Supreme Lord Sri Krishna.
Modern Innovators from Microsoft, Apple, Intel,
Hewlett Packard, Yahoo and Google are able to produce,
manufacture and assemble the Hardware or Gross Body
and Software or Subtle Body of smiling, singing, cooing and
flirting Cute Puppies. Cuddly Cubs, and giggling
Babies or Internet Technological Gadgets in the giant
factories in USA, UK, China, Japan and India right now
past less than one century.

App. 212

Modern Innovators are able to Assemble,
Manufacture and Produce the Hardware and Software of
the Internet and Computer Technological Gadgets with
help of speculative concepts from Modern Intellectuals or
Brahmana Class, with permission from the Administrative
Class or Ksatriva Class and financed by the Business Class
or Vaisva Class of society that are assembled by the
General Laborer Class or Sudra Class in the huge factories
in USA, India and other places.
The most amazing and astonishing storv that the
Modern Innovators from Microsoft. Apple, Intel and
Hewlett Packard. Yahoo and Google are incapable of
revealing the super-scientific and accurate Description of
the Fundamental principles of Internet and Computer
science or Natural Laws created by the Creative Agency of
the Supreme Lord.
The Modern Innovators from Microsoft, Apple and
Intel are paying five hundred or thousand dollars fee for
the Disorganized and Speculative Concepts for Patent
App. 213

registration in USA, UK, India and other countries. The
patent companies can protect the Patents but unable to
provide any Higher Dimension with the speculative patents
and concepts.
This funny scenario is just like a hard-working
Farmer who can produce Crops of Corns, Wheat, Peanuts,
Apples and Mangos but incapable to describe how the
various Crops were generated and produced in the
agricultural fields.
The description of the fundamental Principles of
Internet Gadgets and Production of the Internet Gadgets
are two different subject matters as described in following
Section R.
R. Glimpses of Description of the Fundamental
Principles of Internet and Computer Science
Mystery per the Vedic View;
Now, in this section, I am describing Ten Basic
Guidelines that are the Fundamental Principles of Internet
and Computer Science Mystery.
App. 214

As mentioned earlier that Vedic Literature: the
Supreme Science is the original body of transcendental
knowledge of Material Science and Spiritual Science
created by the flute and breathing of the Supreme
Personality of Godhead Sri Krishna.
All fundamental principles or Natural Laws of
Material Science and Spiritual Science are already superscientifically narrated within the eternal and blissful Vedic
Literature: the Supreme Science of Sanatana Dharma from
India.
Modern Internet and Computer Science is a small
branch of the Material Science of Vedic wisdom. We all
know that innovators and programmers of Modern Internet
and Computer Science in USA, India and other countries
are trying to perfect or copying the Ashta-Siddhi or Eight
Mystic Perfections as beautifully described in Srimad
Bhagavata Gita and Srimad Bhagavatam thousand of years
ago.

App. 215

The sincere and humble devotees or
transcendentalist can explain super-scientifically the
fundamental principles of the Modern Internet and
Computer Science with help of Vedic wisdom or Vedic View.
Also, the Modern Innovators and geniuses of Internet and
Computer science are essentially applying same
fundamental principles and same concepts without their
knowledge as beautifully describe in the Vedic Literature:
the Supreme Science.
Modern Innovators, Computer Scientists and
geniuses from San Francisco Silicone Valley in USA and
Bangalore Silicone Valley from India are unable or
incapable of inventing New Sets or New Fundamental
Principles of Material Science in our small globe. Everyone
has to follow the same rules and regulations of Material
Science of the Vedic Literature: the Supreme Science. This
is transcendental Vedic Wisdom and Guidelines.

App. 216

Following Ten Basic Laws or Guidelines are the superscientific understanding of the Fundamental Principles of
Internet and Computer Science:
1. Gross Body and Subtle Body of Human, Sub­
human and Super-human beings are the beautiful
and unparallel intelligent designs or Software and
Hardware with unlimited applications as created by
the creative agency of the Supreme Lord Sri Krishna.
2. Gross Body with Ten Senses and Nine Gates are
the best examples of Hardware created by the
creative agency.
3. Subtle Body with Mind, Intelligence, False Ego,
Aggregated Karma and Soul Proper are the best
examples of super-technological examples of
Software created by the creative agency.
4. Five Great Elements (Earth. Water. Fire. Air and
Ether) are responsible for the creation of Gross Body
or Hardware and support for the Subtle Body of all
species.
App. 217

5. Five Subtle Elements or Sense Objects (Sound,
Touch, Form, Taste and Smell) are essential
components for the integrative actions and
transmission of vital data between a Gross Body and
a Subtle Body of every species. The Creation of Five
Sense Object Sound, Touch. Form, Taste and smell
are in chronological order and created in five stages.
6. The three Modes of Nature or Sattva Guna, Rajo
Guna and Tamo Guna are material energies
responsible for the different characteristics, moods
and qualities of species. Sattva Guna represents
White color. Rajo Guna represents Red color and
Tamo Guna represents Blue color and their
numerous combinations are responsible for the
colorful nature of Modern Internet and Computer
Science. Unfortunately, modern innovators are
unaware of this sublime fact.
7. The Super-scientific analysis of Font Mystery:
Numerous fonts and images that are utilized by the
App. 218

Modern Innovators are essentially representing the
third stage of creation of Form (Images and Color).
8. Ancient and modern Sages and Rishis of India are
able to perform Eight Principle Mystic Perfections or
Ashta-Siddhis and Ten Secondary Mystic perfections
with help of their Gross and Subtle Body in past and
present. Modern Scientists and Modern Innovators of
Internet and Computer Science are able to perform
few Mystic Perfections with help of Modern
Instruments and Gadgets are essentially the copy or
replica of the Mystic Perfections as described within
the Vedic Literature: the Supreme Science.
Unfortunately, the Modern Innovator and Modern
Computer Scientist are unable to describe these
mystic perfections in Scientific and rationale manner
in their text books.
9. Eternal Time Factor: Time factor is the most
important and primary force for the Creation,
Maintenance and Destruction of the Gross Body and
App. 219

Subtle Body of every species. All interactions,
exchanges and permutations at Physical and
Psychological levels are conducted with sublime and
invisible action of eternal Time factor - the
impersonal energy of the Supreme Lord.
10. In short: the Modern Innovators and Computer
Scientists apply or follow the same fundamental
principles of Material Science of Vedic Literature in
their Modern Internet and Computer Science
Technology right now past less than a century in
USA, India and other countries. However, Modern
Scientists do not confess or agree with this sublime
observation. It is a sublime fact that mortal men
unable to create the New Sets of Natural Laws or
New fundamental principles of Material Science
anytime.
I will be happy to describe further detail of abovementioned great points for understanding the Fundamental
principles of Modern Internet and Computer Technology in
App. 220

my upcoming article titled as “Vedic Literature; the
Supreme Science - the Atheist Buster” pretty soon. I
humbly believe that above-mentioned ten basic points are
the description of Eighty Percent (80 %) glimpses of
Fundamental Principles of this subject matter. The
remaining Twenty Percent (20 %) fundamental Principles
or Missing Links and Final Puzzle of Internet and
Computer Science Mystery will be explicitly described in
the above-mentioned article for the clear, complete and
concise descriptions of this great topic pretty soon.
S. Fundamental Principles of Internet and Computer
Science are simple and easy to understand:
This paragraph describes that the basic and
fundamental principles of the Internet and Computer
Science that are very simple and easy to understand by any
sincere person in this small globe. Even a High School
graduate can easily understand the basic and fundamental
principles of the marvelous and fabulous Internet and

App. 221

Computer Science Gadgets or Puppies, Cuddly Cubs and
Cute Babies created by Computer Science Technologists.
My dear friends and Scholars: This is an amazing
reality and funny story right now.
The Chairmen and CEOs of the giant and wealthy
Internet and Computer Companies are able to assemble,
manufacture and produce the Hardware or the Gross
Anatomical Structures and Software or Subtle Body of the
marvelous Internet and Computer Gadgets such as Blue
Barry, Black Berry, Androids and other Cell Phones,
Laptops, E-Face Books, E-Notes and other gadgets in huge
factories. These small and big Internet and Computer
Science Gadgets are the exact Copy of the Gross Body and
subtle Body the 8.4 Million Species created by the Natural
Laws and Natural Embryonic Developments of the Creative
Agency of the Supreme Lord Sri Krishna.
However, the Modern Innovators and Computer
Scientists are unaware of the Fundamental Principles of
the Natural Laws and Fundamental Principles of the
App. 222

Natural Processes due to lack of the Vedic Wisdom right
now.
Srimad Bhagavata Gita and Srimad Bhagavatam
beautifully and super-scientifically narrate the
fundamental principles and the chronological development
of the Gross Anatomical Body and Invisible Subtle Body of
the 8.4 Million Species of this small planet Bharat-varsha.
Following are the Glimpses of the Basic and Fundamental
Principles of Creation, Maintenance and Destruction of the
Gross Body and Subtle Body of 8.4 Million Species in our
small globe per the Vedic Wisdom.
The fundamental principles of the Gross Anatomical
Body and Invisible Subtle Body of the 8.4 Million Species;
Modern Science including Bio-medical Science, Psychiatry
and Psychology and Modern Internet and Computer
Science Technological Gadgets can be explained
scientifically by the Vedic terminology as described in
following paragraph. The Vedic Literature describes
scientifically and authentically the following Twenty-Five
App. 223

Fundamental Principles that are established by the
Creative Energy of the Supreme Lord Sri Krishna.
L The Five Gross elements (Earth, Water, Fire, Air
& Ether) and Five Subtle Elements or Five Sense
Objects (Sound, Touch, Form, Taste & Smell) (Ten
items);
II. Five Karmendriva (Hands, Legs, Vocal Cord,
Anus & Genital) and Five Jnanendriva (Ears, Eyes,
Skin, Tongue, & Nostrils) (Ten items); the abovementioned twenty items are the basic ingredients of
the creation, Maintenance and Destruction of the
Gross Anatomical Body, depending upon the species
as described partially in the Modern Bio-medical
sciences.
III. Mind. Intelligence and False Ego (Three items):
these three items are also known as the Subtle Body
or Astral Body.
IV. Time and the Super Soul (Last Two Items)
consisting of the total 25 Fundamental Principles.
App. 224

V. Twenty-five Fundamental Principles or
Natural Laws are responsible for the Creation,
Maintenance and Destruction of 8.4 Million Species.
These twenty-five fundamental principles are
automatically applied in the Modern Science
including Bio-medical Science, Psychiatry and
Psychology; Modern Internet and Computer Science
Mystery as described in the Vedic Literature: the
Supreme Science.
These impeccable 25 Fundamental Principles or
Natural Laws are easy to understand by the High School
Graduates and Nobel Prize Winner Scientists as well as the
Modern Innovators from the prestigious and wealthy
Universities and Internet Technology Companies in USA,
Europe and India as well as any locations without any
dispute or problem.
In summary: If we clearly and perfectly understand
the impeccable and super-scientific Interactions.
Permutation and Cause-Effect Relationships in
App. 225

Chronological Fashions description of the 25 Fundamental
Principles or Natural Laws, then, any simple person can
describe the Fundamental Principles of the Internet and
Computer Science Mystery right now. This is the blissful
Vedic Wisdom.
I will be very happy to forward the Fundamental
Principles of Internet and Computer Science per the Vedic
View as described in my upcoming article titled as “Vedic
Literature: the Supreme Science - the Atheist Buster
& Final Puzzle and Missing Links of Internet and
Computer Science Mystery” to the Supreme Court
Judges in USA and India for the review by the Nobel
Laureate Physicists, Scientists and Modern Innovators for
the comparative study. Hope that the Supreme Court
Judges will be happy to accept this transcendental
challenge for the Global Peace, Global Prosperity and
Global Enlightenment of modern mankind right now.

App. 226

T. Sharing of Eternal and Blissful Vedic Literature:
the Supreme Science with Scholars. Presidents and
Colleagues:
As mentioned earlier that I am trying and I have
tried my best to share this unfathomable body of
Knowledge of Vedic Literature: the Supreme Science with
Prime Minister Shri Manmohan Singh and President Smt
Pratibha Devisingh Patil of India; Four Presidents of
American Medical Association (AMA) late Dr. Ronald M.
Davis, MD, Dr. Nancy Nielsen, MD, Dr. Peter Carmel, MD,
and Dr. Jeremy Lazarus, MD; Three Presidents of
American Psychiatric Association (APA) Dr. Michelle Riba,
MD, Dr. John Oldham, MD and Dr. Dilip Jeste, MD ;
Director and Commissioner of Disability Determination
Service (DDS); Chairman of Michigan Medical Society
(MSMS) Dr. Apparao Mukkamala, MD; my Medical
Colleagues at different work places General Motors
Corporation, at several medical conference and on
numerous occasions in USA past two decade with Luke
App. 227

worm Response or Neutral or No response from them. If
you are not a Nobel Prize winner from the prestigious
university you are no good for anything.
The primary reason for Neutral Response and lack of
response from the learned and influential Medical
Colleagues, I believe, that they are looking for the
prestigious Harvard and Stanford or other famous
University Professors and Graduates with Nobel and
Pulitzer Prizes winners for revelation of the SuperScientific Concepts of the Fundamental Principles of
Material and Spiritual Science.
Simple and ordinary persons like me are
automatically disqualified for revelation of any extra­
ordinary Concepts and knowledge! However, we must ask a
simple and sublime question to Nobel Laureates and
Pulitzer Prize winner Scientists and professors that do they
have or do not have better concepts or great ideas for
providing Higher Dimensions with the Modern Science
including Bio-medical Science, Psychiatry and Psychology
App. 228

as well as with Modern Man-made Constitutional Laws and
Applicable Laws right now. Nobel Laureates Scientists
should answer this question in an honest and humble
fashion without any duplicity and hesitation.
Poor and disorganized understanding of the
Description of the Fundamental Principles of Internet and
Computer Science by the Modern Innovators is the best
example of the lack of knowledge of the Natural Laws or
the Vedic Wisdom. If you do not have knowledge, then, you
are unable to teach or explain to anyone. This is a Simple
Truth. In other words, the ignorant man cannot be a
professor or teacher for anyone and anywhere.
T. Sharing of eternal and blissful Vedic Wisdom to
Chairmen and CEOs of Microsoft. Apple. Intel. Yahoo
and Google Internet Companies:
I am requesting to the Chairmen, Executive Heads
and CEOs of wealthy and influential Internet Companies
such as Microsoft, Apple, Intel, Yahoo, Google and other
Internet Companies for the need of the Higher Dimensions
App. 229

with Fundamental principles of Internet and Computer
Science past few years. Innovators of giant Internet
Companies have created marvelous and invisible “Internet
Spy Spectrum” for investigating, taping and capturing
the Contents of Millions of emails from their thousands and
millions of Web Site users for their advantages in USA, UK
and India as well as practically all over this small globe.
Modern Innovators and high salaried Computer
Scientists, Spy Agents, Internet Pundit or Internet Thugs
are spending eighty percent (80%) of their time for Fishing
Expeditions for Fishing. Hunting and Harvesting Bright
Ideas, Bright Concepts and Brilliant Formulas from the
Vedic Scholars, Modern Intellectuals and curious and
intelligent young Generation or Students and teachers.
This scenario is just like a Fisherman capturing a real
Diamond or Pearl with help of the Fishing Net. This is
really a bright idea or concepts for the Fishing Expedition
and Spy Network by the Microsoft, Apple and other
Internet Companies.
App. 230

This is really a brilliant strategy and effectiveness of
the invisible Spy Spectrum spread all over this small
globe by Internet Companies with blessing from the
Political and Religious Leaders. No one can beat the
Western Culture and Religious System in the Buy.
Borrow or Steal strategies past many centuries.
These wealthy and giant influential Internet
Companies have established stringent guidelines for the
usage by their millions of Clients and General Public with
help of the merciless Lawyers, Political and Religious
Leaders in USA, UK, India and other countries. The
primary intention of the merciless and ruthless guidelines
established by Internet Pundits and Internet Thugs is
to amass the millions and billions of Dollars, Pounds,
Rupees from the gullible General Public and nothing else
with every hook and crook methods.
Internet and Computer Science Technologists are
acting as the “Primitive Super Soul” for the Modern
mankind right now forgetting that the “Transcendental and
App. 231

Original Super Soul” in the heart of every Living Entity is
supervising and witnessing every intention and every
activity of 8.4 millions species such as Human, Sub-human
and Super-human species all the time in our planet and
universe.
We have to always remember that the blissful and
eternal Vedic Wisdom is Tamper-proof. Stealing-proof
and Self-sufficient revealed to the humble and sincere
God-Conscious or Krishna Conscious devotees,
transcendentalists and truth seekers all the time in this
small planet.
U. Transcendental Challenge for the Higher
Dimensions and Global Enlightenment:
I have requested to the Chairmen, CEOs and
Innovators of the wealthy and giant Microsoft, Apple, Intel,
Yahoo, Google and other Internet and Computer
Companies for the revelation of the Description of the
Fundamental Principles of Internet and Computer Science

App. 232

Mystery past five to six years with help of the my Web site
and other Vedic Web sites.
I am sure that this Transcendental Challenge is
definitely captured and noticed bv invisible Spy Spectrum
of Chairman and CEOs of Microsoft, Intel and Apple as
well as Yahoo, Google and giant and wealthy Internet
Technology Companies in USA, UK, India and other
countries past few years.
Also, this transcendental challenge was forwarded to
the Nobel Laureates and Pulitzer awardees from USA,
Europe and other countries for the Higher Dimensions with
the Modern Science including Psychiatry and Psychology
for the Global Peace and Global Enlightenment.
Finally, I am challenging the Federal and Supreme
Court Judges and Modern Law Practitioners for inviting
the Chairmen and CEOs of giant Internet Companies such
as Microsoft, Apple, Yahoo and Google to submit their
version of the Description of the Fundamental Principles of
Internet and Computer Science Mystery in the Supreme
App. 233

Court for the comparative study by the Nobel Laureates
Physicists and Modern Innovators.
I sincerely and humbly hope that erudite scholars
and leaders from Educational, Judicial, Bio-medical Science
and Internet Technology companies will accept this
Transcendental Challenge pretty soon for the Global
Prosperity, Global Peace and Global Enlightenment in our
small globe right now.
I believe that deafening silence from Chairmen and
CEOS of Microsoft, Apple, Yahoo and Google Internet
Companies and finally, the deafening silence by the Federal
and Supreme Court Judges in USA certainly will not help
in Resolution or Correction of the defective fundamental
principles of Internet and Computer Science Mystery.
V. Perpetual Misinterpretations and Perpetual
breaking of the Natural Laws are the Cause of
Bondage:
Srimad Bhagavata Gita and Srimad Bhagavatam
beautifully and authentically narrates that the Gross
App. 234

Anatomical Body and invisible Subtle Body of 8.4 Million
species are strictly and stringently abiding and following
the Natural Laws since time immemorial in our Material
world.
Advanced civilizations of the blissful Vedic Culture
study and practice the Natural Laws and Scriptural Laws
with sublime guidance from the Vedic Literature: the
Supreme Science of Sanatana Dharma without
misinterpretations.
The best examples of the Perpetual
Misinterpretation and Perpetual Breaking the Natural
Laws and Scriptural Laws by modern mankind are “Meateating habits. Intoxication. Gambling and Illicit Sex” or
Four Cardinal Sinful Activities that are highly prevalent
within the Western and Middle-eastern culture and
religious systems past many centuries in our small globe.
This is the best example of breaking the Scriptural
Injunctions of Major Religions and Minor faiths and

App. 235

primary cause for the miseries and bondage for mankind in
this small planet.
I may provide simple examples of the Perpetual
Misinterpretations of Alphabets and Mathematic that can
create miscalculations by the students or scholars. For an
example: number_6 can be mistaken as number 9_in
mathematical calculation. The word Mild can be
misinterpreted as Wild by flipping the alphabets M and W
by anyone.
However, the Natural Laws are so powerful that the
Perpetual Misinterpretations and Perpetual Breaking of
the Natural Laws by mankind are automatically tolerated
and corrected by the Creative Agency of the Supreme Lord
Sri Krishna.
United States of America, Europe and Middleeastern culture and Religious Systems are the best example
of the Perpetual Misinterpretation and Perpetual Breaking
the Natural Laws and Scriptural Injunctions past several
millenniums in our small globe. The followers of
App. 236

Christianity and Islam are extremely proud to practice
Meat-eating. Intoxication, Gambling and Illicit Sex habits
past two thousand years despite these cardinal sinful
activities are strictly forbidden by their Scriptures.
Nobel Laureates Scientists, Physicists, Physicians
and Sociologist are unaware of the basic fundamental
principles of the Material Science and Spiritual Science of
the Vedic Wisdom. This is another example of Perpetual
Misinterpretations and Miscalculations of the Natural
Laws by Modern Intellectuals right now all over this small
globe.
Also, the Modern Innovators of the Internet and
Computer Science with wealthy and giant Microsoft, Apple,
Intel, Yahoo and Google are unaware of the Fundamental
Principles of Internet and Computer Science.
Astonishingly, the Modern Innovators are able to assemble,
manufacture and produce marvelous and fabulous Internet
and Computer Technological Gadgets or Cute Puppies,

App. 237

Cuddly Cubs and giggling Babies in huge factories all over
this small globe.
The Natural Laws and Natural Processes are so
accommodating that perpetual misinterpretations and
miscalculations by scientists and innovators are superbly
adjusted, automatically corrected and re-calculated without
the knowledge of the modern man. This is the blissful
Vedic Wisdom.
Best strategy is to know the Natural Laws and
Scriptural Laws perfectly as described in Srimad
Bhagavata Gita and Srimad Bhagavatam to refrain from
the Misinterpretations and Miscalculations.
W. The Internet Interactive Dialog with the Vedic
Web sites and Organizations at Singular. Dual and
Plural levels:
Presently, we all are living amongst the most
enlivening and most enlightening era of the re­
spiritualization of the Modern Mankind all over of this
small globe past few centuries. The marvelous and fabulous
App. 238

Internet and Computer Science Technology created in USA
and the eternal and blissful Vedic Literature: the Supreme
Science from India is the greatest and invincible weapons
and Tsunamis for the Global Prosperity, Global Peace and
Global Enlightenments of Modern Mankind.
We may be a member, owner, moderator or just
Neutral or Inactive participants with hundreds of web sites
right now. I am a member with several Vedic Web sites
such as NityaKalyan, KrishnaBhagavan, Sadhaka, Shriji
Darshana, Dharmacentral, VFA, Hindu American
Foundation and Hindu Janajagruti Samiti as well other
web site past several six to seven years.
I am President and Moderator with my personal
Vedic Web Site named as
VedicLiteraturetheSupremeScience@vahoogroups.com that
was established in Troy, Michigan in USA on April 22, 2007
with about one hundred members from India and USA.
Also, I am a member with American Medical
Association, Michigan State Medical Society and Wayne
App. 239

County Medical Society past more that twenty-two years in
Michigan, USA. I was a member with American Psychiatric
Society for fifteen years.
Millions and billions of people from all ages are
members, recipients, moderators and participants with
marvelous and fabulously wealthy and influential Internet
and Computer Companies such as Microsoft, Apple, Yahoo,
Google and hundreds of Informational Technology
Companies in USA, India, Europe and practically all over
this small globe now.
The Chairmen, CEOS of the wealthy and influential
Internet Companies such as Microsoft, AOL, Apple, Google,
Yahoo and other numerous IT companies freely allow and
welcome everyone - GOOD OR BAD - to be their members
and participants without any restrictions or conditions for
primarily business purpose of making billions of dollars.
For examples: Meat-industries with thousands of
Slaughterhouses, Beer & Wine Industries, Gambling
Industries with Casinos & Lottery and Pornography & Sex
App. 240

Industries are heavily supported and financed by the
Political and Religious Leaders with help of the marvelous
Internet and Computer Science Technology in USA,
Europe, India and practically all over this small globe.
Meat Industries, Wine Industries, Gambling
Industries and Pornography Industries are so powerful and
ruthless that not a single President and Prime Minister of
USA, Europe, India and other countries can oppose or
disrespect their supremacy. Even, slightest protest or
opposition by Presidents or Prime Ministers of USA,
Europe or India for the “Four Cardinal Sinful Activities”
will be destroyed and dismantled immediately by the
powerful and wealthy CEOs and Chairmen of sinful and
un-godly corporations in USA, India and everywhere.
The State Government and Federal Government of
USA, India and other countries are declaring censorship or
listing many Vedic Web sites and Religious Web sites on
their Black List in USA, India, Middle-eastern Countries
and other places whimsically and without any notices.
App. 241

These are examples of Intellectual and Administrative
Terrorism by several Governments.
I strongly believe that above mentioned Human
Interactions, Emotions and Relationships at Singular, Dual
and Plural levels can be explicitly and super-scientifically
described with the help from marvelous and fabulous
Internet and Computer Science Technology and blissful
Vedic Literature: the Supreme Science right now.
Psychiatrists and Psychologists are miserably incapable for
revelation of this wonderful topic “Science of Twelve
Rasa” without the heln from the blissful Vedic Wisdom.
The marvelous and fabulous Internet Technology of
USA and Blissful Vedic Wisdom of India explicitly are able
to reveal the “Material Relationships and the Spiritual
Relationships or Science of Twelve Rasa” as described in
Section G of this article. Let all of us take help from the
Vedic Wisdom without any reservation and hesitation right
now.

App. 242

X. The Pseudo-superiority Complex and Inferiority
Complex with Modern Mankind and Remedy:
The modern mankind is terribly suffering from the
Pseudo-superiority Complex and Inferiority Complex in the
Western and Eastern hemisphere right now past few
centuries in this small globe as described nicely in this
paragraph.
The religious and political leaders of Christianity
and Islam are the best examples of the useless Pseudo­
superiority Complex for their Religious Text books past
several centuries in Europe, America, Asia, Middle-east
and practically almost every country in this small planet.
The religious Text Books of Christianity and Islam are
unfortunately very dry and devoid of the Love and devotion
to the Supreme Personality of Godhead is known to
everyone for centuries.
Another nice example of practice of Pseudo­
superiority Complex is the Nobel Laureates Scientists,
Physicists, Physicians and Sociologists, Nobel Laureates
App. 243

Scientists and Physicists. They are well aware that the
Fundamental principles of Modern Science including Bio­
medical Science, Psychiatry and Psychology are becoming
“Obsolete and Useless” past few decades. The fundamental
principles of Quantum Physics and Basic Science are
CRUMBLING LIKE THE HOUSE OF CARDS UPON THE
SLIGHT BREEZES OF VEDIC LITERATURE: THE
SUPREME SCIENCE OF SANATANA PHARMA right
now.
Also, the Modern Law Practitioners, Attorneys,
Federal and Supreme Court Judges are becoming well
aware of the deficient and limited nature of the Modern
Man-made Constitutional Laws and Applicable Laws in
USA, Europe and India as well as other countries.
The Modern man-made Constitutional Laws and
Applicable are able to provide proofs of Verifiable offenses
such as Homicide, Suicides, Murder, Rape, Physical
Assaults, Distortion and Mutilation of Gross Anatomical
Body and other minor Physical Injuries with defective
App. 244

Criminal Investigations and Discoveries in USA, Europe,
India and other countries.
However, the Modern Man-made Constitutional
Laws and Applicable Laws are miserably defective and
incapable of providing tangible PROOFS or EVIDENCES
for alleged Criminal or Civil Infarctions conducted or
performed with help of Subtle Body made up of Mind,
Intelligence and Ego of the mankind.
The Law Practitioners, Federal and Supreme Court
Judges are certainly unaware of the “Material
Relationships and Spiritual Relationships or Science of
Rasa. Law of Karma” resulting into defective Judgments to
the gullible General Public in USA, India and all over this
small globe. Furthermore, the Supreme Court judges and
Law Practitioners are unable to define the “Perception.
Lack of Perception and Misperception” of a person that may
be an Aggressor or a Victim in the Court System.
The Judges at Supreme Courts are merely rendering
their Opinion rather Judgments or Verdicts that are based
App. 245

upon the insufficient Investigation and Discovery of facts
from variety of sources for the Criminal or Civil Infarctions.
According to the Vedic Wisdom, only the Super Soul sitting
in the heart of Living Entities can witness and know all
actions — good or bad — performed by the Human, Sub­
human and Super-human beings in this small planet and
Universe. This is the blissful Vedic Wisdom.
Finally, the Chairmen, CEOS and Modern
Innovators of the Internet and Computer Science such as
Microsoft, Apple, Intel, AOL, Yahoo and Google etc are
profoundly unaware or ignorant of the “Fundamental
Principles of Internet and Computer Science Technology”
past more than half centuries in USA, Europe and India as
well other countries.
It will be very nice to know that two Nobel Prize
winners in Quantum Physics Serge Haroche of France and
American David Wineland in October 2012 may be able to
reveal their version of “Description of the Fundamental
Principles of Internet and Computer Science Mystery” soon.
App. 246

I am sure that Vedic Wisdom will help French and
American Nobel Prize winners for this great topic right
now.
The above-mentioned examples are the perfect
evidences and proofs for the “Pseudo-superiority Complex
and Inferiority Complex” that cab be elicited easily with the
sublime help from Internet and Computer Technology per
the Vedic Wisdom of the Modern Mankind in USA, Europe
and India as well as practically all over this small globe
right now.
I sincerely and strongly believe that the blissful and
eternal Vedic Wisdom of Sanatana Dharma from India
certainly will help in Revelation and Higher Dimensions
with the Modern Religious Systems: Modern Science
including Bio-medical Science, Psychiatry and Psychology;
Modern Man-made Constitutional Laws and finally, for the
Higher Dimensions with the marvelous and fabulous
Internet and Computer Science Mystery right now.

App. 247

The blissful and eternal Vedic Literature: the
Supreme Science from India and Marvelous Internet
Technology from USA are the invincible and powerful
Thunderbolts and Tsunamis for the Global Prosperity,
Global Peace and Global Enlightenments right now — the
sparks and opulence of the Supreme Personality of
Godhead Sri Krishna. Let all of us take sublime help from
Vedic Wisdom without any hesitation and reservation from
the bottom of our heart.
Y: The Deadly Cobra Snake without the Poisonous
Fangs and Ferocious Tiger without Claws and
Canine Teeth:
Vedic Literature: the Supreme Science beautifully
describes the numerous Material Interactions and the
Spiritual Interactions or Relationships as described in
this article. All these Societal Interactions or Relationships
at singular, dual and plural levels can be summarized in
four broad categories per the Sanskrit terminology as
follow:
App. 248

1. Intellectual (Brahmanical) Proponents or Opponents
2. Administrative (Ksatriya) Proponents or Opponents
3.

Business (Vaisya) Proponents or Opponents

4. General Labor (Sudra) Proponents or Opponents
The above-mentioned Societal Interactions are Optional or
Mandatory and incessantly occurring in our Human Society
since the time immemorial in our small globe. This kind of
the Tug of War between the Proponents and Opponents
are beautifully described in the greatest epics Ramayana
and Maha-Bharat literatures of the Vedic Culture: an ideal
culture for mankind.
Modern religious leaders and modern scientists may
act as the Proponents or Opponents; the modern political
leaders, administrators and CEOs can act as the
Proponents or Opponents; the modern businessmen and
entrepreneurs can act as the Proponent or Opponents with
help from the General Labor Class for the Global Peace.
Global Prosperity and Global Enlightenments or the

App. 249

Global Darkness and Global Degradation of the six to
seven billion of mankind right now.
The Vedic Wisdom of the blissful Vedic Literature:
the Supreme Science of Sanatana Dharma from India will
certainly guide and help the modern mankind irrespective
to his or her religious, cultural, occupational, racial,
financial or national background or affiliation for the
Global Peace, Global Prosperity and Global Enlightenments
right now.
My Dear Friends and Vedic Scholars: The poisonous
Fangs of the Deadly Cobra Snakes and Claws and Canine
Teeth of the Ferocious Tigers have already been dismantled
and removed with the sublime help of the fabulous Internet
and Computer Technology of USA and the blissful and
eternal Vedic Wisdom of Vedic Literature: the Supreme
Science of Sanatana Dharma from India — the sparks and
opulence of the Supreme Personality of Godhead Sri
Krishna.

App. 250

Modern Political and Religious Leaders of Islam,
Christianity, Buddhism and painfully of Hinduism; the
Nobel Prize winner Scientists and Modern Innovator of the
Internet and Computer Science as well as the Law Makers
and Supreme Court Judges are just like the “Deadly Cobra
Snakes without the poisonous Fangs and the ferocious
Tigers without the Claws and Canine Teeth” right now as
described in my article PAWNS OF CHESS for the Global
Prosperity, Global Peace and Global Enlightenment by the
mystic potency of the Supreme Personality of Godhead Sri
Krishna. No harm to discard the Pseudo-superiority
Complex and Inferiority Complex by Modern Mankind for
the transcendental cause with Unity in Diversity.
The transcendental and great intellectual
debate for the Higher Dimensions with the Modern
Science, Modern Man-made Constitutional Laws and
certainly with the Internet and Computer Science
Technology is extremely essential for the survival of
the Modern Mankind right now. The Vedic Wisdom
App. 251

will help anyone and everyone for this sublime
purpose.
Z. Summary Description:
1. Srimad Bhagavata Gita and Srimad Bhagavatam are the
ripened fruits of the Vedic Literature: the Supreme Science
of Sanatana Dharma from India since time immemorial in
our planet Bharat-varsha.
2. Vedic Literature: the Supreme Science of Sanatana
Dharma is the unfathomable, eternal and blissful body of
knowledge for the benefits and enlightenments of the
ancient and modern mankind millenniums after
millenniums in our small globe.
3. Vedic Literature: the Supreme Science of Sanatana
Dharma beautifully and authoritatively narrated the
Fundamental principles of the Natural Laws, Scriptural
Laws, Societal Interactions and Relationships or the
Science of Rasa; Super-scientific Social and Occupational
Divisions of Mankind or Varnasrama Dharma.
Fundamental Principles of Material Science and Spiritual
App. 252

Science; Laws of Karma, Reincarnation and Devotional
Service to the Supreme Personality of Godhead Sri
Krishna, Sri Ramachandra and Sri Narayana as well as
Astrology, Astronomy, Vedic Architecture or Shilpashastras and the Creation, Maintenance and Destruction of
the numerous Material Universes are beautifully narrated
per the Vedic Wisdom.
4. Srimad Bhagavata Gita and Srimad Bhagavatam are the
Law Books for the ancient and modern mankind since the
time immemorial in our planet Bharat-varsha. Srimad
Bhagavata Gita or “Song of God” was spoken directly by the
Supreme Lord Sri Krishna to Arjuna on the Battlefield of
Kuruksetra five thousand years ago for the enlightenment
of the entire mankind. Srimad Bhagavatam is the brilliant
Sun that was spoken by Srila Vyasa Deva - the Literary
Incarnation - of the Supreme Lord Sri Krishna five
thousand years ago for enlightenments of the entire
mankind.

App. 253

5. Vedic Literature: the Supreme Science of Sanatana
Dharma is the fountainhead and origin of the all Modern
Religions such as Islam, Christianity, Buddhism and
Hinduism and minor faiths such as Jainism, Judaism,
Sikhism, Baha’i etc of this small Planet Bharat-varsha.
Modern and minor faiths of this small globe are the direct
extensions and flowers of the Four Eternal Sampradayas or
Denominations - Brahma. Rudra. Sri and Kumara - of the
Vedic Culture: and ideal culture for the mankind.
6. Modern Science including Bio-medical Science,
Psychiatry and Psychology are disorganized, superficial at
the observational level and fallible in nature. Modern Bio­
medical Science needs Higher Dimensions per the Vedic
Wisdom.
7. Modern Man-made Constitutional Laws and Applicable
Laws are deficient, limited and unable to render fair justice
to the gullible General Pubic in USA, Europe and India as
well as all over this small globe past few centuries. Modern

App. 254

Man-made Constitutional Laws certainly need the Higher
Dimensions per the Vedic Wisdom.
8. Srimad Bhagavatam (SB 1.17.24) authoritatively
describes that “Tapas or Austerity. Sauca or
Cleanliness. Dava or Mercy and Satva or
Truthfulness” must be the Four Pillars of Dharma or
Natural Constitutional Laws for Law System or Judiciary
System for the ancient or modern mankind in this small
planet Bharat-varsha now, in the past and in the future.
9. Modern man-made Constitutional Laws that is practice
in USA, Europe and India are deficient in the “Austerity,
External and Internal Cleanliness and Mercy for all Living
Entities” that has created the most Merciless, Ruthless and
Cruelest Judiciary System or Laws System in our small
globe past few centuries.
10. Modern Law System of USA, Europe and India as well
as other countries is able to provide deficient and
questionable Evidences or Proof s for the Verifiable
Criminal and Civil Infarctions such as Murder, Rape,
App. 255

Homicide, Suicide and Mutilation of the Gross Physical
Body with help from the Investigations, Discoveries and
other Law methods.
11. Modern Laws System of USA, Europe, India and other
countries are terribly incapable of providing Evidences or
Proofs for the subtle and invisible Actions performed with
the Subtle Body made up of Mind, Intelligence and False
Ego with the Spirit Soul or Mental Apparatus located in the
heart of every Living Entity. These limitations are the
primary reason for the deficient, limited and unfair
Judgments or Verdicts by the Federal and Supreme Court
Judges in USA, Europe and India as well as practically all
over this small globe.
12. Law Practitioners, Attorneys, Federal and Supreme
Court Judges are certainly unaware of the accurate
definition of Perceptions, Lack of Perceptions and
Misperceptions; unaware of the super-scientific description
of classification of the Material Relationships & Spiritual
Relationships or Science of Rasa; and finally, the Super
App. 256

Soul as Overseer and Witness of Physical or Mental Actions
performed by every Living Entity such as Human, Sub­
human or Super-human beings in our small planet and
Universe.
13. The Vedic Wisdom describes that the Supreme
Personality of Godhead Sri Krishna is residing as the Super
Soul in the heart of everyone. The Super Soul is witnessing
all our activities and rendering Transcendental and
Ultimate Judgments that is always good and perfect for
everyone.
14. Modern Law System of USA, Europe and India as well
as all over this small globe is the Greatest Destroyer of the
Cordial Relationships within a family, community and
culture; Greatest Destroyer of the Reputation and
Occupation and Greatest creator of the Chaos and
disharmony at national and international levels all over
this small globe past few centuries. The Attorneys, Law
Practitioners and Supreme Court Judges and the Police
Department as well as Clerks and Janitors of the
App. 257

prestigious Courts are witnessing and enjoying the most
Sadistic, Most Merciless and Most Ruthless proceedings
just like the Soap Opera Shows in the Courts Rooms in
USA, Europe and other countries in this small globe.
15. The Modern Man-made Constitutional Laws and
Applicable Laws certainly need Higher Dimensions per the
Vedic Wisdom right now. This is the panacea and remedies
for the merciless, ruthless and cruelest Judicial System of
this small globe.
16. The Federal and Supreme Court Judges are acting as
the Mini-god forcing and administering their defective,
limited and unfair judgments in the mouth of the General
Public to swallow and digest with help of Black Robes and
Brown Court Hammers in USA, Europe and India as well
as every country in this small globe past few centuries,
unfortunately.
17. Modern mankind is extremely expert in breaking the
Scriptural Laws that are explicitly described in the four
Modern Religions - Islam, Christianity, Buddhism and
App. 258

Hinduism - and all minor faiths of this small globe. No
Meat-eating, No Intoxication, No Gambling and No Illicit
Sex are the Four Cardinal Sinful Activities that are
strongly recommended within all Major Religions and
Minor Faiths of this small globe since the time immemorial.
Christianity and Islam are the greatest promoters and
propagators of these Four Cardinal Sinful Activities with
help of the Modern science and Modern Internet
Technology in the Western and Eastern Hemispheres past
several centuries without any hesitation. The
Slaughterhouse Technology, Beer & Wine industries,
Casinos & Lottery industries and Pornography & Sex
Industries are the greatest examples of the BREAKING
THE SCRIPTURAL LAWS right now. Also, these four
Cardinal Sinful Activities are misinterpreted as Freedom
of Pursuit for Happiness for anyone in the Amendments
in USA and other countries. Breaking the Natural Laws
should not be misinterpreted as the Pursuit of the
Happiness by any sane and intelligent person.
App. 259

18. Republican Presidential Candidate Mitt Romney and
President Obama show their Pseudo-patriotism for the
Defense of the defective Man-made Constitutional Laws
during the Election Campaigns. American Presidents are
proudly promising to gullible people to defend the defective
Man-made Constitutional Laws and Freedom to gullible
general public. However, the Presidents and Law
Practitioners of USA know perfectly well that the Man­
made Constitutional Laws and Applicable Laws are
defective and limited as well as unable to render the fair
judgments and justice to the General Public in USA past
few centuries.
19. The transcendental remedy and great solution for the
defective and limited Man-made Constitutional Laws and
applicable Laws of USA, Europe and India as well as all
other countries is the Implementation of the Four Pillar of
Natural Laws or Pharma (Austerity, External and
Internal Cleanliness, Mercy and Truthfulness) as
beautifully described in Srimad Bhagavatam (SB 1.17.24).
App. 260

This kind of amendment will be the Transcendental,
Ultimate and Final Amendment with the Man-made Laws
with no need for more Amendments. The American
Presidents should truthfully and honestly declare that the
Modern Man-made Constitutional Laws are defective,
limited and need Higher Dimensions per the Vedic Wisdom
for rendering the fair and equal Judgments to the American
Public and all over this small globe. The American
Presidents has sacred duty and right to tell the truth to the
General Public.
20. Christianity and Islam are suffering from the Pseudo­
superiority Complex and they have perfected the “Art of
Deception and Art of Sadism” for the billions of NonChristian and Non-Muslim population as well as for their
billions of followers past few millenniums in this small
globe. The followers of Christianity and Islam have created
and imagined their God as the Most Jealous. Cruel.
Unforgiving and Merciless God who is unable to shower
mercy, compassion and love to his sons, daughters,
App. 261

mothers, fathers, uncles, aunts and anyone in this small
globe. Of course, there is no question of showering mercy
and compassion to the Sub-human species by the Jealous
God.
21. The above-mentioned misinterpretations of the
Abrahamic Scriptures by the followers of the Christianity
and Islam have resulted into unprecedented and horrible
practice of cruelty, sadism and exploitation at Educational
System, Cultural System, Religious System, Modern
Science System, Modern Man-made Constitutional Laws
and Judiciary System, Sports and Entertainments System,
Financial System and practically every organization at
Individual and collective level all over this small globe. No
wonder that the Most Jealous, Cruel and Unforgiving
Abrahamic God is perpetually punishing and torturing
Non-Christian or Christian and Non-Muslim or Muslim
population past two millenniums, now and in the future in
this small globe.

App. 262

22. In other words, the Abrahamic god is incapable of
showering Mercy, Love, Compassion and Friendship as well
as Wealth, Knowledge, Power, Beauty or Austerity as
beautifully described in the Science of Rasa of Vedic
wisdom of the Sanatana Dharma. The blissful Vedic
Wisdom describes authentically that no one is capable of
enforcing the restrictions on the Omniscient. Omnipotent
and Omnipresent Supreme Personality of Godhead Sri
Krishna, Sri Ramachandra and Sri Narayana in this small
planet and universe. Only the pure and unconditional love
with devotion can bind the Supreme Personality of
Godhead Sri Krishna.
23. Presidents of American Medical Association and
American Psychiatric Association; Commissioners and
Directors of Disability Determination Service and
Corporate Medical Directors of General Motors Corporation
and other influential Executive Heads of Medical
Organizations in USA and other countries are happy to
serve their terms at these prestigious Medical
App. 263

Organizations. However, they do not have any desire for
the Higher Dimensions with Modern Science including Bio­
medical Science, Psychiatry and Psychology right now.
24. Higher Dimensions: I am requesting and I have
requested four Presidents of American Medical Association
and three Presidents of American Psychiatric Association
in USA for the Higher Dimensions with Modern Science
including Bio-medical Science, Psychiatry and Psychology
past one decade in vain and meager response by the
influential Executive heads as described in this article. I
strongly believe that the Presidents of prestigious AMA and
APA may be looking for the Nobel and Pulitzer Prize
winner Scientists, Physicians and Researchers from the
prestigious Harvard, Stanford, Cambridge, London and
Moscow Universities for the Higher Dimensions with the
fallible, disorganized and superficial Modern Science right
now.
25. However, the sublime and painful truth and reality is
that the Nobel Laureates and Pulitzer Prize winner
App. 264

Scientists, Physicists, Sociologists, Physicians and other
modern innovators are incapable of providing Higher
Dimensions with Modern Science including Bio-medical
Science, Psychiatry and Psychology as well as with the
marvelous and fabulous Internet and Computer science
Technology right now and in the future without the blissful
and authoritative guidance of the Vedic Wisdom of
Sanatana Dharma.
26. The Modern Scientists, Modern Physicists, Modern
Innovators of Internet and Computer Science Technologists
as well as the Modern Intellectuals from the USA, Europe,
India, China and Japan etc are unable to comprehend that
Vedic Literature: the Supreme Science of Sanatana
Dharma is the unfathomable Ocean of body of Knowledge
and the brilliant Sun created by the most merciful
Omniscient, Omnipotent and Omnipresent Supreme
Personality of Godhead Sri Krishna for the modern and
ancient civilizations of this small planet Bharat-varsha
since the time immemorial.
App. 265

27. In plain and simple terminology: the Higher
Dimensions with Modern Science including Bio-medical
Science, Psychiatry and Psychology; Higher Dimensions
with Modern Man-made Constitutional Laws and
Applicable Laws and finally, the Higher Dimensions with
the marvelous and fabulous Internet and Computer Science
Technology per the impeccable, authoritative and blissful
knowledge of the Vedic Literature: the Supreme Science of
Sanatana Dharma from India is extremely essential for the
Global Prosperity, Global Peace and Global Enlightenments
of the Modern Mankind right now in our small globe. This
is a very simple and sublime truth that can be easily
understood by everyone and anyone.
28. Transcendental Challenge: Srimad Bhagavata Gita
and Srimad Bhagavatam are the ripened fruits of the Vedic
Literature: the Supreme Science of Sanatana Dharma for
the enlightenment of the ancient and modern civilizations
since the time immemorial in our Planet Bharat-varsha.
Every branch of knowledge and all fundamental principles
App. 266

of Natural Laws, Science, Arts, Astrology, Astronomy,
Mathematics, Medical Science, Sociology, Varnasrama
Dharma, Law of Karma, Science of Rasa and every aspect
of knowledge are authoritatively narrated by the Merciful
Sages and Rishis, the greatest thinkers, Vedic Scholars and
Teachers per the divine mercy of the Supreme Lord Sri
Krishna. Presently, many Vedic Scholars from the USA,
India and other countries are distributing Vedic Wisdom
with the help of Modern Technology all over this small
globe for the benefits of modern mankind.
29.1 am an ardent reader of the Srimad Bhagavata Gita
and Srimad Bhagavatam with English transliteration by
Iskcon Acharya His Divine Grace Bhaktivedanta Swami
Srila Prabhupada past thirty years in USA. I have keen
interest in understanding of the Fundamental Principles of
Material Science and Spiritual Science per the Vedic
Wisdom. I have written thirty plus articles that are based
upon the Srimad Bhagavata Gita and Srimad Bhagavatam
that certainly provide Higher Dimensions with Modern
App. 267

Science including Bio-medical Science, Psychiatry and
Psychology; Higher Dimensions with Modern Man-made
Constitutional Laws and finally, will provide Higher
Dimensions with Internet and Computer Science Mystery
per the Vedic wisdom right now.
30. This is genuine purpose of my correspondences with
Prime Minister and President of India; Presidents of
American Medical Association and American Psychiatric
Association and my Medical Colleagues and Vedic Scholars
in USA and India as well as other places past more that one
decade. Also, I am humbly requesting to the Federal and
District Judges, Attorneys and Law Practitioners for the
Higher Dimensions with the Modern Man-made
Constitutional Laws per the Vedic Wisdom past four to five
years from Michigan in United State of America. I am
pursuing a personal Litigation Case with General Motors
Corporation past four years that is pending at Federal
Court in New York right now with good possibility for
hearing at the Supreme Court in New York pretty soon in
App. 268

2013.1 am well aware that the Federal and Supreme Court
Judges can dismiss my case with their “Brown Court
Hammer and Black Robe” any time without any notice and
without any explanation.
31. Challenges are the most attractive Human Interactions
and indication of the Bravery or Chivalry Rasa within
Human society as described in the Science of Rasa per the
Vedic Wisdom. Intellectual Challenges for Debate, Military
Challenges for ruling, Business Challenges for wealth and
General Labor Challenges are common Human Interactions
exchanged within Human Society since the time
immemorial in our small globe. Also, in Judicial System
there are challenges by Plaintiffs and Defendant Attorneys
all over this small globe.
32. This is a transcendental Challenge to President and
Prime Minister of India; Four Presidents of American
Medical Association and Three Presidents of American
Psychiatric Associations; Federal and Supreme Court
Judges in USA and Finally, a great challenge to the CEOs
App. 269

and Chairmen of the wealthy and influential Internet and
Computer Science Technology Companies such as
Microsoft, Intel, Apple, Yahoo and Google in USA, India
and other locations for the Higher Dimensions for a great
and transcendental purpose.
33. Again, I am challenging the most famous and most
wealthy person Mr. Bill Gates, the Chairman and CEO of
Microsoft Company for revelation of Description of the
Fundamental Principles of the Internet and Computer
Science Mystery to the General Public as soon as possible.
However, this Transcendental Challenge is for other
Modern Innovator of Internet and Computer Science
Technology for the revelation of the Description of the
Fundamental Principles of the Internet and Computer
Science Mystery any time. Everyone is welcome for this
sublime challenge from USA, India and any location.
34.1 will reveal and describe the Fundamental Principles of
the Internet and Computer Science Mystery in my
upcoming article titled as “Vedic Literature: the Supreme
App. 270

Science Part III — the Atheist Buster” that includes Final
Puzzle and Missing Links of Internet and Computer
Science Mystery pretty soon. I will be happy to reward
Sriman Bill Gates, Chairman of Microsoft Company Ten
Million Dollars if he or his Ten Million Dollar salaried
Research Directors are able to reveal the super-scientific
Fundamental Principles of the Internet and Computer
science Mystery. This is a simple and honest challenge to
the wealthiest person in our small globe right now. I am
sure that Bill Gates does not need the Ten Million Dollars
but challenge is the challenge. Hope that Bill Gates or
anyone may accept this great challenge for the divine
purpose.
35.1 will happy to reveal the “Description of the
Fundamental principles of Internet and Computer science
Mystery per the Vedic wisdom” article to the Supreme
Court Judges in USA and India pretty soon. Also, we may
request Bill Gates or any Modern Internet and Computer
Scientists to reveal his or her Description of the
App. 271

Fundamental Principles of the Internet and Computer
Science Mystery to the Supreme Court Judge in USA and
India for the Comparative Study. Let the panel of Nobel
Laureate Scientists, Physicists and Modern Innovators
decide the outcome of this unprecedented and historic
Transcendental Challenge right now for the Global Peace,
Global Prosperity and Global Enlightenment of Modern
mankind.
36. Political and Religious Leaders of USA, Europe, India
and other countries of this small globe should play vital
roles for the Higher Dimensions and Integration of the
Modern Science including Bi-medical Science, Psychiatry
and Psychology; Modern Man-made Constitutional Laws
and finally, Higher Dimensions with the fabulous and
marvelous Internet and Computer Science per the Vedic
Wisdom without any hesitation or reservation for the
benevolent and divine purpose. The blissful and eternal
Vedic Literature: the Supreme Science of Sanatana
Dharma from India and marvelous and fabulous Internet
App. 272

and Computer Technology of USA are the invincible
weapons and powerful Tsunamis for the divine design and
divine plan by the Supreme Personality of Godhead Sri
Krishna.
37. Repetition of the great topic is extremely essential for the
clarity and consolidation for the wavering and flickering
mind of the modern mankind including myself. Truth
should be said as it is no matter how truth may be bitter
and unpalatable for the maximum therapeutic effects
without any kind of blasphemy. The suppression of truth
reveals truth and nothing but the truth is a reality.
38. United States of America is very proud to show the
Statue of Liberty at New York as the Symbol of Freedom
and Democracy to the entire world past few centuries.
However, most of the people in USA are extremely expert
in abuse of the Freedom of Expression, Freedom of Speech
and Freedom of Do What You Want Mentality. The four
cardinal sinful activities such as Meat-eating. Intoxication.
Gambling and Illicit Sex are routinely considered as the
App. 273

Freedom of Expression and Freedom for the pursuit of
Pleasure for the American Population and all over this
small globe. These four cardinal sinful activities are the
greatest causes for the bondage and breaking the Scriptural
and Natural Laws for the civilized mankind in our small
globe since time immemorial. Also, these four cardinal
sinful activities are the primary causes for the Civil and
Criminal Infarctions in USA, Europe, India and practically
every where in our small globe.
39. As mentioned earlier in this article that abiding and
following the Natural Laws, Scriptural Laws and Modern
Man-made Constitutional Laws willingly and strictly by
mankind is the real freedom in present life at Singular,
Dual and Plural levels in our small globe. In other words,
breaking the Natural Laws, Scriptural Laws and Man­
made Laws by the mankind is the greatest causes for
degradation, Immorality and Chaos all over this small
planet Bharat-varsha.

App. 274

40. Modern Governments in USA, Europe, India and
practically every country are enforcing Censorship for
prevention of the Abuse of the marvelous Internet and
Computer Technology by the Internet Thugs, Internet
Terrorists and Internet Hackers past more than half
centuries. Modern Internet Laws may ban several Web
sites that considered as propagating and promoting the
Global Hate-Crime Relationships, Global Religious
Intolerances and Global Dysfunctional Relationships with
billions of modern mankind right now.
41.1 greatly admire the American Spirit: the relentless
pursuit to realize the Truth - the Absolute Truth. Let all of
us continue to support and practice the American Spirit
together at Individual and Collective levels for the benefit
of the modern mankind in USA, India and Europe as well
as all over this small globe. However, we have to remember
that the Absolute Truth is never American, Indian, African,
Chinese or European in nature. The Absolute truth is the

App. 275

Absolute Truth above all the man-made designations,
affiliation and demarcations.
42. The Higher Dimensions will the real test and
transcendental challenge to Presidents and Prime
Ministers of USA, India. Europe as well other countries of
this small globe. Also, this will be a great challenge for the
Presidents of American Medical Association, American
Psychiatric Association and the Supreme Court Judges as
well as the Political and Religious Leaders of USA, Europe,
India and other countries. This challenge will prove that we
really believe in the Democratic Spirit and Global Unity in
Diversity or we believe in the Global Dictatorship and
Global Dysfunctional Relationships for the six to seven
billion of Modern Mankind right now.
43.1 have a great privilege to be a Law-abiding citizen of
two greatest Democratic countries — India and USA - of this
small Planet Bharat-varsha. I have a great privilege to be a
natural citizen of India — the divine land and Jagat-guru of
Bharat-varsha for half of my life and a naturalized citizen
App. 276

of USA for rest of my life now. I humbly consider a sacred
duty to inform people of two great democratic countries
about a great necessity for re-spiritualization of the modern
mankind for enlightenment with Unity in Diversity. India
is the greatest Spiritual Giant and USA is a greatest
Material Giant who can help whole world in right direction
with sublime guidance from the Vedic Literature: the
Supreme Science of Sanatana Dharma from India.
44. India and United States of America are the greatest
Democratic countries in this small globe with Freedom of
Speech. Freedom of Religion and Freedom of Expression
privileges entrusted to their citizen past few centuries. The
wise and blissful usage of God-gifted freedom is the
essential and prime need for the betterment and
enlightenment of the modern mankind right now.
45. Let us pray that every citizen of this small globe may
utilize the Freedom of Speech, Freedom of Religion and
Freedom of Expression for Global Unity in Diversity to help
everyone in this small globe to be God Conscious or Krishna
App. 277

Conscious person with help from Modern Technology
created in USA and blissful Vedic Literature: the Supreme
Science of Sanatana Dharma from India right now. Mind is
the Best Friend and Mind can be our worst Enemy as
beautifully mentioned in Srimad Bhagavata Gita (BG 6.5).
46. Higher Dimensions with Modern Science including Bio­
medical Science, Psychiatry and Psychology; the Higher
Dimensions with the Modern Man-made Constitutional
Laws and Finally, the Higher Dimensions with marvelous
and fabulous Internet And Computer Science Technology
per the impeccable and blissful Vedic Wisdom of Sanatana
Dharma are extremely essential for the Global Prosperity,
Global Peace and Global Enlightenments of six to seven
billions of Modern Mankind right now.
47. In absence of the Higher Dimensions with the Modern
Science including Bio-medical Science. Psychiatry and
Psychology: Modern Constitutional Laws and finally, with
the Internet and Computer Science modern mankind may
face degradation as the society of royal animals, royal
App. 278

predators, thugs and dictators pretty soon. Only the blissful
and eternal Vedic Wisdom can save the modern mankind
from this great catastrophe and unprecedented holocausts.
48. Modern Democratic. Secular, Autocratic and, even.
Atheistic Governments in USA, India, Russia. China, UK.
Middle-east. Australia and other countries should promote
and preserve the God-consciousness or Krishna
Consciousness for their Citizens all over this small Planet
Bharat-varsha. The primary purpose for this kind of GodConscious or Krishna Conscious Governments is the
defeating the Subtle Atheism all over this small globe. No
need to ban God Conscious or Krishna Conscious web sites
anytime.
49.1 would like to humbly mention that I am not playing
any Chess Game, Poker Game or Lottery Game with this
article and with anyone. I am just trying to check that
influential Presidents, Prime Ministers, the Supreme Court
Judges and Nobel Laureates Scientists from USA, India,
Europe and other countries are really interested for the
App. 279

Higher Dimensions with our Educational, Religious,
Modern Science, Cultural and Modern Internet Innovations
including the Modern Man-made Constitutional Laws right
now or they prefer to remain simply Neutral and passive in
nature. The Nobel Prizes, PhD, MD and other certifications
are offered to those who are sincere, motivated and hard­
working people and not to the lazy and unmotivated people
that are common criteria all over this small globe. Simply,
Just I want to check that Mr. Bill Gates and other
influential Modern Innovators really know the
Fundamental Principles of marvelous Internet and
Computer Science or not. No harm to ask simple and
straight forward question to anyone.
50. The articles written by Devotees, Transcendentalists
and Truth Seekers per the blissful Vedic Wisdom are the
“Perfection of the Art of Communication” that are
welcome and admire by the Proponents and Opponents
alike in USA and India and other web sites. All my articles
are derived from the Srimad Bhagavata Gita and Srimad
App. 280

Bhagavatam - the ripened fruits and most perfect Spiritual
Science and Material Science of Vedic Literature: the
Supreme Science. Let us pray that everyone may study this
great and transcendental body of knowledge for the Global
Enlightenments and Global Peace in humble and
devotional mood for ever.
51.1 humbly and sincerely pray to the merciful Sages and
Rishis; pray to my Spiritual Preceptors; pray to Vaishnava
Acharyas and pray to the most merciful, Omniscient,
Omnipotent and Omnipresent Supreme Personality of
Godhead Sri Krishna, Sri Ramachandra and Sri Narayana
for showering the Krishna Consciousness to the modern
mankind for the Global Enlightenments forever in our
planet Bharat-varsha. The Krishna Consciousness is
eternal and joyfully performed by anyone and everyone in
this small globe.
Finally, I may cite a famous quote of Mahatma
Gandhi - the Apostle ofAhimsa or Non-violence: First
you will be ignored, second you will be ridiculed and
App. 281

third, you will win. In the Krishna Consciousness
everyone is a winner and happy.
Thank you very much for your precious time reading
this article and other articles.
The honest and pure endeavors bring honest
and pure outcomes for the great cause.
Wish everyone the wonderful and blissful Diwali
Festivals and Happy New Year 2069 of Vedic Calendar.

Sincerely and fraternally,

Atul C. Shah, MD
Troy, Michigan, USA
Article Completed on
November 4, 2012

Enclosures: Following six articles were forwarded
with the email as the Attachments.
1. “Higher Dimensions” article dated November 4, 2012
App. 282

2. Legal Brief written by Dr. Atul C. Shah, MD to
Honorable Judge Robert E. Gerber at Federal Court,
New York, USA dated August 15, 2012
3. Letter and Response from Jeremy A. Lazarus, MD as
167th President of AMA dated July 2012
4. Letter written to late Dr. Ronald M. Davis, MD 162nd
President of AMA dated January 2008
5. “Soul is the Original Pace-maker in Heart” Letter to Dr.
S. K. Doshi, MD Cardiologist, California, USA
6. “Save Rama Setu” article sent to Prime Minister and
President of India during November 2007
7. “Vedic Literature: the Supreme Science — the Atheist
Buster” article will be sent to the Supreme Court Judges
in India and USA
The email articles are forwarded to following
distinguished recipients and web sites:
L Honorable Judge Robert E. Gerber, New York, USA
2. Stefanie J. Greer, Defendant Attorney at Dickstein
Shapiro, LLP at New York, USA
App. 283

3. Robert McQuade, Retired Lawyer, Center Line,
Michigan, USA
4. Dr. Jeremy A. Lazarus, MD President of American
Medical Association, Chicago, USA
5. Dr. Dilip Jeste, MD President of American Psychiatric
Association, Maryland, USA
6. Charles A. Jones, Director at Disability Determination
Services, Lansing, Michigan, USA
7. VedicLiteraturetheSupremeScience Web site, Troy,
Michigan, USA
8. Hindu American Foundation Web site, Washington D.C.
9. Hindu Jagruti Samiti Web site, India
10. NitvaKalvan Web site, India
11. KrishnaBhagavan web site, India
12.Vedic Scholars and friends in USA and India

Articles bv Dr. Atul C. Shah. MD:
L Unity in Diversity
2. Law of Karma
App. 284

3. Varnasrama Dharma: an Ideal Culture for the Mankind
4. Diet for the Mankind
5. Eternal and Blissful Vedic Tree - (Poem)
6. Humming of Bumble Bee
7. Vedic Literature: The Supreme Science Part I - The
Sanatana Dharma
8. Vedic Literature: The Supreme Science Part II - In
Defense of the Sanatana Dharma
9. Preface for Vedic Literature: the Supreme Science Part
III - The Atheist Buster
10. Vedic Literature: the Supreme Science Part III — the
Atheist Buster *
11 Glimpses of Science of Rasa, Personalism and
Impersonalism
12. Sheep Mentality and Roar of Lion
13. ABCD and Roar of Lion
14. Dalit, Varnasrama Dharma, Non-vegetarian Cars &
Trucks

App. 285

15. Malignant Effects of Psychiatry and Psychology on
Mankind
16. Fundamental Principles and Realistic Concept of Mind
and Mental activities. *
17. Fundamental Principles of Internet and Modern
Computer Science - The Vedic View *
18. Fundamental Principles of the Spiritual Science and
Material Science *
19. Together we are Stronger: the Integration of Spiritual
Science and Modern Science
20. Save Rama Setu: an Appeal to President and Prime
Minister of India
21. Universal Health Form - Easy Guide for Health
Professionals and Workers
22. The Krishna Conscious Analysis of Modern Affairs
23. Letter of Appreciation
24. Preface and Article - “Global Pollution: Classification,
Causes and Remedy”
25. Art of Communication
App. 286

26. Blissful Anniversary of Vedic Literature: the Supreme
Science web site
27. Sharing of Blissful and Eternal Vedic Literature — Part
I, Part II & Part III*
28. Omkara: Speaker, Shabda and Listener
29. Himalaya Mountain: the Symbol of unflinching Faith,
Love and Devotion for All Attractive Supreme Personality
of Godhead Sri Krishna
30. A Powerful Rebuttal to United States Commission for
International Religious Freedom or USCIRF at Washington
D.C. in USA
31. Criminal Speech versus Civil Speech: Transcendental
and Eternal UN Resolution for Modern Mankind
32. Preface - Mock Demonstration and Thesis of
Fundamental Principles of Science
33. Mock and Humorous Demonstration with help of
Twelve Modes of Communication tilted as “Destruction of
our Planet Earth: One Time or Thousand Times”

App. 287

34. Houses of Worship are Blissful Spiritual Oasis for
Mankind
35. Pawns of Chess
36. Higher Dimensions with Modern Science, Modern Man­
made Conventional Laws and Internet & Computer Science
Mystery
37. Modern Genetic Science: XX America + YY America =
Mass Extinction of Modern Mankind
38. Classification, Causes and Prevention of Terrorism
within the Modern Mankind per the Vedic Wisdom
39. Transcendental Vedic Federation (TVF): End of
Atheism, Immorality and Terrorism
40. Celestial Events: Solar Eclipses and Lunar Eclipses
41. Phobia: Classification, Causes and Remedy
42. Vedic Culture: an Ideal Culture - Higher
Dimensions with the Modern Science

App. 288

43. Tribute to Mahatma Gandhi 150 on October 2, 2019
and Sardar Patel - Statue of Unity on October 31, 2018
44. Final Judgment: & Blizzards of Century: the
Historic and unprecedented Civil Case against General
Motors with 10 plus Legal Briefs and 40 plus superb
Articles forwarded to three Federal Courts in New York
and to the Supreme Court of the United States in
Washington D.C. by Atul C. Shah, MD

References:
1. Srimad Bhagavata Gita as it is by His Divine Grace A.
C. Bhaktivedanta Swami Prabhupada, Iskcon Founder
Acharya
2. Srimad Bhagavatam by His Divine Grace A. C.
Bhaktivedanta Swami Prabhupada, Iskcon Founder
Acharya

App. 289

Short profile of Dr. Atul C. Shah. MD;
Dr. Atul C. Shah, MD is practicing General Practice
Medicine and Psychiatric Medicine in Metro-Detroit area in
Michigan in USA past twenty-five years. He graduated
from B.J. Medical College in Amdavad, Gujarat, India in
1974 and practiced medicine as General Practitioner in
Vadodara, Gujarat, India until 1982.
He is an ardent reader of Srimad Bhagavata Gita
and Srimad Bhagavatam - the ripened fruits of the blissful
Vedic Literature - transliterated by His Divine Grace A.C.
Bhaktivedanta Swami Prabhupada, the Iskcon founder
Acharya. He has keen and special interest in
understanding of the Fundamental Principles of the
Spiritual Science and Material Science in lineage of
Brahma Sampradaya, one of the most prominent
Sampradaya of four eternal Sampradaya — Brahma, Rudra,
Sri and Kumara - of the Vedic culture. He is the recipient of
"Bharat Gaurav Award" or "Glory of India Award" awarded

App. 290

by India International Friendship Society (IIFS), New
Delhi, India in January 2007.
In spring of 1979, with loving persuasion from his
wife Yogina, he received Brahma-sambandh or first
Initiation by Goswami 108 Sri Vrajeshkumar Maharajshri
of Pushti Sampradaya from Kankroli in Vadodara, Gujarat,
India and his Krishna Conscious journey begin. During the
summer of 1995, he spontaneously and with personal
persuasion received second initiation from Sri Ravindra
Svarupa dasa of Iskcon at Detroit, Michigan in U.S.A. with
Spiritual name as Atul Krsna dasa.
The first initiation in 1979 in Vadodara, India is the
example of "Seminal Initiation" or through parent or
parent-in-laws and second initiation in Detroit, U.S.A is an
example of "Providential Initiation" or by mercy of the
representative of the Supreme Personality of Godhead Sri
Krishna. These two categories of Initiations are widely
prevalent, very effective and authorized by four eternal
Sampradaya of the Sanatana Dharma in our planet
App. 291

Bharat-varsha since the time immemorial. In our modern
time, four modern religions Hinduism, Buddhism,
Christianity and Islam are also practicing these categories
of Initiation. The modern religions and other minor faiths
are the wonderful extensions or flowers of the Sanatana
Dharma according to the time, places and circumstances.
He is trying in humble way to explore and share this
greatest and ultimate body of knowledge with the web site
VedicLiteraturetheSupremeScience@vahoogrouns.com as
President and Moderator with this great forum. Every one
is cordially invited to participate in this quest and journey
without any reservation and obligation.

App. 292

APPENDIX N

Appendix N: This Appendix N is the official Opinion
documented in the Supreme Court of the United
States Case # 14-830. Letter to Satya Nadella, CEO
and Chairman of Microsoft Company with a request
for revelation of the “Description of the
Fundamental Principles of the Internet and
Computer science Mystery” for the betterment of
the modern mankind dated August 21, 2014.
Page for Appendix N are from App. 293 to App. 297

App. 293

Satya Nadella
CEO, Microsoft Company
Seattle, Washington, USA

Dear Satya Nadella:
Namaste
We congratulate you for the Promotion as CEO of the
wealthy and prestigious Microsoft Company recently in Feb
2014. We wish you a great success and fortune.
I have a genuine request and humble challenge for
you to reveal the “Description of the Fundamental
Principles of the Internet and Computer Science Mystery”.
Please describe this great topic for the benefits of the
modern mankind. Let us have a wonderful and friendly
debate for a great purpose.
The founder and Chairman of Microsoft Company
Mr. Bill Gates has a great respect for the intellectuals from
the South India as the Most Intelligent People in this small
globe. I am glad to say that your wonderful self is from the
App. 294

South India. Indeed, India is the divine land and Jagatguru of our blue planet Bharat-varsha.
As the introduction, my name is Atul C. Shah, MD
from Troy, Michigan, USA and I am Family Practice
Physician and Psychiatrist past 35 years. Originally, I am
from Gujarat in India. I am a President and Owner of
VedicLiteraturetheSunremeScience Web site with motto of
sharing the Ultimate Body of Knowledge with the fellow
human beings in the USA, India and other countries of this
small globe past one decade.
I am humbly requesting and challenging the
Chairmen, CEOs and Modern Innovators of Internet and
Computer Science Companies to reveal the “Description of
the Fundamental Principles of Modern Internet and
Computer Science Mystery” past one decade.
Also, I am requesting any Modern Scientists, Modern
Scholars and Modern Religionists & Spiritualists with
different Educational, Religious, National, Cultural as well

App. 295

as Occupational, Linguistic and Intuitive backgrounds for
their revelation with a great debate of this great topic.
So far, no one has come up to take this simple and
humble challenge with a debate as suggested in my Legal
Briefs and Articles to Federal Courts and the erudite
scholars within past one decade.
Hope that Prime Minister Narendra Modi and
President Obama may encourage the Modern Innovators,
Modern Scientists and Modern Religionists for the
Transcendental Debate as soon as possible.
I sincerely and humbly believe that you may take
this challenge. This is the Primary Purpose of writing this
simple letter to you in a democratic spirit and manner.
Again, thank you very much and eagerly awaiting
the friendly and prompt response.

Sincerely and fraternally,

App. 296

Atul C. Shah, MD
Troy, Michigan
Cell # 248-835-5025
August 21, 2014

App. 297

APPENDIX O

Appendix O: Superb article titled as “Vedic Culture: an
Ideal Culture - Higher Dimensions with the Modern
Science” by Atul C. Shah, MD dated March 31, 2018.
This article includes a revolutionary “Description
of the Fundamental Principles of the Internet
and Computer science Mystery” for the
betterment of the modern mankind. There is not a
slightest intension of the Blaspheme, Defamation or
Contempt of the Court at present, in the past or in
the future by this humble self. This superb article
describes 95% of the Fundamental Principles of the
fabulous Internet Technology Science and remaining
5 % to be described within the Comparative Study.
Page for Appendix O are from App. 298 to App. 537

App. 298

Internet Interactive Dialog
Preface
Vedic Culture: an Ideal Culture
Sanatana Dharma/Hinduism is bringing and
bestowing
Global Prosperity, Global Peace and Global enlightenments
for
The entire mankind at present, in the past and in the
future
In our small planet Bharat-varsha
Sanatana Dharma is bestowing the blissful Unity within
Followers of Hinduism. Buddhism, Christianity and Islam
and
Minor faiths Judaism, Jainism, Sikhism, Baha’i and all
faiths of this small globe

App. 299

Re-establishment of Pre-dominance of the Mode of
Goodness or Sattva Guna
Followed by the
Destruction of the Mode of Passion or Ralo Guna
&

Mode of Ignorance or Tamo Guna from All over the
world for
Re-establishment of the Sattvic Culture or the Vedic
Culture with help of
Sequential and Piece-meal destruction of
Four Cardinal Sinful and horrible habits of the Modern
Mankind
1. Indiscriminate Meat-eating Habit
2. Indiscriminate Intoxication Habit
3. Indiscriminate Illicit Sex habit
4. Indiscriminate Gambling Habit
App. 300

Strong and ever-lasting Unity within the followers of
Hinduism is
Vital and the Panacea for
Global Unity in Diversity with end of the
Terrorism. Immorality and Atheism

Global Unity in Diversity is painful but the pleasant
process!

App. 301

Article
Vedic Culture: an Ideal Culture
Higher Dimensions with the Modern Science
By
Atul C. Shah, MD
Troy, Michigan, USA

Description of Re-establishment of the Sattvic
Culture - the Vedic Culture

A. Sanatana Pharma is the Fountainhead & Anchor
of All Branches of Knowledge and all Major and
Minor Faiths of our small planet Bharat-varsha:

Sanatana Dharma is the original, universal, time-tested
and the ultimate Body of Knowledge for the enlightenments
App. 302

and benefits of the entire mankind in our small globe since
the time immemorial. Sanatana Dharma is the Anchor or
Adhara or Support for every culture, every religion, every
education system, every occupation, Art and Science
including the modern educational System that includes
Modern Law System, Modern Science and Modern Internet
Technology.
Everyone of this small planet Bharat-varsha must
take shelter of the Vedic Wisdom of the Sanatana Dharma
with all the Humility discarding the Timidity for the Global
Prosperity. Global Peace and Global enlightenments of the
entire mankind without any reservation and hesitation
right now and forever.
Modern Physicists, Modern Internet Technology geniuses
and Modern Educational Stalwarts from the prestigious
Universities from the Western and Eastern Hemispheres
must acknowledge and admire from bottom of heart the
profound and super-scientific doctrines of the blissful and

App. 303

eternal Vedic Literature: the Supreme Science of the
Sanatana Pharma from India with gratitude and
humbleness.
I may humbly assure to the recipients that there is not a
slightest intention of Blaspheme. Defamation or Contempt
of the Court for any culture, religion, faith or education
system with my articles by this humble self Dr. Atul C.
Shah, MD at present, in the past or in the future.
The truth must be revealed as it is no matter how the
truth is bitter and unpalatable. The suppression of the
truth reveals the truth and nothing but the truth that is
known to everyone. This is a sublime reality and the
blissful Vedic Wisdom.
The blissful and eternal Vedic Wisdom of Vedic Literature:
the Supreme Science of Sanatana Dharma is bringing and
bestowing the Higher Dimensions with the Modern
Education System that includes Modern Law System,

App. 304

Modern Science and Modern Internet Technology right now
and in the future. This is the undeniable truth and reality.
B: Vedic Culture is an ideal culture for the entire
mankind:
Vedic Culture is an ideal culture for the entire
mankind at present, in the past and in the future for the
Global Prosperity, Global Peace and Global Enlightenments
with the Global Unity in Diversity.
Practice, Promotion and Preservation of the Vedic
Culture as an Ideal Culture is extremely essential for the
survival of the entire mankind in our small planet Bharatvarsha right now.
All the Executive Heads such as Prime Ministers,
Presidents, Supreme Court Justices; Priests, Scientists,
Devotees and Spiritualists; Military Men, Businessmen,
Farmers and General Labor class of 7 plus billions or
more of the Modern Mankind must cooperate with each

App. 305

other for the betterment and benefits of the entire mankind
and the sub-human species.
Re-establishment of Pre-dominance of the Mode of
Goodness or Sattva Guna is necessary.
Destruction of the Mode of Passion or Rajo Guna and Mode
of Ignorance or Tamo Guna is the first step for the Re­
establishment of the Sattvic Culture or the Vedic Culture.
The Sequential and Piece-meal destruction of the Four
Cardinal Sinful and horrible habits of the Modern Mankind
is essential.

C. Vedic Wisdom of Sanatana Pharma
authoritatively describes that Three Modes of Nature
are the original Fueling Energies for every Living
Entity:

App. 306

“The Three Modes of Nature” are super-super-scientifically
and authoritatively described in great detail in Srimad
Bhagavata Gita and Srimad Bhagavatam - the ripened
fruits of the Vedic literature: the Supreme Science of the
Sanatana Dharma from India.
The Gross Physical Body and the Subtle Body of every
Living Entities such as the Human, Sub-human and Super­
human beings are fueled and energized every moment from
the birth to death in our planet and the Material Universe.
This great phenomenon has been put into the motion by the
creative energy of the Supreme Personality of Godhead.
The Three Modes of Nature are described in the Sanskrit
language as Sattva Guna or Mode of Goodness that is
White in color; Baio Guna or Mode of Passion that is Red in
color and finally, Tamo Guna or Mode of Ignorance that is
Blue in color with the following prominent characteristics
per the Vedic Wisdom.

App. 307

1. Sattva Guna or Mode of Goodness is pure,
illuminating, makes sinless and blissful
2. Rajo Guna or Mode of Passion is cause of the
unlimited desires and responsible for the

hankering

for the fruitive activities
3. Tamo Guna or Mode of Ignorance is full of madness,
indolence and sleep
The Human species or Homo sapiens are predominantly
fueled and energized by the combination of the Three
Modes of Nature - Sattva Guna, Rajo Guna and Tamo
Guna throughout their life from birth to death.
•

The Intellectual Class or Brahmin Class of mankind
is fueled by the White Energy of the Sattva Guna or
Mode of Goodness;

•

The Administrative Class is fueled by Red Energy of
the Rajo Guna or Mode of Passion;

•

The Entrepreneur Class is fueled by mixed energies
Red & Blue of Rajo and Tamo Guna; and finally,
App. 308

•

The Labor Class is fueled by the Blue Energy or
Tamo Guna. This is the beautiful and eternal Vedic
Wisdom of the Sanatana Dharma.

•

The Sub-human Species are predominantly fueled
and energized by the Tamo Guna or Mode of
Ignorance throughout their life span.

•

The Super-human Species that includes Divine and
Demoniac entities. The Divine entities are the
Demigods and Devatas that are predominantly
fueled by the Sattva Guna or Mode of Goodness.

•

The Demoniac entities are the Raksasas, Demons,
Asuras and Daityas that are predominantly fueled by
the Tamo Guna or Modes of Ignorance. This eternal
wisdom has been beautifully described in the Srimad
Bhagavata Gita by the Supreme Lord Sri Krishna.

Please consult the chapter 14 titled as “The Three Modes of
Nature” in Srimad Bhagavata Gita and in Srimad
Bhagavatam for the detail description.

App. 309

D. Super-scientific Description of Production of the
Three Modes of Nature per the Vedic Wisdom of
Sanatana Pharma:
•

Subtle Body is cause of the Gross Anatomical Body
for every Living Entities:
The Vedic Wisdom authoritatively narrates that the
Nano-size Subtle Body located within the heart
chambers of the Living Entities is the original cause
for the creation of all the Gross Anatomical
structures including the “Energy Production” of the
Human, Sub-human and the Super-human beings in
our small planet and Material Universe. This is the
blissful Vedic Wisdom.

•

Production of the Three Modes of nature:
Three Modes of nature are produced within the
Subtle Body made up of Mind, Intelligence and False
Ego along with the Soul Proper and aggregated
Karma. This Nano-size Subtle Body is situated and

App. 310

installed within inner chamber of the heart of the 8.4
million species of the Living Entities - Sub-human.
Human and Super-human beings in the material
world and our small globe.
•

The presence of the Soul Proper within the Subtle
Body in the heart triggers or activates the White.
Red and Blue Energies present in the Sattvic.
Raiasic and Tamasic foods or diets ingested during
the intra-uterine life and extra-uterine or normal life
span for every Living Entities in our small globe.

•

Distribution of the Three Modes of Nature:
Three Modes of Nature such as Sattvic White
Energy, Raiasic Red Energy and finally, Tamasic
Blue Energy are incessantly generated from the
Subtle Body (Mind, Intelligence and False Ego with
the Soul proper and Aggregated Karma) by
activation of the Seven Chakra present in every
Living Entities as beautifully described in the Vedic
Literature: the Supreme Science of Sanatana
App. 311

dharma from India. The Seven Chakra is responsible
for the distribution of the White. Red and Blue
Energies to the entire Gross Body of the Human,
Sub-human and Super-human species incessantly
from birth to death or entire life time. Following is
the concise description of the Seven Chakra doctrine.
•

This is the concise description of the production of
the Three Primary Energies for every Living Entities
per the Vedic Wisdom of Vedic Literature: the
Supreme Science of Sanatana Dharma. The Modern
Scientific concepts and theories for the “Energy
Production” are horribly un-scientific and best
examples of the speculations, waste of time and
money in name of Research as described in text
books of the Modern Biomedical Science and
Veterinary Science.

App. 312

E. Description of Seven Chakra Doctrine per the
Vedic Wisdom of Sanatana Pharma:
Description of Seven Chakra Doctrine per the Vedic
Wisdom:
The Seven Chakra can be described from Head to
Bottom or Descending Process and from Bottom to
Head or Ascending Process by different schools of the
Vedic Wisdom from India. Energy is energy and
energy that can travel in Ten Directions, in 360
directions and infinite directions without any
problem or hindrances. I prefer to describe the Seven
Chakra Doctrine in Descending Process from Head to
Bottom per the Vedic Wisdom in Sanskrit
terminology with the English equivalents.
1. First Chakra or Sahasrara Chakra or Crown
Chakra: This Chakra is located in the Head or
Crown of the Gross Body with the corresponding

App. 313

anatomical structures such as Pituitary Gland,
Thalamus and Hypothalamus.
2. Second Chakra or Ajna Chakra or Brow
Chakra: This Chakra is located between the two
eyes or Brows of the Head with the corresponding
anatomical structure of the Pineal Body in the
brain.
3. Third Chakra or Vishuddhi Chakra or Throat
Chakra: This Chakra is located in the Throat of
the Gross Body with the corresponding
anatomical structures of the Thyroid Gland and
Parathyroid Glands.
4. Fourth Chakra or Anahata Chakra or Heart
Chakra: This Chakra is located in the Thoracic
Cavity with the corresponding anatomical
structures of Sino-Atrial Node and AV nodes of
heart proper and the chain of the Thoracic
Ganglions.
App. 314

5. Fifth Chakra or Manipura Chakra or Solar
Chakra: This Chakra is located within the
abdominal cavity with the corresponding
anatomical structures of Pancreas, Liver &
Billiary System, Adrenal Gland and intestinal
glands.
6. Sixth Chakra or Swadhisthana Chakra or
Sacral Chakra: This Chakra is located in the
upper Pelvic Cavity with the corresponding
anatomical structures of the reproductive organs
of Spermatic Cord including Testes, Ovaries and
the Sacral Plexus.
7. Seventh Chakra or_Muladhara Chakra or
Root Chakra: This Chakra is located in the
bottom Pelvic Cavity with the corresponding
anatomical structures of Anus with Prostate
Gland in male gender and Uterus with Cervix of
the female gender.

App. 315

8. This is the super-scientific description of the
Seven Chakra per the eternal and blissful Vedic
Wisdom of the Sanatana Dharma from India.
There is no need to go into useless debate of 5, 6
or 7 Chakra or 10 or 100 chakras within our
Gross or Subtle Body of the Human beings. Seven
Chakra Concept is the best doctrine.
9. Modern Researchers and Scientists are able to
stimulate or suppress the multiple Systems such
as Central Nervous System, Cardiovascular
System, Gastroenterology System, Reproductive
System and almost every Anatomical and Mental
Systems with help of the Stimulants and
Suppressants since less than a century. However,
these ignorant and passionate Researchers and
Scientists from the prestigious universities have
vague and disorganized Concepts and Doctrines.
They are horribly ignorant about how the
Stimulants and Suppressants are activating and
App. 316

working within the Gross Body and Subtle Body
of the mankind and other species. Best examples
are 30 to 40 Neurotransmitters, hundreds of
Enzymes, dozens of Hormones and the Krebs’s
Cycles for the Energy productions and
distribution concepts that are the crazy and
stupid concepts by the Western Scientists and
researchers from the prestigious and wealthy
universities around this small globe. Everyone
must take this point seriously with humility.
10. On other hands, the Seven Chakra are
scientifically and accurately stimulating and
suppressing the vital energies, Prana and the
Consciousness of mankind with help of the Yoga
Practice and Meditation for thousands and
millions of years.
11. MRI Chakra and CT Scan Chakra of the
Modern Technology:

App. 317

Modern Researchers and Innovators have
invented the MRI Chakra and CT Scan Chakra
for the diagnostic purposes during our modern
time inadvertently and accidentally within less
than a century.
12. MRI Chakra and CT Scan Chakra are the
External and Internal Chakra able to reveal the
colorful and Black & White pictures or Images of
every structure of the Gross Body for the
diagnostic purposes. However, the MRI and CT
Scan Chakra are not able to take the images of
the Subtle Body made of Mind, Intelligence, False
Ego, and the Soul Proper with the aggregated
Karma. According to the blissful Vedic Wisdom,
Mind represents White energy; Intelligence
represents the Red Energy and False Ego
represents the Blue Energy. Modern Innovators
and Scientists must accept and praise this superb
scientific information from the Vedic Literature:
App. 318

the Supreme Science of Sanatana Dharma from
India without hesitation for betterment of the
modern mankind right now.

F. Higher Dimensions with the Modern Bio­
medical Science:
As mentioned earlier in this superb article that the
Vedic Wisdom of Vedic Literature: the Supreme Science
of Sanatana Dharma from India is the Anchor. Adhara
and Origin of all branches of the knowledge that
includes the Modern Science. Modern Law System and
Modern Internet Technology in our small globe.
We have to take a sincere note that concepts of the
Modern Science including the Bio-medical Science,
Embryology, Psychiatry & Psychology; Atomic Science,
Physiology, Chemistry, Biology; Social Science and all
other “Logies” are highly disorganized, superficial at
the observational level and fallible in nature.
App. 319

Higher Dimensions with the fundamental Principles of
the Basic Sciences of the Modern Science that includes
the Modern Bio-medical Science per the blissful Vedic
Wisdom is extremely essential right now. The eternal
and blissful Vedic Wisdom is providing the Higher
Dimensions with the Modern Science right now.
Modern Biomedical Science has been created by the
Western scholars from Europe and America within last
three or four centuries is known to everyone. Modern
Biomedical Science has artificially created 40 to 50
Specialties by dissecting the Gross Anatomical Body of
the Human and Sub-human beings. However, the
classification of 40 to 50 specialties such as Central
Nervous System, Cardiovascular System, Respiratory,
Reproductive, Gastroenterology, Embryology, Pathology
and Immunology are highly speculative and unscientific
in nature. The Vultures, Hyenas and Foxes are highly
skillful and excellent dissectors of the Gross Body better
than the Pathologists and Histopathology Technicians.
App. 320

Also, the Dissection provides little information to
Pathologists and Researchers.
The blissful and eternal Vedic Wisdom will certainly
provide the Higher Dimensions with every specialty of
the Modern Biomedical Science. I am describing the
glimpses of how the Vedic Wisdom is providing the
Higher Dimensions with Embryology, Pathology,
Histopathology, Central Nervous System, Neurology,
Cardiology, Radiology, Psychiatry & Psychology
specialties of the Modern Biomedical Science as
described in the following passages.
•

Higher Dimensions with the fundamental principles
of Embryology:
The concepts of Embryology of the Modern
Biomedical Science definitely need the Higher
Dimensions per the Vedic Wisdom. The text books of
Embryology are unable to explain the origin of the
germinal cell lines known as the Ectoderm.

App. 321

Endoderm and Mesoderm past less than a century.
The blissful Vedic Wisdom will help for the Higher
Dimensions with Embryology right now as follow.

The White energy Sattva Guna transforms into the
Ectoderm; Red Energy Raio Guna transforms into
the Endoderm and finally, the Blue Energy Tamo
Guna transforms into the Mesoderm as three
germinal lines described in Text Books of
Embryology of the Modern Biomedical science.

Sattva Guna, Rajo Guna and Tamo Guna are the
Subtle Energies produced from the Subtle Body. The
Ectoderm, Endoderm and Mesoderm are the Physical
transformation derived from the Sattva Guna. Raio
Guna and Tamo Guna that are responsible for
formation of every Anatomical Structure of the Gross
Anatomical Body.
App. 322

Ayurvedic Medical Science is describing
authentically the three disease producing
permutations known as Vata, Pita and Rough that
are corresponding to Sattva, Rajo and Tamo Guna.
Also, the Traditional Chinese Medicine is describing
the Tai, Chi and Yin are representing the Vedic
Concept of the Sattva, Rajo and Tamo Guna and the
Ayurvedic Concepts of Vata, Pita and Rough just
described in this superb article. Ayurvedic Medical
Science is the oldest medical Science known to
mankind for millions of years in our planet Bharat varsha.

So, there is no hesitation to declare that the
Ectoderm. Endoderm and Mesoderm Concept of the
Embryology is the Copy and Stolen Goods from the
Vedic Wisdom from India by the modern Biologists,
App. 323

Researchers and Pundits from Europe and America
within last one or two centuries in our small globe.
The blissful and eternal Vedic Concepts will provide
further Higher Dimensions with the Text Books of
Embryology.
L Sattva Guna or White Energy represents the
Ectoderm:
Following are the examples of the gross and
subtle Anatomical Systems of the Modern Bio­
medical Science that are derived and
originated from the Sattva Guna or white
Energy per the Vedic Wisdom.
1. Central Nervous System: The white color
CNS structures include Brain, Spinal Cord
and multiple Nerve Plexuses such as Thoracic,
Sacral, Brachial, and Carotid plexuses; short
and long Nerves and Neurons.

App. 324

2. Cardiac Conduction System: This system
includes the SA Node, AV Node, Bundle of His,
Bundle Branches, and Purkinje fibers.
3. Skeletal System: The White Skeletal
System includes all the small and large 206
plus bones of the Gross Body of the mankind.
4. The Sages and Rishis of the Vedic
Literature: the Supreme Science has already
counted the numbers of the BONES totaling
206 for the mankind millions of years ago. The
modern pundits from the Europe and America
are re-learning and re-confirming the numbers
of the BONES in the mankind past few
centuries with help of the autopsies, staining
techniques and dissections of the Gross Body
in the department of Pathology and Radiology
departments.

App. 325

5. The basic concept is that any atomic,
molecular, cellular or organ of the Gross
Anatomical structure that is white or silvery
or pale gold in color representing the Sattva
Guna or White Energy.
6. According to the Vedic Wisdom the Mind
component of the Subtle Body is responsible
for the creation of the Sattva Guna with
subsequent anatomical structures such as
Central Nervous System and Cardiac
Conduction Systems, Skeletal System and
CNS Plexuses.
II. Raio Guna or Red Energy represents the
Endoderm:
Following are the examples of the gross and
subtle Anatomical Systems of the Modern Bio­
medical Science that are derived and

App. 326

originated from the Rajo Guna or Red Energy
per the Vedic Wisdom.
1. Muscle System: The Red Muscle System
includes the all small and large Muscles and
Tendons of the Gross Body of the mankind.
2. Red-colored Bone Marrow and Red-colored
Blood components (Red Blood Cells) are
originating from the Red Energy Rajo Guna
per the Vedic Wisdom.
3. The basic concept is that any atomic,
molecular, cellular and organ of the Gross
Anatomical structures that is Red, Pinkish or
light Red in color representing and originating
from the Rajo Guna or Red Energy.
4. According to the Vedic Wisdom, the
Intelligence component of the Subtle Body
is responsible for the formation of the Rajo
Guna with subsequent anatomical structures
App. 327

such as Muscle and Tendon System; Red Blood
Cells and Red components of Blood within the
Gross Body of the Living Entities.
III. Tamo Guna or Blue Energy represents the
Mesoderm:
Following are the examples of the gross and
subtle Anatomical Systems of the Modern Bio­
medical Science that are derived and
originated from the Tamo Guna or Blue
Energy per the Vedic Wisdom.
L Endocrinology: Endocrinology System of the
Gross Body that includes Pituitary Gland,
Pineal Body, Thyroid Gland, Parathyroid
Glands, Adrenal Glands, Large and Small
Intestinal Glands and Liver & Billiary System
are the pertinent examples of the anatomical
structures derived from the Tamo Guna or the
Mesoderm. All endocrine glands are staining
App. 328

blue with the pathology Department of the
Modern Hospitals Laboratories and Clinics.
2. So, the Pituitary Gland, Pineal Body and all
other endocrine glands are derived from the
Mesoderm and not from the Ectoderm or from
the Brain.
3. The basic concept is that any atomic,
molecular, cellular or organ of the Gross
Anatomical structure that is Blue or light Blue
in color representing the Tamo Guna or Blue
Energy.
4. According to the Vedic Wisdom, the False
Ego component of the Subtle Body is
responsible for creation of the Tamo Guna
with the subsequent anatomical structures
such as Endocrinology System, Liver &
Billiary System and Intestinal System within
the Gross Body of the Living Entities.
App. 329

VI: Fundamental Principe of Organogenesis: So,
the trillions & Zillions of cells present within
the Gross Anatomical Body of the Human,
Sub-human and Super-human beings are the
permutation and transformation of the Three
Modes of Nature — Sattva Guna, Rajo Guna
and Tamo Guna - per the blissful Vedic
Wisdom of Sanatana Dharma from India.
Ectoderm, Endoderm and Mesoderm are
secondary germinal lines for the
Organogenesis as described in the Embryology
Text Books of the Modern Biomedical Science.
V. Every Embryologist at the prestigious
University and research facilities must know
by heart that there are 8.4 million of the
species or the Blue Prints as the Human
beings, Sub-human beings and the Super­
human beings in our small planet and this
Material Universe since the time immemorial.
App. 330

VI. So, there are 8.4 million species in our small
planet and Universe. Each Species has
“Original Blue Print” that is responsible for
formation of the future Gross Anatomical Body
and Subtle Body such as Cats, Dogs, Lions,
Tigers, Human, Trees, Gorillas and Beasts to
Microbes. This is the blissful Vedic Wisdom for
the Higher Dimensions with the organogenesis
conducted by the Three Modes of Nature Sattva, Raio and Tamo Guna as well as the
Ectoderm. Endoderm and the Mesoderm as
described in the Text Books of Embryology.

•

Higher Dimensions with the fundamental principles
of the Histonathology:
The fundamental principles of Histopathology are
Cutting. Staining. Electrophoresis and Freezing
Techniques for diagnosis of the multiple disease

App. 331

processes of the Human and Sub-human beings past
less than a century.
1. Electrophoreses and Spectrometers are used
to detect the ailments at the Molecular,
Cellular and Organ levels in the
Histopathology Department. However, the
detection of the Disease Processes at the
Organ, Cellular, Molecular and Atomic levels
within the Histopathology Department is
disorganized, unscientific and fallible in
nature. The cutting, staining, freezing and
Electrophoreses or Spectrometry are not able
to detect the Normal or Abnormal processes at
the Atomic, Molecular, Cellular and Organ
levels.
2. Sattva Guna is the White Energy, Rajo
Guna is Red Energy and Tamo Guna is Blue
Energy responsible for the colorful images of

App. 332

the Normal or Abnormal Anatomical
Structures and Systems of the Human or Sub­
human species.
3. So, the fundamental principles of the
Cutting, Staining, Freezing and
Electrophoreses or Spectrometry of the
Histopathology Department must be
upgraded per the White Energy Sattva Guna,
Red Energy Rajo Guna and Blue Energy Tamo
Guna. These superb doctrines will provide the
Higher Dimensions with the Histopathology
per the Vedic Wisdom for the betterment of
the modern mankind.

•

Higher Dimensions with the fundamental principles
of Pathology:
Department of Pathology is performing millions of
autopsies of the Soul-less Gross Anatomical Body of
App. 333

the Human race at the hospitals and universities all
around this small globe past few centuries. However,
the knowledge gathered from the millions of
autopsies is speculative and fallible in nature.
1. Pathologists must know by the heart that
trillions and Zillions of cells with hundreds of
varieties are meticulously assembled into the
Central Nervous System, Cardiovascular System,
Respiratory, Hematology, Gastroenterology,
Genitourinary and other Gross Anatomical Body
by the sophisticated and wonderful Creative
Energy of the Supreme Personality of the
Godhead.
2. Also, every pathologist must humbly accept
that they will never be able to understand how
the Ectoderm, Endoderm and Mesoderm derived
from the Sattva Guna, Raio Guna and Tamo
Guna are transforming into Brain, Heart, Liver,

App. 334

Kidneys, Spleen, Pancreas, Bones and Muscles of
the Gross Anatomical Body. Be humble!!
3. Pathologists and modern pundits of the
prestigious universities from the Western and
Eastern hemispheres will never be able to fathom
the Atomic to Molecular; then, Cellular to Organ
level permutations and transformation of the Five
Gross Elements (Earth. Water. Fire. Air and
Ether) and Five Subtle Elements (Sound. Touch.
Form. Taste and Smell) of the Material Nature as
described in the Vedic Literature: the Supreme
Science of Sanatana Dharma from India. Again.
be humble and honest!!!
4. In other words: Pathologists, Embryologists,
Genetic Researchers and Scientists will never be
able to fathom the intricacies and complexities of
how, when and where the trillions and zillions of
atoms and molecules transforming into Neurons

App. 335

to Brain and Spinal Cord; Hepatocytes to Liver;
Glomeruli to Kidneys; Cardiac Cells to Heart;
Myocytes to Muscles and Osteocytes to Bone and
Cartilages and other Organ Formations of the
Gross Anatomical Body with help from the Three
Modes of Nature - Sattva Guna, Rajo Guna and
Tamo Guna. This is the blissful Vedic Wisdom.
5. Organogenesis is the mind-boggling
phenomenon for the tiny and speculative brain of
Embryologists, Pathologists and Genetic Science
Researchers at the prestigious universities and
research facilities around the world.

•

Higher Dimensions with the fundamental principles
of Cardiology:
Department of Cardiology needs Higher Dimensions
with the current fallible basic principles per the

App. 336

Vedic Wisdom for the betterment of the modern
mankind.
1. Soul Proper is the Original Pacemaker of
the Heart per the Vedic Wisdom.
2. Sino Atrial Node or SA Node is the
Secondary Pacemaker of the Heart.
3. Heart Chakra or Forth Chakra or Anahata
Chakra activates and energizes the SA Node,
AV Nodes and Purkinje Electrical System of
the heart for the blood circulation and
purification of the blood.
4. Presence of the Soul Proper within the
Subtle Body is most important factor for the
blood circulation to stay well and alive. Soul­
less body is a dead body.
5. Forth Chakra or Heart Chakra can
accelerate the heart rate with Tachycardia and
decelerate the heart rate with Bradycardia by
App. 337

help of Yoga and Meditations. Atrial
Fibrillation and Ventricular Fibrillation are
the Death Warnings for the human and the
sub-human species.
6. Modern Researchers and Scientists at
wealthy and famous Universities and
Hospitals are able to accelerate and decelerate
the Heart Rates with help of the Drugs,
Pacemakers and Electrical devices right now
without their accurate understanding of the
fundamental principles of Cardiology and
Biology.

•

Higher Dimensions with the fundamental principles
of Radiology:
Department of Radiology of the Modern Biomedical
Science is in dire need of the Higher Dimensions per
the blissful Vedic Wisdom right now as follow.
App. 338

1. MRI Chakra and CT Scan Chakra: MRI and
CT Scan Chakra are the External and Internal
Chakra invented for the diagnostic and
therapeutic purposes by the modern
Innovators and researchers from USA, Europe
and India within less than a half century.
2. MRI and CT Scan Chakra are infusing the
Atomic Energies to the Gross Anatomical
Structures for the diagnostic purposes to
detect and analyze the various Normal
physiological or Abnormal Pathological
Processes of the Human and Sub-human
species.
3. Black & White images as well as the
colorful images (Red, Pink, Golden and Blue
colors) of the MRI Chakra or CT Scan Chakra
with help of the Intravenous Dyes are nothing
but the transformation of White Energy

App. 339

Sattva Guna, Red Energy Rajo Guna and Blue
Energy Tamo Guna as described in this
article.

•

Higher Dimensions with the fundamental principles
of Hematology/Immunology:
Department of Hematology & Immunology of the
Modern Biomedical Science also needs Higher
Dimensions per the Vedic Wisdom right now. White
Blood Cells, Red Blood Cells, Platelets and all cell
precursors derived from the Bone Marrow, Lymph
Glands and Spleen of the Hematology Text Books are
originating from the Three Modes of Nature —

(

Sattva. Raio and Tamo Guna.
L Bone Marrow, Lymph Glands and Spleen
are derived from the Mesoderm or Blue
Energy Tamo Guna as described earlier in this
article.
App. 340

2. Red Blood Cells and other cells with Red,
Reddish or Pinkish color cellular or liquid
components are deriving and originating from
the Red Energy Rajo Guna as described in this
article.
3. White Blood Cells, Platelets and other white
color cells or Liquid components of
Hematology are derived from the White
Energy Sattva Guna. Hematology is the best
example of the combination and mixture of the
Three Modes of Nature - Sattva Guna, Rajo
Guna and Tamo Guna - at Atomic, Molecular,
Cellular and Organ levels for the
Transmission of Energy for fueling and
revitalizing purpose of the Gross Anatomical
Body and the Subtle Body or the Astral Body
in our small planet and universe since the
time immemorial.

App. 341

4. So, the fundamental principles of
Hematology and Immunology must be
upgraded per the blissful Vedic Wisdom right
now.

•

Higher Dimensions with the Psychiatry and
Psychology:
The fundamental principles of Psychiatry and
Psychology are superficial, disorganized and crazy or
schizophrenic in nature. Please review my article
tilted as “Phobia: Classification. Causes and
Remedy” forwarded to the Vedic Web sites during
2017 for the detail. The Higher Dimensions per the
Vedic Wisdom is extremely essential to eradicate the
“Malignant Effects of Psychiatry and Psychology on
the Modern Mankind” all over this small planet.

App. 342

•

In Nut-shell: Higher Dimensions with the
Fundamental Principles of the Basic Science of
Physics, Chemistry, Biology, Social Science,
Mathematic and the 40 to 50 Specialties of the Bio­
medical Science of the Modern Science with help of
the eternal and blissful Vedic Literature: the
Supreme Science of Sanatana Dharma from India is
extremely essential right now.

•

Short summary of Higher Dimensions with the
Modern Science ner the Vedic Wisdom:
1. The Subtle Body is composed of the Mind,
Intelligence, False Ego, the Soul Proper and
Aggregated Karma or Actions. The Subtle Body is
the original cause for the formation of the Gross
Anatomical Body of the Human, Sub-human and
the Super-human beings as well as
Transmigration or Re-incarnations. This is the
blissful Vedic Wisdom.
App. 343

2. Mind is responsible for the formation of White
Energy Sattva Guna.
3. Intelligence is responsible for the formation of
Red Energy Raio Guna.
4. False Ego is responsible for the formation of
Blue Energy Tamo Guna.
5. Sattva Guna is the subtle White Energy and
responsible for formation of the Ectoderm as
described in Embryology of the Modern Biological
Science.
6. Raio Guna is the subtle Red Energy and
responsible for formation of the Endoderm as
described in Embryology of the Modern Biological
Science.
7. Tamo Guna is the subtle Blue Energy and
responsible for formation of the Mesoderm as
described in Embryology of the Modern Biological
Science.
App. 344

8. Sattva Guna or Ectoderm is responsible for
formation of Central Nervous System that
includes Brain, Spinal Cords, Plexuses;
Ganglions, Nerves & Neurons; Cardiac
Conduction System and Skeletal System of the
Gross Anatomical structures.
9. Rajo Guna or Endoderm is responsible for
formation of Muscle and Tendon Systems with all
Muscle and Tendon structures; Red Blood Cells of
the Gross Body.
10. Tamo Guna or Mesoderm is responsible for
formation of Endocrinology Systems with dozens
of glands, numerous gastrointestinal glands,
Liver & Billiary System of the gross anatomical
structures within the Gross Anatomical
structures.
11. The Seven Chakra from Head to Bottom is
strategically located within the Gross Body of
App. 345

Human, Sub-human and Super-human beings for
the activation, production and distribution of the
Sattva Guna, Rajo Guna and Tamo Guna.
12. Human beings have ability to activate the
Seven Chakra with help of the Yoga and
Meditation. However, the Sub-human beings are
unable to activate the Seven Chakra. The Super­
human beings are master of the Seven Chakra.
13. Modern Biomedical Science is describing the
40 to 50 specialties created by the modern pundits
from the Europe and America. These 40 or 50
specialties such as Central Nervous System,
Cardiovascular System, Respiratory System,
Gastroenterology System, Psychiatry &
Psychology, Immunology, Reproductive System &
Embryology and other systems are highly
unscientific and speculative in nature. The
primary purpose for creation of the 40 to 50

App. 346

specialties is the lucrative money-making
business and the billing business and nothing
else!!! The eternal and blissful Vedic Wisdom
will definitely provide the Higher Dimensions
within the fundamental principles of the Modern
Science right now.
14. In Essence: The Creation, maintenance and
Destruction of the all the anatomical structures,
physiology and Energy Production within the 40
to 50 Specialties of the Modern Biomedical
Science are masterfully conducted by the Nano­
sized Subtle Body just described per the Vedic
Literature: the Supreme Science of Sanatana
Dharma of India. This is the blissful Vedic
Wisdom.
15. I may humbly mention that not a single
modern pundit trained per the defective modern
educational system will be able to reveal the

App. 347

spectacular, tampered-proof and stealing-proof
doctrines of the blissful and eternal Vedic Wisdom
of Sanatana Dharma as described in this article
now and in the future.

G. Fundamental Principles are the Fundamental
Principles:
Vedic Literature: the Supreme Science of the Sanatana
Dharma from India is authoritatively and superscientifically describing the eternal and blissful
Fundamental Principles of the Spiritual Science and
Material Science since the creation of our small planet
Bharat-varsha and the single Material Universe.

The fundamental principles of the Vedic Literature: the
Supreme Science of Sanatana Dharma from India is the
Universal, Eternal, Blissful, Infallible and the Time-tested

App. 348

for enlightenments of the entire mankind in our small
globe.

The fundamental principles of the Vedic Literature: the
Supreme Science of Sanatana Dharma is Tampered Proof
and Stealing Proof that no one can alter or whimsically
change anytime or anywhere in our small globe. This is the
blissful Vedic Wisdom.

The Vedic Literature: the Supreme Science is searched,
researched and re-researched by the Sages, Rishis,
Vaishnava Acharyas and Transcendentalists of the various
branches of the Eternal, Blissful and magnificent Vedic
Tree since the time immemorial of this planet Bharatvarsha and Material Universe. There is no need to re­
search again what already have been researched by the
greatest thinkers and stalwarts of the Vedic Literature: the
Supreme Science for the entire mankind now, past and in
App. 349

the future. This is the eternal and blissful Fundamental
Principle.

H. Fundamental Principles are blissfully Simple and
amazingly Complex in Nature:
Vedic Literature: the Supreme Science of Sanatana
Dharma from India is authoritatively and Superscientifically describing the Fundamental Principles of the
Spiritual Science and the Material Science for the
enlightenments of the entire mankind since the creation of
our small planet Bharat-varsha and our single Material
Universe.

Fundamental Principles of the Spiritual Science and
Material Science are blissfully simple and amazingly
complex that has been put into the motion by the Creative
Energy of the Supreme Personality of Godhead.

App. 350

Modern Pundits, Modern Researchers, Modern Innovators
and Ultra-modern Scientists from the prestigious and
wealthy Universities and Educational Institutes must
accept and praise this fact with all the humility and
without any reservation and hesitation right now.

There are multiple examples of the Fundamental Principles
of the Spiritual Science and Material Science as blissfully
described in the Srimad Bhagavata Gita and Srimad
Bhagavatam — the ripened fruits of the Vedic Literature:
the Supreme Science.

Alphabets, Numerical, Mathematical Calculations and
Fonts or Characters are the simplest and blissful
Fundamental Principles known to the mankind in every
culture.

App. 351

For an example: English language has only 26 alphabets.
Sanskrit language has 52 alphabets and Chinese language
has 30 alphabets known to everyone in this small globe.

English Language has only 26 basic Alphabets. However,
the English language should not be considered as the
Primitive Language having only 26 basic alphabets. Also,
the Chinese Language has 30 basic Alphabets and 3000
characters should not be considered as sophisticated or
better language than the English language.

Internet and Computer Science have hundreds of basic
Alphabets or Icons and millions of Characters invented by
the fertile brain of the modern Innovators inadvertently
and accidentally within last less than a century from the
Western and Eastern hemisphere. Please smile softly
without giggling!!!
App. 352

In other words, the fundamental principles are the
fundamental principles forever. The fundamental principles
should never be considered as the primitive or sophisticated
by anyone.

Sanskrit language is the most perfect and scientific
language known to the mankind. Sanskrit language is the
origin and fountainhead of the all languages of our planet
Bharat-varsha and our single Material Universe since the
time immemorial.

We have to take a sincere note that English, French,
German, Hindi, Chinese, Persian and African languages as
well as other languages are spoken and written in the
disorganized and unscientific manner for the mere
communication purpose. For an example: the written

App. 353

Arabic Languages look like a basket full of the crawling
Worms and Maggots!!! Every page is full of them!

However, the Sanskrit language is perfectly organized and
the most scientific written and spoken language with the
Guttural. Palatal, Cerebral, Dental. Labial, Semivowel,
Sibilant to Aspirate categories of the Phonology and
Phonetic science.

Sanskrit language is the only language compatible with the
Internet and Computer Science declared by the NASA from
USA and the Indian Space Research Institute from India.
This is the blissful Vedic Wisdom.

So, the Alphabets, Numerical, Mathematical Formula,
Fonts and Characters are the simplest as well as the most
Complex Fundamental Principles available for the
App. 354

enlightenment and benefits for the entire mankind in our
small globe.

Internet and Computer Science have thousands of Icons or
Alphabets and Millions of Characters or Images invented
by the fertile brain of the modern innovators and hackers.

Thousands of Icons or Alphabets and millions of Characters
or Images applied in the Modern Internet technology can be
described within two major Categories.
1. Expressed Internet Icons or Alphabets and
Characters or Images
2. Concealed Internet Icons or Alphabets and
Characters or Images

We all know well that the Expressed Icons and Characters
are used for the communication purposes and the
App. 355

Concealed Icons and characters are used for the Internet
Hacking and Internet Terrorism all over this small
globe past few decades.

Reiterating that English language with 26 Alphabets and
100 plus Characters is not a PRIMITIVE LANGUAGE
compare to 30 Alphabets and 3000 nlus Characters in the
Chinese language. The modern Internet Technology with
thousands of Alphabets or Icons and millions of Characters
should not be considered as the sophisticated language.

In essence: the 26 Alphabets of English Language, 30
Alphabets of Chinese Language and 52 Alphabets of
Sanskrit Language as well as all other languages are
the blissful and sublime Fundamental Principles
created for the communication and enlightenments
purpose of the Modern and Ancient mankind in our
small planet Bharat-varsha.
App. 356

The language with lesser number of Alphabets such as
English Language is not the Primitive Language and
Chinese language with higher number of Alphabets is
not the sophisticated language. Modern Internet
language has thousands of Icons or Alphabets and
millions of characters. This astronomical numbers do
not make the Internet Technology as the Supersophisticated language. Numbers has relative value and
not the absolute value!!!

We all know that Omkara is the single and the original
Sound Vibration. Omkara is the origin of all Sound
vibrations, Alphabets, Mathematic Numbers and
Numerical as well as all languages in our small planet
and single Universe. This great point is nicely described
in the following Section I.

App. 357

I. Omkara - the Speaker. Shabda or Sound and
Listener:
Vedic Literature: the Supreme Science is narrating that the
most powerful, most scientific and the oldest Sound
Vibration is Omkara or Pranava Mantra written in the
divine Sanskrit language. The Sanskrit language is written
in the Deva-nagari Script and Sanskrit is the language of
Demigods and Celestial beings since the time immemorial
in our small planet Bharat-varsha.

Omkara or Pranava Mantra is original and the most
powerful Sound Vibration spoken directly by the Supreme
Personality of Godhead at the beginning of the Creative
Process of the Material and Spiritual Universes as
beautifully described in the Srimad Bhagavatam and
Srimad Bhagavata Gita - the ripened fruits of the Vedic
Literature: the Supreme Science of the Sanatana Dharma
from India.
App. 358

Omkara or Pranava Mantra is the origin of all the
Alphabets, Numerical, Mathematical Formula and Fonts or
Characters available to the different cultures, dynasties
and educational systems in the Western or Eastern
Hemispheres of our small globe.

Spoken Omkara or Pranava Mantra is representing the
Impersonal or Formless Energy and the Written Omkara or
Pranava mantra is the Personal or Visible with Forms with
infinite characters created by the Supreme Personality of
Godhead.

Sound Vibration is the original impetus for the creation,
maintenance and destruction of the Material Universes and
8.4 million species of the Living Entities such as Human,
Sub-human and the Super-human beings per the blissful
Vedic Wisdom.
App. 359

So, the Sound is transforming to Touch, Form, Taste and
Smell categories in the chronological and sequential steps
per the superb Vedic Physical Science. The Spoken formless
Omkara is transforming into the Written Omkara with
visible FORMS and CHARATCTERS during the Third
Stage of the Vedic Physical Science (Sound, Touch, Form.
Taste and Smell transformations).

Three Modes of Nature - Sattva Guna, Raio Guna and
Tamo Guna are the most important subtle material
energies responsible for the chronological and Sequential
transformation of the Sound. Touch. Form. Taste and Smell
that are resulting into the creation, maintenance and
destruction of the 8.4 million species, the planetary system
and our single Material Universe. The Time Factor is
activating force for Three White Sattva Guna, Red Rajo
Guna and Blue Tamo Guna Energies. In our Material
App. 360

Universe Time Factor is the most potent and active factor
for all the physical and psychological permutations and
transformations.

In other words: The Time is chansins everything but the
Time is never changed as the Time is eternal and changeless
spiritual energy as blissfully described in the Vedic Wisdom
of India.

Sound Vibration Omkara or Pranava Mantra is the
original cause of our planetary system and the Material
Universes as well as the 8.4 million of the Species and every
action or Karma at Singular. Dual and Plural levels. This
is the fundamental principle of the eternal and blissful
Vedic Wisdom of Sanatana Pharma from India.

App. 361

Please refer mv article titled as “Omkara - Speaker,
Shabda and Listener” forwarded recently and during 2009
and later dates to several Vedic sites. Thank you.
J. Varnasrama Pharma is the Blue Print of the Vedic
Culture - an Ideal Culture:
The Supreme Personality of Godhead Sri Krishna is
instructing the Supreme Archer and friend Arjuna in
Srimad Bhagavata Gita (SBG 4.13) that Four Division of
Human Society or Varnasrama Dharma is created
according to three Modes of Nature and Karma.

The fundamental principle of the Vedic Culture: an Ideal
culture for the entire mankind since the time immemorial
in our small planet Bharat-varsha is described as follow.

App. 362

I: Regular Pyramid of the Varnasrama Pharma:
1. Brahmana Class or Intellectual Class:

10

Percent of the Population.
2. Ksatriya Class or Administrative Class:

20

Percent of the Population
3. Vaishya Class or Business Class:

30

Percent of the Population
4. Sudra Class or General Labor Class:

40

Percent of the Population

II. Reverse Pyramid of the Varnasrama Pharma:
1. Student Class from Age 1 year to 25 years:

40

Percent of the Population
2. Householder Class from Age 26 to 50 years: 30
Percent of the Population
3. Retired Class from Age 51 to 75 years:
Percent of the Population
App. 363

20

4. Renounced Class from Age 76 to 100 years:

10

Percent of the Population

So, the Four Occupational Classes in the Regular
Pyramid and the Four Functional Classes in the
Reverse Pyramid of the Varnasrama Dharma are the
super-scientific and perfect Divisions of the Human
Society for the harmonious and smooth relationship
and functions resulting into the Global Prosperity,
Global Peace and Global Enlightenments of the
entire human society as well as Sub-human species.

In the Reverse Pyramid: Student Class is called
Brahmacharvashrama: Householder Class is called
as Grihasthashrama: Retired Class is known as
Vanaprasthashrama and Renounced Class is known
as Sannyasashrama per the Sanskrit Terminology.

App. 364

III. Diamond or Jewel of the Varnasrama Pharma:
Combination of the Regular Pyramid and Reverse
Pyramid of the Varnasrama Dharma transforming
into the magnificent and beautiful Diamond or
Jewel for the entire mankind with the blissful
Global Unity in Diversity in our small planet Bharatvarsha. This is the superb and eternal Vedic Wisdom
of the Sanatana Dharma from India.

The Modern Pundits of the Social Sciences and
Behavior Sciences from the prestigious Universities
must accept and praise these eternal and blissful
doctrines for the benefits and enlightenments of the
entire mankind in our small globe without any
reservation and hesitation right now.

The political and Religious Leaders; Businessmen
and General Labor classes of the modern mankind
App. 365

must offer this magnificent Diamond and Jewel to
the Lotus feet of the Supreme Personality of
Godhead Sri Krishna, Sri Ramachandra and Sri
Naravana with love and devotion in the mood of
devotion, humility and gratitude.

This is the wonderful description of the fundamental
principle of the Varnasrama Dharma as the Vedic
Culture: an Ideal Culture for the Mankind from the
eternal and blissful Vedic Literature: the Supreme
Science of Sanatana Dharma from India.

Egyptian Culture, Babylon Culture, Greek Culture,
Mogul Culture, British Culture, Muslim Culture or
Christian Culture; Red Indian Culture, Oriental and
African Cultures are disorganized and unscientific
cultures based upon the four animalistic behaviors of
Eating. Sleeping. Mating and Defending. They are
App. 366

offshoots of the Vedic Culture: an Ideal Culture in
our small planet.

VI: In essence: Varnasrama Dharma of the Vedic
Culture is an Ideal Culture for the ancient and
modern mankind in our small planet Bharat-varsha.
Varna mean Occupational Division and Ashram
means the Functional Division of the Varnasrama
Dharma as described in the Srimad Bhagavata Gita
and Srimad Bhagavatam. Three Modes of Nature —
Sattva Guna, Rajo Guna and Tamo Guna - are
responsible for the creation, maintenance and
destruction of the Varnasrama Dharma System of
the Vedic Culture: an Ideal Culture for the entire
mankind.

As described earlier in this article that Sattva, Rajo
and Tamo Guna are transforming into the Ectoderm.
App. 367

Endoderm and Mesoderm germinal lines of the
organogenesis of the Gross Anatomical Body of all
the Living Entities.

Sattva Guna is responsible for the creation of
Brahmana Class: Rajo Guna is responsible for
creation of Ksatriva Class: Combination of Rajo and
Tamo Guna are responsible for creation of Vaishva
Class: and Tamo Guna is responsible for creation of
Sudra Class of the ancient or Modern Human
society. This is the fundamental principles of
creation of the Occupation Division or Varna
Division of the Vedic Culture as described in Srimad
Bhagavata Gita (SBG 4.13). Please consult the
eternal wisdom of Bhagavata Gita.

Three Modes of Nature - Sattva Guna, Rajo Guna
and Tamo Guna - are fueling energy for the
App. 368

Brahmacharyashrama, Grihasthashrama,
Vanaprasthashrama and Sannyasashrama of the
Functional Division or Ashram Division of the Vedic
Culture: an Ideal Culture for the ancient or modern
mankind in our small globe.

In other words: Those cultures run by the Sattva
Guna/Sattvic Diet transform into peaceful and
Intellectual Brahminical Culture; those cultures run
by the Rajo Guna/Raiasic Diet transform into
administrative or Ksatriya Culture; those cultures
run by the combination of Rajo & Tamo Guna/Diet
transform into Business or Vaishya Culture, and
finally, those cultures run by the Tamo
Guna/Tamasic Diet transform into General Labor
or Sudra Culture. This is the blissful Vedic Wisdom.

App. 369

Following are the examples of the Modern culture
dominated by the Sattva Guna, Raio Guna and Tamo
Guna in our small planet right now.
1. Followers of Hinduism, Buddhism, Jainism,
Sikhism and most of the Sampradaya of
Hinduism are fueled and energized by the Sattva
Guna/Diet or Mode of Goodness.
2. Followers of Islam, Judaism and Christianity
are fueled and energized by the primarily Tamo
Guna (almost 90 %) due to their four cardinal
sinful activities of Meat-eating. Intoxication.
Illicit sex and Gambling habits past two thousand
years is the best example.
3. Islam and Christianity are the most violent
and deceptive faiths fueled and energized by the
Tamo Guna/Diet or Mode of Ignorance known to
the modern mankind without any hesitation.
Truth is the truth no matter how unpalatable,
App. 370

bitter and painful. There is no slightest intention
of blaspheme or defamation of any culture or
religion with this statement.
4. Every culture, every society and every
community irrespective of their national,
religious, linguistic, financial and racial or caste
origin are perpetually influenced and incessantly
energized by the combination of the Three Modes
of Nature: Sattva Guna, Rajo Guna and Tamo
Guna in our small planet Bharat-varsha.
5. Pre-dominance of Mode of Sattva Guna brings
and bestows the Global Prosperity. Global Peace
and Global Enlightenments for the entire
mankind; Pre-dominance of the Mode of Rajo
Guna brings and bestows the unlimited desires
and hankering for the sense gratifications and,
finally, Pre-dominance of the Mode of Tamo Guna
or Ignorance brings or bestows the horrible

App. 371

madness and destruction for the entire mankind
at present, in the past and in the future.
6. Islam is best example of the mankind inflicted
with Tamo Guna or Mode of Ignorance resulting
into the horrible madness, insanity and
destruction all over this small globe past one
thousand years in our small globe right now.
7. Re-establishment of the Vedic Culture: an Ideal
Culture of the Sanatana Dharma from India is
the best and ultimate solution or remedy for the
modern and ancient civilizations in our small
planet Bharat-varsha. This is the blissful Vedic
Wisdom.

K: The Sanatana Dharma is All-Inclusive and
bringing the Global Unity in Diversity:
As mentioned earlier that Sanatana Dharma is the
Fountainhead of All Branches of Knowledge and origin of
App. 372

the Major Religions (Hinduism, Buddhism, Christianity
and Islam) as well as all Minor faiths (Jainism, Judaism,
Sikhism, Baha’i, Confucius) and other faiths of this small
planet Bharat-varsha.

Everyone knows well that Hinduism, Buddhism, Jainism,
Judaism, Sikhism and other faiths are originated from the
divine land and Jagat-guru India. Abrahamic faiths Christianity, Judaism and Islam including Baha’i are
originated around India in the Middle-east countries. The
founders of Abrahamic faiths copied and translated the
doctrines of Sanatana Dharma from India into the Hebrew
and Persian languages two thousand years ago. However,
they have a great reluctance to acknowledge this sublime
fact past two thousand years.

So, the Sanatana Dharma/Hinduism is the original,
universal, time-tested and the ultimate Body of Knowledge
App. 373

for benefits of the entire mankind in our small globe since
the time immemorial. Sanatana Dharma is the Anchor or
Adhara or Support of every culture, every religion, every
education system and every occupation, Art and Science
and the modern educational system that includes Modern
Law System, Modern Science and Modern Internet
Technology.

Sanatana Dharma is the universal and All Inclusive for the
entire mankind since the time immemorial in our small
globe. Only the Sanatana Dharma is able to describe the
eternal and blissful fundamental principles of the Spiritual
Sciences and the Material Sciences for the enlightenments
of the entire mankind in our small planet Bharat-varsha.

App. 374

L. Islam and Christianity are profoundly deficient in
the Fundamental Principles of the Material
Science and Spiritual Science:
As mentioned earlier that the Abrahamic faiths
Christianity, Judaism and Islam are originating from
the Sanatana Dharma from India past two thousand
years in our small globe.

However, and unfortunately, the Abrahamic faiths —
Christianity, Judaism and Islam - are painfully and
profoundly deficient in the Fundamental principles of
the Spiritual Science and Material Science. This painful
truth is well known to the Religious Leaders of Islam
such as Imams and Mullahs of the Middle-east
countries, Europe, Indonesia, China, India and America
as well as other countries of our small planet. Also, the
religious leaders of Christianity such as Pope, Pontiffs,
Cardinals, Bishops, Pastors and Deacons are also well
App. 375

aware that the Christian scriptures are profoundly
deficient in the Fundamental Principles of the Spiritual
Science and Material Science since two thousand plus
years.

Why the Abrahamic faiths are profoundly deficient in
the Fundamental principles of the Spiritual Science and
the Material Science? Here is the simple answer to this
simple question as follow.

It is the historic fact that the Christianity and Islam
have a single-minded goal to increase the numbers of
converts in name of Religions and God past two
thousand years. Christianity and Islam are applying
horrible methods of Terrorism. Immorality and Atheism
for increasing the numbers of converts with help of the
deception, bribes, political & financial control with every

App. 376

hook and crook methods all over this small globe. This is
the painful and historic fact, holocaust and reality.

Christianity and Islam never paid any attention to
discover or understand the Fundamental Principles of
the Spiritual Science and the Material Science for the
enlightenments of them and for the mankind in our
small globe past two thousand years.

It is a painful fact that not a single Muslim Scholar or a
single Christian Scholar will be able to describe the
Fundamental principles of Internet Technology and
Computer Science now or in the future based upon their
Abrahamic Scriptures. It is a simple truth that if you
have no knowledge, then, you lack the knowledge period!!! Also, Christian scholars and Muslim scholars
will never be able to provide the Higher Dimensions to
the basic sciences of Physics, Chemistry, Biology,
App. 377

Sociology and Modern Bio-medical Sciences and Modern
Internet Technology as described in this article. Simply,
the Abrahamic faiths are profoundly deficient in the
knowledge.

Only and only the Vedic Scholars who are well verse in
the Vedic Wisdom of the Vedic Literature: the Supreme
Science of Sanatana Dharma is able to demystify the
Mystery of the Fundamental Principles of the Modern
Internet Technology and Computer Science right now
and in the future. Only the blissful Vedic Wisdom of
Sanatana Dharma is bestowing the Higher Dimensions
with the fundamental principles of the Basics sciences of
physics, chemistry, Biology and Bio-medical Sciences &
IT Technology right now and in the future.

We all sincerely pray that Christian Scholars and
Muslim Scholars must whole-heartedly pay attention for
App. 378

understanding the Fundamental Principles the
Spiritual science and the Material Science according to
the Vedic Wisdom from India for their benefits and
enlightenments of the entire mankind right now.

This is the panacea and solution for the Global Unity in
Diversity with the Global Prosperity, Global Peace and
Global Enlightenments of the entire mankind in our
small globe right now and in the future. This is the
blissful Vedic Wisdom.

M. Purification and Transformation of the Political and
Religious Leaders of Islam and Christianity per the
Vedic Wisdom:
1. The blissful and complete purification and
transformation of the Religious and Political Leaders of
Islam and Christianity is the most important step and
solution for the World Peace and Prosperity.
App. 379

2. The Supreme Personality of Godhead Sri Krishna, Sri
Ramachandra and Sri Narayana have bestowed unlimited
opportunities to Islam and Christianity for the Global
Prosperity, Global Peace and Global Enlightenments of
Modern Mankind past almost two millenniums. It is a
sublime and undeniable reality that Christianity and Islam
have miserably failed in the betterment and
enlightenments of the Modern Mankind within last two
thousand years in our planet Bharat-varsha. This is a great
historic and undeniable reality known to every historian
and the General Public right now.
3. Islam and Christianity are just encouraging and
propagating the Indiscriminate Enjoyments and Abuses
of the Nine Gates and Ten Senses of the Gross
Anatomical Body by their billions of followers as well as
the entire Modern Mankind. Let all of us use the Nine
Gates and Ten Senses for the Higher Purpose of
purification and transformation of everyone right now.

App. 380

4. The primary reasons for miserable failure by the
Christianity and Islam past two thousand years are
defective Scriptural doctrines within Christianity and
Islam. They never paid any attention to learn the
blissful Vedic Wisdom from India.
5. The defective doctrines of Christianity is preaching
that Only one Holy Father. Only one Holy Ghost and
Only one Holy Son is the Salvation for entire mankind
past two thousand years. Also, defective doctrines of
Islam are preaching that Only one name of Holy God
and Only one Holy Prophet is needed for the Salvation
for going to heaven for the entire mankind past twelve
centuries in our small globe.
6. So, the defective doctrines of Islam and Christianity
with Only one Holy Father. Only one Holy Ghost. Only
one Holy Son and only one name of Holy God and Only
one Holy Prophet has created Holy Wars and Holy
Terrorism in name of Religions and Culture in our small

App. 381

planet Bharat-varsha past two thousand years. This
scenario is the undeniable realty and history.
7. The eternal and blissful Vedic Wisdom of Sanatana
Dharma beautifully describes that the Supreme
Personality of Godhead Sri Krishna, Sri Ramachandra
and Sri Narayana is Advitiva or One without
Second in our small planet, Material and Spiritual
Universes. The Devotees, Associates,
Transcendentalists, Sons of God, Prophets and
Messengers of the Supreme Personality of Godhead are
also Advitiva or One without Second per the blissful
Vedic Wisdom.
8. The blissful and complete Transformation and
Purification of the Political and Religious Leaders of
Christianity and Islam can be achieved with sublime
help of the Vedic Wisdom of the Sanatana Dharma from
India as well marvelous and fabulous Internet
Technology of the United States of America. This is the
App. 382

best Prevention and Remedy with end of Atheism,
Immorality and Terrorism for the betterment of entire
mankind in our small globe.
9. We have to take a sincere note that the power and
strength of the Political and Religious Leaders of Islam
and Christianity are mysteriously withdrawn by the
Supreme Personality of Godhead Shri Krishna for the
Global Unity in Diversity right now and in the future.
10. Sanatana Pharma is Fountainhead and Origin of
the Major and Minor faiths: Sanatana Dharma is the
origin and fountain head of the Major religions
Hinduism, Buddhism, Christianity and Islam as well as
all minor faiths Jainism, Judaism, Sikhism, Baha’i and
Confucius in our small globe.
11. We all know well that Hinduism, Buddhism and
Jainism; Sikhism, Baha’i and even Judaism as well as
other minor faiths blissfully and gracefully admitting

App. 383

their origin from the Sanatana Dharma from divine land
of India without hesitation or reservation.
12. However, Christianity and Islam faiths are
adamantly and foolishly refuting and denying their
origin and roots from the eternal and blissful Vedic
Wisdom of the Sanatana Dharma past two thousand
years. The primary reason for horrible denial and
reluctance by Islam and Christianity is the morbid fear
and political motivation as well as the pseudo­
superiority complex within their Religious and Political
leaders past few centuries.
13. This is the sublime description of the purification
and transformation of Islam and Christianity at present
moment and in the future per the Vedic Wisdom.

N. Description of Process for assimilation of the 1.00
plus billions of followers of Islam and 2.00 plus

App. 384

billions of Christianity within the folds of Sanatana
Pharma:
I am happy to reiterate that Sanatana Pharma is
Fountainhead and Origin of the Major and Minor faiths.
Sanatana Pharma is the origin and fountain head of the
Major religions Hinduism, Buddhism, Christianity and
Islam as well as all minor faiths Jainism, Judaism,
Sikhism, Baha’i and Confucius in our small globe.

We all know very well that Hinduism, Buddhism, Jainism,
Sikhism, Judaism and Baha’i faiths are benevolent and
peaceful religions with never had any plan for Conversion
or killing of the mankind in name of Religion and God for
last five thousand years to present time. Conversion and
Killing of mankind were never the strategies for Hinduism.
Buddhism. Jainism. Judaism and Sikhism in our world.

App. 385

However, the Islam and Christianity are the most violent.
deceptive and exclusivist faiths with the horrible plans for
Convert or Kill strategy for the Non-Muslim and NonChristian of mankind past two thousand years. This is true
especially for the Islam faith with motto of Convert or Kill
as well to be killed by Non-Muslim population. It is a
sublime reality that the 7.00 to 10 billion of the Modern
Mankind can kill each other in name of the Religion,
Culture and Political agenda easily. Please review my
article titled as “Destruction of our planet Earth — One
Time or Thousand Times” forwarded during 2012 and later
dates to many Vedic Websites. Nuclear Weapons and Atom
Bombs are ready to destroy everyone and anyone
irrespective to their religions, cultures or geographical
affiliation in our small planet right now.

However, the best remedy and solution is assimilation of
the 1.00 plus billion of the Muslim population and 2.00 plus

App. 386

billion of the Christian population within the Sanatana
Dharma at this moment and in the near future.

Here is the great plan and superb strategy for mankind.
The Santana Dharma is all inclusive and easily assimilate
the 1.00 billion plus Muslim populations and the 2.00 plus
billion Christian populations including the 4.00 plus billion
populations of Hinduism, Buddhism, Jainism, Judaism,
Sikhism, Baha’i and all faiths of our small planet. This is a
brilliant plan and strategy of the eternal and blissful Vedic
Literature: the Supreme Science of Sanatana Dharma from
India. Together we all are stronger, prosperous and
peaceful.

We all know that four major religions such as Islam,
Christianity, Buddhism and Hinduism as well as minor
faiths such as Jainism, Judaism, Sikhism, Baha’i and other
small faiths are, directly and indirectly, following the
App. 387

Marriage ceremony, Death ceremony and many other
ceremonies of Sanatana Dharma for last several
millenniums in our small globe.

So, the blissful assimilation and integration of the 3.00 plus
billions of followers of Islam and Christianity with the 4.00
plus billions of followers of Hinduism, Buddhism, Jainism,
Judaism and Sikhism within the blissful folds of Sanatana
Dharma will happen pretty soon. The assimilation of the
7.00 plus billions of the modern mankind is extremely
essential for the Global Prosperity, Global Peace and Global
Enlightenments. This is a simple and blissful reality and
truth.

I am happy to provide multiple examples of the Vedic
practices by everyone as described in this Section.

App. 388

Christianity and Islam are observing and practicing the
multiple Vedic Samskara or Vedic ceremonies of Sanatana
Dharma. Best example is the Marriage Ceremony with
Multiple Wives and Single Wife systems by Islam and
Christianity. The Bahu-Patni Vrata (Multiple Wives) and
Eka-Patni Vrata (Single Wife) Marriage ceremonies are
nothing but the direct copy from Sanatana Dharma of India
by Islam and Christianity and other faiths as described in
the following passages.
1. Surva Vamsha Dynasty or Sun Dynasty: The
Sanatana Dharma has eternal and blissful Dynasty
known as the Surya Vamsha Dynasty or Sun Dynasty
since the creation of our small planet Bharat-varsha and
our single Material Universe. Best example of the Surya
Vamsha or Sun Dynasty is the Supreme Personality of
Godhead Sri Ramachandra as an Ideal Ruler and King
for the mankind. The primary characteristic of the
Surya Vamsha Dynasty or Sun Dynasty is the practice
of Eka-Patni Vrata or faithfully marrying with only one
App. 389

woman for whole life. There are rare exceptions with
this cardinal rule of the Surya Vamsha Dynasty.
2. Chandra Vamsha or Moon Dynasty: The Sanatana
Dharma has eternal and blissful Dynasty known as the
Chandra Vamsha Dynasty or Moon Dynasty since the
creation of our small planet Bharat-varsha and our
single Material Universe. Best example of the Chandra
Vamsha or Moon Dynasty is the Supreme Personality of
Godhead Sri Krishna as an Ideal King, Jagat-guru or
Teacher for the mankind. The primary characteristic of
the Chandra Vamsha Dynasty or Moon Dynasty is the
practice of Bahu-Patni Vrata or faithfully marrying with
multiple Wives. There are rare exceptions with this
cardinal rule of the Chandra Vamsha or Moon Dynasty.
3. Islam has 1.0 plus billion of Muslim population all
over the world that is primarily concentrated in Asia
and in the Indian Subcontinent. Everyone knows this
simple fact. Islam allows marrying four wives for a
App. 390

Muslim man. Muslim man is allowed to marry four
women. So, Islam is practicing the Bahu-Patni Vrata or
marrying four women of the Chandra Vamsha doctrine
of the Sanatana Dharma past 10 plus centuries. Please
take a note that Chandra Vamsha Dynasty with BahuPatni Vrata or marrying many women is millions of
years practice in our small globe. Bahu-Patni Vrata or
Multiple Wife system is the age-old practice of Sanatana
Dharma in our small planet.
4. Christianity has 2.0 plus billions of Christian
populations all over the world primarily concentrated
within the Western Hemisphere right now. The Catholic
branch or denomination of Christianity with 1.00 plus
billions of followers is practicing marriage with only one
woman faithfully for life past two thousand years. We
all know well that Surya Vamsha Dynasty or Sun
Dynasty is practicing Eka-Patni Vrata or marrying
faithfully with only one woman is millions of years
practice in our small globe. Also, 32,000 (Thirty-Two
App. 391

Thousand) Sects or denominations of Christianity are
practicing to marry one woman or many women that is
known to everyone in our small globe. So, the 2.0 plus
billion followers of Christianity are practicing Eka-Patni
Vrata or Bahu-Patni Vrata past only two thousand
years. We know well that Multiple Wives and Single
Wife system is millions of years old practices of
Sanatana Dharma in our small globe.
5. The practice of Bahu-Patni Vrata (Multiple Wives) by
Islam and Eka-Patni Vrata (Single wife) or Bahu-Patni
Vrata by Christianity is nothing new but the age-old
practice of the Sanatana Dharma from India — the
divine land and Jagat-guru of the entire world.
6. The 1.0 plus billion followers of Hinduism and 1.0
plus billions of followers of Buddhism are following the
primarily the Eka-Patni Vrata or Marrying one woman
since 3 to 5 thousand years known to everyone in our
small planet. Also, all other minor faiths are practicing

App. 392

usually Eka-Patni Vrata or “One Life One Wife” practice
all over the world.
7. In Essence: The Surya Vamsha or Sun Dynasty with
Eka-Patni Vrata and the Chandra Vamsha or Moon
Dynasty with Bahu-Patni Vrata are eternal and blissful
Marriage Practices of the Vedic Culture: an Ideal
Culture of the Sanatana Dharma from India in our
small planet Bharat-varsha since the time immemorial.
8. So, Islam with Bahu-Patni Vrata (Four wives) and the
Catholic Branch of Christianity with Eka-Patni Vrata
(One Wife) are following essentially the same Marriage
doctrines of the Sanatana Dharma past less than two
thousand years in our small globe.
9. There was no existence of Islam 12 centuries ago.
Islam is the brand-new faith popped out of the Aladdin
Lamp in the Middle-eastern countries known to
everyone. So, one billion plus of Muslims population in
the Indian Subcontinent were the followers of Hinduism
App. 393

and Buddhism twelve centuries ago with not a single
Muslim man in our globe.
10. So, one plus billions of followers of the Islam within
the Asia and the Indian Continent that includes Middleeastern countries and other countries should be happy
to be assimilated within the blissful Sanatana Dharma
willingly and without any hesitation and reservation.
11. Similarly, two plus billions of followers of
Christianity of the Asia, Africa, Europe and American
Continents and other countries should be happy to be
assimilated within the folds of the blissful Sanatana
Dharma willingly and without any hesitation and
reservation.
12. So in essence: Presently, 7 to 8 billion of the modern
mankind are practicing Eka-Patni Vrata or Single Wife
Marriage System and Bahu-Patni Vrata or Multiple
Wives System of the eternal and blissful Vedic Wisdom
of the Sanatana Dharma from India. So, multiple wives
App. 394

and Single wife system are existing and practicing for
millions of years in our small planet.
13. Christianity and Islam are happy to follow Marriage
Ceremony, Death Ceremony and other ceremonies of the
Sanatana Dharma past two thousand years. Islam and
Christianity must be happy and ecstatic for assimilation
and returning back to the blissful folds and doctrines of
the eternal Sanatana Dharma from India with sublime
consent and wish.
14. This is the blissful and superb description of the
process of assimilation and accommodation of the
3.00 plus billions of the Abrahamic faiths ('Christianity,
Judaism and Islam) and 4.00 plus billions of Hinduism,
Buddhism, Jainism. Judaism, Sikhism. Baha’i and
Confucius as well as all faiths of our small planet.
Sanatana Dharma is All-inclusive.

App. 395

O. The description of the Super-scientific Guidelines
of Samskara from Birth to Death including the
Marriage Ceremonies per the Vedic Wisdom:
Sanatana Dharma is the fountainhead and origin of
every branch of knowledge and all modern religions
Hinduism, Buddhism, Christianity and Islam as well as
all minor faiths Jainism, Judaism, Sikhism, Baha’i and
Confucius as well as other faiths in our small globe.

Also, all branches of knowledge including that include
Modern Science. Modern Law System and Modern
Internet Technology is originating from the blissful
Vedic Wisdom of the Vedic Literature: the Supreme
science of the Sanatana Dharma from India.

In this Section, the summary of Samskara or Vedic
ceremonies is described. There are sixteen, twenty-four
or sixty-four Samskara or Processes of Purifications
App. 396

from Birth, Neonatal, Adolescence, Teenager, Young
Adult and Middle Age up to Old Age with the Sanskrit
and English equivalents. We have to take a sincere note
that the Processes of Purification or Samskara are most
important than the numbers of Samskara used by the
different religions and faiths. Following are short
description of the prominent Samskara or ceremonies
per the Vedic Wisdom.

1. Pre-conception Samskara or Garbhadhana
Samskara: Samskara prior to conception of child is
called Garbhadhana Samskara per Sanskrit
terminology. In Garbhadhana Samskara Vedic
Couple mediates on the Supreme Personality of
Godhead and His procreative expansions such as
Durga Devi, Katyayani Devi and other Demigoddesses for good progeny or the God Conscious
children prior to their physical union. This

App. 397

Garbhadhana Samskara is essentially practiced in
Vedic Culture in India for millenniums. However,
this practice is ideal and highly recommended for the
Vedic couples or Non-Vedic couples or Cultures
anytime in this small globe.
2. Nama Samskara or Name Giving Ceremony: Vedic
Culture practices Nama Samskara ceremony during
first month of New Baby is conducted by Family
Brahmana. Name giving ceremony for the Supreme
Personality of Godhead Shri Krishna and Sri
Ramachandra are the famous example of Nama
Samskara or Name giving ceremony known to all
over this small planet Bharat-varsha. Similarly,
other cultures do follow the Nama Samskara
ceremony in this world.
3. Sacred Thread Ceremony: This ceremony is
practiced at age of Five years for Brahmana Boy in
Brahmana family; age seven old Boy for Ksatriya

App. 398

Family and Nine years old Boy for Vaisya family per
the Vedic Culture. This sacred Thread ceremony is
known as Twice Born or Dviia ceremony for first
three division of Human Society of Brahmana,
Ksatriya and Vaisya class of Vedic Culture for higher
study of Vedic wisdom. Sudra class are not
recommended for sacred thread ceremony in view of
lack of intellectual pursuits and unclean habits of
meat-eating, intoxication, illicit relationship and
gambling habits. Christianity tried to imitate this
Vedic Samskara or Twice Born ceremony
ineffectively as followers of Christianity are addicted
to the indiscriminate Meat-eating, Intoxication,
Illicit Sex and Gambling habits for centuries.
4. Marriage Ceremony: Vedic Culture practices
variety of Marriage ceremony after completion of
Study of Vedic Literature at age of Twenty-Five
years of Human life. The primary purpose of
Marriage Ceremony in Vedic Culture is procreation
App. 399

of God Conscious progeny for the Krishna
Consciousness rather sense gratifications. The Sun
Dynasty or Surya-vamsha Dynasty is practicing One
Wife System for the Vedic couple. The Supreme
Personality of Godhead Sri Ramachandra and His
wife Sita Devi is the most exalted example of Sun
Dynasty known to everyone in this planet. The Moon
Dynasty or Chandra-vamsha Dynasty is practicing
many wives in Marriage ceremony in Bharat-varsha.
All Attractive Supreme Personality of Godhead Sri
Krishna is the most famous and most charming
example of the Moon Dynasty who married to 16,108
beautiful Queens in Dwarka City, Gujarat in India.
These are the most auspicious and spiritually
enlivening pastimes or Lila of the Supreme
Personality of Godhead Sri Krishna and Sri
Ramachandra. No one in this small planet should
imitate these beautiful and spiritually enlivening
Lila of the Supreme Personality of Godhead.
App. 400

5. The followers of Islam are practicing multiple
wives or Four Wives is just an imitation or copy of
the Vedic Culture: an Ideal Culture for mankind. The
followers of Islam are the Deviant followers of Vedic
Cultures. The founders of Islam tried to imitate this
kind of Marriage ceremony from Vedic Culture of
Sanatana from India fifteen centuries ago with
Persian terminology for this Marriage ceremony.
This is a nice example of deviation from the Vedic
Culture: an Ideal culture for mankind by the
followers of Islam.
6. American culture and Western cultures are trying
to follow in foot-steps of followers of Islam for
Marriage ceremony with multiple wives. For an
example: many people are practicing Common-law
Marriage past few centuries in USA is well known
fact. Common-law Marriage allows living with many
Girl-friends and Boy-friends without Marriage
Certification or Marriage Ceremony. Also, there is a
App. 401

“Secret Marriage System” in USA for a long time in
foot-steps of Islam. In Secret Marriage System people
may marry with several women or men that are
registered in court but the Record of Marriage is
undisclosed to general public for the secrecy. Only
court knows and not the public!!!
7. There is another Marriage System called “Open
Marriage System” in USA and probably in other
western culture and countries. In Open Marriage
System married couple can have as many Boy­
friends and Girl-friends they can afford and handle.
This degraded system allows illicit sex with anyone
and everyone.
8. However, Marriage Ceremony or Marriage
Samskara is a license or concession given to mankind
for controlled sense gratification for procreation of
the God Conscious progeny per Vedic Guidelines. The
followers of Islam are trying to imitate the guidelines

App. 402

of the Vedic Culture past twelve plus centuries.
However, the multiple wives Marriage System are
nothing new and widely prevalent in the human
society since time immemorial in our planet Bharatvarsha.
9. So, Eka-Patni Vrata or taking a vow to marry only
one wife and Bahu-Patni Vrata or marry many wives
is Marriage Ceremony prevalent in Vedic Culture: an
Ideal Culture for mankind since time immemorial in
our planet Bharat-varsha. Every man and every
woman have desire and wish to have Conjugal
Relationship with Exchange of Twelve Rasa at
Singular, Dual and Plural levels now, in the past and
in future in our small globe. Everyone knows this
fact very well and experienced by Human and Sub­
human beings during our daily affairs. This is
blissful Vedic Wisdom.

App. 403

10. However, we have to take a sincere note that the
Supreme Personality of Godhead Sri Ramachandra
can practice Absolute Eka-Patni Vrata with
Universal Mother Sri Sita Devi and never thinking of
another woman as beautifully described in greatest
Epic Ramayana. No mortal men can imitate the
superb Lila of Supreme Lord Sri Ramachandra
anytime. Similarly, the Supreme Personality of
Godhead Sri Krishna can practice Bahu-Patni Vrata
and He can marry thousands and millions of Gopis or
Cowherd Girls, Beautiful Queens and reciprocate
their Conjugal loving affection as Cupid and
Absolute Husband in Goloka Vrindavana and
Dwarka Dhama. No mortal men of this small planet
Bharat-varsha or in this Material Universe should
imitate or copy the attractive Lila or Past times of
the Supreme Personality of Godhead Sri Krishna.
Better to follow instructions rather imitate the
Supreme personality of Godhead Sri Krishna, Sri
App. 404

Ramachandra or Sri Narayana anytime by any
mortal man or woman at any time.
11. Modern and ancient mankind are wonderfully
instructed and guided by the merciful Sages, Rishis
and Vaishnava Acharyas for Self-realization and
Self-purifications with sixteen, twenty-four or
varieties of Samskara as practiced in four eternal
Sampradayas - Brahma. Rudra, Sri and Kumara
Sampradaya of Vedic Culture: an Ideal Culture
for mankind.
12. Death Ceremony: Death Ceremony is the final
ceremony performed by civilized mankind since time
immemorial. Death Ceremony is a final and sober
reminder for everyone that we are a tiny spark or
part and parcel of the Supreme Personality of
Godhead Sri Krishna, Sri Ramachandra and Sri
Narayana in this small globe. Our Gross Body and
Subtle Body made of Eight Elements as described in

App. 405

Srimad Bhagavata Gita and Srimad Bhagavatam is
perishable and will be destroyed in due course of
time or prematurely anytime.
13. The above-mentioned varieties of Samskara or
Processes of Purification such as Birth. Name giving
Ceremony, Sacred Thread Ceremony. Marriage
Ceremony and Death Ceremony and other Samskara
are recommended for mankind in our human society
per impeccable Vedic Wisdom. Blissful Vedic Wisdom
is for everyone in this planet for self-realization and
self- purification at individual and collective level.
14. Our modern culture and modern democratic,
autocratic, communist and even atheistic countries
and cultures allow Eka-Patni Vrata or Single woman
Marriage or Bahu-Patni Vrata or Multiple Women
Marriage systems all over this small globe.
15. The Bahu-Patni Vrata or Multiple four wife’s
system by Islam in the 50 plus Muslim dominated
App. 406

countries and around the world is the best example
of the religious discrimination for the 6.00 plus
billions Non-Muslim population in this small globe.
However, the Muslim men are strictly prohibited to
marry four wives in USA, UK, Germany, France,
Russia and other democratic countries with
exception of India.
16. Everyone knows well that illegal and illicit BahuPatni Vrata or Multiple Wives system is the common
practice in USA, UK, Germany, France, Russia and
in India, Africa and America.
17. The primary purpose of the super-scientific and
blissful Vedic Ceremonies or Vedic Samskara is
becoming the God-conscious or the Krishna
Conscious for present and future generations of the
mankind — ancient or modern - in our small planet.
We all sincerely pray that modern culture will
continue to practice the blissful Vedic Ceremonies
App. 407

and Vedic Samskara for the elevation rather than
degradation purposes now and in the future.

P. Super-scientific guidelines and criteria for the
Marriage Ceremonies for mankind per the Modern
Biomedical science and the Vedic Wisdom:
In this Section, criteria and guidelines for BahuPatni Vrata or Eka-Patni Vrata are narrated per the
Modern Bio-medical Science and the blissful Vedic
Wisdom.
• Every legally married couple (Male and Female
only) must provide his or her identity as male
gender and female gender from the parent or
physician to the Marriage counselor in the court
and marriage ceremonies. The Vedic Culture
never endorses the LGBT style marriages.
• Married couples are expected to provide
Laboratory work up indicating free of HIV, STD
App. 408

and other contagious diseases to the court and
marriage counselors. This is a common practice
and guidelines all over this small globe.
• As the additional criteria, Husband and wife
must be tested for the High or Low Testosterone
or Estrogen levels with their marriage
certification.
• High or Low Testosterone or Estrogen levels
should be the primary Criteria and Guidelines for
the Bahu-Patni Vrata (Multiple Wives) or EkaPatni Vrata (Single Wife) for all 7 plus billions of
the modern mankind irrespective to their
Religion, national, cultural or financial and other
designations or reasons.
• Man, with Normal Testosterone is encouraged
to practice Eka-Patni Vrata or Single Marriage
system without exceptions and reservation by the
court and marriage counselors.

App. 409

• Man, with double, triple or quadruple
Testosterone levels may marry two, three or four
women as Bahu-Patni Vrata System of the Vedic
Culture: an Ideal Culture of our small globe. This
guideline should be the super-scientific and
acceptable guideline and criteria for everyone and
everywhere in our small planet.
• This scientific methodology for the Testosterone
levels for the legally married couples (Only Man
and Woman) will create a harmonious and
peaceful Marriage Ceremonies without Religious,
national, cultural or financial disparity and
conflicts. Only Muslim man can marry four
women is horrible religious and cultural
discrimination and injustice for the 6 plus billions
of Non-Muslim populations of our small globe.
• Another guideline and criteria for Eka-Patni
Vrata or Bahu-Patni Vrata (Single or Multiple

App. 410

Wives) is application of the Vedic Astrology
predictions and calculations.
• Vedic Astrology and Vedic Astrologers
authentically describe that people are heavily
influenced by the Nine Planets of planetary
system since their birth. According to the Vedic
Astrology, Venus Planet greatly affects the Sex
Drive of the human and sub-human beings. Those
human population heavily influenced by the
Venus planet are addicted to the sex activities.
This kind of population may practice the multiple
wives or Bahu-Patni Vrata life style. The Vedic
Astrologers and Hindu Astrologers are expert in
predicting the influences of the Venus Planet on
the mankind since the time immemorial.
Christian and Islam Astrologers are no good and
their predictions are useless and invalid.
• So, any man who wants to practice Bahu-Patni
Vrata or marrying multiple women must bring
App. 411

the certificate from his physicians showing the
High level of Testosterone and evidence of
influence by the Venus Planet from the Vedic or
Hindu Astrologers to the courts and marriage
counselors.
• Also, this superb and scientific methodology for
testing Testosterone levels and Venus Planet
influence on mankind will definitely prove
beneficial for Marriage Ceremonies of the modern
mankind all over this small globe. Please smile
softly.
• The Testosterone level guidelines will also help
to identify which tribes or cultures such as Arabic
tribes, African tribes, Mongol tribes, Viking
tribes, Celtic tribes, Red Indian tribes or oriental
tribes are really powerful with High levels of
Testosterone and Venus influences for the
Marriage Ceremonies and Sex life.

App. 412

• Also, the modern TV Shows, Entertainment and
Sports industries and other Soap Opera shows
especially in USA, are nominating few man or
woman as the “Sexiest Man and Woman” past few
decades. All Sexiest man and woman must be
tested for their Testosterone level. If their
testosterone level is normal or low, then, their
title as “Sexiest Man or Woman” must be consider
as null and void. Sexiest Man or Woman must
have four to five-time High level of Testosterone
to win the contest. No need to deceive the gullible
and innocent public in name of the entertainment
and foolish titles. Women are also producing the
Testosterone.
• It has been proved by the Modern Biomedical
Science that Testosterone is responsible for the
SEX DRIVE and LIBIDO in male and female
gender. All other hormones including Estrogens
are produced from Endocrine Glands that are
App. 413

responsible for the growth and metabolism
purpose and health of the mankind.
• The blissful and eternal Vedic Wisdom of India
superbly describes and informs all of us that all
hormones including Testosterone manufactured
in the Endocrine Glands are derived from the
Blue Energy Tamo Guna and Mesoderm with
different functions as superbly described in this
article. So, the measurement and testing of the
Testosterone level is essential criteria for the
marriage system of Single Wife System or
Multiple Wives System for the modern mankind
and not by the belief system or in name of the
religions.
• In essence: Legally Married Couple (Male and
Female only) must submit the Testosterone
levels from the reputed Laboratories with the
Marriage documents and Lab Tests for the
Marriage License. Anyone wants to marry two
App. 414

women, three women or four women must prove
his Testosterone level is double, triple or
quadruple or higher no matter or whether he is
Muslim, Christian, Buddhist or Hindu or other
racial background. Merely, I am Muslim and
can marry four women is insufficient argument
and nothing but the religious discrimination.
The Testosterone loaded Male Goblins and the
Sexiest Man or Woman from Bollywood,
Hollywood and Sports or Entertainment
industries of this small globe is automatically
disqualified for Marriage Certification for BahuPatni Vrata. Also, certification of influence of
the Venus Planet from the Vedic Astrologers
and Hindu Astrologers is essential document for
the Bahu-Patni Vrata or Eka-Patni Vrata
Marriage system as described in this article.
The Islamic Astrologers and Christian
Astrologers are unqualified and ignorant
App. 415

astrologers with little knowledge of the
Astrology. Their marriage certificates are
invalid certificates.

Measurement and Testing the Testosterone
Level is the super-scientific and essential
demarcation for the Single Wife or Multiple
Wives Marriage System for modern mankind
now and in the future. The effects of Venus
Planet are the additional criteria for Marriage
Systems just described. Testosterone is
representing Maleness and Estrogen
Femaleness.

The certificate from the Modern Laboratory and
certificate from the Vedic and Hindu Astrologers
are essential criteria for the Marriage
Counselors and Court System.
App. 416

c

These are the Super-scientific guidelines and
criteria for the Marriage Ceremonies for the
mankind per the Modern Biomedical science
and the Vedic Wisdom.

Q. Modern Science is collapsing and crumbling just
like the House of the Cards:
The fundamental principles of the Modern Sciences created
by the ignorant and atheistic scientists from the prestigious
and wealthy Universities from the Western and Eastern
hemispheres are highly disorganized, superficial and
fallible at the observational level only. The so called
“Modern Science” came to exist and became prominent
since last three or four centuries only.

App. 417

The fundamental principles and concepts of Modern Science
created by the modern scientists past few centuries from
Europe, America and other parts of world is essentially in
Mode of Tamo- Guna and Tamo-Buddhi or Distorted
Intelligence; and Avidhva or Nescience. The conclusions,
inferences, thesis, methodology and experiments conducted
by the modern scientists and researchers from the Western
and Eastern Hemispheres are fallible, highly disorganized,
superficial and at the observational level. The complete
revision, restructuring and transformation of Modern
Scientific Educational System are essential for the
betterment and survival of the mankind now and in future.
The modern scientific conclusions are the best examples of
the Global Pollution created and imposed upon all of us in
name of science at Subtle or Psychological and Intellectual
level all over the world right now.

App. 418

There is no wonder that the Fundamental Principles of the
Modern Science that includes Modern Law System, Modern
Science. Modern Biomedical Sciences and the Modern
Internet & Computer Science are crumbling and falling like
the HOUSE OF CARDS upon the BREEZES of the
blissful Vedic Wisdom of the Vedic Literature: the Supreme
Science of the Sanatana Pharma from India now and in the
future.

There is essential need for the complete revision and
transformation of the Fundamental Principles of the Basic
Sciences such as Physics, Chemistry, Biology, Sociology,
Pathology, Histology, Embryology, Radiology and
Psychiatry & Psychology, Cardiology and other 40 plus
specialties of the Modern Bio-medical Sciences as described
in this superb article.

App. 419

Also, the authoritative and super-scientific concepts as
described in the Vedic Literature: the Supreme Science can
unravel and explicitly describe the fundamental principles
of Internet and Computer Science right now. Modern
Internet innovators and researchers are not able to explain
scientifically and accurately the fundamental principles of
the Internet and Computer Science in their text books. I
believe that this is really an amazing phenomenon right
now.

Transformation of the Modern Educational System
according to the impeccable and Super-scientific Concepts
and fundamental Principles of the blissful Vedic Literature
is extremely essential and this transformation is going on
at gross and subtle level all over the world by the Vedic
Scholars and modern intellectuals in the Eastern and
Western Hemisphere right now.

App. 420

Please refer my article titled as “Preface and Article
Global Pollution, Classification, Causes and Remedy”
emailed during 2011 and later dates to the Vedic/Hindu
Web sites.

The fundamental principles of the Modern Educational
System that includes Modern Law system, Modern Science,
Modern Biomedical Science and the marvelous Modern
Internet & Computer Sciences are crumbling and collapsing
just like the HOUSE OF THE CARDS right now upon the
cool and calm BREEZES of the Vedic Literature: the
Supreme Science of the Sanatana Dharma from India.

Taking the shelter of the blissful Vedic Wisdom with
Humility discarding the Timidity by anyone and everyone
is the best approach and path for the entire mankind in our
small globe right now and in the future.

App. 421

R. Modern Culture and Education System must be
controlled and supervised by the Brahmarshis and
Raiarshis of the Vedic Culture:
Vedic Culture is the Ideal Culture for the Modern and
Ancient civilizations in our small planet Bharat-varsha
since the time immemorial. This is the sublime truth for
all.

As mentioned earlier in this article that Varnasrama
Pharma is the backbone and most important fundamental
principle of the Vedic Culture: an Idea Culture of the
Sanatana Pharma from India for the entire mankind.
Varnasrama Pharma System is present everywhere now, in
the past in the future.

Varna or Occupational Pivision (Regular Pyramid) and
Ashram or Functional Pivision (Reverse Pyramid) of the
Piamond and Jewel of the Vedic Culture: an Ideal Culture
App. 422

for the entire mankind has been created by the Supreme
Personality of Godhead Sri Krishna as described in the
Srimad Bhagavata Gita (SBG 4.13) since the creation of our
planet and the single Material Universe.

The blissful and eternal Vedic Wisdom authentically
describing the functions and pivotal role of the
Brahmarshis and Raiarshis within the Vedic Culture: an
Ideal Culture for the entire mankind. The best of the
Intellectual Class or Brahmin Class are called as the
Brahmarshis and the best of the Administrative Class or
Ksatriya Class are called as Raiarshis in the Vedic
Culture: an Ideal Culture in the divine land of India — the
Jagat-guru of the entire small planet Bharat-varsha.

There are numerous examples of the pivotal role played by
the Brahmarshis and Raiarshis of the Vedic Cultures and
Vedic Civilizations for enlightenments of the entire
App. 423

mankind in the Indian Subcontinent and around this small
planet Bharat-varsha.

The greatest epic Ramayana is describing the beautiful
interactions and dialog between Brahmarshi Sage
Vashistha and Rajarshi Vishvamitra. Also, the greatest
Epic Mahabharata is describing the interactions between
the Brahmarshi Sage Gargamuni and Rajarshi
Uddhava/Vidura is known to the Vedic Scholars and
Devotees, around the world.

At present moment, there are millions of modern Sages and
Rishis or Sadhus representing the Brahmarshis and
Rajarshis all around in India and other locations of our
small planet Bharat-varsha.

App. 424

During our modern time, Mahatma Gandhi can be
considered as Brahmarshi but acting as Rajarshi or Saintly
politician for the benefits of the people of India and the
world.

Other few examples are Prime Minister Shri Narendra
Modi and Chief Minister of Uttar Pradesh Shri Yogi
Adityanath as Brahmarshis but acting as Rajarshis for the
benefits of the people of India and the world. Also, Shri
Shankaracharya, Shri Rameshbhai Oza, Shri Rajendradas,
Shri Ganapathi Sachchidananda Swami, late Shri
Pramukh Swami, Yuva Vraj-rajkumar Mahodaya and
many other modern Sages and Rishis are the great
examples of Brahmarshis and Raiarshis selflessly guiding
the people of India and our small globe right now.

Primary function and pivotal role of Brahmarshis and
Raiarshis of the Vedic Culture: an Ideal Culture is always
App. 425

the enlightenments of the modern or ancient mankind
irrespective of their religious, political, racial, national or
linguistic affiliation. Brahmarshis and Rajashris of the
Vedic Culture are for helping the mankind to be the God
Conscious or the Krishna Conscious without any personal
motives.

Brahmarshis and Rajarshis of the Vedic Culture are the
most magnanimous, well verse in the Vedic Literature: the
Supreme Science of the Sanatana Dharma; benevolent and
merciful to fellow Human beings, Sub-human being and
respectful to the Super-human beings for the Global
Prosperity. Global Peace and Global Enlightenments of the
modern or ancient civilization in our small globe.

Brahmarshis and Rajarshis of the Vedic Culture are
practitioners of the Sattvic Intelligence, Sattvic Vegetarian
Diet of Milk, Grains and Ghee or Clarified Butter and
App. 426

followers of the Vedic Etiquettes and Vedic rituals all their
life. They never touch or think about eating the filthy Non­
vegetarian diet of the Tamasic and Rajasic nature.

Unfortunately, our Modern Educational System, Modern
Political and Religious Systems are control and run by the
Business Class and Sudra Class of the mankind and not by
the Brahmarshis and Raiarshis right now with
unprecedented chaos, quarrels and anarchy for several
centuries in our small planet Bharat-varsha.

The Abrahamic faiths — Christianity, Judaism and Islam —
are the best examples of the Sudra Class of mankind with
horrible and indiscriminate meat-eaters of the animals,
birds and sea foods all over this small globe past two
millenniums.

App. 427

Political leaders and religious leaders such as Pones.
Pontiffs. Cardinals. Bishops. Pastors of Christianity; and
Imams and Mullahs of Islam are never to be considered as
Brahmarshis and Rajarshis of the Vedic Culture due to
their horrible four cardinal sinful activities of Meat-eating.
Intoxication. Illicit Sex and Gambling habits. The Vedic
Scriptures never sanction or allow above-mentioned Four
Cardinal Sinful activities of Meat-eating, Intoxication,
Illicit Sex and Gambling habits for the wise and obedient
mankind in our small planet now, in the past and in the
future. This is the blissful Vedic Wisdom.

This is the clear and concise description of the
characteristics and qualities of Brahmarshis and Rajarshis
of the Vedic Culture: an Ideal Culture for the mankind.

S. Re-establishment of Pre-dominance of the Mode of
Goodness or Sattva Guna:
App. 428

Srimad Bhagavata Gita and Srimad Bhagavatam are the
ripened fruits of the Vedic Literature: the Supreme Science
of Sanatana Dharma from India.

Srimad Bhagavata Gita and Srimad Bhagavatam are
beautifully describing that there is always a competition for
the predominance between the Three Modes of Nature —
Sattva Guna, Rajo Guna and Tamo Guna of the mankind at
the Individual and Collective level in our small planet since
the time immemorial.

In our small planet Bharat-varsha and Material Universe,
the Sattva Guna is trying to predominate over the Rajo
Guna and Tamo Guna; Rajo Guna is trying to predominate
over the Tamo Guna and Sattva Guna and Tamo Guna is
trying to predominate over the Sattva Guna and Rajo Guna
of the mankind perpetually and eternally with help of the
eternal Time factor.
App. 429

Those Cultures, Educational Systems, Religious Systems
and Political Systems fueled and energized by the Sattva
Guna. Raio Guna and Tamo Guna are developing the
characteristics of the Mode of Goodness, Mode of Passion
and Mode of Ignorance respectively in our ancient or
modern civilizations.

For an example: At present moment, our modern
civilization is fueled and energized by the Mode of Tamo
Guna or Mode of Ignorance with proliferation of the four
cardinal sinful activities of indiscriminate Meat-eating.
Intoxication. Illicit Sex and Gambling habits in the foot­
steps of the Abrahamic faiths- Christianity, Judaism and
Islam — past two thousand years. This is undeniable truth
arid reality.

App. 430

The re-establishment of the Pre-dominance of the Sattva
Guna with help of the piece-meal destruction of the Rajo
Guna and Tamo Guna is extremely essential right now in
our small planet Bharat-varsha as described in the
following Section T.

T. Description of the Piece-meal Destruction of the
Four Cardinal Sinful Activities for the Re­
establishment of the Sattvic Culture or Vedic
Culture:
At present moment and past several centuries, the four
sinful activities are horribly predominant in the foot-steps
of the Western Culture and the Middle-eastern Culture all
around the world in our small planet Bharat-varsha. This
is the undeniable reality and fact known to every eminent
scholar in the Western and Eastern Hemispheres.

App. 431

The United States of America is the proto-type of the
Abrahamic faiths Christianity, Judaism and Islam past five
hundred years in our small globe. Everyone in our small
globe, fortunately or unfortunately, knows very well this
sublime and extremely painful fact of four cardinal sinful
activities conducted in name of Religion, name of God: and
freedom of the expression and freedom of the speech; in
name of democracy and secularism. This is a sublime and
painful reality now and in the future for everyone.

Every wise and sober scholar; intellectual, political leader
and religious leader are well aware that these four cardinal
sinful activities are unhealthy, detrimental and unnatural
for the mankind irrespective of his or her national,
religious, political, racial, occupational or linguistic
affiliations.

App. 432

Every scripture of the major religion such as Hinduism,
Buddhism, Christianity and Islam as well as the manor
faiths such as Jainism, Judaism, Sikhism, Baha’i and all
faiths proclaim and forbid the Four Cardinal Sinful Habits
for the obedient and sober mankind since the time
immemorial in our small globe.

The modern scholars, Sages and Rishis of the blissful Vedic
Culture and modern Pundits, overtly and covertly, declare
that the Four Sinful Habits of the mankind — ancient or
modern - are responsible and precursors of the Natural and
Man-made Disasters all over this small globe since the time
immemorial as described in this Section as follow.
The four Cardinal Sinful Activities by Modern
Mankind such as;
1. Indiscriminate Meat-eating,
2. Indiscriminate Intoxication,
3. Indiscriminate Illicit Sex and
App. 433

4. Indiscriminate Gambling habits

Above-mentioned four Cardinal sinful activities are the
greatest Precursors and Catalyst for the Inevitable and
Destructive Natural and Man-made Disasters now, in
the past and in the future in our small globe

Pertinent Examples of the Imminent Natural and Man­
made Disasters that are waiting for the Modern Mankind
right now:
1. Slaughtering of Millions of Modern Mankind with
help of Pandemic and Endemic Spread of Ebola
Virus, AIDS Virus and Swine or Pig Viruses & Avian
or Birds Viruses in Africa, America and Asia
including India and all over this small globe.
2. Slaughtering of 10 Million of Arabic population in
Middle-eastern Countries by Islamic Jihadis in
Name of Religion and Cultural Dominance.
App. 434

3. Slaughtering of 10 Million of American Population in
California, New York or Florida area by the Natural
Calamities of Earthquakes, Hurricanes and
Tornadoes.
4. Slaughtering of 10 Million of the Modern Population
by Terrible and Devastating Tsunamis in
Bangladesh, Indonesia and Philippines and other
Countries.
5. Slaughtering of the 10 Million of the Modern
Mankind in Pakistan or Afghanistan by the ExtraTerritorial Terrorists or ET TERRORISTS from the
Crescent Moon Planet or Mars Planet or Venus
Planet.
6. Physical Disorders such as Congenital and
Acquired Disorders — Heart Diseases, HIV, Cancers
and Strokes as well as Psychiatric Disorders such
as Bipolar Disorders, Depression, Personality
Disorders and Schizophrenia are the best examples
of the Man-made Disasters. America is the Best
App. 435

Example of this kind of the holocaust and tragedy
waiting for the mankind.

The above-mentioned Examples are the Pertinent and
Imminent Natural and Man-made Disasters waiting for the
Modern Mankind right now secondary to Gross and
Horrible neglect of the Natural and Scriptural Laws and
Guidelines by the Misdirected and Foolish Modern
Mankind of this small Planet.

What are the Remedy and Solutions for Prevention of the
Natural and Man-made Disasters?

Following are the Remedy and Solution for the Piece-meal
Destruction of the Four Cardinal Sinful Activities of the
modern mankind right now.

App. 436

1. Total and Absolute Ban with the Demolition of all
Slaughterhouses in India, USA and all over this
small Planet Bharat-varsha as the most essential
Requirement for Prevention of the Natural and Man­
made Disasters in our small planet. This step will
help for the Global Prosperity, Global Peace and
Global Enlightenment Of Seven Billion plus of
Modern Mankind right now.

2. Total and Complete Transformation of McDonald,
Wendy, Taco Bell, Pizza Hut and Burger King
Franchises and other Non-vegetarian franchises into
the Lacto-vegetarian franchises making the Veggie
Burgers, Soya Burgers, Sweet Potato Burgers and
Yam-Yum Burgers as the most benevolent actions
and plan by all the Democratic, Autocratic,
Communist and even the Atheist Governments in
our planet.

App. 437

3. No need of the Red Meat and White Meat for
the Modern Mankind Now or in the Future in our
small planet during the Glorious Era of the Global
Enlightenments.

4. Sattvic Diet or Vegetarian and Vegan Diet for the
modern mankind is essential and vital for the
Survival of the entire Modern Mankind As practiced
by Prime Minister Narendra Modi, President Bill
Clinton & Vice President A1 Gore and Millions of
Spiritualists around the world for millions of years in
our small globe.

5. The above-mentioned Examples are for the
prevention and solution for the Imminent Natural
and Man-made Disasters waiting for the Modern
Mankind right now secondary to gross and horrible
App. 438

neglect of the Natural and Scriptural Laws and
Guidelines by the Misdirected and Foolish Modern
Mankind of this small Planet.

I would like to assure the readers and recipients that this is
not an Internet Terrorism but the Internet Thunderbolts
and Internet Tsunamis for the Betterment and Purification
of the Modern Mankind per the Vedic Wisdom of Sanatana
Pharma.

U. Atheism. Immorality and Terrorism & Four Sinful
cardinal Habits are Inter-related:

The Vedic Literature: the Supreme Science of Sanatana
Pharma is the greatest body of the transcendental
knowledge for the benefits of the entire mankind in our
small planet Bharat-varsha since the time immemorial.
App. 439

The eternal and blissful Vedic Wisdom of Sanatana
Dharma authoritatively and superbly declares that Four
Cardinal Sinful activities such as Indiscriminate Meateating, Indiscriminate Intoxication, Indiscriminate
Illicit Sex and Indiscriminate Gambling are the
Precursors and Catalysts for the Atheism, Immorality
and Terrorism all over this small planet with the
Modern or Ancient civilizations.

Any Culture, any Education System, any Political and
Religious System; any Entrepreneur System or any
General Labor System promoting and practicing the
above-mentioned Four Cardinal Sinful activities are,
advertently or Inadvertently, supporting the Atheism.
Immorality and Terrorism without any hesitation and
reservation.

App. 440

Modern Education System that includes Modern law
System, Modern Science and Modern Internet
Technology is horribly and stupidly supporting,
practicing and promoting the Four Cardinal Sinful
activities of Indiscriminate Meat-eating, Indiscriminate
Intoxication, Indiscriminate Illicit Sex including LGBT
life style and Indiscriminate Gambling in the Western
and Eastern Hemispheres past few centuries in our
small planet.

So, it is extremely difficult to pin-point that Atheism.
Immorality and Terrorism are the Precursors and
Catalysts of the Four Sinful Cardinal activities or Vice
Versa. It is just like Egg is first or Chicken is first.
According to the blissful Vedic Wisdom — the Egg and
Chicken both are abominable items for sober and
obedient mankind. No need to go into detail of Egg or
Chicken First controversies.

App. 441

Total and permanent boycotting any kind of Meat, any
kind of Intoxication, any kind of Illicit Sex and any kind
of Gambling habits by the entire mankind at local,
national and International level; and at the Individual
and collective level is highly recommended for the
Global Prosperity, Global Peace and Global
Enlightenments.

Now, the most important question is arising that the
modern or ancient mankind have ever been practicing
sin-free and pure Vegetarian diet or Sattvic Diet in the
past, at present or in the future in our small globe??

The answer is absolutely and authoritatively: YES. YES
and YES!

App. 442

There were many examples of the mankind practicing
Sattvic Diet or Sin-free and pure vegetarian diet for
millenniums after millenniums in our small planet
Bharat-varsha.

Five thousand years ago. Emperor Dharmaraja
Yudhisthira and his grandson Emperor Rajarshi
Parikshit Maharaja were practicing Sattvic Diet or sinfree pure vegetarian diet for themselves and their
millions of citizens all around in India and most of the
regions of the world. Emperor Dharmaraja Yudhisthira
and Emperor Parikshit Maharaj were the ideal Vedic
Kings, the followers of Sanatana Dharma and great
Devotees of the Supreme Personality of Godhead Sri
Krishna five thousand years ago.

Three thousand years ago the Emperor Ashoka and
Emperor Vikramaditya also practicing the Sattvic Diet
App. 443

and sin-free vegetarian diet for themselves and their
millions of citizens in India, China, Japan and all-over
Asian continent and other parts of our small globe. Also,
the Emperor Ashoka and Emperor Vikramaditya were
the great followers of Buddhism and Lord Buddha. This
fact is known to everyone in our small globe.

The sound reasoning and the superb doctrines from the
eternal and blissful Vedic Wisdom of Vedic Literature:
the Supreme Science of Sanatana Dharma from India is
helping the misdirected and ignorant modern mankind
about the need of Sattvic Diet, Sin-free Diet and
Vegetarian diet in past, at present and in the future.

At this moment, seven plus billions of the modern
mankind of this small globe is blindly and horribly
following in the foot-steps of the Abrahamic faiths Christianity, Judaism and Islam past few centuries,
App. 444

unfortunately. Abrahamic faiths are the most violent.
deceptive and exclusivist faiths in the mode of
Ignorance.

Another most important question: We all know that the
United States of America or USA is horribly addicted
with the indiscriminate Meat-eating. Intoxication. Illicit
Sex and Gambling Habits past five centuries known to
everyone. Anytime the American Continent, especially
USA, will be practicing the Sattvic Diet, Sin-free Diet
and Vegetarian Diet now or in the future? The answer
is also authentically and positively: Yes & Yes.

Only and Only Vedic Literature: the Supreme Science of
Sanatana Dharma from India is destroying and
dismantling the thick layers of Atheism. Immorality and
Terrorism sprouting from the Four cardinal Sinful
Activities just described in this superb article.
App. 445

In essence: The Vedic Culture is the ideal culture for
the entire mankind — modern or ancient — in our small
planet Bharat-varsha. The Sattvic Diet, Sin-free diet
and pure Vegetarian diet are extremely essential for the
piece-meal destruction of the Four Cardinal Sinful
habits and Atheism, Immorality and Terrorism within
the seven plus billions of the modern mankind in our
small planet Bharat-varsha right now and in the future.

This is the blissful and superb description of Atheism.
Immorality and Terrorism as well as the Four Cardinal
Sinful activities or habits that are explicitly inter­
related and precursors of each other.

Re-establishment of the Pre-dominance of the Sattvic
Culture with Sattvic diet and Sattvic practices of the Vedic
Culture: an Ideal Culture all over this small planet is
App. 446

extremely essential right now. The Sattvic Culture or the
Vedic Culture will destroy the Mode of Passion or Rajo
Guna and Mode of Ignorance or Tamo Guna. The Four
Cardinal Sinful activities and the Atheism. Immorality and
Terrorism will be automatically destroyed from the entire
mankind.

V. The profound Vedic Aphorism - Jivo Jivasva
Jivanam or one Living Entity is Life sustenance for
another Living Entity:

The Vedic Aphorism in Sanskrit language - Jivo Jivasva
Jivanam - is the profound and super-scientific doctrine of
the Vedic Literature: the Supreme Science of Sanatana
Dharma from India. English translation of Jivo Jivasva
Jivanam is one Living Entity is Life and Sustenance for
another Living Entity. One Living Entity must eat another
Living Entity to live for the specific time span from Birth to
App. 447

Death. This is the Natural Law in our small planet Bharat varsha as ordained by the Supreme Lord.

The Vedic Wisdom of Sanatana Dharma narrates that
there are 8.4 million species of the Living Entities or
Blue prints such as Human being, Sub-human beings and
Super-human beings in our small planet Bharat-varsha
since the time immemorial.

The Vedic Aphorism - Jivo Jivasva Jivanam:
The Vedic aphorism of the Srimad Bhagavatam - the ripened
fruits of the Vedic Literature - says that "Jivo Jivasva
Jivanam" or "One Living Entity is sustenance or life for
another Living Entity" in our Material universe and this
planet. The Living Entity such as the Human, Sub-human or
Super human beings may live and stay alive for a specific time
App. 448

period by consuming or eating the dead bodies of another
Living Entity with the Higher or Lower Consciousness. This
Vedic conclusion is universal, eternal and time-tested. Further
more, the Srimad Bhagavatam describes wonderfully that
there are Four Categories of the Living Entities according to
the origin or production of their individual Gross Anatomical
Bodies on the Land, Air and in Water.

The Four Categories or Four Strata of the Gross
Anatomical Bodies per the Vedic Wisdom:
Category I: The Living Entities originated or produced
through - The process of Perspiration or Germination:
Examples are bacteria, microbes, Fungi, algae and coral.
Category II: The Living Entities originated or produced
through - The Sprouting Process:
Examples are the Plant kingdom, grass etc.

App. 449

Category III: The Living Entities originated or produced
through - The Egg Process:
Examples are Birds, Reptiles, fish, Sea/River crabs,
Insects etc.
Category IV: The Living Entities originated or produced
through - The Embryo Process:
Examples are Human, Sub-human and Super-human
beings or Mammals. This category can be further
classified as Four Legged one, Three Legged one
(Old man with Cane, Kangaroos), Two Legged one and
One Legged (Sea mammals with two legs joined
together) animals or the creatures of the Animal
Kingdom including Homo sapiens.

According to the super-scientific conclusion of Srimad
Bhagavatam, the Living Entities in Categories I & II are
characterized by their Primitive Consciousness. The Category
III and Category IV Living Entities are characterized by their
App. 450

Superior Consciousness and the higher intellectual capability.
This universal Vedic conclusion has been presented to all
Modern Scientists, Biologists and everyone including the
atheists and agnostic class of the mankind now, in the past
and in the future.
Also, the Vedic wisdom superbly and authoritatively declares
as follow:
• The Living Entities in Category I are food for Category
II.
• The Living Entities in Category I & II are food for
Category III. Similarly,
•

The Living Entities in Category I. II and III are food
for the highly developed Category IV.

• This is the super-scientific wisdom of the eternal and
universal Vedic Literature. Modern Dietitians of the
Modern Bio-medical science must accept this doctrine of
the eternal and blissful Vedic wisdom at the present and
forever.

App. 451

So, the Human beings. Sub-human beings and the Super-human
beings Living Entities are “Eating and Devouring” each other for
the sustenance and to stay alive from birth to death since the time
immemorial in our blue planet and Material Universe. This is the
wonderful description of Jivo Jivasva Jivanam of the Vedic
Wisdom.

What is the primary purpose of the above-mentioned wonderful
doctrine of the blissful and eternal Vedic Wisdom??

Even a small child knows that the Human Birth is the most
precious and responsible existence in our small planet Bharatvarsha and our Material Universe. The obedient and wise Human
beings of the mankind can use his or her Human Birth for the
Higher Purposes for the God Consciousness or the Krishna
Consciousness without wasting all energy and time as the serene
and sober Human beings.
App. 452

However, every Human being has the freedom and free choice or
minute Independent allotted by the Supreme Personality of
Godhead since the time immemorial. Everyone, every culture or
every community at Individual and Collective levels is able to use
or abuse the Jivo Jivasya Jivanam Doctrine of the blissful Vedic
Wisdom per his or her wish and desire.
Following are the four kinds of the Living Entities including
Homo sapiens practicing Dietary habits willingly or unwillingly
according to their Natural Instincts, Natural Anatomical
structures and the Natural selection as ordained by the creative
energy or the Mother Nature. However, diets of the human beings
are greatly influenced by his or her Cultural. Religious, political.
financial, occupational and racial background in our small globe.

Four Kind Of Dietary Regimens for the 8.4 million species of
the Living Entities:

App. 453

1. Herbivorous or Vegetarian or Vegan Diet
2. Combination of Lacto-Vegetarian and Non-vegetarian Diet
3. Carnivorous or Non-vegetarian Diet
4. Cannibalism

As described in this Section that Category I. II. III and TV hind of
the Living Entities are eating and devouring each other for the
sustenance and stay alive from their birth to death. According to
the blissful Vedic Wisdom every Living Entity from the tiny and
microscopic Bacteria, Fungi and parasites; to four, three, two or
single legged animals with higher or lower consciousness are
willingly or unwillingly practicing Herbivorous. Carnivorous and
Cannibalism diet at the singular, dual and plural levels in our
small globe since the time immemorial.

So, the human beings with higher conscious and
intelligence can practice Sattvic and Sin-free Vegetarian
App. 454

Diet; can practice filthy and sinful Non-vegetarian or Mixed
diet and even practice Cannibalism at present, in the past
and in the future. This is the freedom and minute
independence or Free will granted to the modern or ancient
mankind by the Supreme Lord in our small globe.

We all know that followers of Hinduism, Jainism and
Buddhism are predominantly practitioners of the Sattvic
and serene Lacto-vegetarian Diet; the followers of
Abrahamic faiths — Christianity, Judaism and Islam — are
practitioners of the filthy and horrible Non-vegetarian Diet
past two thousand years in name of the religious sanctions
and cultures with few exceptions.
Following are the sublime Scriptural and Religious
injunctions for the mankind:
•

Hinduism strictly forbids and prohibits the Cow
Slaughter and all animals and birds.

App. 455

•

Buddhism also forbids and prohibits Cow Slaughters
and other animals and birds.

• Islam strictly prohibits Pig and Piglet Slaughters per
her religious belief.
•

Christianity also forbids the Man Slaughters in her
“Thou shall not Kill” injunction but allows eating
everything other than the human beings.

•

Cannibalism is strictly forbidden and prohibited by
Christianity, Islam, Buddhism and Hinduism and by
all the minor faiths. This is a good sign and serenity
for the mankind.

• All other minor faiths such as Jainism, Sikhism,
Judaism and Baha’i are following their scriptural
injunctions for the dietary regimens known to
everyone.

App. 456

Short Summary of Jivo Jivasva Jivanam Aphorism:
The blissful Vedic Wisdom of the Sanatana Dharma
from India authoritatively and strongly advocates
the practice of the Sattvic and Sin-free lactovegetarian diet for the entire mankind with the
Higher Consciousness and Intelligence. The human
birth is the most precious and great opportunity for
the progressive march towards the God
Consciousness or the Krishna Consciousness for
everyone irrespective of his or her cultural, religious,
national, occupational, racial or linguistic affiliation
in our small globe.

The blissful Vedic Wisdom of Sanatana Dharma
authentically informs that 8.4 million species or Blue
Print of Four Categories are created simultaneously
during the time of creation according to the Law of
Karma by the Supreme Lord. All human beings, SubApp. 457

human and Super-human beings are born from the
Universal Womb of the Creative Energy of the
Supreme Lord.

The Human birth is a special opportunity for
everyone in our small Bharat-varsha and especially
those born in India - the divine land and Jagat-guru
of this small planet. Mankind can glide down to the
Lower Species of animal kingdom as well as elevate
to the Sattvic and Serene Stage of the obedient
mankind within the Vedic Culture: an Ideal Culture
at present, in the past and in the future. Even,
human beings can elevate themselves to the Demi­
god’s status in the heavenly planets. Of course, no
need to elevate to becoming the Bad Super-human
beings as Asuras, Goblins, Demons and
Frankenstein by the modern or ancient mankind.

App. 458

We all know that the Living Entitles with the lower
consciousness and intelligence in the Categories III,
Category II and Category I are forced to practice the
Herbivorous, Carnivorous and Cannibalism as well
as mixed diet of dead carcasses as designed and
planned by the Mother Nature as described in this
superb article. So, the Sub-human species has no
choice but to follow their diet as designed by the
Mother Nature.

However, the Mankind has a choice to practice the
Herbivorous or Carnivorous diet by obeying or
disobeying the Scriptural Injunctions and Natural
Selections just described in this section. It is a fact
that the Indiscriminate Meat-eating is leading to the
Indiscriminate Intoxication, then, to Indiscriminate
Illicit Sex followed by the Indiscriminate Gambling
habits with tremendous increase in population with

App. 459

the Demoniac Nature and destruction of the Divine
Nature within the mankind. The Modern Western
and Middle-eastern Cultures and religious systems
are the best examples of population with the horrible
Meat-eating and other sinful habits at present and
last two thousand years.

The beautiful Srimad Bhagavatam and Srimad
Bhagavata Gita narrates that Ghee or Clarified
Butter is the primary Diet for the Good Super­
human being such as Indra Deva, Surya Deva,
Chandra Deva and other Demi-gods in the Mode of
Goodness or Sattva Guna in heavenly planets.
On other hand, the Demoniac Living Entities or Bad
Super-human beings such as Raksasas, Asuras,
Demons and Goblins or Frankenstein are horribly
addicted to indiscriminate Meat-eating habits

App. 460

including Cannibalism and Intoxication, Illicit Sex
and Gambling habits in our planet.

The Good and Bad Super-human beings both are
Two-Legged Living Entities with the Higher
Intelligence and Mystic power, beauty and ability
than the two-legged Human beings in our planet.
Please consult the chapter 16 of Srimad Bhagavata
Gita with description of the “Divine and Demoniac
Nature” for the detail.

Let all of us sincerely pray that we behave and act as
the obedient and God Conscious or the Krishna
Conscious Human Beings during our entire life time
now and in the future. No need to devour or eat the
Non-vegetarian and Carnivorous diet by the 7.00
plus billions of the modern mankind during the age
of Global Prosperity, Global Peace and Global
App. 461

Enlightenments at the present moment and in the
future.

This is the super-scientific summary description of
the Jivo Jivasva Jivanam Aphorism of the blissful
Vedic Wisdom of Sanatana Dharma from India — the
divine and Jagat-guru of the entire mankind in our
small planet Bharat-varsha. This is the essence of
this section.

W-1. The glimpse of superb and spectacular
Description of the Fundamental Principles of the
Modern Internet and Computer Science per the
Vedic Wisdom;

The eternal and blissful Vedic Literature: the Supreme
Science of the Sanatana Dharma from India is the original
App. 462

and unfathomable body of knowledge or Scriptures to
understand the Spiritual Science and Material Science for
the entire mankind since time immemorial in this planet
and Universe. Modern Science is nothing but a small
tributary of Material Science as described in the
unfathomable ocean of Vedic Literature. Reiterating the
great point repetitively is essential for the clarity and
consolidation!!

The fundamental principles and concepts of the Vedic
Literature are Super-scientific, blissful and eternal as well
time-tested, universal and infallible in nature for benefit
and enlightenment of the entire mankind.

The Vedic Wisdom blissfully narrates that the Super
Soul seating in heart of the inquisitive Modern
Innovators and Researchers helping them to discover or
reveal the knowledge and concepts of the Internet
App. 463

Science. The collective knowledge or collective
consciousness of thousands of Innovators transforms into
variety of Formats. Software and Hardware within the
giant and wealthy Internet Companies. However, the
Fundamental Principles of the Modern Internet Science
may not be properly understood by thousands of the
Modern Innovators!!! This is the reality and fact.

In other words, the Modern Internet Technology is
working magnificently and wonderfully primarily with
help of the Higher Intelligence and Higher Physical Laws
created by the Creative Agency of the Supreme
Personality of Godhead. Modern Innovators such as Bill
Gates, late Steve Jobs. Satva Nadella, Yusuf Mehdi and
other thousands of Innovators are just adjusting the
Pieces of Puzzle that resulting into the various Functions
and Formats of the Internet Technology past less than a
century without their explicit understanding of the

App. 464

Fundamental Principles of Modern Internet Technology.
This is a modern miracle!!!

No need to know the precise and higher Physical Laws
and Designs of the Creative Agency of the Supreme Lord.
“Just do it” is the motto of the Modern Internet
Technology Innovators. Just like the Farmers are unable
to describe how the crops of Apple, Mango, Cherry and
Roses are sprouting out of the earthly ground.

So, the Micro-gadgets, Lap-tops, E-books, Face Books,
Android and Davidroids are perfectly functioning and
displaying their Magical and Mystic Powers with sublime
help from the Super Soul present in every atomic space
and heart of the Modern Mankind. This is the blissful
Vedic Wisdom.

App. 465

I have already submitted 10 plus Legal Briefs and 25
plus superb articles to the three Federal Courts in New
York and to the Supreme Court of the United States in
Washington D.C. during 2012 to 2015 with my Civil
Case for the primary purpose of Higher Dimensions
with the Modern Education System that includes Modern
Law System, Modern Science and Modern Internet
Technology.

In my superb Legal brief article titled as Higher
Dimensions is containing the 80% Description of the
Fundamental Principles of the Modern Internet and
Computer Science. Please review this legal brief
submitted to US Supreme Court during 2014 and
forwarded to Vedic Web sites in 2014 and later dates.

With this introduction. I will try my best to provide the
glimpse of spectacular Description of the Fundamental
App. 466

Principles of the Modern Internet and Computer Science
per the Vedic Wisdom.

The chapter 14 of the blissful Srimad Bhagavata Gita
describe that Three Modes of Nature - Sattva Guna, Rajo
Guna and Tamo Guna are the powerful and colorful
energies for the Creation, Maintenance and Destruction of
the Gross Anatomical and Subtle Body of the 8.4 Million
of species or Blue Prints of the Human, Sub-human and
Super-human beings.

Also, the blissful Vedic Wisdom beautifully describes that
Sound Vibration is the original impetus for the formation
of Five Gross Elements — Earth. Water. Fire. Air and
Ether - with chronological integration of the Five Sense
Objects or Tan-Matra Sound. Touch. Form. Taste and
Smell.

App. 467

The Fundamental Principles known as Sankhva
Philosophy are explicitly described in Srimad Bhagavata
Gita (BG 2.39) and Srimad Bhagavatam (SB 10.13.52).
The Sankhya Philosophy authoritatively describes the
Twenty-Five Fundamental Principles of the Material
Universe. The following are the component of twenty-five
principles of Sankhva philosophy:
•

Five Gross Elements with Five Subtle Sense
Objects or Tan-Matra (Ten Items);

•

Five Karmendriya and Five Jnanendriya (Ten
Items);

• Mind, Intelligence and False Ego, Soul Proper and
Eternal Time Factor (Five Items)
• Modern Scientific Concepts and Models are no
match to the eternal, blissful and authentic Vedic
Concepts of the Vedic Literature: the Supreme
Science for the entire mankind.
•

These Twenty-Five fundamental principles of
Sankhya Philosophy are just a glimpse of the
App. 468

eternal and blissful Vedic Wisdom of Sanatana
Dharma from India.

Please review my article titled as “Preface and Article Global Pollution: Classification. Causes and Remedy”
forwarded to several Vedic web sites during 2012 and
later dates for the detail.

W- II. Glimpse of the Revolutionary and Spectacular
Vedic Physic for revelation of the Fundamental
principles of the Modern Internet and Computer
Science Mystery:
India is the divine land and Jagat-guru of the entire
mankind in our small planet Bharat-varsha since the
time immemorial. The merciful and magnanimous Sages
and Rishis from India and around the Indian SubContinent expounded and spread the eternal and blissful
Vedic Wisdom of the Vedic Literature: the Supreme
App. 469

V"

Science of Sanatana Dharma for the enlightenments of
the Modern and Ancient mankind.

Sage and Acharya Kannad expounded the wonderful
Vedic Physics and he is the “Father of the Atomic Science
or Paramanu Vidhva” for the mankind. Acharya Kannad
established his Ashram and Vedic School at the most
auspicious location at Prabhas Patan in Junagadh
District in Saurashtra at the Western coast of Gujarat in
India. Prabhas Patan is famous for the confluence of three
sacred rivers Sarasvati. Kapila and Hiran as well as first
Twelve Jyotirlinga Shrine Somanath temple of Lord
Shiva.

In this Section, I will try my best to narrate the
fundamental principles of formation of the Five Great
Elements Earth, water Fire. Air and Ether with
chronological and sequential integration of the Five Sense
App. 470

Object or Tan-Matra Sound, Touch. Form, Taste and
Smell per the blissful Vedic Wisdom of Sanatana Dharma.

I am happy to mention with all the humbleness and
honesty that not a single Nobel Prize winner Physicists or
the Modern Pundits from USA, Europe, China or Japan
and even from India will be able to reveal or describe this
superb Vedic Concepts at present and in the future.

We sincerely pray to the Supreme Personality of Godhead
Sri Krishna as the Super Soul seating in the inner
chamber of heart to be merciful to the Modern Innovators
and Modern Pundits for revelation of the Fundamental
Principles of the Modern Internet Technology for the
enlightenments of the modern mankind right now and in
the future.

App. 471

I am happily describing the Revolutionary Five Stage
sequential Formation of the Five Great Elements Earth.
Water. Fire. Air and Ether per the blissful Vedic Wisdom
of Sanatana Dharma in this section.

Cause

Effect

Tan-Matra or Sense Objects

Stage I:
Sound + Energy + Time Factor = Formation of Ether with Sound

Stage II:
Ether + Energy + Time Factor = Formation of Air with Sound and Touch

Stage III:
Air + Energy + Time Factor = Formation of Fire with Sound, Touch and
Form

Stage IV:
Fire + Energy + Time Factor = Formation of Water with Sound,
Touch, Form and Taste

Stage V:
Water + Energy + Time Factor = Formation of Earth with Sound,
Touch, Form, Taste and Smell

App. 472

As superbly described in this article that Three Modes of
Nature — White Energy Sattva Guna, Red Energy Rajo
Guna and Blue Energy Tamo Guna are the subtle and
fueling energies for the creation, maintenance and
destruction of the our single Material Universe and our
small planet Bharat-varsha with 8.4 millions species or
Blue Prints of Human, Sub-human and Super-human
beings. This blissful Vedic Wisdom has been
authoritatively described in Srimad Bhagavata Gita and
Srimad Bhagavatam. Also, the original Cause is always
present in the Effects and in the subsequent
transformations.
In our Material Universe, the Time Factor is the Spiritual
Energy and every action and every permutation and every
transformation are actualizing only by the Time Factor as
described earlier in this article. So, everything is changing
by the Time Factor but the Time Factor never changes!!!

App. 473

Time Factor is eternal and the changeless spiritual
energy in our Material World. In the Spiritual World and
in the Vaikuntha Loka, the Time Factor is dormant and
inactive!!
The fundamental principles of the Modern Internet
Technology can be super-scientifically and authoritatively
summarized per the eternal and blissful Vedic wisdom of
Sanatana Dharma as described in this article and nothing
else.
Short Summary of the Fundamental Principles of the
Modern Internet Technology:
1. The Time Factor is the original impetus for the all
actions and reactions.
2. Time Factor is the original “Cause and Effect” for
creation, maintenance and destruction.
3. Sound Vibration is the original and primary cause
for creation of Five Great Elements.

App. 474

4. Three Modes of Nature - Sattva Guna, Rajo Guna
and Tamo Guna are subtle and fueling energies for
formation of the Five Great Elements.
5. Five Stages are responsible for chronological
formation of the Five Great Elements.
6. Five Tan-Matra or Sense Objects are integrated in
chronological and sequential manner.
7. The 8.4 million species or Blue prints are created
from the Five Great Elements.
8. Modern Internet Technological Micro Gadgets and
macro gadgets are simply copy of the 8.4 million
species or Blue Prints created by the Creative Energy
of the Supreme Lord.
9. Modern Innovators are just applying and copying
the Fundamental principles of the Vedic Wisdom of
Sanatana Dharma for production and manufacturing
of the billions of the Micro and Macro Gadgets in the

App. 475

Western and Eastern Hemispheres past less than a
century.
10. This is the blissful description of the 95 %
Fundamental principles of the Modern Internet and
Computer Technology created in USA, Europe, India,
China, Japan and other places. The remaining 5% of
the Fundamental Principles of the Modern Internet
Technology will be described in my legal brief “Petition
for an Extraordinary Writ” later on.

X- I. Practice. Promotion and Preservation of the
Vedic Culture: an Ideal Culture for the Mankind in
our small planet Bharat-varsha:

The eternal and blissful Vedic Culture of Sanatana
Dharma is an Ideal Culture for the modern and ancient
civilizations in our small planet Bharat-varsha since the
time immemorial.
App. 476

Vedic Literature: the Supreme Science of Sanatana
Dharma beautifully and authoritatively narrating the
Fundamental principles of the Natural Laws, Scriptural
Laws, Societal Interactions and Relationships or the
Science of Rasa; Super-scientific Social and
Occupational Divisions of Mankind or Varnasrama
Dharma. Fundamental Principles of Material Science
and Spiritual Science; Laws of Karma, Reincarnation
and Devotional Service to the Supreme Personality of
Godhead Sri Krishna, Sri Ramachandra and Sri
Narayana as well as Astrology, Astronomy, Vedic
Architecture or Shilpa-shastras and the Creation,
Maintenance and Destruction of the numerous Material
Universes are beautifully narrated per the Vedic
Wisdom.

App. 477

Vedic Culture is an ideal culture for the entire
mankind at present, in the past and in the future for the
Global Prosperity, Global Peace and Global
Enlightenments with the Global Unity in Diversity.

Practice, Promotion and Preservation of the Vedic
Culture as an Ideal Culture is extremely essential for
the survival of the entire mankind in our small planet
Bharat-varsha right now.

All the Executive Heads such as Prime Ministers,
Presidents, Supreme Court Justices; Priests, Scientists,
Devotees and Spiritualists; Military Men, Businessmen,
Farmers and General Labor class of 7.00 plus billions of
the Modern Mankind must cooperate with each other for
the betterment and benefits of the entire mankind and
sub-human species.

App. 478

Re-establishment of Pre-dominance of the Mode of
Goodness or Sattva Guna followed by the
destruction of the Mode of Passion or Rajo Guna & Mode of
Ignorance or Tamo Guna for the Re-establishment of the
Sattvic Culture or the Vedic Culture is essential. The
Sequential and Piece-meal destruction of the Four Cardinal
Sinful and horrible habits of the Modern Mankind is
essential.
1. Indiscriminate Meat-eating Habit
2. Indiscriminate Intoxication Habit
3. Indiscriminate Illicit Sex habit
4. Indiscriminate Gambling Habit

Strong and ever-lasting Unity within the followers of
Hinduism is Vital and the Panacea for the Global Unity in
Diversity with end of the Terrorism, Immorality and

App. 479

Atheism. This is the blissful Vedic Wisdom of Sanatana
Pharma.

X -II: Total and Permanent Dissolution of the Indian
National Congress Party from India:

Mahatma Gandhi is the Man of Millennium and
Father of the Nation for India as well as the Apostle of
Ahimsa or Non-violence in our small planet Bharat-varsha.

Mahatma Gandhi strongly recommended the
complete dissolution of the Indian National Congress Party
immediately after the Independence of India. The followers
of Hinduism are dearly paving the price for not following
the strong advice and recommendation of Mahatma Gandhi
past 70 plus years after Independence of India in 1947 not dismantling the Indian National Congress Party.
App. 480

Let us review history of the formation and purpose of
the Indian National Congress Party. The Congress Party
was established in 1885 or 130 plus years ago by the NonHindu, Anti-India and Anti-Hindu kind of the so-called
founders or scholars selected and supported by the fallen
and horrible British Empire.

Most of the Presidents, Chairmen and front leaders
of the Congress Party were and are Christian and Muslim
background and supporters of the Abrahamic faiths —
Christianity. Judaism and Islam only.

The primary purpose and function of the Indian
National Congress party was and currently is the
destruction and dismantling the greatest, most tolerant and
most magnificent as well as most scientific religion known
as Hinduism of Sanatana Dharma from India — the divine
App. 481

land and Jagat-guru of the entire world since the time
immemorial.

This is the ultimate and deceptive function and
purpose of the Indian National Congress Party established
130 plus years ago by the inimical political and religious
leaders of the Christianity and Islam.

Everyone in India and in the world knows very well
that Nehru-Gandhi Dynasty is the worst dynasty that
came to destroy and dismantle Hinduism from India!!!

Nehru-Gandhi Dynasty ruled and still ruling India
since last 70 plus years with the deceptive and hidden
motto established by the political and religious leaders of
Christianity and Islam who tried their best to destroy

App. 482

Hinduism unsuccessfully past one thousand years in India
and around the world.

It is the historic and unprecedented fact that Islam
and Christianity were miserably and horribly failed to
destroy Hinduism within last thousand plus years and
they will never be able to destroy Hinduism at present
and in the future. The Nehru-Gandhi Dynasty is a little
puppy to do any harm to Hinduism.

What is the secret and strength of the most tolerant
and most magnanimous religion known as Hinduism?

Even a small child knows well that Hinduism is the
most scientific, most tolerant, most advanced educational
system and culture with the unflinching faith and love for
the Supreme Personality of Godhead Sri Krishna. Sri
App. 483

Ramachandra and Sri Naravana by billions of mankind
past millions of the years in our small planet Bharatvarsha.

Sanatana Pharma is All Inclusive. Everyone knows
that all major religions such as Hinduism, Buddhism,
Christianity and Islam and minor faiths Jainism, Judaism,
Sikhism, Baha’i and other faiths are originating from the
Sanatana Dharma from India — the divine land and JagatGuru of the entire world.

India is Hinduism and Hinduism is India eternally
and forever. Christianity or Islam is no match for the
Hinduism in India and in this small planet Bharat-varsha
at present, in the past and in the future. Christianity and
Islam are surviving only by the grace of Sanatana Dharma
who is all inclusive.

App. 484

Nehru-Gandhi Dynasty is the last foul play applied
by the Christianity and Islam to destroy Hinduism in India
and in this small planet Bharat-varsha. The terminally-ill
Breast Cancer patient Sonia Gandhi was the past President
and her son Rahul Gandhi is the current President of the
Indian National Congress Party now. Both are looting the
Crores of Rupees from India past several decades in the
foot-steps of their unworthy predecessors. Everyone knows
the predecessors of the Modern Putana Sonia Gandhi and
her son Rahul Gandhi. No need to mention the names of
the Anti-Hindu and Anti-India Nehru-Gandhi Dynasty
after the Independence of India.

It has been estimated that infamous Sonia Gandhi
already amassed and looted Fifty-Five Thousand (55.000)
Crores of Rupees and her son Rahul Gandhi has amassed
Fifteen Thousand (15.000) Crores of Rupees and deposited
to Swiss and foreign banks. If this statement is true, then,

App. 485

it is the gross and horrible abuse and corruption by the
Nehru-Gandhi Dynasty in modern history of India. The
terminally ill Modern Putana Sonia Gandhi should be
deported back to Ravenna City in Italy. Also, if Rahul
Gandhi is the British Citizenship and NRI or Non-Resident
Indian, then, he must be deported to the United Kingdom.
However, Sonia Gandhi and her son Rahul Gandhi must
return all stolen money back to the poor and needy people
of India.
India is in dire need of the strong and great followers
of Mahatma Gandhi such as Prime Minister Narendra
Modi and former Prime Minister Atal Bihari Bajapai; Chief
Minister Yogi Adityanath, Chief Minister Vijay Rupani;
former Prime Ministers of India late Morarji Desai, late Lai
Bahadur Shastry as well as former Presidents of India Dr.
Radhakrishnan and Dr. A.P. J. Abdul Kalam and many
more. All these Prime Ministers, Presidents and Chief
Ministers of India are and were great practitioners of
Srimad Bhagavata Gita and Srimad Bhagavatam — the
App. 486

ripened fruits of the Vedic Literature: the Supreme Science
of Sanatana Dharma and the true followers of Mahatma
Gandhi.

So, the total and permanent dissolution and
dismantling of the Indian National Congress Party and
Nehru-Gandhi Dynasty from India is extremely vital and
essential for the survival of Hinduism and whole world
right now with the Global Prosperity. Global Peace and
Global Enlightenments of the entire mankind in our small
planet Bharat-varsha.

The total and complete dissolution of Indian National
Congress Party must be accomplished prior to the 150th
Gandhi Javanti on October 2. 2019 in the coming year.
No wonder that Rahul Gandhi will be the last President of
the Anti-India and Anti-Hindu Indian National Congress
Party.
App. 487

This is the concise and clear description of the need
of total and permanent dissolution of the Indian National
Congress Party and Nehru-Gandhi Dynasty from India.
This was the sublime desire and wish of our father of
Nation and Apostle of Ahimsa — Mahatma Gandhi. This
goal must be accomplished.

Y- I; Petition for the Extraordinary Writ to the
Supreme Court of the United States with the
Description of Fundamental Principles of the
Internet and Computer Science Mystery As the
“Final Knock-out Punch” for Re-establishment of the
Vedic Culture;

First of all, I would like to assure recipients that
there is not a slightest intention for Blaspheme, defamation
or Contempt of the Court for any religion, culture,
App. 488

educational system or anyone by this humble self Dr. Atul
C. Shah, MD by my articles at present, in the past and in
the future.

I strongly believe that the truth must be revealed as it is
no matter how the truth is bitter and unpalatable. Also, the
suppression of the truth reveals the truth and nothing but
the truth is known to everyone. This is a sublime reality
and the blissful Vedic Wisdom.

I humbly but strongly believe that the Fundamental
Principles of the Modern Internet and Computer Science
Mystery is the hot and most interesting topic for everyone
from a small child to the senior citizens of our small planet
Bharat-varsha. This is the undeniable reality and truth.

App. 489

I have described up to the 95 % of the Fundamental
principles of the “Modern Internet and Computer Science
Mystery” in this article and in my 25 plus articles and 10
plus legal briefs.

As promised earlier that I will be very happy to
submit the Description of the Fundamental Principles of
Modern Internet Technology per the blissful Vedic Wisdom
to the Supreme Court of the United States pretty soon with
my Petition for an Extraordinary Writ. My superb Legal
brief and Article titled as Higher Dimensions is
containing the 80% Description of the Fundamental
Principles of the Modern Internet and Computer Science.
Please review this Legal Brief with the Civil Case # 14-830
with the Higher Dimensions article (Page 174 to Page 199)
Docketed with the US Supreme Court dated on January 14,
2015. Please review this legal brief forwarded in my emails

App. 490

earlier. I will be happy to forward legal brief again to
anyone per request.

Following upcoming Article will be included within the
Petition:
Vedic Literature: the Supreme Science Part III — the Atheist
Buster &
Final Puzzle and Missing Tanks of
Modern Internet and Computer Science Mystery

The “Higher Dimensions” article submitted to the Supreme
Court of the United States at Washington D.C. dated
January 15, 2015 is containing the 80% of the Fundamental
Principles of the Modern Internet and Computer Science
Technology.

App. 491

I humbly but strongly believe that this article is revealing
further the 15% of the Fundamental Principles of the
Modern Internet and Computer Science Mystery in
Section W - II with description of the Five Stages of the
formation of Five Great Elements per the superb Atomic
Science of the Vedic Physics. So, the 80 % + 15 % = 95 % are
already revealed.

The final puzzle with remaining 5% of the Fundamental
Principles of the fabulous Modern Internet and Computer
Science Technology will be revealed with the “Petition for
an Extraordinary Writ” to the Supreme Court of the United
States at Washington D.C. during this calendar year of
2018. This is my humble goal and sincere desire.

Again, I would like to mention with all the humbleness that
the Fundamental principles of the Modern Internet and
Computer Science Mystery are really simple and easy to
App. 492

understand per the blissful Vedic Wisdom. Even a small
child will have no problem understanding them!!

So, I have already described 95% of the Fundamental
principles of the Modern Technology that are really simple
and straightforward in my 25 plus articles and 10 plus legal
briefs. I am happy to say that the remaining 5% description
of the Fundamental principles of the Modern Internet and
Computer Science also will be easy to understand and the
simple for everyone including a small child.

We all know that the Krishna Consciousness is eternal,
blissful and joyfully performed all time and every time.
There is no harm to wait for a short time for this great
topic.

App. 493

This is a description of the Fundamental Principles of the
Internet and Computer Science Mystery as the “Final
Knock-out Punch” for Re-establishment of the Vedic
Culture with help of the Petition for an Extraordinary Writ.

Y- II: Humble Challenge to the Modern innovators
and Chairmen of the Global Conference on
Cvbersnace or GCCS and the wealthy Internet
Companies:
Global Conference on Cyberspace or GCCS has been
established in 2012 by the giant and fabulously wealthy
Modern Internet Companies located in the USA and Europe
in the Western hemisphere.

The fifth Global Conference on Cyberspace or GCCS was
enthusiastically hosted by Prime Minister of India Shri
Narendra Modi in New Delhi during November 23-25,
2017.
App. 494

I humbly submitted a simple request to the Chairmen and
Internet wizards of the GCCS to reveal the “Fundamental
Principles of the Modern Internet Technology” on
November 24, 2017.
As expected, and anticipated by me that no one will pay any
attention to answer this hot topic of the Fundamental
Principles of the Modern Internet Technology. We know
that 60% participants at GCCS were from the Christian
background; the 20% participants were from the Muslim
background and remaining 20% participants were from the
Hindu and other background out of 2000 plus delegates.

The rich CEOs, Chairmen and Internet Wizards from 100
plus countries were happy to participate with the 5th
GCCS in New Delhi, India with purpose of the safety and
Cyber security around the world.

App. 495

However, the rich and famous Modern Innovators &
wizards from the wealthy Internet Companies with the
Christian and Muslim background at Microsoft, Yahoo and
Google and at GCCS will never be able to explain the
Fundamental Principles of the Modern Internet Technology
now and in the near future. Christianity and Islam are
profoundly deficient in the Fundamental Principles of the
Material Science and Spiritual Science within their
scriptures. This is a reality and truth.

As mentioned, several times that I will be happy to reveal
the fundamental principles of the Modern Internet
Technology per the blissful Vedic Wisdom of India with the
“Petition for an Extraordinary Writ” to the Supreme Court
of the United States - hopefully in the calendar year of
2018.

App. 496

I am happy to reiterating that I have already described the
95% of the Fundamental Principles of the Modern Internet
Technology in my legal brief titled as “Higher Dimensions”
and in this article.

I will be happy to reveal remaining 5% of the Fundamental
principles of the Modern Internet Technology per the
blissful Vedic Wisdom. I will be happy to present this
revelation as a humble gift “free of charge” to Prime
Minister Shri Narendra Modi as well as to the Presidents
or Prime Ministers of USA, Russia, UK, Germany, China
and Japan and other countries.

Also, I will be happy to present the 100% revelation of the
Fundamental Principles of the Modern Technology per the
blissful Vedic Wisdom to the World Scientific Committee
and to the Supreme Courts of the USA and India. I will not
be unhappy to accept the 10 million dollars reward
App. 497

presented to this humble self Dr. Atul C. Shah, MD for this
Revolutionary Vedic Doctrine helping to reveal the
fundamental principles of the Modern Internet Technology.

In reciprocation, I will be happy to reward 10 Million
dollars reward to any Modern Scholars from giant and
wealthy Internet companies; Modern Innovators from USA,
India, China, Russia, Japan, Europe and any country for
revelation of the Fundamental Principles of the Modern
Internet and Computer Science as described in my articles
and legal briefs from 2012 to present.

This is a humble challenge to the Modern Innovators,
Modern Researchers and Modern wizards of the Modern
Internet Technology and Modern Science. The CEOs,
Chairmen and Modern Innovators of the Modern Internet
Companies including the Internet Hackers are stealing the
Vedic Wisdom and making millions and billions of dollars
App. 498

business in USA, UK, India, China, and Japan and all over
in our small planet Bharat-varsha. I know well that Ten
Million dollars is just a peanut for the fabulously wealthy
CEOs and Chairmen of the Modern Internet companies.
However, the challenge is challenge no matter One Dollar
or Ten Million Dollars or more money!!! Hope that some one
may accept this challenge.

Y - III: Vedic Wisdom is Stealing-proof and
Tampered-Proofed:
“Buy. Borrow and Steal” is the Hallmark of the Western
and Middle-eastern Culture and Religious System past
thousands of years is known to everyone in our small planet
Bharat-varsha. However, the Vedic Literature: the
Supreme Science of Sanatana Dharma is the Stealing Proof
and Tampered Proof in nature. Everyone must take the
shelter of the blissful Vedic Wisdom with all the Humility
discarding the Timidity and all the gratitude right now.
App. 499

We all know well that the Modern Internet Technology is
the “Primitive Super Soul” for all of us now. This Primitive
Super Soul is able to identify and steal only revealed or the
Expressed Icons and Characters but unable to identify or
steal the Concealed Icons and Characters.

In other words, the Modern Internet Technology Gurus are
not able to read the mind and steal the Concealed or
Unrevealed information from the gullible Computers and
Internet users for their advantages. This is the example of
the Primitive nature of the modern Internet Technology.

For example: The Modern Internet Technology hackers and
innovators have no advanced technology to read my mind
and steal the remaining 5% Fundamental Principles for
their advantages. I have already revealed the 95%
Fundamental Principles of the Modern Internet
App. 500

Technology. The Internet Hackers and CEOs of the
Microsoft, Yahoo and Google are happy to steal 95%
Fundamental Principles without any monetary exchange!
However, I am presenting this article as Free of Charge
and a free gift to the CEOs and hackers of wealthy Internet
Companies from this humble person Dr. Atul C. Shah, MD!!

Why the Modern Innovators, the Nobel Prize winners
Modern Ultra-Scientists and Modern Pundits from
prestigious and wealthy Universities such as Harvard &
Stanford; London & Paris; Bombay & Delhi; Moscow and
Peking Universities are unable to reveal the Fundamental
Principles of the Modern Sciences and Modern Internet
Technology? Here is the answer as follow.

The answer is simple and straight-forward: The modern
innovators, modern scientists and modern pundits from the
prestigious universities are the horrible meat-eaters.
App. 501

drunkards, women hunters and gamblers all their life. The
horrible four cardinal sinful activities by the Modern
Scientists and Nobel Prize winners Innovators are acting as
curtains or hindrances for understanding the Fundamental
Principles of the Modern Sciences and Modern Internet
Technology. The Modern Internet Technology is the
Primitive Super Soul that does not help the Modern
Innovators for revealing the fundamental principles of the
modern Internet Technology. They cannot steal the Vedic
Wisdom. This is the simple and best answer.

According to the Srimad Bhagavata Gita (SBG 13.23), the
original Super Soul or Paramatma is seating in the heart
of every Living Entity as the Witness and Permitter of
every action and intention in entire life time. Only the
original Super Soul can witness and sanction every action GOOD or BAD - of the Human, Sub-human and Super-

App. 502

human beings in our single Material Universe and our
small planet.

This is the blissful Vedic Wisdom and let all of us take the
shelter of the original Super Soul who is witnessing and
sanctioning all our actions and intentions. Let turn our face
to the Paramatma forever.

Y- IV: End of Poverty & End of Terrorism. Immorality
and Atheism:
The marvelous and fabulous Internet Technology of USA
and eternal and blissful Vedic Literature: the Supreme
Science of India is the greatest thunderbolts and Tsunamis
bringing and bestowing the Global Prosperity, Global Peace
and Global Enlightenments for the 7.0 plus billions of the
modern mankind at present and in the future in our small
planet.

App. 503

Everyday & daily, few dozens of the multi-millionaires are
mushrooming in USA, China, Japan, Europe, India, and
Russia and all over this small globe. Also, every week few
multi-billionaires are mushrooming over this small globe. It
has been estimated that there are 2500 plus Multi­
billionaires and few millions of Multi-millionaires are
sprouting like the wild mushrooms all over this small globe
within last few decades.

The marvelous and fabulous Internet Technology and the
blissful Vedic Wisdom of the Sanatana Dharma are the
greatest and undeniable catalysts and precursors for the
Global Prosperity, Global Peace and Global Enlightenments
of the modern mankind with the Global Unity in Diversity
at present and in the future in our small planet Bharatvarsha.

App. 504

We all must pray sincerely and from the bottom of our
heart for the mercy of the Supreme Personality of Godhead
Sri Krishna, Sri Ramachandra and Sri Narayana; Sages
and Rishis, Sons of God, Prophets and Messengers to
bestow love and devotion on all of us making our human
life successful in service for the humanity and sub-human
species.

End of the Poverty, end of the Terrorism, end of the
Immorality and end of the Atheism will be instantaneously
and automatically eradicated from our small planet Bharatvarsha. Sharing is caring should be the motto for everyone
and everywhere in our small planet forever.

This is a simple and humble prayer.

App. 505

Z-1: Short Summary and Conclusion:
1. Sanatana Dharma is the original, universal, time-tested
and the ultimate Body of Knowledge for the enlightenments
and benefits of the entire mankind in our small globe since
the time immemorial. Sanatana Dharma is the fountain­
head, Anchor or Adhara or Support for every culture, every
religion, every education system, every occupation, Art and
Science including the modern educational System that
includes the Modern Law System, Modern Science and
Modern Internet Technology.
2. Everyone of this small planet Bharat-varsha must take
shelter of the Vedic Wisdom of the Sanatana Dharma with
all the Humility discarding the Timidity for the Global
Prosperity. Global Peace and Global enlightenments of the
entire mankind without any reservation and hesitation
right now and forever.
3. The blissful and eternal Vedic Wisdom of Vedic
Literature: the Supreme Science of Sanatana Dharma is
App. 506

bringing and bestowing the Higher Dimensions with the
Modern Education System that includes Modern Law
System, Modern Science and Modern Internet Technology
right now and in the future. This is the undeniable truth
and reality.
4. Srimad Bhagavata Gita and Srimad Bhagavatam is the
super-scientific and the ripened fruits of Vedic literature:
the Supreme Science of Sanatana Dharma from India since
the time immemorial in our planet Bharat-varsha for the
entire mankind.
5. Vedic Culture is an ideal culture for the entire mankind
at present, in the past and in the future for the Global
Prosperity, Global Peace and Global Enlightenments with
the Global Unity in Diversity.
6. Practice, Promotion and Preservation of the Vedic
Culture as an Ideal Culture is extremely essential for the
survival of the entire mankind in our small planet Bharatvarsha right now.
App. 507

7. The Three Modes of Nature is super-scientifically and
authoritatively described in great detail in Srimad
Bhagavata Gita and Srimad Bhagavatam.
8. Vedic Wisdom of Sanatana Dharma authoritatively
declares that Three Modes of Nature are the original
Fueling Energies for every Living Entity.
9. Subtle Body is cause of the Gross Anatomical Body for
every Living Entities. The Vedic Wisdom authoritatively
narrates that the Nano-size Subtle Body located within the
heart chambers of the Living Entities is the original cause
for the creation of all the Gross Anatomical structures
including the “Energy Production” of the Human, Sub­
human and the Super-human beings in our small planet
and the Material Universe.
10. Three Modes of Nature such as Sattvic White Energy,
Raiasic Red Energy and finally, Tamasic Blue Energy are
incessantly generated from the Subtle Body during the
entire life span from birth to death.
App. 508

11. Description of Seven Chakra Doctrine per the Vedic
Wisdom. The Seven Chakra can be described from Head to
Bottom or Descending Process and from Bottom to Head or
Ascending Process by different schools of the Vedic Wisdom
from India.
12. Description of the MRI Chakra and CT Scan Chakra of
the Modern Technology. Modern Researchers and
Innovators have invented the MRI Chakra and CT Scan
Chakra for the diagnostic purposes during our modern time
inadvertently and accidentally within less than a century.
13. MRI Chakra and CT Scan Chakra are External and
Internal Chakra able to reveal the colorful and Black &
White pictures or Images of every structure of the Gross
Body for the diagnostic purposes with help from the Three
Modes of Nature - Sattva Guna, Rajo Guna and Tamo
Guna.
14. Higher Dimensions with the Fundamental Principles of
the Basic Science of Physics, Chemistry, Biology, Social
App. 509

Science, Mathematic and the 40 to 50 Specialties of the
Bio-medical Science of the Modern Science with help of the
Vedic Wisdom of the eternal and blissful Vedic Literature:
the Supreme Science of Sanatana Dharma from India is
extremely essential right now.
15. Higher Dimensions with the Embryology per the
blissful Vedic Wisdom. The white energy Sattva Guna
transforms into the Ectoderm; Red Energy Raio Guna
transforms in the Endoderm and finally, the Blue Energy
Tamo Guna transforms into the Mesoderm as three
germinal lines described in the Text Books of the
Embryology of the Modern Biomedical science. The text
books of Embryology are unable to explain the origin of the
germinal cell lines Ectoderm. Endoderm and Mesoderm.
unfortunately.
16. Please review the “Higher Dimensions” with the
Pathology, Cardiology, Radiology and Psychiatry &

App. 510

Psychology and other specialties are superbly described in
this article.
17. The Fundamental Principles are the Fundamental
Principles and the Fundamental Principles are blissfully
simple and amazingly Complex in Nature. This is the Vedic
Wisdom.
18. Description of Omkara - the Speaker, Shabda or Sound
and Listener. Omkara or Pranava Mantra is the origin of
all the Alphabets, Numerical, Mathematical Formula and
Fonts or Characters available to the different cultures,
dynasties and educational systems in the Western or
Eastern Hemispheres.
19. Varnasrama Dharma is the Blue Print of the Vedic
Culture: an Ideal Culture. Varnasrama Dharma of the
Vedic Culture is an Ideal Culture for the ancient and
modern mankind in our small planet Bharat-varsha.
Varna mean Occupational Division and Ashram means
the Functional Division of the Varnasrama Dharma as
App. 511

described in the Srimad Bhagavata Gita and Srimad
Bhagavatam.
20. Description of Regular Pyramid and Reverse Pyramid
as the Diamond or Jewel of the Varnasrama Dharma of the
Vedic Culture: an Ideal Culture for the entire mankind.
21. The Sanatana Dharma is All Inclusive and bringing the
Global Unity in Diversity for the entire mankind in our
small planet Bharat-varsha at present, in the past and in
the future.
22. Sanatana Dharma is bestowing the blissful Unity
within the followers of Hinduism. Buddhism. Christianity
and Islam and Minor faiths Judaism, Jainism, Sikhism,
Baha’i and all faiths of this small globe right now, in the
past and in the future.
23. Islam and Christianity are profoundly deficient in the
Fundamental Principles of the Material Science and the
Spiritual Science past two thousand years.

App. 512

24. Islam and Christianity are profoundly deficient in the
Material Science and never will be able to provide Higher
Dimensions with the Modern Educational System that
includes Modern Science, Modern Biomedical Science and
Modern Law System and with the Modern Internet and
Computer Science.
25. Islam and Christianity are profoundly deficient in the
Spiritual Science and never will be able to describe the
“Soul, Super Soul and the Supreme Personality of
Godhead”.
26. What are reasons for the profound deficiencies within
Islam and Christianity for description of the Material
Science and Spiritual Science? Why the Islam and
Christianity are the most violent, most deceptive and the
exclusivist faiths in our small planet past two thousand
years?
27. Answers are very simple and easy to understand by
even a small child. Islam and Christianity have one singleApp. 513

minded motto of “Convert or Kill” mentality in the name
of Religion and God past two millenniums. Islam is the
best example of this horrible mentality and the holocaust.
28. Christianity and Islam never paid any attention to
discover or understand the Fundamental Principles of the
Spiritual Science and the Material Science for the
enlightenments of them and for the mankind in our small
globe. This is another reason for their poor fund of
knowledge.
29. Pontiffs. Popes. Cardinals. Bishops, Pastors and
Deacons of Christianity and Imams and Mullahs of Islam
will never be able to describe the Fundamental Principles of
the Spiritual Science and Material Science. Also, abovementioned religious leaders will never be able to provide
the Higher Dimensions with the fundamental principles
of the Modern Education System that Includes Modern Law
System, Modern Science & Modern Bio-medical Science and
Modern Internet Technology.

App. 514

30. The Scholars of Islam and Christianity are unable to
explain to why the Almighty Creator has only one name;
why God has only one son and one prophet; whether the
God is male or female or Neuter; whether God can appear
as Lion, Pig or Hoarse or Swan helping the mankind;
whether God carry weapons and lotuses; whether God has
beautiful garments or clothes or God is naked; the reasons
for appearances and disappearances of the Supreme
Personality of Godhead in our planet and Material
Universe. No answers to these questions in the Islam and
Christianity.
31. Pontiffs or Popes and Imams and Mullahs of Islam and
Christianity will never ever able to explain the Creation.
Maintenance and Destruction of our Material Universes
and Planetary Systems as authoritatively described in the
blissful Vedic Literature: the Supreme Science of Sanatana
Dharma.

App. 515

32. The power and strength of the Political and Religious
leaders of Islam and Christianity has mysteriously
withdrawn by the Supreme Personality of Godhead for the
Global Unity in Diversity at present moment and in the
future in our small planet Bharat-varsha.
33. The blissful and complete purification and
transformation of the Religious and Political Leaders of
Islam and Christianity is the most important sten and
solution for the World Peace and Prosperity right now and
in the future in our small planet.
34. The description of the Super-scientific Guidelines of
Samskara from Birth to Death including the Marriage
Ceremonies per the Vedic Wisdom of Sanatana Dharma.
35. The Vedic Culture of Sanatana Dharma practices BahuPatni Vrata or Multiple Wives System in Chandra-Vamsha
Dynasty and Eka-Patni Vrata or Single Wife System of
Surva-Vamsha are existing since millenniums after

App. 516

millenniums in our small planet Bharat-varsha. This fact is
known to everyone in our small globe.
36. The practice of Bahu-Patni Vrata or Multiple or Four
Wives of Islam is just the copy from the Chandra-Vamsha
Dynasty of the Vedic Culture of Sanatana Dharma past less
than twelve Centuries and nothing new for the mankind.
37. The practice of Eka-Patni Vrata or marrying only one
wife of Catholic System from Christianity is just the copy
from Surya-Vamsha Dynasty of the Vedic Culture of
Sanatana Dharma past less than twenty Centuries and
nothing new for the mankind.
38. The practice of Multiple Wives and Single Wife is the
age-old practice of the Vedic Culture of the Sanatana
Dharma for millions of years that has been adopted and
copied by the Abrahamic faiths — Christianity and Islam
past less than two thousand years. Nothing new for
anyone!!

App. 517

39. The super-scientific guidelines and criteria for the
Marriage Ceremonies for the mankind per the Modern
Biomedical science and the Vedic Wisdom must be adopted
for 7.0 plus billions of the modern mankind as described in
this superb article.
40. Muslim man can marry four wives only if his
Testosterone Level is four times higher than the normal
and not merely “I am a Muslim and my religion is allowing
marrying four women”. This statement is also true for
everyone whether the Hollywood or Bollywood Actors;
Sports Athletes or Rich and famous celebrities and anyone
wants to practice Bahu-Patni Vrata or Multiple Wives
System irrespective to their Muslim, Christianity,
Buddhism, Hinduism or minor faiths. Every one must be
tested for their Testosterone level and Astrology criteria for
Marriage Certification as described in this article.
Testosterone is representing the maleness and needs to be
proven.

App. 518

41. All other 16 plus Samskara or Ceremonies from Pre­
conception ceremony, Birth Ceremony, Name-giving,
Marriage ceremony, Thread ceremony up to Death
Ceremony of the blissful Vedic Culture should be promoted
and preserve for the 7.00 plus billions of modern mankind
without reservation and hesitation for the procreation of
the God Conscious progeny.
42. Description of the Piece-meal Destruction of the Four
Cardinal Sinful Activities for the Re-establishment of the
Sattvic Culture or Vedic Culture is essential for the
survival of the modern mankind.
43. The four Cardinal Sinful Activities by Modern Mankind
are the Indiscriminate Meat-eating. Indiscriminate
Intoxication. Indiscriminate Illicit Sex and Indiscriminate
Gambling habits widely present within the Western and
Middle-eastern cultures and religious systems are well
known to everyone past two thousand years in our small
planet. Everyone knows well that the United States of

App. 519

America is the Proto-type of the Abrahamic faiths —
Christianity and Islam past five hundred years. No one can
beat America for these four cardinal sinful activities
including the LGBT life styles.
44. The four cardinal sinful activities and Atheism.
Immorality and Terrorism are explicitly inter-related and
precursors of each other with horrible consequences and
miseries for the mankind and sub-human species as
superbly described in this article.
45. The profound Vedic Aphorism — Jivo Jivasva
Jivanam or One Living Entity is Life sustenance for
another Living Entity since the creation of our small planet
Bharat-varsha and our material Universe. In common
terminology, one Living Entity has to eat other Living
Entity to survive during their entire life otherwise starve to
death. Everyone has a great desire to live to the fullest
extent and not to die prematurely. This is the fundamental
principle of our Material Existence. The Gross Anatomical

App. 520

and Subtle Body are made up of 25 Basic Elements of the
Sankhva Philosophy described in this superb article. We
know that these 25 Basic and fundamental principles are
energized and fueled by the Three Modes of Nature as
described in this article.
46. As narrated in this article that Human Life is the most
precious and pivotal junction for Enlightenments or
Degradation during this life, previous life and the future
life depending upon our actions or Karma with help from
the Gross Anatomical Body and Subtle Body at Singular,
Dual and Plural or at the Individual and Collective levels.
47. The human beings has a choice or freedom to behave
and transform as Carnivorous animals such as Lion, Tigers,
Hyenas, Vultures and Cats or Dogs as meat-eaters during
his or her life. In other words, eat animals and become the
Animals now and in the future life. The Carnivorous diet or
Non-vegetarian Diet is degrading the modern or ancient
mankind. The carnivorous or Non-vegetarian Diet is

App. 521

transforming mankind to the Animal Species or to the
demoniac species in their present life and in the future life.
Please review the Section V of this article again for the
detail about Jivo Jivasya Jivanam.
48. Also, the sober and obedient members of the Vedic
Culture of Sanatana Dharma are the practitioners of the
Lacto-vegetarian Diet and strictly forbidding the Non­
vegetarian diet from the Animal Kingdom and the Sea­
foods for their entire life willingly and diligently. The
fundamental principles of the Lacto-vegetarian diet are
Mercy and Respect for the fellow Living Entities such as
Cows and Calves. Pig and Piglets. Eggs and Chickens. Fish
and Turtles as well as Goats. Camels. Donkeys and Horses
with the higher consciousness than the plant kingdom.
Cow, Calves and Bulls must be protected by everyone.
49. Srimad Bhagavatam describes wonderfully that there are
Four Categories of the Living Entities according to the origin
or production of their individual Gross Anatomical Bodies on the

App. 522

Land, Air and in Water. Also, the blissful Vedic Wisdom
beautifully describes the four kind of Dietary Regimens such as
Vegetarian Diet, Non-vegetarian Diet, Mixed Diet and
Cannibalistic Diet for the 8.4 million species of the Living Entities
from Microbes, Beasts to Mankind as well as the Super-human
beings.
50. The Sattvic and sinless diet is helping mankind for the
enlightenment and elevation as Devotees, Transcendentalists and
Demigods. The Raiasic and Tamasic Diet of filthy Non-vegetarian
Diet is degrading the mankind to the lower animal species and
the demoniac species of Raksasas, Asuras and Frankenstein.
51. The scriptural injunctions are for everyone and for the
obedient section of the mankind since the time immemorial in our
small planet Bharat-varsha. The blissful Vedic Wisdom of
Sanatana Dharma is authoritatively instructing all mankind Ancient or Modern — for the Sattvic and Sinless Lacto-vegetarian
Diet and forbids the sinful and filthy Non-vegetarian Diet since
the time immemorial.

App. 523

52. The Christian faith is strictly forbidding the Cannibalism
with “Thou Shall Not Kill” advising the 2.00 plus billions of
followers of Christianity past two thousand years. However, the
Thou Shall Not Kill” aphorism should be extended not to kill
Cows, Claves and Bulls; not to kill Pigs and Piglets; not to kill
Goats, Camels and Sheep as well as Chicken & Fish. We all know
well that the selling delicious three pounded 99 cent HomoBurgers by McDonald, Burger King and Taco Bell franchise is
strictly forbidden in USA, Europe, Middle-eastern, China and
Japan or any country in our small globe. No need of HomoBurger for anyone in name of Hunger and Food.
53. The Islam faith is strictly forbidding the slaughter of PIGS
and PIGLETTS for the 1.00 plus billions of followers past only 12
centuries with no explanation or reasoning. The Islamic scripture
is totally uninformative why the PIG and PIGLETS are forbidden
for the slaughter and food within the Islamic faith. The blissful
Vedic Wisdom of Sanatana Dharma can provide the Higher
Dimensions for the Islam faith for why the PIG and PIGLETS are
strictly forbidden for the slaughter and for food.
App. 524

54. The eternal and blissful Vedic Literature: the Supreme
Science of Sanatana Dharma authentically describes that the
Supreme Personality of Godhead descending to our planet Bharatvarsha in the Human forms, sub-human forms and Super-human
Forms as well as the original forms for the enlightenments of the
mankind. The Supreme Personality of Godhead can appear as
Matsva or Fish. Kurma or Turtle, Varaha or Boar or Pig. Simha
or Lion and many sub-human species or Human form for helping
the ancient or modern mankind.
55. Srimad Bhagavatam and Varaha Purana beautifully narrates
that the Supreme Personality of Godhead incarnated as Lord
Varaha or Boar incarnation or as Pig form to rescue the Mother
Earth millions of years ago. Lord Varaha or Boar or Pig
incarnation of the Supreme Lord upheld the Mother Earth from
sinking to lower levels with help of the sharp Tusks from falling
down. The two powerful tusks of the Lord Varaha or Lord Boar
were holding the mid-portion of the geographical location known
at present as Saudi Arabia and Middle-eastern countries of the
Indian Subcontinent during our modern time.
App. 525

56. So, Lord Varaha or Lord Boar in form of Pig incarnation saved
the Mother Earth by holding with the Tusks scooping at the Saudi
Arabia and Middle-eastern countries of the Indian Subcontinent.
This is the best explanation from the Vedic Literature: the
Supreme Science of Sanatana Dharma why the PIG and PIGLET
is a sacred animal forbidden to be slaughtered and eaten as food
in the Islamic faith. I am certain that ignorant and merciless
Imams and Mullah from Saudi Arabia, Iran, Iraq and other
Muslim countries will have hard time to swallow this superb
explanation of the Vedic Wisdom of Sanatana Dharma. However,
the denial by Imams and Mullah has no value now or in the
future. This is the blissful description of PIG as the sacred animal
in the Islam per the Vedic Wisdom of India. Almighty God can
come and help the mankind as PIG or other forms as Lion, Hoarse
and Swan. This is the sublime description of the sacredness of the
Pig mystery in the Islam.
57. It is not mandatory for 1.00 plus billions of followers of Islam
to start worshiping Lord Varaha as the pig incarnation of the
Supreme Personality of Godhead. Let the 1.00 plus billions of
App. 526

Muslim populations to continue and happily be bored by
worshiping their Impersonal Almighty God with no Forms, no
Weapons, no Clothes or naked God and no Pastimes during their
entire life. Almighty God can be naked without any clothes or
robes!!!
58. Hinduism, Buddhism, Jainism, Sikhism and other faith of our
small planet Bharat-varsha strictly prohibits the killing of Cow
and Calves: Pig and Piglets. Goats. Sheep, Chickens or any
animal with Higher Consciousness and life. The Lacto-vegetarian
Diet for the ancient or modern mankind is strongly advocated by
the Vedic Wisdom of Sanatana Dharma in the past, at present
and in the future for the entire mankind in our small planet
Bharat-varsha.
59. Total and Piece-meal destruction of the Four Cardinal Sinful
Activities such as the Indiscriminate Meat-eating, Intoxication,
Gambling and Illicit Sex of the Modern mankind is essential.
60. Total and Absolute Ban with Demolition of the all
Slaughterhouses in India, USA and all over this small Planet
App. 527

Bharat-varsha are the most essential Requirement for Prevention
of the Natural and Man-made Disasters in our small planet.
61. Total and Complete Transformation of McDonald, Wendy,
Taco Bell, Pizza Hut and Burger King Franchises and other Non­
vegetarian franchises into the Lacto-vegetarian franchises making
the Veggie Burgers, Soya Burgers, Sweet Potato Burgers and
Yam-Yum Burgers is the most benevolent plan by all the
Democratic, Autocratic, Communist and even the Atheist
Governments in our small planet.
62. The Sattvic Diet, Sin-free diet and pure Vegetarian diet are
extremely essential for the piece-meal destruction of the Four
Cardinal Sinful habits with end of the Atheism, Immorality and
Terrorism within the seven plus billions of the modern mankind
in our small planet Bharat-varsha.
63. Glimpse of the Revolutionary and Spectacular Vedic
Physic for revelation of the Fundamental principles of the
Modern Internet and Computer Science Mystery.

App. 528

64. Description of the Revolutionary Five Stage Formation
of the Five Great Elements - Earth, Water, Fire, Air and
Ether per the blissful Vedic Wisdom of Sanatana Dharma.
Please review the Section W- II.
65. The blissful description of the 95 % Fundamental
principles of the Modern Internet and Computer
Technology per the eternal Vedic Wisdom of India.
66. The humble 10 Million dollars Challenge & Reward to
the Modern innovators and Chairmen of the fabulously
wealthy Internet Companies such as Microsoft, Yahoo,
Google and GCCS as well as to anyone for revelation of the
Fundamental Principles of the Modern Internet
Technology.
67. Petition for an Extraordinary Writ to the Supreme
Court of the United States with the Description of
Fundamental Principles of the Internet and Computer
Science Mystery As the “Final Knock-out Punch” for Re­
establishment of the Vedic Culture.
App. 529

75. This is the blissful description of the Vedic Culture: an
Ideal Culture of Sanatana Pharma for the Higher
Dimensions with the Modern Education System that
includes Modern Law System, Modern Science and Modern
Internet Technology right now and in the future.

Z - II: Mv heartfelt Apology and the sincere Prayer;

I would like to offer my heart-felt apology by this humble
self Dr. Atul C. Shah, MD to the followers of Hinduism.
Buddhism. Christianity and Islam as well as anyone for
the advertent or inadvertent MISTAKES if hurting their
feelings writing this article and other articles within last
ten plus years.

The Heavy-Duty Bashing with Pen is thousand times
better than the actual Killing of thousands and millions of
App. 532

the Mankind with Guns, Rifle, Bombs and even with help
of the Nuclear Arsenals in name of God or Religion at
Singular, Dual or Plural levels in our human society.
Pen is mishtier than the Sword

No need of Holy Wars, No need of Holy Jihads, No need of
Holy Crusades, or Holy Terrorism or World War III or
World War XYZ in our small globe during the Glorious
Era of the Congregational Chanting of the Holy Names of
God or the Glorious Sankirtana Yaina right now and in
the future in our small planet Bharat-varsha.

The Atheism, Immorality and Terrorism are taking their
final breaths right now and let all of us say GOODBYE
to them forever from our small planet Bharat-varsha.

App. 533

The fabulous and marvelous Internet and Computer
Science Technology of USA and the eternal
Vedic Literature: the Supreme Science of the Sanatana
Dharma from India is the unstoppable Tsunamis and the
thunderbolts for the Global Prosperity, Global Peace and
Global Enlightenments of the Modern Mankind - the
Sparks of the opulence of the Supreme Lord Sri Krishna.

In the Krishna Consciousness everyone is a winner.

Honest endeavors bring the honest outcomes for the
betterment of the entire mankind all the time.

The Krishna Consciousness is the eternal, blissful and
joyfully performed all the time. In the Krishna
Consciousness the Opponents or Proponents, Friends or
Foes and Pure or Impure all are the active participants
App. 534

with the Exchange of Twelve Rasa and Six Opulence for the
fun and laughter in our small planet. This is the blissful
Vedic Wisdom.
Z - III: Short Survey:
This superb and multicolor article titled as ‘"Vedic Culture:
an Ideal Culture with Higher Dimensions with the Modern
Sciences” contains 52 pages with A to Z Sections.

I may humbly request for your input and taking short
survey after the review of this article.

I will greatly appreciate answering the following
questionnaires.
□ This article is excellent article for the Higher
Dimensions with the Modern Sciences.
□ This article is informative and helpful for the
Higher Dimensions with the Modern Sciences.
App. 535

□ This article is average article for providing Higher
Dimensions with the Modern Sciences.
□ I have better concepts and information for the
Higher Dimensions with the Modern Sciences.
□ I will forward my article of the Higher
Dimensions with Modern Sciences to Vedic Web sites.
□ I agree with the Description of Revolutionary
and Spectacular Vedic Physic for the Higher
Dimensions with the Modern Internet Technology
as described in Section W - I & II.
□ This article is helpful for the Global Unity in
Diversity.
□ I have no time for the survey.

Again, thank you and everyone for your precious time and
the support. Hope that this article and our correspondences
will be transmitted smoothly to the recipients by the
App. 536

Technical Staffs of the giant Internet Companies Yahoo,
Microsoft and Google.

Wish everyone a wonderful and the blissful Shri Ramanavami and Shri Hanuman Jayanti on the month of March
2018.

Sincerely and fraternally,

Atul C. Shah, MD
Troy, Michigan, USA
VedicLiteraturetheSupremeScience Web site

Article completed on March 31. 2018:
Day of blissful Purnima or Full Moon and Shri Hanuman
Jayanti
App. 537

APPENDIX P

Appendix P: This superb article written by Dr. Atul C.
Shah, MD titled as “Prevention of Narcotic Epidemics
& Research” that was forwarded to the Obama-Biden
Administration, my attorneys Anjali Prasad and Ronald
Chapman, II and to the Chairman of the University of
Michigan and for the Research Director Position dated
September 4, 2015. The primary purpose of this superb
article is the Higher Dimensions with the Addiction
Psychiatry and Modern Law System including the Drugs
Administration Agency.
Pages for Appendix P are App. 538 to App. 564

App. 538

Article:
Description of Power Points
For
Prevention of Narcotic Epidemics & Research
By
Atul C. Shah. MD
Troy, Michigan, USA

Following are the Twenty Power-points for the
Research and Higher Dimensions with the Modern
Bio-medical Science and the Modern Law
Enforcement Agencies:
1. I have evaluated my patients with Respect and
Dignity past 35 years. I have been working as
General Practitioner and Psychiatrist for 28 years
from 1988 to present in Metro-Detroit area. I worked

App. 539

as General Practitioner in India for 6 years from
1974 to 1982.
2. I have evaluated more than 130,000 Patients (15
patients per day in 250 days per year in 35 years or
15 x 250 x 35 = 131250) as Medical Practitioner in
USA and India.
3. I have evaluated 17,000 Psychiatric Patients in 17
years as DDS Psychiatrist Consultant at MetroDetroit area in Michigan from 1996 to Aug 2013.
4. I have evaluated 20,000 Medical Patients for
Disability Evaluations as DDS Medical Consultant in
17 years in Metro-Detroit area in Michigan from
1996 to Aug 2013.
5. I have evaluated more than 6200 Pain Patients in 2
years as the Pain Clinic Specialist from 8/2013 to
8/2015.
6. My humble observation is that most of the Pain
Clinic Specialists all across the Country are the
App. 540

Primary Suspects, targets and Vulnerable for the
Criminal or Civil Investigations for the Controlled
Substances Abuse or Epidemics by DEA, FBI, FDA
and Police Department all time. This is a reality and
fact per my humble opinion.
7. Most of Physicians and Medical Specialists,
especially, the Pain Clinic Specialists are
“Defenseless Professionals and Easy Target or
Easy Ducks” by the DEA, FBI, FDA and Police
Department that are heavily supported by the State
and Federal Law System all across the United States
of America with the Criminal Investigations and
multiple raids for the questionable Controlled
Substance Abuses or Epidemics.
8. Following is the scientific and accurate Description
of “Epidemics of Legal Narcotics and Illegal
Narcotics” prevalent all across the United States of

App. 541

America and other countries within last many
decades or few centuries.
9. Giant Pharmaceutical Companies are
manufacturing and distributing Legal Narcotics
such as Oxycodone, Oxymorphone, Oxycontin, Norco,
Tylenol III & IV, Vicodin ES and other Narcotic Pain
Killers that are Legal Narcotics per the FDA, DEA,
FBI and the Police Department. These so-called
Legal Narcotics are sanctioned and approved by the
State and Federal Law System across the country
and abroad. The wealthy and powerful
Pharmaceutical companies have super-excellent
Network for Manufacturing, Dispensing and
Advertising the Narcotics and Non-narcotics pills all
over this country and abroad.
10. Illegal Narcotics such as Heroin. Cocaine.
Marijuana, LSD. Ecstasies and Mushrooms are
Street Drugs manufactured and sold by the Drugs

App. 542

Lords in Mexico, Central and South America,
Afghanistan and Pakistan as well as other locations.
These are the examples of Illegal Narcotics and Pain
Killers available in streets of most of cities of the
United States of America and other countries. Also,
the Legal Narcotics or pain Killers are sold by
Drug Lords and Drug Traffickers all over the USA,
Europe and other countries.
11. So, the Legal Narcotics or Legal Pain Killers are
manufactured by the Giant and wealthy
Pharmaceutical Companies that are sanction and
approved by DEA, FDA, FBI, Police Department
with GREEN LIGHT from the State and Federal
Law System. Legal Narcotics and Pain Killers have
multi-billion dollars business that is conducted by
the giant Pharmaceutical companies and authorized
by the Government Agencies and Law Enforcement
Departments.

App. 543

12. It has been observed and researched that the High
Percentages of Patients evaluated at the Pain Clinics
are Genuine Chronic Patients all across the
United States and other countries. It has been
estimated and experience of hundreds of Pain Clinic
Specialists that high percentages (Up to 90 to 95 %)
of patients seen at the Pain Clinics are Genuine
Patients with Chronic Pain suffering from the
variety of reasons.
13. However, very small percentages (Up to 5% or
more) of Patients are Fake Patients able to
Sneaking-in at the hundreds of Pain Clinics for their
“Private Business” across the United States of
America. Every pain clinic specialist and pain clinic
administrator know well that DEA, FBI, Police
Department and Law Department do not like this
kind of the Private Business or Illegal Business by
the Drug Lords and Drug Traffickers in our country
and other countries.
App. 544

14. DEA, FDA, FBI, AMA and Police Department as
well as the State and Federal Law System are well
aware of the above-mentioned Disputable &
Debatable Statistics of the Pain Clinics for a long
time.
15. Legal Narcotics Business by the giant and
wealthy Pharmaceutical Companies and Illegal
Narcotic Business by the Drug Lords and Drug
Traffickers of America, Europe and Asia are Multi­
factorial and complex subject matter. This kind of
Legal Business or Illegal Business is highly
influenced by the Cultural, Religious and Political as
well financial factors in the USA, Europe, Middleeastern countries, Asia and other countries.
16. Classification and Causes of Chronic Pain:
L Classification of Pain Management can be
described as follow.

App. 545

•

A. Physical Pain

•

B. Mental Pain

•

C. Spiritual Pain

II. Causes of Chronic/Acute Pain can be summarized
as follow.
•

Gun Violence is one of the greatest causes of
Chronic Pain in USA and other countries of
this small globe

•

Auto-accidents are second most cause for the

Chronic/Acute Pain
•

Falls at Construction/Roofing arena are
another leading cause of Chronic and Acute
Pain

•

Physical and Mental violence/assaults are

formidable causes for the Chronic Pain
•

Chronic Physical conditions such as Chronic
DJD, Sciatica, Cancers, Strokes, multiple
Surgeries & multiple fractures and other

App. 546

medical and psychological conditions as
described in the Medical Text Books.
•

Spiritual Pain is also a Chronic Pain condition
that has been well ignored by the Modern
mankind all over this small globe.

•

The above-mentioned are the Classification
and Causes of Chronic/Acute Pain well
confronted by the Pain Clinic Specialists at
hundreds of Pain Clinics in the United States
of America and other countries.

17. Addiction Psychiatry and Classification of
Addictions:
Addiction Psychiatry is the important branch of
Psychiatry. However, we have to take a serious note
that the Fundamental Principles of Psychiatry and
Psychology are much disorganized, superficial and
craziest concepts known to every Psychiatrist,
Psychologists, Neurologists and other physicians as

App. 547

well as to the Modern Health professionals and
workers for a long time.
Unfortunately, Psychiatrists and Psychologists
are unable to define and describe accurately about
the Normal Behaviors and Abnormal Behaviors of
mankind. Also, the Mental Professionals have
extremely hard time to define scientifically the
subjective symptoms of the Hallucination, Delusions
and Functionality and other Symptomatology
described in Text Books of Psychiatry and
Psychology within past few centuries.

FDA, DEA, FBI, Police & Prison Departments as
well as Modern Law Practitioners and physicians
and modern mankind are kept in dark or unaware of
the Classification of Addictions. If Psychiatrists and
Psychologists are themselves ignorant and unaware
of the description of Classification of Addictions.
App. 548

then, they will never be able to teach or explain other
Professionals about this great topic.
As a result, the Law Enforcement Agencies and
Modern Law Practitioners are also ignorant and
unaware of the superb Classification of Addictions
for a long time.
Obviously, the Malignant Effects of Psychiatry
and Psychology is pervading and destroying the
Modern Education System that includes Modern Law
System, Modern Science and Modern Internet
Technology in the Western and Eastern Hemispheres
of our small globe. This essential point is nicely
described in my article titled as “Higher
Dimensions” and 10 plus petitions submitted to
three Federal Courts in New York and to the
Supreme Court of the Unites States during 2012 to
2015.

App. 549

Following is the glimpses and the super-scientific
Classification of Addictions that will clarify this
truth in nutshell.
1. Addiction to Intoxication habits (Addiction with
Legal Drugs & Illegal Drugs)
2. Addiction to Meat-eating habits
3. Addiction to Gambling habits
4. Addiction to Illicit Sex habits
The above-mentioned Classification is the superscientific and broad-based description of Variety of
Addictions prevalent within the Modern and
Ancient Civilizations in our small globe. Psychiatry
and Psychology only pay attention and aware of the
Addiction to the Legal Drugs and Illegal Drugs
manufactured by the giant and super-rich
Pharmaceutical Companies and Drug Lords &
Traffickers in USA, Mexico, South & Central

App. 550

America as well as in Afghanistan, Pakistan and
other countries of our small planet.
Psychiatrists and Psychologists are simply
ignoring and blocking their vision to the variety of
Addictions caused by indiscriminate Sex Indulgence,
Indiscriminate Meat-eating habits and Gambling
Habits of mankind in our small globe. FDA, DEA,
Police & Prison Department and Modern Law
Practitioners as well as Meat, Wine, Gambling and
Pornographic Industries totally ignore and suppress
this kind of Addictions with the Modern Civilization
all over this world right now.
The Multi-billion dollars Legal Narcotic Business
by the giant and rich Pharmaceutical Companies is
consider as Legal Narcotic Business by FDA,
DEA, FBI and Police & Prison Departments with
blessings of Modern Law System. However, the
multi-billions of dollars Business by Drug Lords and

App. 551

Drug Traffickers is considered as the Illegal
Narcotic Business by the Law Enforcing Agencies
as described in this paragraph.
In other words, Business by the giant
Pharmaceutical Companies is considered as the
Legal Narcotics Business. The business by the Drug
Lords and Drug Traffickers is considered as the
Criminal or Illegal Narcotics Business. This kind of
attitude is nothing but a Double Standard and
Hypocrisy in our modern society.
In nutshell & Higher Dimensions with
Addiction Psychiatry:
The multi-billion dollars Legal Drug Business
and Illegal Drug Business is the greatest reason
and precursors for the Addictions secondary to
Intoxication Habit all around the world. Also,
indiscriminate Meat-eating, Gambling and Sex
Indulgence habits are Cardinal Addictions present
App. 552

within our modern or ancient mankind of this small
planet. This is an excellent description and the
Fundamental Principles of Addiction Psychiatry
for Higher Dimensions & Research per the Vedic
Wisdom.
So, DEA and other Law Enforcement agencies are
unable to differentiate subtle demarcations between
the Civil Infarctions and Criminal Infarctions within
Controlled Substance Drugs Uses and Abuses right
now.
Addiction Psychiatry must accent and admit that
Indiscriminate Meat-eating. Indiscriminate
Intoxication. Indiscriminate Gambling and
Indiscriminate Sex Indulgence are the Four
Cardinal Sinful Addictions with the Physical
and Psychological Dependence within the Modern
or Ancient Civilization in our small planet.
Unfortunately, Psychiatrists and Psychologists as

App. 553

well as Scientists, Law Practitioners and Scholars
are extremely reluctant to accept this sublime truth
secondary to their multi-factorial reasons such as
Religion, Nationality, Cultural, Racial and Financial
affiliations in our small globe. Blissful Vedic Wisdom
will help everyone.
18. Prevention and Remedy of the Epidemics of
Legal & Illegal Narcotics:
The Narcotic Epidemics subject matter is the
Highest Priority by the Law Enforcement agencies
such as FDA, DEA, Police Department, FBI and
Prison Departments with strong support by the
County, State and Federal Law Departments in the
USA, Europe, Africa, Middle-eastern countries and
Asia including India, China and Japan etc in our
small globe.
19. Remedy and Prevention of the Epidemics of
Legal & Illegal Pain Killers or Narcotics:
App. 554

This topic is definitively an International and
National Topic all over this small planet that
requires support and active participation of
Presidents, Prime Ministers and Executive Heads of
Law Enforcement Agencies of every country of this
small globe.
Following are the scientific and practical suggestions
for the Prevention of Narcotic Abuse and Epidemics
at Individual and Collective Levels:
•

All Legal Narcotics or Controlled Substances

Drugs such as Oxycodone, Oxymorphone, Norco,
Tylenol III & IV, Oxycontin, Roxycodone, Vicodin
ES and Morphine etc to be declared as Over the
Counter or PTC Pain pills. This step will be an
excellent Remedy and Solution for the Narcotic
Epidemics in USA and other countries.
•

Another remedy and prevention for Controlled

Substance Abuses of Narcotics with High Street

App. 555

Value such as Oxycodone, Oxymorphone, Norco
and Xanax etc is the Complete Ban for
Manufacturing and Dispensing by giant
Pharmaceutical Companies keeping them out of
the Market by the Local, State and Federal
Governments in USA, Canada and other
countries. This is a great suggestion.
• All Illegal Narcotics such as Heroin, Cocaine,
Marijuana etc also to be declared as Recreational
Drugs available as the OTC pills or powders. FDA
has already declared Alcohol, Marijuana, and
Tobacco, Meats, Gambling and other drugs as
Recreational Drugs or Recreational Activities for
a long time.
• DEA, FBI, FDA, Police Department and State
& Federal Law Departments are formidable
forces that can conduct multiple raids with
allegation of Criminal or Illegal Activities by

App. 556

hundreds of Pain Clinics across the country for a
long time.
•

Conducting Criminal Investigation and

Seizing Monetary Wealth from Pain Clinic
Specialists, Pain Clinic Managers and staffs are
unwarranted measurements and horrible abuse of
the Administrative Power by the DEA, FBI, FDA,
Police Department and State and Federal Law
System.
•

Just punishing Pain Clinic Specialists and

hundreds of Pain Clinics Managers around the
country is not the “Remedy or Solution for
Narcotic Abuse Epidemics” prevalent in USA,
Europe and other countries of this small globe.
•

DEA, FBI, Police Department, State and

Federal Law System are unable to differentiate
subtle demarcation between the “Criminal
Infarction and Civil Infarction” past few
centuries. This is a reality and sublime fact.
App. 557

•

Also, I humbly believe that Federal & State

Law Practitioners; DEA, FBI, FDA and Police
Department personnel and Agents are
surprisingly unaware or Ignorant of the “Science
of Rasa or Science of Relationships and
Exchange of Six Opulence” topics in USA,
Europe and other countries.
•

Science of Rasa or Science of Relationships

and Exchange of Six Opulence (Wealth, Beauty,
Fame, Knowledge, Power and Renunciation) are
wonderful and extremely essential Topics need to
be properly understood by the Modern
Intellectual, Administrative, Business and
General Labor Classes of Modern Mankind in
USA, Europe, India and other places right now.
•

Science of Rasa or Science of Relationships

and Exchange of Six Opulence topics are
beautifully described in my 15 Legal Briefs or
Legal Petitions and 30 articles forwarded to three
App. 558

Federal Courts and the Supreme Court of the
United States by this humble self Dr. Atul C.
Shah, MD within last seven years through my
historic and unprecedented Civil Case from 2008
to present.
•

Please review attached copy of my historic and

unprecedented Civil Case Number 14-830 at the
Supreme Court of the United State in
Washington DC dated April 09, 2015 for the
detail. Please browse through this case anytime.
•

I will be happy to share the abovementioned

Research and Extraordinary topics for the
betterment of Modern mankind right now and
anytime.
•

I am planning to submit “Petition for an

Extraordinary Writ” with description of abovementioned Topics per the Vedic Wisdom of India
to the Supreme Court of the United States pretty
soon in 2016 calendar year or later dates.
App. 559

•

I am sincerely studying the blissful Vedic

Wisdom of India past more than 40 years in USA
and India. I consider myself as the Vedic Scholars
and I will be happy to share the ultimate body of
Vedic literature: the Supreme Science with
everyone and anytime right now for the
betterment of the modern mankind.

20. Training and Education of the Legal
Enforcement Agencies such as PEA
Investigators. FBI Agents. FDA. SSA. AMA &
DPS personnel as well as Police & Prison
Officers. Psychiatrists & Psychologists and
Modern Law Practitioners:
•

Training of DEA Investigators, Police Officers,

FBI Agents, Modern Law Practitioners and
Psychiatrists & Psychologists in the “Science of
Rasa or Science of Relationship & Exchange of
Six Opulence fWealth. Fame. Knowledge. Beauty.
App. 560

Strength & Renunciation')” as well as many topics
from the Vedic Wisdom of India that is extremely
essential right now for the betterment of modern
mankind.
•

In absence of the Training and Education per

the blissful Vedic Wisdom for the Intellectual
Class, Administrative Class, Business Class and
General Labor Class of the Modern Mankind, we
will never achieve any Peace and Harmony in
our human society in our small globe. The blissful
Vedic wisdom with help everyone.
•

I will be happy to share the Vedic Wisdom of

India as the Research Medical Director at
DEA, Police Department, FBI Agency, FDA and
any State and Federal Agencies right now for the
betterment of the Modern Mankind in USA,
Europe, Africa and Asia including India, China
and Japan and other countries in this small globe.

App. 561

•

I have a great desire and qualifications to

work as Research Medical Director or any
position as Physician and erudite Vedic Scholar
for five years from now helping the Modern
Mankind for the Global Prosperity, Global Peace
and Global Enlightenments in this small globe.
•

I greatly admire the American Spirit -

Relentless Pursuit to realize the Truth or
Absolute Truth. Let all of us continue to
revitalize the great American Spirit for the
betterment of Modern mankind together in
democratic spirit and with open mind right now
for everyone and by anyone.
•

I have excellent Research, Academic and

Clinical qualifications with 35 years of
experiences as practicing Physician and erudite
Vedic Scholar for offering my service as the
Research Medical Director with any Medical,
Research and Government organizations in
App. 562

Michigan area and other research facilities in
USA as well as abroad.

The above-mentioned 20 Power Points are just the
glimpse and my humble observation of Narcotics
Epidemics with urgent need for Prevention and
Research in our country and abroad in our small globe.

This is my personal opinion and information for the
research purpose. I am the sole responsible for the contents
of this information. I will be happy to provide further detail
information per request anytime.

Thank you very much for your time and consideration.

Sincerely,

App. 563

Atul C. Shah, MD
General Practitioner & Psychiatrist
2884 Manorwood Drive
Troy, Michigan

Cell Phone: 248-835-5025

Note: Originally this article was completed on September
4. 2015 with minor corrections and updates. Also, this
article was forwarded to my attorneys for their
information. Also, this power-point letter was
forwarded to the Obama-Biden Administration
Presidential Appointment for the Research Medical
Director position during October 2015.

App. 564

APPENDIX Q

Appendix Q: This is the “Subject Statement and
Dispute Status” recorded with the National Practitioner
Data Bank dated September 6, 2017. This Subject
Statement and Dispute Status validate and prove Non­
existence of my Administrative Complaint Case No.: 53-16140855 filed by the Bureau of Professional Licensing Board
from 9/6/2017. There is no existence of the “State of
Micigan” in the Map of the United States of America. I am
awaiting the verdict of the Supreme Court of the United
States in this Petition for an Extraordinary Writ. I strongly
believe that by the grace and will of the Providence, this
case has been dismissed on 9/6/2017 and Non-existent
forever.

Pages for Appendix Q are from App. 565 to App. 576

App. 565

Subject Statement and Dispute Status of NPDB

9/6/2017

Report Response Options
Signed out
National Practitioner Data Bank
NPDB

Report Response Options

A report has been filed on you. You can view the report
using the link below. For more help using the Report
Response Service, please see Responding to Reports.
View the report
Add, modify, or withdraw a statement or dispute to this
report
Update your password, email options, or mailing address
Date

Activity History
App. 566

08/21/2017 Your subject statement has been reviewed and
added to your report. It contained personal
identifying information and has been redacted.
You may review your statement and modify it
at anytime.
The reporting entity will receive a copy of the
report with your redacted subject statement.
Entities that submit queries on you will be
able to view your redacted subject statement
as part of the report. Entities that have
queried on your and received this report in the
past three years will also receive a copy of the
updated report.

08/21/2017

The Data Bank has received your subject
statement. The Data Bank reviews all subject
statements to determine whether they include
individual names, addresses, or telephone
App. 567

numbers. If this information is discovered, it
will be removed and your will be sent an
amended version. You will receive notification
once the review is complete.

08/21/2017

The Data Bank has received your subject
statement. The Data Bank reviews all subject
statements to determine whether they include
individual names, addresses, or telephone
numbers. If this information is discovered, it
will be removed and your will be sent an
amended version. You will receive notification
once the review is complete.

06/30/2017

STATE OF MICHIGAN/BPL has submitted a
report to the Data Bank

App. 568

DCN: 5500000125179247
Date of Action: 06/14/2017

1/1

9/6/2017

Subject Statement and Dispute Status
Signed out
National Practitioner Data Bank
NPDB

SUBJECT STATEMENT AND DISPUTE STATUS

Note: you have submitted your Subject Statement
and/or Dispute information for the referenced
report for processing.

1. Your Subject Statement is displayed below for your
review. Your Subject Statement will be
App. 569

reviewed by the

Data Bank to ensure it does not contain individual names,
addresses, or telephone numbers. If this information is
discovered, it will be removed and an amended copy of your
report will be sent to you via U.S. mail. You will receive a
secure message when your statement has been reviewed
and added to the report.
The purpose of submitting Subject Statement is the
Higher Dimensions with the Modern Education
System that includes Modern Law System, Modern
Science and Modern Internet Science. A. Examples
of the Misinterpretation of the Public Health Codes:
1. There was no violation of the Public Health Codes
by surrendering my DEA License to DEA agents on
8/18/2015. 2. The DEA Investigators demanded
surrendering of the DEA license from 4 to 6
physicians. Two physicians including me voluntarily
surrendered the DEA license and other physicians
refused to surrender their DEA license on 8/18/2015.

App. 570

3. DEA agents told me by surrendering DEA license, I
will not be able to prescribe Controlled Substance
Drugs but be able to practice medicine as
Psychiatrist and General practitioner. They told me
after surrendering DEA license there will not be
further Administrative Actions or criminal
investigations. Please refer the 8-page Report of
Investigation dated 8/19/2015. 4.1 have evaluated
approximately 131,250 (15 patients per day x 250
days in year x 35 years of practice) in my 35 plus
years of practice of medicine. Also, I have prescribed
millions of Non-controlled substance medications
and Controlled Substance medications in 35 plus
years of practice in Michigan and in India. 5.1 have
no choice but surrendering my DEA license due to
the relentless pressure by the DEA agents &
allegations, Board of Pharmacy and by the reporting
agency the Bureau of Professional Licensing. 6.
There are no judicial, medical and ethical reasons
App. 571

for denial of the authenticity of pain management
rendered by me (Atul C. Shah, MD) and thousands of
pain clinic specialists all over the USA. 7. The Drug
Monitoring Section of BPL have had proposed
$10,000 that was reduced to $ 6000.00 and finally to $
500.00 for the settlement of this case. I consider that
$ 500.00 is the Reduced Administrative Fee for the
Administrative Complaint number 53-16-140855 and
not a fine or a penalty. B. Examples of the Erroneous
information provided by the reporting agency BPL
to the NPDB: JL Subject Identification Section
reports erroneous information of the home address.
Please take a note that 8033 E 10 Mile Road, suite
105, Center Line; MI 48015 is my clinic address and
not my home address. My home address is 2884
Manorwood Drive, Troy, MI 48085. 2. The second
error is about the Specialty information as
UNSPECIFIED by reporting agency BPL. I am
practicing medicine as Psychiatrist and General
App. 572

Practitioner in Michigan since 1994 to present. 3.
Please verify the specialty information that has been
reported to AMA, MSMS and WCMS from 1993 to
present. 4. Reporting my Specialty as
“UNSPECIFIED” is the best example of erroneous
information by the BPL. 5. There is a third error in
Section C - Information Reported as State of
Micigan/BPL. There is no existence of State of
Micigan. 6. So, the errors by the bureaucratic
government entities BPL, Board of Pharmacy, DEA
and other departments are considered as Human
Errors or Typographical Errors. 7. However, the
errors by ordinary persons like Dr. Atul C. Shah, MD
and thousands of American citizens are subject to
the DEA Investigations & Allegations, Administrative
Complaints, Forfeitures, Penalties and revocations of
Licenses with the Civil or Criminal charges and
investigations. To Err is Human applies to the rich
and famous entities and persons only! 8. Summary:
App. 573

Surrendering of my DEA License is not a violation of
the Public Health Codes and $ 500.00 is the reduced
administrative fee and not the fine or penalty. 9.1
would like to mention that there is not a slightest
intention of defiance; blaspheme, defamation or
contempt of the court now, in the past or in the
future. 10.1 have not taken any help from the Law
Practitioners for submission of this Subject
Statement and with this case. I am planning to add
this incident in my “Petition for an Extraordinary
Writ” to the Supreme Court of the United States.
2. Your profile will be updated to reflect the addresses
below. However, you should be aware that this does not
change your mailing address as reflected in the report filed
with the Data Bank.

Email Addresses:
Home Address:

atul99krishna@yahoo.com
2884 Manorwood Dr
App. 574

City, State, Zip: Troy, MI 48085-1145
Country:

1/2
Work Address:

8033 E 10 Mile Rd Ste 105

City, State, Zip: Center Line, MI 48015-1454
Country:
3. Click the View Report link below to view a PDF version
of the report that you can save for your records. No other
copy of the report will be sent to you, but you will be notify
when your statement has been reviewed and is added to the
report. The updated report containing your new Subject
Statement and/or Dispute Information will be sent to the
reporting entity identified in the Section A of the report and
all entities who have received the report within the past
three years.

App. 575

APPENDIX R

Appendix R: This blissful challenge letter is requesting to
the Prime Minister of India Shri Narendra Modi and
President Donald Trump to encourage and challenge
the Geniuses and Wizards of the Modern Internet
Technology Companies such as Microsoft, Google,
Yahoo, AOL and Apple for the revelation of the
Fundamental Principles of the Internet Technology
to General Public and to the Supreme Court of the
United States for the comparative study dated April
22, 2017.1 am happy to reveal this topic per the
Vedic Wisdom of India anytime.
Pages for Appendix R are from App. 577 to 581

App. 577

Blissful Challenge Article:
Interactive Internet Dialog with the Vedic Web Sites
Blissful and the Krishna Conscious 10th Anniversary
Of
VedicLiteraturetheSupremeScience Web site
&

Transcendental Challenge with Reward

Vedic Literature: the Supreme Science declares
again the Ten Million Dollars Award to any Modern
Scholar who may be able to describe scientifically the
Fundamental Principles of Internet and Computer Science
Mystery. The text books of the Internet Technology are
describing only the Working Concepts. However, the
Internet text books are incapable to describe the
Fundamental Principles.

App. 578

Christian and Muslim Scholars must study the Vedic
Wisdom first, then and then, they will be able to win this
challenge and reward. Even the scholars of Buddhism,
Judaism, Jainism, Sikhism and Hinduism must refresh and
study the Fundamental Principles of the blissful Vedic
Wisdom to win this contest.

Transcendental debate in the democratic spirit is
extremely essential for survival of the mankind now. The
blissful Vedic Wisdom can unlock super-scientifically and
easily the Internet Mystery right now.

Prime Minister Narendra Modi and President
Donald Trump must encourage and challenge the Modern
Pundits from Bangalore Silicone Valiev and San Jose
Silicone Valley for revelation of the Fundamental Principles
of Internet Technology. Anyone can join this wonderful
contest and challenge.
App. 579

Chairmen and CEOs of the fabulously wealthy
Internet companies must offer the Ten Million dollar
reward to at least 101 winners of this prestigious contest
of this small globe. This is a hot topic of the century!

Atheism. Immorality and Terrorism is taking their
Final Breathes right now. Atheism. Immorality and
Terrorism is the last snares of Maya-devi — the most
powerful Illusionary Energy of the Supreme Lord.

Let all of us say Goodbye to the Atheism.
Immorality and Terrorism forever during the Golden Age of
the Global Prosperity, Global Peace and Global
Enlightenment of seven plus billions of the Modern
Mankind.

App. 580

Strong and ever-lasting unity within the
followers of Hinduism/Sanatana Pharma is Vital and the
Panacea for the Global Unity in Diversity with end of the
Atheism. Immorality and Terrorism in our small globe

The famous Quote of Mahatma Gandhi - the Apostle of
Ahimsa or Non-violence:
First you will be ignored. second you will be ridiculed and
third you win.
In the Krishna Consciousness everyone is the Winner.
Please click on articles as the Attachment
By
Atul C. Shah, MD
Troy, Michigan, USA
April 22, 2017

App. 581

APPENDIX S

Appendix S: This EEOC Complaint letter was filed on
August 23, 1990 describing dismissing me (Atul C.
Shah, MD) from the Psychiatric Residency Training
Program in the Wayne State University in Detroit in
Michigan in July 10. 1990 based upon my Hindu
Religion and Hindu Religious Belief. I was dismissed
as Resident Physician four times from three
Residency Training Programs in a short period from
1988 to 1994 in the state of Michigan. I reported
these horrible abuses to the Congressman Sander M.
Levin and Senator Doug Cruce from Michigan and to
the American Medical Association, MSMS and
WCMS in 1990 to 1994.1 was granted Medical
License in 1993 and I am practicing Medicine from
1993 to present.
Pages for Appendix S are from App. 582 to 589

App. 582

CHARGE OF DISCRIMINATION
This form is affected by the Privacy Act of 1974; see Privacy
Act Statement on reverse before completing this form

ENTER CHARGE NUMBER
□

FEPA

□X

EEOC

MICHIGAN DEPARTMENT OF CIVIL RIGHTS
NAME (Indicate Mr., Ms., or Mrs.)

Home Telephone NO
(include Area Code)

Atul C. Shah, M.D.

(313) 453-7333

STREET ADDRESS

CITY, STATE AND ZIP CODE

1543 W. 13 Mile Road

Royal Oak, Michigan 48073

COUNTY

Oakland

NAMED IS THE EMPLOYER, LABOR ORGANIZATION,
EMPLOYMENT AGENCY, APPRENTICESHIP
COMMITTEE, STATE OR LOCAL GOVERNMENT

App. 583

AGENCY WHO DISCRIMINATED AGAINST ME (If more
than one list below)
NAME

No. OF EMPLOYEE/MEMBERS

TELEPHONE NUMBER (include Area Code)
Lafayette Clinic

15 +

STREET ADDRESS

CITY, STATE AND ZIP CODE

951 E. Lafayette

Detroit, Michigan 48207

NAME

(313) 256-9416

TELEPHONE NUMBER (include Area Code)

STREET ADDRESS

CITY, STATE AND ZIP CODE

CAUSE OF DISCRIMINATION BASED ON
(Check appropriate box(es)) - Hinduism
□ RACE

□ COLOR

□ SEX

□X RELIGION

□ NATIONAL ORIGIN
□ AGE

□ RETALIATION

(Specify)

App. 584

□ OTHER

DATE MOST RECENT OR CONTINUING
DISCRIMINATION TOOK PLACE
(Month, day, year)
July 10, 1990
THE PARTICULARS ARE (if additional space is needed,
attached extra sheet(s)):
I interviewed for a residency position in April, 1990; and
was accepted into the program in May, 1990. On June 28,
1990, the program director was made fully aware of my
letters of interest, which he told me was magical thinking. I
am from India, who practices Hinduism. The letter of
interest made reference to some of my religious beliefs.
On July 10, 1990,1 was discontinued/dismissed from the
program, allegedly due to licensing problems.

I believe that my religion, Hinduism, was the main factor in
my being discontinued/discharged from the program.
App. 585

Seal
Received Aug 23, 1990
EEOC DETROIT DISTRICT OFFICE

□ I also want this charge filed with the EEOC.
I will advise the agencies if I change my address or
telephone number and I will cooperate with them in the
processing of my charge with their procedures.

NOTARY - (When necessary to meet States and Local
Requirements)
I swear or affirm that I have read the above charge and
that it is true to the best of my knowledge, information and
belief.
I declare under penalty of perjury that the foregoing is true
and correct.
Signed by: Atul C. Shah

App. 586

Date 8-23-1990

Charging Party (Signature): ineligible

SIGNATURE OF COMPLAINANT
Signed by: Atul C. Shah

SUBSCRIBED AND SWORN TO BEFORE ME THIS
DATE
(Day, month, and year)
23/08/90 (signature of officer)
EEOC FORM 5 MAR 84

PREVIOUS EDITIONS OF

THIS FORM ARE OBSOLETE AND MUST NOT BE USED
FILE COPY

PRIVACY ACT STATEMENT NOT INCLUDED WITH
THIS DOCUMENT

App. 587

Hand-written Letter by Atul C. Shah, MD for Withdrawing
The EEOC Complaint# 230-90-1100 dated August 27,
1990.

Atul C. Shah, MD
1534 W 13 Mile Road
Royal Oak, MI 48073
313-435-7333
Seal
Received Aug 27, 1990
EEOC DETROIT DISTRICT OFFICE
EEOC
477 Michigan Avenue
Detroit, MI 48226
313-226-7636

App. 588

Ref: EEOC # 230-90-1100.
Dear Sir:
I would like to withdraw the charge # 230-90-1100 as I filed
on 8/23/1990 considering my present situation at the
Lafayette Clinic. I understand that I may file my charge on
same issue within 300 days from 7/10/90.

I thank you very much.

Sincerely,

Signature: Atul C. Shah, MD
Atul C. Shah, MD
August 27, 1990

App. 589

APPENDIX T
Appendix T: This “Letter of Interest” was written
during 1993 describing the reason for my selection of
Psychiatric Residency Training Program in the
Wayne State University in Detroit in Michigan. This
letter of Interest is describing my Hindu Religion
and Hindu Religious Beliefs that was considered as
the magical thinking by the Psychiatric Residency
Program Directors. I was dismissed TWICE from the
same Psychiatric Residency Training Program in
July 1990 and October 1994 for expressing my
opinion that Psychiatry and Psychology are
disorganized and fallible and are in need of the
Higher Dimensions per the Vedic Literature of India.
These were a violation of my First Constitutional
Amendment of the freedom of Religion.
Pages for Appendix T are from App. 590 to 623

App. 590

ATUL C. SHAH, M.D.

RESIDENT IN
PSYCHIATRY

1534 W. 13 MILE

WAYNE STATE
UNIVERSITY

ROYAL OAK, MI 48073

DETROIT, MI 48228

RES: (313) 435-7333

BUS: (313) 745-5154

LETTER OF INTEREST
THE REASON FOR SELECTION OF PSYCHIATRY
RESIDENCY PROGRAM:

I. Introduction:
Modern Science and Knowledge:
Presently, our modern science has achieved a
marvelous achievement in acquiring a substantial
knowledge in understanding the laws of nature; in
physics, chemistry and various fields of Bio-Medical
Science including psychiatry and psychology. With
the advent of the modern instruments the process of
App. 591

acquiring knowledge, at gross and subtle levels,
became easier and sophisticated. These modern
instruments can be called the extended senses
because the modern instruments always depend on
the nature senses. There are five natural senses eye,
ears, nostrils, tongue and skin with their respective
sense objects sound, touch, form, taste and smell.
These five sense objects sound, touch, form, taste and
smell remain constant for both the natural and
extended senses. The extended senses or modern
instruments based upon the sense object sound are
ultrasound, echo, MRI etc. The sensors and scanners
are based upon the sense object touch. The
microscope, telescope, camera, television,
colorimeters, imaging studies etc are based upon the
sense object form (image or color). The remaining two
sense objects taste and smell has rudimentary
application in the modern instruments. The PHmeters and Blood gas analyzers are based upon the
App. 592

sense object taste and probably smell. Similarly, any
Modern Instrument can be classified according to the
sense objects sound, touch, form, taste or smell.
The material energy such as light, electricity
and the nuclear energy such as electromagnetism,
radiation, etc act as a vehicle for transmission of
these five sense objects sound, touch, form, taste and
smell from one place to another. Therefore, the
transducers are the transmitter of the five sense
objects sound, touch, form, taste and smell with the
help of the material energy. Furthermore, the
modern instruments or extended senses are run by
the material energy as mentioned above. As a result,
their functioning process appears as an unanimated
or robots like activity. This is the difference between
a true consciousness and a robotic activity or the
animated and unanimated object.

App. 593

The mind is the reservoir of the processing
remembrances and forgetfulness (deletion). The
processing computers and its software are the
extended mind. The intelligence has a power of
discrimination in understanding the duality such as
heat-cold, soft-hard, negative-positive etc. The
analyzers are the extended intelligence as the
analyzers are primarily based upon the same
principle. Therefore, in the process of acquiring
knowledge, we are utilizing the natural and extended
senses, the mind and the intelligence.
In this interesting comparison between the
natural and man-made senses, the natural senses
are easy to use and train, beautiful, natural,
animated, perfect, discriminatory and highly
sophisticated. The extended senses or modern
instruments has universal application and are
readily producible; but are space occupier, difficult to
use and master, unanimated, less efficient,
App. 594

nondiscriminatory and expensive compared to the
natural senses. The purpose behind this introduction
is to high light the fundamental principles in our
modern science and possible higher dimensions in
them for the clinical and research applications,
especially in Medicine including Psychiatry.
II. The Medical Science and Human Ailments:
In our modern medicine, the radiology is a
prominent and super specialty field for the diagnostic
evaluations of the human ailments. In the Nuclear
Medicine many modern instruments are extensively
utilized such as SPECT, LFOV, Gamma Camera,
processing computers in various imaging studies for
the detection of the pathological processes. Presently,
with the modern instruments and imaging studies,
we are able to detect and identify primarily the
grossly advanced pathological processes. Therefore,
the role of the Nuclear Medicine/ Radiology is

App. 595

exclusively restricted for the diagnostic evaluation.
Therefore, the detection and identification of the
subtle pathological processes at atomic, molecular,
cellular and organ level, the application of the new
approaches with appropriate modification in the
fundamental principles in the modern science and
instruments are essential. The Nuclear Medicine has
tremendous potential for the early detection of the
subtle pathological processes at atomic, molecular,
cellular and at organ levels. As humble suggestions,
following are the new approaches which may help for
the early detection of the subtle pathological
processes at atomic, molecular, cellular and at organ
levels in the field of Medicine.
III. The Basic Principles Used in the Modern
Instruments:
The basic principles or the sense objects used
in the modern instruments are sound (echo, ultra

App. 596

sound, MRI), touch (sensors and scanners) and form
(imaging studies, microscope, and camera). These
modern instruments are run by the material energy
such as electricity, etc. This material energy is acting
as a vehicle for the transmission of the sense objects
sound, touch and form etc. to be sensed by the
sensors and scanners in the imaging studies. Also, in
the imaging studies the XYZ dimensional method is
extensively utilized for the acquisition of the image of
a selected object with the help of the processing
computers.
A. XYZ Dimensional Method Creates an Incomplete
Image:
The XYZ method is extensively applied in the
processing computers for the acquisition of an
image with impression that we live in three
dimensional world. Actually, we live in the ten­
dimensional world with the three phases of time

App. 597

as discussed below. In the processing computers,
the image of the selected object with the
application of three-dimensional method, appear
as a box or a cartoon image. The border of a
selected organ appears in a step-ladder fashion
such as the border of heart or lungs. This box
image or cartoon image is not a realistic image of
a selected organ. In XYZ method, X represents
time, Y represents distance and Z represent
intensity. These are three phases of time past,
present and future exhibited during the selected
time frame. So XYZ method represents three
phases of time and only three directions or
dimensions. The application of the ten­
dimensional method in the imaging studies will
provide accurate anatomical and structural
information of a selected object or an organ than
the three-dimensional method.

App. 598

B. The Ten-Dimensional method can create accurate
image:

In the ten-dimensional method the selected
object is measured and imaged in the ten
dimensions or directions east, west, north, south,
Northeast, Northwest, Southeast, Southwest,
Anterior and Posterior. The dimension and
direction are interchangeable. The application of
the ten-dimensional method in the imaging
studies in the processing computers will provide
accurate structural and anatomical impression or
image of the selected object. Theoretically, any
object can be measured in 360 dimensions or
directions. But the ten-dimensional method is
practical to apply and more informative than the
three-dimensional method. Also, the ten­
dimensional method can be applied for the
accurate identification of the subtle pathological

App. 599

processes at cellular, molecular and atomic levels
for early detection and prevention of the disease.
C. Direction and Dimension are interchangeable:
The pointing with one finger will indicate a
direction.
Similarly, pointing with all five fingers, the same
direction transforms into a dimension. The
difference between a direction and a dimension is
a single finger and multiple fingers or a
singularity and plurality. Therefore, three
dimensional methods utilized in current modern
instruments for the imaging studies are creating
a box or a cartoon image. The ten-dimensional
method used in the imaging studies will provide
accurate anatomical and structural information.

App. 600

D. Advantage of the Ten-Dimensional Method:
1. Accurate anatomical and structural
information for a selected object at gross or subtle
levels.
2. Elimination of a cartoon or a box or a stepladder image.
3. Three-dimensional method is already included.
4. Application of interchangeability in a direction
and dimension.
5. XYZ method represents three phases of time
and only three directions/dimensions.
6. Ten-dimensional method represents three
phases of time and ten directions/dimensions.
7. Identification of the subtle pathological
processes at atomic, molecular, cellular and organ
levels.
E. Disadvantages:
App. 601

1. Requires extensive calculations.
IV. The Observation of the Play of Time at Gross and
Subtle levels:
For the identification of the subtle patho­
physiological processes, the observation of the play of
time at gross and subtle level is essential. The
observation of the play of time can be understood and
observed as described below.
In our material universe, the eternal time is
the original architectural genius behind the
formation of the atoms and sub-atomic particles from
the unmanifested material energy; the formation of
the molecules from the atoms; the cell and cell
structures; the organogenesis, and ultimately a
marvelous human body equipped with five senses
with their respective sense objects; the mind and the
intelligence. Therefore, the measurement of the time
at gross and subtle levels can provide a higher
App. 602

dimension and insight in understanding the patho­
physiological processes at atomic, molecular, cellular
and organ levels in the field of medicine, including
Pathology as well as Psychiatry.
A. The Observation of the play of time at gross level:
The play of time measured at atomic,
molecular, cellular and organ levels is called the
play of time at the gross level. The measurement
of the interatomic distances and orbital space in
the ten dimensions; the intermolecular distances;
the diameters of the cells as well as the
measurements of the organs in centimeters and
millimeters are the examples of the play of time
at gross level. Anatomy, cytology and molecular
biology are the examples of the partial description
of the play of time at gross level.
Presently, the imaging studies based upon threedimensional method are not able to detect the
App. 603

subtle pathological processes at cellular,
molecular and atomic levels. Therefore, the
measurements of the interatomic distances in the
ten dimensions and the cell in the imaging
studies will provide the early detection of the
subtle pathological processes at cellular,
molecular and atomic levels.
B. The Observation of the play of time at the subtle
level:
The atoms are the distinct boundary between
the unmanifested material energy and the
manifested material energy such as earth, water,
fire, air and ether with their respective qualities.
The transformation of the material energy into
the subatomic particles and the atoms, and the
formation of the manifested material elements
ether, air, fire, water and earth, by the action of
time, in their chronological order from the sound

App. 604

vibration are the two examples of the play of time
at subtle level.
The formation of the five elements from the
sound in their chronological orders as described in
the following equation:

Cause

Qualities

Effect

Sound + E + T = Formation of Ether with Sound
Ether + E + T = Formation of Air with Sound and Touch
Air + E + T =

Formation of Fire with Sound, Touch
and Form

Fire + E + T =

Formation of Water with Sound, Touch,
Form and Taste

Water + E + T = Formation of Earth with Sound,
Touch, Form, Taste and Smell

E = Material Energy T = Action of Time

App. 605

The sound vibration is the original cause for
the formation of the five manifested material
elements earth, water, fire, air and ether with
their respective qualities, by the action of time, in
the chronological orders. Also, this process is
reversible in the similar fashion. These five subtle
physical qualities sound, touch, form, taste and
smell present in the five material elements are
sensed by the natural and extended senses
(modern instruments). This subtle play of time for
the formation of the five material elements with
their respective qualities is the revolutionary and
authoritative information from the Vedic
literature in our modern science for the clinical
and research applications in physics, chemistry
and medicine, especially in the field of Medicine
including Pathology as well as Psychology and
Psychiatry.

App. 606

In summary, by the application of the ten­
dimensional method in the imaging studies and
understanding the play of time at gross and
subtle levels will certainly help to understand the
subtle pathological processes, organogenesis and
the reversibility of the disease processes. With all
the respects for the present achievements in
science, following are the approaches for the
clinical and research applications in the field of
Medicine including Pathology as well as
Psychology and Psychiatry.
V. Clinical and Research Applications in the
Medicine:
A. The measurements at Atomic. Molecular and
Cellular Levels:
The atom is the basic unit in the cells.
Each atom is related to other atoms in the ten­
dimensional levels. The measurements of the
App. 607

interatomic distances in ten
direction/dimensions and orbital spaces of the
atoms are essential for the accurate
information about the formation of the
molecules and the genes; accurate anatomy of
the chromosomes; the cells structures; and
understanding the cellular aging process. As
an example, the interatomic distances in the
cell nucleus should be shorter and, in the
cytoplasm, should be longer, just as the
difference between a downtown and suburban
areas. In Karyorrhexis, there is dissolution of
the cell nucleus by increasing the interatomic
distances.
Clinical Applications:
1. Understanding cellular activities.
2. Understanding the cellular aging process.
B. Understanding the Process of Assembly:
App. 608

In human being after conception, the
unicellular embryo multiplies and transforms
into the trillion of cells. The organogenesis is
completed within six months and extra-uterine
life begins within the nine months. In process
of assembly, which includes organogenesis and
the Patho-physiological processes, I have made
an attempt to high light the fundamental
principles of the organogenesis. In this process
of assembly, the processor is the eternal time
also known as the Supersoul, the process is
the development of a new body and the
processing activities are the description of the
process.
1. The processor: The eternal time (also
known as the Super-Soul).

App. 609

2. The process: The development of a new
body (organogenesis and Patho­
physiological processes).
3. The description of Process of Assembly or
Organogenesis:
a. The formation of Five Material
Elements:
As described earlier since time
immemorial, the eternal time is responsible
for the formation of the five gross elements
earth, water, fire, air and ether with their
respective qualities sound, touch, form,
taste and smell.
b. The Mixed Material Elements:
The developed human body, with the
trillions of cells is a quantitative and
qualitative mixture of these five gross
elements and their five subtle qualities.
App. 610

Therefore, the hepatocytes, neurons,
sperms, ova and blood etc. are the
quantitative and qualitative mixture of the
above mentioned ten items. Therefore, each
cell in a body has a potential to create a
similar body only the most important
requirement is the knowledge of the
process.
c. The process of disintegration:
After conception, by the action of time,
the quantitative and qualitative mixture of
five gross and five subtle qualities present
in the sperm and ovum is dismantled and
disintegrated and these material elements
are transformed into their original and
unmixed states as earth, water, fire, air
and ether with their unmixed qualities
sound, touch, form, taste and smell.

App. 611

d. The formation of the original blue print:
By the action of time, the unmixed, and
original mixture of five gross elements and
their unmixed qualities derived from the
sperm and ovum are re-assembled and re­
mixed; quantitatively and qualitatively,
with the uncanny precision at atomic and
molecular levels. As a result, this
unicellular structure or the original blue
print is imprinted with the vital
information such as age, sex, and species,
physical and mental capabilities including
the future Patho-physiological processes,
known as the genetic information.
e. The process of assembly at cellular and
organ level:
The original blue print or unicellular
embryo multiples into two, four, eight and
App. 612

into millions of cells or blue prints. The
multiplications and assembly of the
trillions of cells into the various organs and
various systems occur because of the causes
and effects, and quantitative and
qualitative mixture of the five unmixed
gross elements and five unmixed subtle
material elements. Initially, the sperm and
ovum are the source of mixed ten material
elements and subsequently, the maternal
blood is the source of mixed ten material
elements. The five gross elements
transform into molecules, genes,
chromosomes, cell structures, cells and into
various organs. The subtle material
elements sound, touch, form, taste and
smell and their quantitative and
qualitative mixtures are acting as a lever
for the formation and assembly of the
App. 613

various organ systems and a body,
depending upon the species. The
interactions of the five subtle elements
sound, touch, form taste and smell are
known in our modern science as physico­
chemical properties such as PH, color
weight, thermodynamic laws, radiation,
electromagnetism, etc!
f.

The three stages of a human life in a

cycle:
The human being has three stages:
1. The stage of unmanifestation
2. The stage of manifestation
3. The stage of unmanifestation
The embryology, anatomy and pathology
are the partial description of the stage of
manifestations. Before conceptions and
App. 614

after death, are the stages of
unmanifestation. The Nuclear Medicine,
Pathology and Psychology have a great
potential in exploring all these three stages
of the human life.
Clinical Application:
1.

Identification of subtle pathological

process.
2.

Higher insight in Embryology.

3.

Higher insight in Psychology.
These are the fundamental principles in

Embryology or the process of assembly
which includes the organogenesis and
patho-physiological processes. In our
modern science, the cause and effect, and
multiple interactions between these ten
items are known with the different names.
The resultant combinations of five gross
App. 615

material elements earth, water, fire, air,
and ether are known as molecules, cells,
cell structures, genes, chromosomes and
organs, etc. The resultant combinations of
the subtle physical qualities sound, touch,
form, taste and smell present in the five
gross elements are sensed by the modern
instruments are known as PH, color,
image, weight, shape, thermodynamic law,
density, electromagnetism, radiation,
valences etc. Therefore, after careful
analytical conclusions, fundamental
principles in the modern science can be
reduced to the above mentioned ten items.
(Five gross and five subtle material
elements)
C. The Identification of Progression and
Reversibility of the Pathological Process:

App. 616

Presently, we are not able to identity
the subtle pathological processes at cellular,
molecular and atomic levels. The identification
of the subtle pathological process can help us
to inhibit and reverse the pathological process
as described below.
At the atomic level, there is no
difference between a pathological and a
physiological process. Both merge at the
atomic level. At the cellular level, they diverge
into a pathological or a physiological process.
The gross activities of an atom can be
calculated and measured in the ten­
dimensional levels; the cumulative activities of
the x number of the atoms in a cell can be a
pathological or physiological activity.
Therefore, at the atomic level physiological or
pathological processes are interchangeable by
the manipulation of interatomic distances in
App. 617

ten dimensional levels. At cellular and organ
levels the established pathological or
physiological processes are very difficult to
change.
The inhibition and reversibility of a
pathological process can be achieved by the
manipulation of the interatomic distances in
the ten-dimensional levels by the action of a
sound vibration. As discussed earlier, the
sound itself is the original stimulant, by the
action of time, for the formation of five
material elements ether, air, fire, water and
earth in their chronological order. Therefore,
the physical quality sound is present in all
mixed and unmixed material elements. The
modern instruments MRI, echo and
ultrasound are based upon this principle. The
variable density is sensed by the sensors and
imaged in three dimensions by the processing
App. 618

computer for the diagnostic evaluations. The
transducers are the mere transmitters of the
sound with the help of material energy
concentrated in the atoms. In medicine, same
instrument can be used for the inhibition and
reversibility of a pathological process by the
application of a proper sound vibration by the
manipulation of the interatomic distances and
cumulative activities of the cells.
The surgical resection is a process of
permanent irreversibility of a disease process.
The transplantation of the organ is a crude
process of inhibition of a disease process at
organ level. Immunization is a process of
inhibition and prevention of the disease
process at cellular and molecular levels. In
radiation therapy, there is an excessive and
destructive manipulation of the cumulative
activities of the atoms at cellular, molecular
App. 619

and atomic levels with many undesirable side
effects. Therefore, the most effective therapy
or method for the inhibition and prevention of
the pathological process is the application of a
proper sound vibration.
Clinical application: Early detection and
prevention of the Pathological and Mental
Disorder.

VI. Conclusion:
Pathology is considered as the foundation of the
modern medicine. Psychiatry and Psychology are the
foundation of mental illness in medicine. Presently the
research atmosphere in the pathology and Psychology
as well as Psychiatry is stagnant and stale for many
reasons. The basic principle used in pathology are
cutting, freezing, painting and observing the separated
specimen, solid or liquid, at higher magnification in a
App. 620

single dimension. Therefore, the manipulation of a
separated specimen with cutting, freezing, painting
procedures and magnification in a single dimension
will certainly alter the original and in-situ image.
Fortunately, in the Diagnostic Medicine, the same
principles can be applied with the ten-dimensional
method without separating the specimen from a live
body and it can be televised "live" and "in-situ" by the
modern instruments. Therefore, the application of the
methods and information with a research potential
should be welcome for the advancement in our science.
Presently, I have selected Psychiatry
Residency Program as my future career. The
knowledge in our Psychiatry and Psychology is
disorganized, superficial, relative, eccentric, more
quantitative and less qualitative in nature. The
primary reason behind this disorganized
understanding in Psychiatry and Psychology is due
to poor and imperfect understanding of the
App. 621

fundamental principles. Our modern biomedical
science is a wonderful science and our modern
science including Psychiatry and Psychology can be
made more wonderful and scientific with the help of
the Vedic literatures. I thank you very much for your
time and consideration.
End of the article

Note: This article “Letter of Interest” was written
during 1990 and modified during 1993 for a position
of Member-in-Training Trustee-Elect (MITTE) with
the American Psychiatric Association and forwarded
to Joseph T. English, MD Chair, APA Nominating
Committee. This article is describing the
Fundamental principles of the Bio-medical Science.
However, Robert Miller, MD Program Director of
Psychiatric Residency Training and Supervisors of
Wayne State University were unable to understand
App. 622

the Fundamental Principles of Modern Biomedical
Science describe in this superb letter of interest. He
refused to sign the Statement for MITTE Candidacy
at APA because of my Hindu Religion as well as
expressing my opinion that Psychiatry and
Psychology are disorganized, superficial, relative.
eccentric, more quantitative and less qualitative in
nature as mentioned in this “Letter of Interest”. I
was dismissed from the same Psychiatric Residency
Training Program SECOND TIME in October 31,
1994 in pretext of below average performance as a
psychiatric resident. I was dismissed from the same
Psychiatric Residency Training Program FIRST
TIME in July 1990 expressing my Hindu Beliefs and
being Hindu with violation of the First
Constitutional Amendment of the Freedom of
Religion.

App. 623

Facts and Discussion
1.

I am single handedly trying my best to stirring up

the Autocratic and Dictatorial Modern Educational System
for the Higher Dimensions with purpose of the Global
Prosperity, Global Peace and Global Enlightenment of the
Modern Mankind past thirty plus years after I lawfully
immigrated to the United States of America in 1982. India
and USA are two greatest democratic countries of this
small globe.
2.

It is my personal observation and experiences that

American Educational System is extremely Autocratic and
Dictatorial and un-democratic in nature within the Pretext
of advancement of the Modern Science and Modern
Technology past to two plus centuries.
3.

I tried my best as a Resident Physician in Detroit

area to stir up and fight with the Autocratic Modern
Educational System from 1988 to 1994 for the purpose of
providing the Higher Dimensions. Also, as Chairman of the
Resident Physician Section (RPS) of Michigan State
App. 624

Medical Society and Vice Chairman of RPS of Michigan
Psychiatric Association, I helped to pass the Resolutions
with the American Medical Association (AMA) titled as
“Prevention of the Abuses of Resident Physicians in the
Residency Training Programs” during 1993-94.
4.

I was dismissed four times from three Residency

Training Programs in a short time of 1988 to 1994 in
Metro-Detroit area based upon my Religion and Nationality
as mentioned in my EEOC Complaint# 230-90-1100 filed
on August 23, 1990 (Appendix S) and my Letter of Interest
written during 1993 (Appendix T). I reported these horrible
abuses to the Congressman Sander M. Levin and Senator
Doug Cruce of Michigan as well as to the American Medical
Association in 1990. There was an investigation conducted
by an Independent Law Firm from Detroit with no
justification of my dismissal from the Residency Training
Programs. I was granted the Michigan Medical License in
1993 and I am practicing medicine taking care of thousands
and thousands of patients with the Respect and Dignity to
App. 625

the present time. My determination became stronger and
stronger to fight back with the autocratic and dictatorial
Modern Educational System that destroys anyone telling
the truth that Modern Educational System is disorganized.
superficial and fallible in nature with essential need of the
Higher Dimensions per the Vedic Wisdom of India. This is
the excellent example of the discrimination based upon my
Religion and Nationality and violation of mv First
Amendment right that was ignored and skillfully covered
and put under the rug mentality by the Program Directors
and Chairmen of the Residency Training Programs in
Michigan, Dr. Stanley Miller, DO at GM, EEOC,
Presidents/Chairman of Medical Organizations and by the
modern court system from 1990 to present time.
5.

Also, I requested Five AMA Presidents, three APA

Presidents, Chairmen of MSMS as well as to the
Commissioners of Social Security Administration (SSA) and
Director of Disability Determination Services (DDS) in
Michigan for the Higher Dimensions with the Modern
App. 626

Science including the Bio-medical Science, Psychiatry and
Psychology from 1990 to 2015 and to present time.
6.

I forwarded article Titled as “Together we are

Stronger; the Integration of Modern Science and
Spiritual Science” to AMA President late Ronald M.
Davis, MD on January 2008 (Appendix L). He appreciated
this article and we had a personal meeting during August
2008 at Detroit Downtown for integration of the Vedic
Wisdom and the Modern Science with essential need of
research and Higher Dimensions.
7.

I tried my best to share the Vedic Wisdom and Vedic

Concepts with my medical colleagues at General Motors
Company during CME Conferences and GM Conferences
during 2000 to 2008. GM Corporate Medical Director Dr.
Joel Bender, MD and other colleagues were very
sympathetic for sharing of the Vedic Concepts at GM
Conferences. However, Dr. Stanly Miller, DO was unable to
understand or digest the fact of the Superiority of the Vedic
Concepts over the Modern Conventional Science including
App. 627

Biomedical Science and he unfairly dismissed me (Dr. Atul
C. Shah, MD) as Plant Physician on June 11, 2008. This is
the best example of discrimination based upon my “Religion
and Nationality” that triggered this historic and
unprecedented civil case with the Modern Court System for
a fair and equal justice from 2008 to present time.
8.

Modern Educational system including Modern Law

System and Modern Science & Medical Science and Modern
Internet Technology Science are deficient, disorganized and
fallible in nature due to lack of the blissful Vedic Wisdom.
The Fundamental Principles of the Science of Rasa or
Science of Relationships; Science of the Exchange of Six
Opulence; Description of the Perception, Lack of Perception
and Misperception; Subtle demarcation between Civil and
Criminal Infarctions; Law of Karma and Re-incarnation
and other superb topics are super-scientifically narrated
within the Vedic Literature: the Supreme Science from
India.

App. 628

9.

I have tried my best and I am trying my best past

three plus decades to share this ultimate body of Vedic
Wisdom to my Medical Colleagues at GM Conferences,
CME Conferences and several Medical Organizations such
as AMA, APA, MSMS, DDS and SSA as well as with three
Federal Courts and the giant Internet Companies in USA
and India and finally, with the US Supreme Court.
10.

I have had a nice email discussion about the

“Concealed and Sophisticated Administrative
Terrorism” with DDS Director Charles A. Jones, AMA
President Ardis Dee Hoven, MD, Associate Commissioner
David A. Weaver, PhD and Congressman Kerry Bentivolio
during the fall of 2013 as well as with the Chief Judge
Robert Katzmann at United States Court of Appeals for the
Second Circuit in 2014 with the lukewarm interest from
them possibly due to lack of knowledge of variety of
Terrorism that can be superbly described per the blissful
Vedic Wisdom of India.

App. 629

11.

It is my humble observation and opinion that many

times the sharing of the blissful Vedic Wisdom have been
misinterpreted by my Medical Colleagues, Presidents and
Chairmen of the Medical Organizations and even by the
Federal Court Judges as imposing my Religious and
Cultural Views on them with great anger and frustration
leading to my Employment Termination, Ridiculing and
unfair Neglect; Dismissing or Expunging this historic and unprecedented Civil Case with the American Judiciary
System since more than a decade in the United States of
America: the Land of Freedom.
12.

The superb description of the “Habeas Corpus or

Bring the Body to the Court or Judge” as described in the
Petition for an Extraordinary Writ. The Higher Dimensions
with the Modern Law System per the Vedic Wisdom that is
extremely essential right now. Modern Law System should
not restrict her jurisdiction only to the present life or
present body or Habeas Corpus but expand to the “Future
Body and Past Body” of the culprits or persons of the
App. 630

interest. The Supreme Court of the United States must
order for the research in exploring up to at least past ten
incarnations and future ten incarnations or Resurrections
of the general population or habitual culprits or offenders
for a fair and equal justice.
13.

By the will and plan of the Providence, I was

involved with another legal case during 2012 in the United
States of America. I prefer not to go into the detail of this
legal case. I may request the inquisitive reader to pay
minimal fee to the Google Search or to the Legal Entity and
find himself or herself whether this legal case was a real or
a fake one; the content of the case and other detail. I am
considering this legal case as a great earthquake on my
family with the loss of reputation, prestige and tremendous
hardship. This case is the best example of the brutality by
the merciless and brutal Modern Law Enforcement
agencies on me and my family for no reason. My
determination became stronger and stronger continue to
fight until my last breath and try my best to destroy the
App. 631

merciless, ruthless and the cruelest Modern Law System by
providing the “Higher Dimensions with Transformation”.
“Pen is mightier than the sword and nothing to hide”
14.

Also reiterating the great point of Habeas Corpus;

the Researchers or Spiritualists must try to find out the
“Good or Bad” actions or Karma performed within past
Ten Incarnations and the future Ten Incarnations of
anyone (President/Prime Minister to a Janitor) with help of
the Yoga, Meditation, and Hypnotism as well as with help
of the fabulous Modern Internet Technology. The blissful
and eternal Vedic Wisdom will help any inquisitive
Researcher or Transcendentalists in this great topic of Re­
incarnation or Resurrection right now.
15.

Description of the Science of the Relationship and

Science of the Six Opulence; topic of Personalism and
Impersonalism are the superb topics needs to be
scientifically understood and applied within the Modern
Education System. The training of the Modern Law
Enforcement Agencies such as Police Officers, DEA & FBI
App. 632

Agents, Prison Officers and all Modern Law Practitioners
must be mandatory per the Vedic Wisdom of India.
16.

I have already humbly and respectfully requested

Five Federal Court Judges (Robert E. Gerber, J. Paul
Oetken, John M. Walker, Jr; Rosemary S. Pooler and
Richard C. Wesley) at three Federal Courts in New York as
well as to the Chief Justice and Associate Justices of the
Supreme Court of the United States for the Higher
Dimensions and Complete Transformation of the Modern
Law System. Modern Science and Modern Internet and
Computer Science per the Vedic Wisdom through this
historic and unprecedented civil case from 2012 to present
moment.
17.

Now, I am humbly and respectfully requesting again

to the Supreme Court of the United States to investigate
thoroughly this humble suggestion for the essential need of
the Higher Dimensions with the Complete Transformation
of the Modern Law System, Modern Science and Modern
Internet and Computer System per the Vedic Wisdom of
App. 633

India. This humble request has been well documented in
my personal letter titled as Transcendental Debate
between Presidents Obama/Trump and Prime Minister
Narendra Modi dated August 2014 & April 2017 and in my
“Higher Dimension” article and other articles and in the
Legal Briefs.
18.

My article titled as “Vedic Culture: an Ideal Culture

— Higher Dimensions with the Modern Science” dated
March 31, 2018 (Appendix 0) is containing the 95 % of the
Fundamental Principles of the Internet Technology as
described in the Section W-I and W-II. I will be very happy
to reveal the remaining 5 % of the fundamental principles
of the Modern Internet Technology Mystery to the Supreme
Court of the United States as promised. I may humbly
request the Supreme Court of the United States to
establish the “World Scientific Committee” composed of the
erudite scholars of Modern Internet Technology from the
Western and Eastern hemispheres for a Comparative Study
for revelation of the Fundamental Principles of the Internet
App. 634

Technology Mystery. I will be very happy to present the
Vedic version of the fundamental principles of the Internet
Technology to this scientific committee for a comparative
study and revelation of the truth. This is the hot topic of
century for the Internet and Computer Science mystery in
our globe right now.
19.

The Sacred Duty and Ultimate Function of the Court

System is revelation of the Truth. The Supreme Court of
the United is the ultimate authority for citizen of the
United States of America past two plus centuries. This
petition humbly narrates the essential and dire need of the
Higher Dimensions with the Modern Law System. Modern
Science and the fabulous Modern Internet Technology is a
reality and the Truth. This truth must be accepted by the
Supreme Court of the United States of America whole­
heartedly and without reservation.
20.

The above-mentioned facts and discussion certainly

will lead to the Global Prosperity, Global Peace and Global
Enlightenment with the Global Unity in Diversity of the
App. 635

seven plus billions of the Modern mankind. This is the
sacred responsibility and duty of every citizen and everyone
of this small planet. The above-mentioned facts and
discussion are the humble attempt by this humble self
(Atul C. Shah, MD) for Stirring Up and un-ending Fight
with the Autocratic and Dictatorial Modern Educational
system for the betterment of the modern mankind per my
humble opinion and observation. I have spent thousands of
dollars, innumerable time and 30 plus years of love of labor
for this noble cause.
In essence:
■

The Modern Educational System is the Autocratic
and Dictatorial in nature in the pretext of
advancement of the Science in the Unites States of
America past two plus centuries and with other
democratic countries is a reality.

■

The Modern Educational System that includes
Modern Law System, Modern Science & Medical
Science and the fabulous Internet Technology are
App. 636

disorganized, superficial and fallible in nature with
the essential and dire need of the Higher Dimensions
per the Vedic Wisdom of India.
■

The Natural Laws are created by the creative energy
of the Supreme Personality of Godhead and the
Scriptural Laws are created by the Sages and Rishis
of our planet Bharat-varsha as beautifully narrated
in the eternal and blissful Vedic Wisdom of Vedic
Literature: The Supreme Science of Sanatana
Dharma from India since the time immemorial in our
small planet.

■

The Natural Laws and the Scriptural Laws explicitly
advocating that the Oral Sex. Anal Sex and the Illicit
Sex are the unnatural and strictly prohibited within
the modern and ancient mankind since the time
immemorial. The Chief Justice and Associate
Justices of the Supreme Court of the United States
must be enough brave and honest to admit their
most immoral and most irresponsible judgment
App. 637

approving the same sex marriage verdict on June 26,
2015 with 5 - 4 split decision per the defective and
immoral Fourteenth Amendment advocating the
same sex marriage. This is the reality and the
undeniable sublime truth.
■

We have to remember that the Supreme Court of the
United States of America, India, Britain and
Australia and other countries are the ultimate
practitioners of the Law. The Supreme Court of every
country must practice the Natural Laws and the
Scriptural Laws as authoritatively narrated in the
eternal and blissful Vedic Wisdom of Sanatana
Dharma of India in our planet and the Universe.

■

Everyone including the Modern Law Practitioners,
Scientists and research Innovators; Politicians,
Educators, Businessmen and General Laborers and
practically everyone must study and be well verse in
the Natural Laws and the Scriptural Laws per the
blissful Vedic Wisdom of India.
App. 638

■

The Natural Laws and the Scriptural Laws per the
blissful Vedic Wisdom are superbly perfect, superscientific and universal in comparison to the
defective and fallible 27 Man-made Constitutional
Amendments of the United States of America and
other countries of this small planet. There is
essential need of the 28th Constitutional Amendment
per the Vedic Wisdom of the Vedic Literature: the
Supreme Science. This 28th Constitutional
Amendment includes Tanas or Austerity. Sauca or
Cleanliness. Dava or Mercy and Satva or
Truthfulness that will be providing the Higher
Dimensions and Stability with the Modern Law
System as narrated in my article “Higher
Dimensions” in the Appendix M of this petition.

■

I was dismissed four times from three Residency
Training Programs from 1988 to 1994 in Michigan is
the horrible abuse of the power by the Supervisors,
Program Directors and Chairmen of the Residency
App. 639

Training Programs in the state of Michigan
primarily based upon my Religion and Nationality.
■

The quality of the knowledge of Psychiatry and
Psychology is disorganized, superficial and crazy or
Schizophrenic in nature due to the poor
understanding of the fundamental principles of
Mental Apparatus and Mental Activities. This great
point has been narrated in my articles “Letter of
Interest” in the Appendix T and Appendix M.

■

The text books of the Modern Internet and Computer
Science is also disorganized, superficial and fallible
in nature with essential need of the Higher
Dimensions per the blissful and eternal Vedic
Wisdom of India. My article titled as “Vedic Culture:
an Ideal Culture” in the Appendix O is describing the
95 percent of the fundamental Principles of the
Internet and Computer Science Mystery. The
remaining 5 percent will be described and
presented to the “World Scientific Committee”
App. 640

established by the Supreme Court of the United
States for the Comparative Study. This is a
transcendental and blissful challenge to the modern
geniuses and wizards of the Modern Internet
Technology in USA, India and elsewhere of this
small planet. The Chairman and founder of
Microsoft company Mr. Bill Gates and CEO Mr.
Satya Nadella of the wealthy Microsoft company
must submit their version of the “Fundamental
Principles of the Internet Technology and Computer
Science” to the Supreme Court of the United States
for a comparative study and revelation of the truth
without reservation and hesitation as mentioned in
the Appendix N and Appendix R of this petition. The
truth will be revealed to the public.
■

Dr. Stanley Miller, DO at General Motors Company,
Presidents of Medical Organizations (AMA, MSMS,
and WCMS), Federal Judges and Associate Justices
of the Supreme Court of the United States are taking
App. 641

the side of the Western Culture, Nationality and
racial affiliations and abuse the allotted power
trusted to them by the people of our great democratic
country. I have been dismissed and fired from
multiple places including at GM as a Physician just
for telling the truth to them every time.
■

The Non-existence of my DEA Administrative
Complaint Case No.: 53-16-140855 as described in
the Appendix I and Appendix Q of this petition. I will
be happy to face the pending Grand Jury Trial, if
needed, as the Chief Justice of the Supreme Court of
the United States in mv 10th incarnation as clearly
mentioned in this petition. The Grand Jury Trial can
wait until my 10th incarnation as the Chief Justice of
the Supreme Court of the United States of America.
This is the blissful Vedic Wisdom of India.

■

Primary purpose of my perpetual fight with the
Modern Educational System is simple and straight

App. 642

forward - the Transformation and Higher
Dimensions per the Vedic Wisdom of India.
■

The autocratic and dictatorial Modern Educational
System must be transformed into the democratic.
debate friendly, compassionate and merciful to every
citizen irrespective to his or her religion, nationality,
occupational, racial, gender, geographical or
linguistic affiliation in USA, India and other
countries of our small globe.

■

I may humbly assure to the recipients that there is
not a slightest intention of Blaspheme. Defamation
or Contempt of the Court for any culture, religion,
faith or education system by my articles and my legal
briefs by this humble self Dr. Atul C. Shah, MD at
present, in the past or in the future.

■

The truth must be revealed as it is no matter how
the truth is bitter and unpalatable. The suppression
of the truth reveals the truth and nothing but the
truth that is known to everyone.
App. 643

■

This “Petition for an Extraordinary Writ” is the best
example of the description and exchange of the
“Twelve Rasa or Relationships and the Six Opulence”
within the Modern and Ancient Mankind in our
small planet per the blissful Vedic Wisdom of India.
o Description of the Twelve Rasa (Five Primary
and seven Secondary) or Relationships:
A. Five Primary or Mandatory Rasa:
1. Neutrality

2. Servitude

3. Friendship

4. Parental

5. Conjugal Rasa
B. Seven Secondary or Optional Rasa
1. Laughter

2. Astonishment

3. Anger

4. Chivalry

5. Compassion

6. Dread/Intimidation

7. Ghastliness/Cruelty

o Description of Six Opulence:
1. Beauty

2. Wealth

3. Fame

4. Knowledge

5. Power

6. Renunciation

App. 644

This is a superb description of the “Science of Rasa or
Relationship and Six Opulence” per the blissful Vedic
Wisdom. Psychiatry and Psychology are the crazy or
Schizophrenic science and unable to describe this
superb topic anytime.
■

The transcendental Debate in a democratic spirit,
on every topic, is the most essential requirement for
the Global Prosperity, Global Peace and Global
Enlightenments of the Modern mankind with the
Global Unity in Diversity with the End of the
Atheism. Immorality and Terrorism in our small
planet right now.

■

The reiterating the great point(s) repetitively is
essential for the consolidation and clarity and it is
not a weakness or a redundancy.

■

The famous Preamble “We the People” to the United
States Constitution proposed and amended by the
Forefathers of America during the Declaration of the
Independence on July 4, 1776 and later on in 1778.
App. 645

We know that 50 to 55 percent of the Forefathers
were not the Lawyers with no Law degree and no
experiences in practice of the law.
■

As mentioned earlier that two plus century old Man­
made 27 Constitutional Amendments of the United
States are defective, disorganized and fallible in
nature with dire need of the “Higher Dimensions”
per the blissful Vedic Wisdom of India. Despite this
defective law system, the Modern Law Practitioners
are rendering Good or Bad judgments at the State,
Federal and Supreme Courts past two plus centuries.

■

We must congratulate 87 years old Associate Justice
late Ruth Bader Ginsburg of the Supreme Court for
her brave fight with five bouts of Colon, Lung and
Pancreatic Cancers. She was a Liberal Judge and
“Proponents of the Same Sex Marriage and
Immorality”. The Conservative Justices or Judges
are “Opponents of the Same Sex Marriage and
Immorality”. This mentality by the Liberal Justices
App. 646

is the best example of the stupid bravery, abuse of
the power and a violation of the public trust by the
Modern Law Practitioners including the Supreme
Court. This is a simple and a serene truth.
■

We must heartily congratulate President Vladimir
Putin of Russia for constitutionally prohibiting and
firmly advocating the complete ban on the Same Sex
Marriage per the two thousand years old Orthodox
Christianity. The Vedic Culture: an Ideal Culture
advocates everyone to practice the marriage between
a man and a woman only as in Appendix O. This is
the ideal marriage system for the mankind since the
time immemorial in our small planet.

■

My petition for Writ of Certiorari was denied by the
Supreme Court of the United States during 2015
with the Split or Unanimous decision. I am not sure
that the Liberal Associate Justice Ruth Bader
Ginsburg supported or denied this petition during
2014 - 2015 verdicts.
App. 647

■

I have had a major six Bypass open heart surgery at
St Joseph Mercy Hospital in Pontiac, Michigan on
June 24, 2014. My chest was cut open by a surgical
saw, going through the lungs, cutting the
Pericardium and bypassing six arteries with help of
the On-pump heart-lung machine for about ten hours
on the operating table. This is a great miracle and
achievement of the Modern Biomedical Science and
the modern surgery. I believe that my Gross
Anatomical Body and my Astral Body or Subtle Body
were separated during the ten hours of On-pump
surgery on June 24, 2014 at St Joseph Mercy
Hospital in Michigan. I am still alive and well.

■

Despite this major open-heart surgery on June 24,
2014; I typed, printed, staple the pages, drove to the
Kinko printing company with my Chest Binder or
Chest support. I mailed my legal brief by the
certified mail on July 10, 2014 to the United States
Court of Appeals for the Second Circuit prior to the
App. 648

deadline. I did this alone without any help even from
mv family members. This is a nice example of my
firm determination to fight with the Modern Law
System for a fair and equal justice.
■

Also, I was declared dead after an un-necessary
Endoscope Procedure called ERCP in the morning of
April 19. 2008 at the famous and rich Troy William
Beaumont Hospital just few blocks away from my
home in Troy, Michigan. After un-necessary
Endoscope procedure, a Gujarati lady from our
Hindu community and an Operating Room Nurse
Jayshree Oza came out of the Operating Room
informing my wife Yogina and my brother-in-law, a
retired Cardiologist, Dr. Rasik Parikh, MD that Dr.
Atul C. Shah is dead now and “Please Pray” for him.
I am sure that my Gross Anatomical Body was on the
Operating Table and my Subtle Body or Astral Body
was out of my Gross Body for a short time. Luckily
and by blessings of the Providence, my Subtle Body
App. 649

or the Astral Body returned back to my Gross
Anatomical Body and I survived or resurrected and
stayed alive for telling the Truth and nothing but
Truth to the Courts and to the General Public.
■

I could have filed a Malpractice Law Suit against the
rich and famous Troy William Beaumont Hospital
with help from the famous Michigan Lawyers such
as Sam Bernstein, Geoffrey Fieger and other famous
Lawyers in Michigan for the 10 to 20 Million dollars
and becoming a Rich and Famous person. However,
becoming a “Rich and Famous” this way was not a
motto or goal of my heritage, my culture and my
professional etiquettes. This is a true story.

■

This is a historic and unprecedented story of my un­
ending fight with the “General Motors
Corporation and with the Modern Educational
System”. This is a story of an ordinary person
performing an extraordinary service single-handedly
past thirty plus years despite the multiple
App. 650

dismissals, multiple denials of job opportunities and
the multiple Court Denials for telling the truth.
■

I sincerely hope that the Supreme Court of the
United States certainly will accept this simple and
sublime truth. The sacred duty and sublime function
of the court system is the revelation of truth and
nothing but the truth.

■

Now, the Chief Justice and nine Associate Justices of
the honorable Supreme Court of the United States
may do the soul-searching for a fair and equal
justice. I am praying and respectfully requesting for
the approval rather a denial of this historic and
unprecedented civil case with the second thought and
with the sound consciousness.

■

Every sincere and serene citizen knows well that
abiding faithfully to the Natural Laws, Scriptural
Laws and to the “Modern or Ancient” man-made
Laws per the Vedic Wisdom, one remains free and
peaceful. Breaking these LAWS, one invariably
App. 651

invites unprecedented miseries and trouble instantly
and remotely in this life and in the future life. This is
the real FREEDOM. LIBERTY and
INDEPENDENCE for everyone. This is the blissful
and eternal Vedic Wisdom of India.
■

The eternal and blissful Vedic Wisdom of Vedic
Literature: the Supreme Science of Sanatana
Dharma from India is the Tampered-proof and
Stealing-proof that easily revealed to the
Transcendentalists and to the humble Devotees in
our small planet. This is a reality and a truth.

■

I greatly admire the American Spirit — the relentless
pursuit to realize the Truth: the Absolute Truth.

■

This is the essence and primary purpose of this
“Petition for an Extraordinary Writ” written by this
humble self Atul C. Shah, MD as clear, complete and
concise as possible per my humble ability and
capacity.

App. 652

CONCLUSION
I am praying and respectfully requesting the
honorable Supreme Court of the United States of America
for granting the Petition for an Extraordinary Writ for a
fair and equal justice.

Respectfully submitted,

Atdre-s2884 Manorwood Drive
Troy, Michigan

Pro Se Petitioner and Litigant
October 2, 2020

653

This page is kept intentionally blank.

655

List of the distinguished Recipients
Herewith, I am presenting List of the Distinguished
Recipients per Description of the Caption Rules 20.2 of the
Supreme Court of the United States. The Petitioner(s) are
usually a PERSON and the Respondent(s) are usually
IMPERSONAL Entities or Vice Versa and the combination
of both categories. They are described per the eternal and
blissful Vedic Wisdom of India.

The Impersonal Entities are demarcated by Bold Letters
and the Personal Entities are demarcated with the Regular
Letters in a single space in this list.

The departed souls are demarcated with the Black Asterisk
and in Italic in this list. These departed souls may be
wondering in our planet and universe with the
Astral/Spiritual Body or they may be born again in the
human species, sub-human species or in the super-human
species. This is the blissful Vedic Wisdom of India.

I may humbly request the Supreme Court of the United
States of America to email the 785-page copy of my
“Petition for an Extraordinary Writ” to each Impersonal
and Personal entities for their information and review in
our small globe.

The Paralegal and Clerical Sections of the SCOTUS are
well trained and knowledgeable staffs that can perform this
task effectively and easily with no expense at their tip of
the fingers. The following 96 distinguished recipients
(Person and Impersonal entities) will be happy to receive
the email copy from the Supreme Court of the United
656

States. They will read this e-booklet with the rapt attention
and keep it as a souvenir and a legal record.
Also, the SCOTUS can invite the departed soul(s) for
testimony, if needed, with help of Yoga, Meditation and
Hypnotism and with help of the Modern Internet
Technological advancements and research.

This is the primary purpose of the List of the Distinguished
Recipients. Following 103 Entities are included in this list.

Motors Liquidation Company/GM
300 GM Renaissance Ctr
Detroit, MI 48265, USA
Mary Barra, CEO and Chairman
300 GM Renaissance Ctr
Detroit, MI 48265, USA

Joel Bender, MD Corporate Medical Director GM
Stanley Miller, DO Senior Group Director GM
Renato Oteyza, MD Plant Director GM
Anthony Burton, MD Plant Director GM

Atul C. Shah, MD Attorney and Pro Se Litigant
2884 Manorwood Drive
Troy, Michigan 48085

^

657

GM Defendant Attorneys
Eric B. Fisher
Binder & Schwartz LLP
366 Madison Avenue
New Your, New York 10017

Jeffrey Rhodes, Esq.

Stephanie Greer, Esq.
Supreme Court of the United States
John G. Roberts, Jr.
Chief Justice
Supreme Court of the United States
1 First St NE
Washington, DC 20543
Clarence Thomas, Associate Justice
Stephen G. Breyer, Associate Justice
Samuel A. Alto, Jr., Associate Justice
Sonia Sotomayor, Associate Justice
Elena Kagan, Associate Justice
Neil M. Gorsuch, Associate Justice
Brett Kavanaugh, Associate Justice
Amy Coney Barrett, Associate Justice
*Late Ruth Bader Ginsberg, Associate Justice
*Late Antonin Gregory Scalia, Associate Justice

658

United States Bankruptcy Court. New York
Robert E. Gerber Judge

United States District Court. New York
J. Paul Oetken Judge

United States Court of Appeals for the Second
Circuit. New York
Robert A. Katzmann, Chief Judge
John M. Walker, Jr., Circuit Judge
Rosemary S. Pooler, Circuit Judge
Richard C. Wesley, Circuit Judge

US Attorney Office. Eastern District of Michigan
Thomas J. Tynan, Trial Attorney - Intent for a Grand Jury
Trial of the Criminal Investigation against me or Dr. Atul
C. Shah, MD dated February 20, 2019.

Michigan Attorneys
Peter L. Plummer, Administrative Law Judge, Lansing, MI
Andrew J. Hudson, Former, AAG, Lansing, MI
Anjali Prasad, Esq Attorney, Royal Oak, Michigan
Ronald Chapman, Jr. II, Attorney, Troy, Michigan
Robert Iwrey, Attorney, Southfield, Michigan
Robert McQuade Retired Attorney, Warren, Michigan
Satyam Talati Esq Attorney, Troy, Michigan
Detroit Free Press. Detroit. Michigan
Peter Bhatia, Editor and Vice-President
659

American Medical Association. Chicago, Illinois
* Late Nathan Davis, MD 16th President - Founder ofAMA
* Late Ronald M. Davis, MD former 162nd AMA President
Jeremy Lazarus, MD former AMA 167th President
James L. Madara CEO of AMA
Patrice Harris, MD AMA 174th President - first African
American female AMA President — 2019-2020
Susan R. Baily, MD 175th AMA President 2020-2021

American Psychiatric Association. Washington. D.C.
APA President 2012-2013
Dilip V. Jeste, MD
APA President 2011-2012
John M. Oldham, MD

Michigan State Medical Society. Lansing. Michigan
S. Bobby Mukkamala, MD ENT MSMS President 2020
Wavne County Medical Society. Detroit. Michigan
Steven Daveluy, MD FAAD President of WCMS 2020-2021

Microsoft Company. Seattle, Washington
Bill Gates Chairman and CEO of Microsoft
Satya Nadella CEO of Microsoft
*Late Steve Jobs CEO of Apple/Microsoft
Google Company, Menlo Park. California
Sundar Pichai, CEO of Google
Yahoo Company, Sunnyvale. California
Marissa Ann Mayer, CEO
(I am a loyal member of Yahoo Internet Company past 20
plus years)

660

Political Personalities and four Strongmen of the
World:
Shri Narendra Modi
Prime Minister of India
Donald Trump
President of the United States of
America
Vladimir Putin
President of Russia
Xi Jinping
President of China

Other Local Political Personalities:
Sander M. Levin Congressman, Michigan
Doug Cruce
Senator, Michigan
Tulsi Gabbard
Hawaii Congresswoman and former
Presidential Candidate 2020
Niraj Antani
State Representative, Ohio
Padma Kuppa
State Representative, Troy, Michigan
Rishi Kumar
US Congress, CD 18, California

VedicLiteraturetheSupremeScience fVLSS) Website.
Troy. Michigan
Atul C. Shah, MD President, Moderator and Owner - VLSS
*Late Dr. B.G.Y. Sastry
Member, India
Rajendra Deshpande, PhD
Member Mumbai, India
HariKrishna J. Trivedi, MD
Member Ahmedabad,
Gujarat, India
Venkat Koppaka
Member, India
Dr. Sheoji Singh, PhD Professor of Physics, Chandigarh,
India Member
Dr. Govind Sharan Upadhyaya, PhD in Psychology, Nepal
Member
Dr. Rasik Parikh, MD Retired Cardiologist, Rochester Hills,
Michigan Member

661

Hindu American Foundation (HAFh Washington.
D.C.
Suhag Shukla Esq Attorney HAF Team
Nikhil Joshi, Esq Attorney HAF Team
Dr. Mihir Meghani, MD HAF Co-founder
Sheetal Shah President and Owner HAF
Krishna Parmar HAF Team
Global Hindu Heritage Foundation (GHHF). Fresco.
Texas
Dr. Prakasarao Velagapudi, PhD

Hindu Janaiagruti Samiti (HJS). India
Dr. Manoj Solanki, MD in India
Dharmacentral. Milwaukee. Wisconsin
Shri Dharma Pravartaka Acharya, Wisconsin
Vedic Friends Association (VFA). Detroit. Michigan
Stephen Knapp Detroit, Michigan
Parashakthi Temple. Pontiac, Michigan
Dr. Krishna Kumar, MD President, Pontiac, Michigan
Public Advocate of the United States. Merrifield. VA
Eugene Delgaudio, President
List of the Departed Souls:
* Late Nathan Davis, MD former 16th AMA President and
the Founder of AMA
* Late Ronald M. Davis, MD former 162nd AMA President
* Late Antonin Gregory Scalia, Associate Justice of
SCOTUS
* Late Steve Jobs CEO of Apple, USA
* Late Dr. B. G. Y. Sastry Member of
VedicLiteraturetheSupremeScience Web site, India
662

I will be happy to ask following pertinent questions to the
above-mentioned departed souls with the help and kind
permission of the Supreme Court of the United States.

1. * Late Nathan Davis, MD Founder of AMA and the 16th
AMA President and* late Ronald M. Davis, MD 162nd AMA
President:
Do you agreed that late Ronald M. Davis, MD 162nd
AMA President contacted you; and he was taking
suggestions and advises from you about how to guide and
promote the Art of Medicine at AMA during 2008 and
earlier?
Do you believe in Re-incarnation and that you as 16th
AMA President and 162nd AMA President Dr. Ronald M.
Davis, MD are same Soul or Personality becoming the AMA
Presidents twice (16th to 162nd) in the different body?
2. *Late Antonin Gregory Scalia, Associate Justice of
SCOTUS.
Thank you very much for your verdict for my
Supreme Court Case # 14-830 during 2014-2015. Your
honor is a wonderful person considered as a Conservative
Judge. I hope that you may have rendered your verdict in
favor of me during this trial. My case # 14-830 was denied
by the Supreme Court of the United States in 2014 - 2015.1
will appreciate telling me that this denial decision was a
Unanimous or a Split decision by the SCOTUS in 2014 —
2015 trial?
Your honor, I have another question and need your
honest answer. Now, your honor is a departed soul and free
of the obligation as the Associate Justice. Does the Modern
Law System needs “Higher Dimensions per the Vedic
Wisdom” of India right now?
663

3. *Late Steve Jobs, CEO of Apple and Microsoft:
It was nice to know that you were a great
practitioner of Christianity and Hinduism. Also, your
wonderful self was a great wizard or genius of the Internet
Technology of your time. I will greatly appreciate your
opinion about the “Fundamental Principles of the fabulous
Internet Technology and Computer Science Mystery” that
can be revealed easily with help of the Vedic Wisdom of
India at present and in the future.
4. *Late Dr. B.G.Y. Sastry, a former Member of my
VedicLiteraturetheSupremeScience Web site from India:
Dear Dr. B.G.Y. Sastry: you were an erudite Vedic
Scholar from India and a prolific writer. Please re-affirm
that the Vedic Literature is the Supreme Science providing
the “Higher Dimensions” with the Modern Educational
System right now and in the future for the betterment of
the modern mankind in our small planet Bharat-varsha.
Thank you very much for your support.

The above-mentioned questions and queries, I or anyone,
can ask to the departed souls from his or her home, offices
or in the court room or from any places with help of Yoga,
Meditation, Hypnotism and with help from the fabulous
Internet Technology with or without the permission of the
Supreme Courts or the Modern Law System all over of this
globe.
We all know that we can contact or communicate with the
living person(s) or Personal Entities and the Impersonal
Entities with help of the Remote Methods and Regular
Methods at the Singular, Dual and Plural levels easily and
effectively. We have to pay the nominal fees, obviously.

664

The primary purpose of this section titled as “List of the
Distinguished Recipient” is very simple and
straightforward: “Higher Dimensions” with the Modern
Educational System that includes Modern Law System,
Modern Science & Medical Science and the fabulous
Internet Technology Science per the Vedic Wisdom of India.

Note: List of the Distinguished Recipients is containing 71
Personal Entities and 25 Impersonal Entities as well as five
departed soul Entities totaling 101 Entities. I know
personally about 60% of the above-mentioned Entities who
are my colleagues, friends, relatives as well as a member of
the professional, cultural and religious organizations. I
know remaining 40% Entities through the legal cases and
the fabulous Internet Technology with no direct personal
contact or relationships. Please send e-mail copy to them.
In the Krishna Consciousness, the Proponents or
Opponents; Friends or Foes and the Pure or Impure are
active participants for exchange of the “Twelve Rasa or
Relationships and Six Opulence” for the Fun and Laughter
all the time without envy or jealousy.
The Krishna Consciousness is eternal, blissful and joyfully
performed all the time and every time.
In the Krishna Consciousness everyone is a winner and
happy.

End of the List.

665

List of Multiple Denials. Dismissals and
Expungements of Legal Cases and Job Opportunities
within the Modern Educational System:
The primary purpose of presenting the List of multiple
Denials, Dismissals and Expungements of my cases and job
opportunities is very simple and straight-forward — Higher
Dimensions with the Modern Educational System.
The modern educational System that includes Modern Law
System, Modern Science & Medical Science and the Modern
Internet Technology Science are disorganized, superficial
and fallible in nature with the essential and dire need of
Higher Dimensions per the Vedic Wisdom of Sanatana
Dharma from India.
Modern Law System, Modern Science and the Modern
Internet Technology Science are unbelievably “Dictatorial
and Autocratic” in nature as well as defective, most cruel
and exclusivist in nature.
I am trying my best to fight and stirring up the dictatorial,
autocratic and exclusivist Modern Law System, Modern
Science & Medical Science and the Internet Technology
Science single-handedly past 35 plus years from Michigan
in the United States of America.
The multiple dismissals from the Residency Training
Programs as Resident Training Physician and multiple
denial of my Legal Cases are directly based upon my
“Religion, Nationality. Color and Age factors” vividly
documented and presented to the EEOC, State Courts,
three Federal Courts and finally, to the Supreme Court of
the United States from 2008 to present time by this humble
self Dr. Atul C. Shah, MD as Pro Se Litigant and Pro Se
Petitioner per my capability.

666

It is a truth that the Modern Law Practitioners at the
State, Federal and the Supreme Court has tremendous
knowledge, experiences and uncanny ability to destroy,
disprove and deny all evidences presented to them by this
humble self Dr. Atul C. Shah. MD anytime and every time.
The Modern Law System is so defective, cruel and
exclusivist that it has denied and excluded white women to
vote, denied black men and black women and even excluded
Asian Women to vote for several hundreds of years_______
requiring 13th. 15th and 19th Amendments for the Right to
Vote and a freedom from the Slavery. This is a cruelty and
defective nature of the US Constitutional Amendments.
Also, the State, Federal and Supreme Courts are punishing
the culprits with hundreds and thousands of years of prison
confinement for their crimes and misdeeds. For an
example, a child-rapist and pedophile Charles Scott
Robinson was sentence for 30,000 (Thirty Thousand) years
or his 30-future life by the Oklahoma court in 1994.
I strongly believe that the Modern Law System must be
believing in the doctrine of the Reincarnation as described
in my article presented to AMA President late Ronald M.
Davis, MD in the Appendix L with this historic and
unprecedented civil case — Petition for an Extraordinary
Writ. Please refer this great article.
I will be happy to face the Grand Jury Trial with the
intended Criminal Investigation letter dated 2/20/2019
during my 10th incarnation as the Chief Justice of the
Supreme Court of the United States shredding all the
evidences and arguments. Grand Jury Trial can and must
wait until my 10th incarnation as the Chief Justice of the
Supreme Court of the United States of America. Indeed, no
harm to wait until my tenth incarnation from 2020
calendar year as explicitly mentioned in this case.
667

Despite these unsurmountable hurdles and impossible
tasks, it is my heart-felt desire and actions to “Fight and
Stirrings up” the Modern Educational Systems with the
perseverance and strong determination until my last breath
for a fair and equal justice leaving the result to the
Almighty Providence as explicitly mention in the Vedic
Literature: the Supreme Science of Sanatana Dharma from
India. Pen is mightier than the sword and nothing to hide.
This is the ultimate and most cherished objective and goal
of my present life. Here below, is the List of multiple
dismissals, denials and expungement of my legal cases and
job opportunities in the State of Michigan in the United
States of America within two plus decades.

List of Denial of Job Opportunities:
1.

Obama-Biden Administration:
The White House
1600 Pennsylvania Avenue NW
Washington, DC 20500
Position Applied: Research Medical Director
Date of Applications: 10/27/2015, 2/10/2016
Date of Response: Pending or No Response vet.
Submitted Six-page Letter with Description of
“Prevention of the Narcotic Epidemics” as in
Appendix P and in the Settlement Number 5316-140855 with the Administrative Complaint
Case in Lansing, Michigan dated 12/21/2016.

2.

Woodland Correctional Facility
Dr. Thomas Behrmann, MD Director
Woodland Correctional Facility
Whitmore Lake, Michigan
Recruiter Norm Knippen, Program Manager,
MHM Services, Inc
668

Date of Interview: 1/19/2016 with Orientation
Date of Denial: 1/19/2016
Reason for Denial: No DEA License

3.

Caro Center
Rose Laskowski, RN, Director
Slade Kern, Recruiter, Consilium Staffing
Caro Center
2000 Chambers Road
Caro, Michigan
Date of Hire: 12/2016
Date of Termination: 2/2017
Reason for Termination: No DEA License
Request for Research Medical Director
position with no response.

4.

Oakland Integrated Health Net Work
Debra Brinson, CEO
Dr. Nikhil Hemady, MD, Program director
Oakland Integrated Health Network
Pontiac, MI 48341
Date of Interview: 5/10/2018
Date of Denial: 5/11/2018
Reason for Denial: No DEA License

5.

All Well Beings Services
Dr. William Martin, MD Medical Director
Dawn Rucker, CEO
Sherry Glen HR Director
All Well Beings Services
Detroit, Michigan
Position Applied: Full time Psychiatrist
Date of Application/Interview: 5/10/2018
Date of Denial: 5/14/2018
669

Reason for Denial: No DEA License and
Background Check up

6.

Wayne State University
Department of Psychiatry and Behavioral
Neurosciences
Alicia Pendleton
Associate Vice President
Human Resources
Wayne State University
Detroit, Michigan
Position Applied: Assistant Professor of
Psychiatry
Department: H0613-Psychiatry and
Behavioral Neurosciences
•
Date of Application: 2/11/2017
(Posting # 041852) Confirmation Number:
1142071
•
Date of Application: 2/19/2017
(posting# 041853) Case # 00032531 and
Confirmation Number: 1142980
•
Date of Denial: 2/20/2017
•
Reason for Denial:
Position Withdrawn
•
I never withdrawn my application
or position but my applications
were mysteriously disappeared
from the WSU Computer
System!! Alicia Pendleton in HR
Department did not pay any
attention.
•
I strongly believe that Dr.
Richard Balon, MD who is
Program Director at Wayne State
University Psychiatry Residency
Training Program past several
670

years blocked and made my
applications mysteriously
disappeared from the Human
Resource Department during
2/2017.
Please take a kind note that Dr.
Richard Balon, MD was the
instrumental and main
Supervisor who dismissed me as
3rd years Resident Physician from
Psychiatry Residency Training
Program at the Wayne State
University on 10/31/1994.
Dr. Richard Balon, MD continue
to abuse his power and position to
dismiss me as Resident Physician
in 1994 and he denied job
opportunity as Assistant
Professor of Psychiatry after 25
years of my practice. This is
horrible abuse of the power and
position.

7.

University of Michigan
Gregory Dalack, M.D.
Chair and Associate Professor
Department of Psychiatry
University of Michigan
Ann Arbor, MI 48109
Position Applied: Assistant Professor of
Psychiatry (Posting# 137871)
Date of Application: 2/23/2017
Date of Denial: 3/6/2017
Reason for Denial: position given to another
candidate
671

8.

9.

Macomb Correctional Facility
New Haven, Michigan
Recruiter: Nancy Montgomery, Senior
Consultant
CompHealth, Tel: 203-663-0416
Date of Application: 1/15/2018
Date of Denial: 1/15/2018
Reason for Denial: No DEA License

Common Ground
Heather Rae, CEO
Dr. Carmen Serpa, MD Medical Director
Common Ground
Bloomfield Hills, Michigan
Position: Full Time Psychiatrist
Date of Hire/Contract Signed: 5/29/2018
Date of Denial: 5/29/2018
Reason for Denial: No DEA License

List of the Dismissal from the Residency
Training Programs as Resident Physician in
Michigan and California:
1. Providence Hospital
Southfield, Michigan
Department of Pathology
Date of Hiring: July 1, 1988
Date of Dismissal: 10/10/1988
Reason for Dismissal: Chairman of Department of
Pathology was testing me that I may be able to
bring his Key Chain that he left intentionally
with the dead body of patients in Morgue at dark
night about at 9:00 PM in hospital. I simply
refuse to go to Morgue with dead bodies during
dark night at 9:00 PM. So. I failed the test and
dismissed from the Pathology department.
672

2. William Beaumont Hospital
Royal, Oak, Michigan
Department of Internal Medicine
Date of Hiring: July 1, 1989
Date of Dismissal: 8/18/1989
Reason for Dismissal: Allegation of providing
fabricating information to the Senior Resident
and Attending Physician about patient symptoms
and physical examination.
3. Department of Nuclear Medicine
Edward Coleman, MD
Chairman-Credentials Committee
American Board of Nuclear Medicine
Los Angeles, California
Position: Resident Physician in Nuclear Medicine
Including the “Letter of Interest” submitted with
application
Date of Hiring/Acceptance: 1/11/1990
Date of Removal: 2/19/1990
Reason for Removal: Incomplete Residency
Trainings at Providence Hospital in Michigan
from 1988 to 1989.
4. Wavne State University
Detroit, Michigan
Department of Psychiatry
Date of Hiring: July 1, 1990
Date of Dismissal: 7/10/1990
Reason for Dismissal: In my “Letter of Interest”. I
mentioned about my Hindu Beliefs that was
considered as the “Magical Thinking” by Program
Director as well as my saying that the “Quality of
Psychiatry is Disorganized, superficial and needs
higher dimensions” as the primary reason for my
Dismissal as documented in my EEOC Complaint
letter dated 8/23/1990 (Appendix S).
673

5. Congressman Sanders M. Levin and Senator
Doug Cruce from Michigan:
I reported my unfair dismissals from three
Residency Training Programs as Resident
Physician in Michigan from 1988 to 1990 to the
Congressman Sanders M. Levin in August 20,
1990 and to the Senator Doug Cruce in October
28, 1990. They both were very sympathetic and
helpful about these unfortunate and horrible
abuses as the Resident Physician in the
Residency Training Programs in Michigan.
6. Independent Law Firm. Detroit. Michigan
Kerr. Russell and Weber
2100 Comerica Building
Detroit, Michigan 48226
This Independent Law Firm was commissioned by
the American Medical Association to investigate
the justification of dismissals from three
Residency Training Programs at Providence
Hospital, William Beaumont Hospital and at
Wayne State University from 1988 to 1990. Also,
I believe that the Congressman Sander M. Levin
and Senator Doug Cruce supported this
intervention by the Independent Law Firm
investigation to reveal the truth.
Conclusion: This Independent Law Firm
concluded “No justification of mv Dismissals from
the three Residency Training programs” from
1988 to 1990.
Action: I was granted Medical License by the
Michigan Bureau of Professional Licensing Board
in 1990.1 am happily practicing medicine as
physician taking care of thousands of patients
with “Respect and Dignity” since 1990 to present.

674

7. Wayne State University
Detroit, Michigan
Department of Psychiatry
Date of Hiring: July 1, 1991
Date of Dismissal: 10/31/1994.
Reason for Dismissal: Poor Performance as 3rd
years Resident Physician. However, the primary
reason was that I was telling my Supervisors,
Program Director and Chairman of the
Department of Psychiatry and Behavioral
Science:
• Dr. Richard Balon, MD, Dr. C. Ramesh,
MD & Dr. Debra Glitz, MD — Supervisors.
• Robert Miller, MD Program Director
• Dr. Thomas Udhe, MD Chairman
• Telling that the “Quality of Psychiatry is
Disorganized, superficial and needs higher
dimensions per the Vedic Wisdom” or
Vedic/Hindu Doctrines of India.
• This was the second time I was dismissed
from same Psychiatric Residency Training
Program from Wayne State University in
Detroit, Michigan primarily due my
Religion and Nationality.
• I believe that my supervisors Drs. Richard
Balon, C. Ramesh, Debra Glitz, and
Program Director G. Robert Miller and
Chairman Thomas Udhe were fully aware
of my three previous dismissals from the
Residency Training Programs from 1988 to
1990. They took great advantages of these
Stigmas to justify their horrible and unfair
abuses and my dismissal on 10/31/1994.

675

8. Chairman of RPS of Michigan State Medical
Society (MSMS) in 1993 and Vice Chairman
of RPS of Michigan Psychiatric Society
(MPS) in 1994:
I was elected as Chairman and Vice Chairman of
Resident Physician Section (RPS) of MSMS and
MPS during 1993 and 1994.
• I presented my article titled as “Prevention
of the Resident Training Physician Abuses
in the Residency Training Programs in
Michigan and in the USA” to AMA, MSMS
and WCMS medical associations in 1993
and 1994.
• Also, I helped American Medical
Association to pass Resolutions for the
“Prevention of the Resident Training
Physician Abuses in the Residency
Training Programs” during 1993 -1994.
• I helped several International Medical
Graduate Resident Physicians (at least 4 to
6) from India with Hinduism background
from the horrible abuses in Michigan.
• My determination to fight against the
injustice and horrible abuses within the
Modern Educational System became
stronger and stronger for a fair justice and
exposing the concealed predatory attitudes.
9. Department of Veterans Affairs
Andre Tapp, MD
Chief of Psychiatry Services
515/116A, Medical Center,
Battle Creek, Michigan 49015
Position Applied: Psychiatrist
Date of Application: July/August 1993
Date of Denial: August 13, 1993
Reason of Denial: After back-ground check up
676

10. American Psychiatric Association
Michelle Riba, MD President in 2005
American Psychiatric Association,
Arlington, VA
Date of Membership with APA: From July 1990
Date of dismissal as APA Member: 3/31/2005
Reason for Dismissal as APA Member: Non­
payment of Membership Fee and telling the APA
that Psychiatry needs the Higher Dimensions per
the Vedic Wisdom of India as documented in the
(Exhibit - G) of the United States District Court
trial in February 2013.
11. General Motors Corporation
Renaissance Center
Detroit, Michigan
GM Supervisor: Stanley Miller, DO
Position: Plant Physician and Independent
Contract Physician
Date of Hiring: September 1997
Date of Dismissal: June 11, 2008 after working
for 11 years as Plant Physician with GM.
Reason for Dismissal: Documentation problems.
However, the primary reason for my dismissal
was discrimination based upon my “Religion.
Nationality. Color and Age” as described in my
multiple legal briefs to the EEOC, three lower
federal courts and to the Supreme Court of the
United States from 2008 to present.
12. Disability Determination Services (DPS)
Charles A. Jones, Director
Disability Determination Services (DDS)
Lansing, Michigan
Date of Hiring: Froml997
Date of Dismissal: August 2013 after offering my
service for 17 years as Disability Specialist.
677

Reason for Dismissal: Telling that Disability
Determination Services needs Higher Dimensions
. per the Vedic Wisdom of India for the Disability
Evaluations of the patients with mental and
physical disability and disorders as documented
in the (Exhibit H- 4) of the United States
District Court trial in February 2013.

List of the Dismissal. Expunging and Denial of
my Legal Cases by the State Court. Federal
Courts and the Supreme Court:
1. Judge Marianne 0. Battani
United States District Court
Eastern District of Michigan
Southern Division
Detroit, Michigan
Case Filed: 2010
Case was voluntarily Dismissed by me and
case was transferred to the United States
Bankruptcy Court in New York in 2010.
2. Robert E. Gerber, Judge
United States Bankruptcy Court
New York, New York
Case# Chapter 11 Case No.09-50026
Case Expunged dated September 27, 2012
3. J. P. Oetken, Judge
United States District Court
New York, New York
Case #12 Civ. 8783 (JPO)
Case: Affirmed and Dismissed on
June 3, 2013.
4. Panel of Three Circuit Judges
United States Court of Appeals for Second
Circuit, New York
Case# 13-2647-bK
Case Affirmed and Dismissed dated
678

5.

6.

7.

8.

May 19, 2014
Chief Judge Robert A. Katzmann
United States Court of Appeals for Second
Circuit, New York
Case # 13-2647-bk
Case dismissed dated July 10, 2014.
Rehearing En Banc
United States Court of Appeals for Second
Circuit, New York
Case # 13-2647-bk
Petition was denied dated July 11, 2014
Mandated Summary Order
United States Court of Appeals for Second
Circuit, New York
Case # Docket No: 13:2647
Petition was denied dated July 21, 2014.
Supreme Court of the United States.
Washington. D.C.
• Case # 14-830 Docketed on 1/15/2015
• Petition for a writ of Certiorari filed
on 10/7/2014 and Denied on
2/23/2015
• Supplemental brief filed on
2/16/2015 and
Denied on 2/23/2015
• Petition for Rehearing with Good
Will filed on 3/5/2015 and Denied on
4/6/2015

679

List of PEA Raid. Administrative Complaints:
Civil and Criminal Investigations from 2015 to
Present.
1. PEA Raid Abyssinia Pain Clinic
8/18/2015
Southfield, MI 48075
Voluntary Surrendering of DEA Lie.
Two DEA Agents demanded all
physicians (4 to 6) to surrendered their
DEA Licensure. Two physicians
including me voluntarily surrendered
the DEA Licensure.
2. DEA Forfeiture:
Civil Case No. 2:16-cv-10314
Forfeiture of $ 136,000.00
3. DEA Allegation # 53-140855:
DEA Investigator Vaughn Hafner

1/29/2016

5/13/2016

4. Criminal Case:
Abyssinia Love Knot l:16-cv-10314 6/16/2016
Four to six Physicians, Administrators and Managers of
this pain clinic involved in these legal cases.
5. Administrative Complaint# 53-16-140855:
• Sean Siebigteroth 1st Settlement Response
9/26/2016
• Sean Siebigteroth 2nd Settlement Response
11/25/2016
• Sean Siebigteroth
Settlement Response
12/08/2016
• Sean Siebigteroth 4^ Settlement Response
12/28/2016
6. AAG Andrew J. Hudson:
My Response to AG office
680

3/9/2017

7. ALJ Peter L. Plummer:
Pre-hearing Tele-Conference

3/14/2017

8. ALJ Peter L. Plummer: Case NO. 53-16-140855
Admin Complaint Dismissed Without Prejudice
3/24/2017
9. AAG Andrew J. Hudson:
Permanent Surrendering of DEA License
3/24/2017
10. ALJ Peter L. Plummer:
Request to Dismiss case with Prejudice
4/4/2017
11. Letter to NPDB:
Subject Statement and
Dispute Information
6/30/2017
Non-existence of Administrative Complaint
Case NO. 53-16-140855
12. AAG Andrew J. Hudson:
Letter to practice Medicine

5/17/2018

13. Intent for Criminal Instigation and
Grand Jury Trial
2/20/2019
Thomas J. Tynan Trial Attorney
US Attorney Office
Eastern District of Michigan
Final Note: I have spent approximately $ 250,000.00 plus
dollars and counting for the above-mentioned Legal Cases
so far including the Forfeiture money of $ 136,000.00 from
2008 to present.
End of the List
681

No: 14-830
Supreme Court of the United States

Atul C. Shah
Petitioner:

CERTIFICATE OF SERVICE

vs.

Motors Liquidation Company GUC Trust and
Modern Educational System
Respondents:

On Petition for an Extraordinary Writ to the
Supreme Court of the United States
(\

I, Atul C. Shah, hereby certify under penalty of perjury on October 2, 2020, that
I served a copy of the Petition for an Extraordinary Writ by Petitioner Atul C. Shah
on the following parties: Motors Liquidation Company, GUC Trust and Modern
Educational System via first class mail postage fully prepaid in care of their
attorneys at their address as disclosed in the pleadings.
Respectfully submitted,

Pro Se Petitioner
'

t

October 2, 2020 A ' .
}

.

■*

tv

AUSTIN KOSMATIN
Notary Public, State of Michigan
County of Macomb
My Commission Expires 11 -_22-2025
Acting in the

n

